<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012 
=======================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________

    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas           CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama           ADAM B. SCHIFF, California
 JO BONNER, Alabama                    MICHAEL M. HONDA, California
 STEVE AUSTRIA, Ohio                   JOSE E. SERRANO, New York
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas 

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Ringler, Stephanie Myers, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________

                                 PART 8
                                                                   Page
 National Aeronautics and Space Administration (NASA).............    1
 National Science Foundation......................................  143
 Office of Science and Technology Policy..........................  233

                                   S

                                ________
         Printed for the use of the Committee on Appropriations












PART 8--COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2012
                                                                      


















  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012
=======================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________

    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas           CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama           ADAM B. SCHIFF, California
 JO BONNER, Alabama                    MICHAEL M. HONDA, California
 STEVE AUSTRIA, Ohio                   JOSE E. SERRANO, New York
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas      

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Ringler, Stephanie Myers, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________

                                 PART 8
                                                                   Page
 National Aeronautics and Space Administration (NASA).............    1
 National Science Foundation......................................  143
 Office of Science and Technology Policy..........................  233

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 66-828                     WASHINGTON : 2011





















                          COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\        NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\          MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia              PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia               NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey  JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                     ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama          JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri             JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                   ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho            DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana               SAM FARR, California
 JOHN R. CARTER, Texas                JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana          CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California              STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                   SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
 TOM COLE, Oklahoma                   ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                  MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida           BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio
 CYNTHIA M. LUMMIS, Wyoming
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012

                              ----------                              

                                           Thursday, March 3, 2011.

          NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)

                                WITNESS

CHARLES F. BOLDEN, JR., ADMINISTRATOR

                    Chairman Wolf's Opening Remarks

    Mr. Wolf. Good morning. The hearing will come to order and 
the record will be open.
    We want to welcome everyone to today's hearing on the 
fiscal year 2012 budget request of the National Aeronautics and 
Space Administration.
    Our witness today is Major General Charles Bolden, the 
Administrator of NASA.
    We thank you for being here.
    Last night looking through all the material for the 
hearing, I reread your bio, and I just want to say I appreciate 
your distinguished service to the country. I notice your son is 
a Marine Corps aviator, and I want to thank you and thank him 
for the service. Thank you very much.
    Last year at this time, we were in the early stages of what 
turned out to be a very lengthy and contentious debate about 
the future direction of NASA's human spaceflight program. I 
think everyone was hoping that the enactment of the NASA 
authorization bill would put an end to the programmatic 
uncertainty and conclude the debate, but that really has not 
been the case.
    Instead the debate has shifted to whether NASA can 
effectively implement the direction provided by the 
authorization, and that places the budget squarely in the 
middle of the discussion. No amount of authorizing language can 
hold NASA to a particular goal or commitment if that language 
is not backed up by a budget that adequately funds those 
obligations.
    But fully funding everything that was authorized is not a 
feasible possibility in the current fiscal environment. We saw 
that on the CR the other day on the Weiner amendment, which cut 
from this committee I think it was 300 and some million 
dollars, whatever the exact number.
    And so when you look at those circumstances, you really 
cannot have everything.
    Instead, NASA will be forced to look across its programs 
and make some very hard choices. You have done that to some 
extent with your fiscal year 2012 request, which holds the NASA 
agency-wide total to its fiscal year 2010 level, more than $700 
million below the authorized amount. In order to work within 
that total, you have chosen to fund some programs significantly 
below previously projected levels.
    Congress has asked a lot of NASA and we need to seriously 
consider whether we can afford to simultaneously maintain our 
human exploration program, support the extension of the Space 
Station, continue with planned science missions, advance 
commercial spaceflight, and engage in NASA's many other 
activities.
    My disagreement with NASA comes in the decision making 
about what budgetary tradeoffs are necessary to make. Your 
request has chosen to sacrifice progress on the development of 
the Space Launch System and the Multi-Purpose Crew Vehicle. The 
levels in your budget for these activities virtually guarantee 
that NASA will not have core launch and crew capabilities in 
place by 2016.
    Our failure to meet that goal will further erode our 
international standing in human spaceflight, which I think is 
beginning to take place, eventually ceding our prominency to 
places like Russia, China, India, or others. That is just not 
an outcome that I think is really good for the country.
    I know these are complicated issues and we can spend a lot 
of time on them.
    And this, Mr. Bolden, is really not directed toward you. I 
think until this Administration, and the President step forward 
and deal with the fundamental important issues in the 
entitlements, whatever concerns will be expressed by you or 
anyone in the audience or anyone in the country about these 
budget cuts cannot really be solved.
    We are fundamentally trying to balance the budget on 15 to 
17 percent of the pie, maybe even less. The President put 
forward the Bowles-Simpson or Simpson-Bowles, whoever you want 
to put first, Commission. It had the support of Tom Coburn, who 
I have a great respect for and even more respect for after he 
voted for it, and Dick Durbin, who used to serve on this 
committee and who I have worked with over the years.
    Nobody will ever remember except Dick Durbin, because I 
remind him periodically, but I was the deciding vote on 
eliminating smoking on airplanes. And I remember my side and 
the tobacco industry went after me. Virginia was a big tobacco 
state. And so to Senator Durbin's credit, he also supported the 
Bowles-Simpson Commission.
    There was an editorial in the Washington Post yesterday by 
Ruth Marcus, who I read constantly, saying ``Where's Waldo'', 
meaning the President. We are waiting for the President to come 
forward. Leadership is doing what President Reagan did on the 
Social Security issue, or what President Clinton did coming 
forward to deal with the fundamental entitlement issues.
    There is a Simon and Garfunkel song called ``The Boxer'' 
that says, ``man hears what he wants to hear and disregards the 
rest.'' We cannot disregard this. Groups come in to see me and 
say, ``Mr. Wolf, you are cutting this.'' But I voted for the 
package that came out because we have to begin somewhere. We 
have got to deal with the entitlements.
    I appreciate your service to the county. I was very 
impressed when I actually read your bio. You never mentioned 
those things to me, and I just wanted to be totally prepared.
    The way to deal with this problem is to come together in a 
bipartisan way and link arms the way that Senators Durbin and 
Coburn and Chambliss and Mark Warner are doing. If we do not 
deal with the overall entitlement issue, and I speak now as a 
grandfather of 15 and father of five kids, fundamentally this 
Nation will begin to reach a tipping point.
    People are going to be concerned that we are cutting this, 
we are cutting that. But until we deal with the fundamental 
reality of the entitlements, we will never be able to resolve 
this issue.
    So you might tell the President, I do not even think he 
even knows who I am, but Mr. Wolf said, ``if you do not deal 
with these entitlement issues, no one can complain about the 
budget cuts on any area unless they then come forward and say 
what they are prepared to do.''
    I have said I am prepared to step forward and support the 
Bowles-Simpson Commission, although there are things in there 
that I do not like and I would attempt to change. But coming up 
for a vote up or down, I would be there with those who want to 
save this country by dealing with this fundamental issue.
    I will go to Mr. Fattah.

                Ranking Member Fattah's Opening Remarks

    Mr. Fattah. And let me thank the Chairman and thank him for 
his leadership and for this hearing, and welcome the 
Administrator.
    Later on this evening, the President is going to reach out 
by phone and speak to the crew of the Discovery and 
congratulate you and the staff at NASA for such a great 
achievement given Discovery's last mission.
    You know, the chairman has made some very courageous votes 
over his life here in the Congress and that is just one that he 
mentioned about ending smoking on airplanes. And I think that 
the President's decision to proceed with a Debt Commission was 
a courageous one. The report is one that I feel very favorably 
about, that if we could get it to a vote and, yes, you could 
tinker around the edges, but that we as a country do need to 
come to grips with this.
    The other thing is that the public has to come to grips 
with something, which is that we have to make investments and 
we have to make sacrifices. When NASA was created, the country 
was not doing as well as we are doing today, but we have made 
sacrifices for space exploration and NASA has been a beacon of 
hope for the country and has created a lot of aspirations among 
our young people in terms of math and science. And I think that 
we have to make sacrifices.
    In fact, when you look at whether the President's 
commission or whether you look at the majority CR, neither one 
of them cut NASA as much as the public would cut NASA if given 
a chance. And I think that those of us in a leadership position 
have to say that the public is wrong. That is to say that we as 
a country have to invest, and we invest in technology. And NASA 
can be and should be always the leading technology entity in 
the world.
    I want to tell you that in terms of the budget request, I 
am very happy to see that in Exploration, there is a 
significant increase. Your leadership of the agency in a whole 
host of areas has made a tremendous difference.
    And your bio is quite impressive. Your work at NASA is 
quite impressive, and the breakdown of the budget request in 
which we have the lion's share of the dollars in human 
spaceflight because I think that is the thing that excites the 
country.
    Obviously there is much more work that you do, and people 
in the Gulf Coast benefitted during the BP spill because of the 
work of NASA in being able to track where this oil was going. 
There are lives that probably were saved in Haiti because of 
the work in terms of what you do in terms of science. So there 
are a lot of great things that we can be proud of.
    I think those of us in the Congress have to speak 
forcefully on the need for our country to continue to invest in 
science. We, as the world's only superpower, have to invest in 
this area, plus we have others who want to join us in this 
ranking in terms of superpower who are making significant 
investments. And we cannot afford to be caught short. A lot of 
benefits here on earth have been created through the work of 
NASA in all range of activities, medical, science, and also in 
industrial activities.
    And so I am happy to have you. I look forward to your 
testimony. And I think that on a bipartisan basis, that you 
have both in the Chairman and myself and other Members of the 
committee a lot of support for the work that NASA is doing now 
and will do in the future.
    And the Administration has put forth a very aggressive 
program in terms of aiming our sights outside of Earth's orbit 
in terms of human flight. And I think it is a challenging 
mission, but I think that is what we should be doing. We should 
be challenging ourselves to develop the technology to move in 
even greater ways than we have to date.
    So thank you, and welcome.
    General Bolden. Thank you very much.
    Mr. Wolf. Thank you, Mr. Fattah.
    Administator Bolden, your full statement will appear in the 
record, but you can proceed as you see appropriate.

                Administrator Bolden's Opening Statement

    General Bolden. Thank you very much, Mr. Chairman----
    Chairman Wolf and Ranking Member Fattah and other Members 
of the committee. Let me, first of all, to the Chairman and 
Ranking Member, let me congratulate both of you on your new 
leadership roles, and I want to thank you both for all that you 
do as well as all the Members of the committee for the long-
standing support that all of you have given to NASA.
    As is obvious from both of your opening statements, we have 
a common passion for space exploration and the benefits it 
brings our Nation. As you take on new responsibilities, I look 
forward to our continuing work together in the same collegial 
fashion as we have done in the past.
    I would like to take just a moment to note the absence in 
the House in general of one of your colleagues, Congresswoman 
Gabrielle Giffords, who continues to undergo rehabilitation in 
Houston following the assassination attempt on her life. Not a 
day goes by that I personally do not think about and pray for 
Gabby. All of us in the NASA family continue to pray for her 
speedy and full recovery.
    Today it is my privilege to discuss the President's fiscal 
year 2012 budget request of $18.7 billion for NASA. Despite the 
President's commitment to fiscal constraint, I am pleased that 
we are proposing to hold funding at a level appropriated for 
2010 which, of course, continues to be our spending level under 
the Continuing Resolution.
    This budget request continues the agency's focus on a 
reinvigorated path of innovation and technological discovery 
leading to an array of challenging destinations and missions 
that engage the public.
    Mr. Chairman, you and other Members of the Committee--
Subcommittee should have a package of six charts that looks 
like this. I hope you do because I will be referring to them 
periodically. So, if there is anybody who does not and would 
like to get one, I think we may--it just does not have that 
cover on it. And the cover is not important at all anyway, so I 
will hold them up as we get there.
    The Authorization Act of 2010 gave NASA a clear direction. 
We are moving forward to implement the details of that act with 
this fiscal year 2012 budget. The President's budget for NASA 
funds all major elements of the Act while supporting a diverse 
portfolio of key programs.
    Because these are tough fiscal times, we also had to make 
some difficult choices. Reductions were necessary in some 
areas, so we can invest in the future while living within our 
means.
    This budget maintains a strong commitment to human 
spaceflight and the development of new technologies. It invests 
in the excellent science, aeronautics research, and education 
programs that will help us win the future. It carries over 
programs of innovation to support long-term job growth and a 
dynamic economy that will help us out-innovate, out-educate, 
and out-build all others in the world.
    Along with our budget proposal last week, we published our 
2011 Strategic Plan, and hopefully, that has been made 
available to everyone. If not, we can get you that.
    NASA's core mission remains unchanged. It is the same as it 
was at our inception in 1958, and this mission supports our 
vision that is in the Strategic Plan, which essentially says to 
reach for new heights and reveal the unknown, so that what we 
do and learn will benefit all humankind.
    Just this past week, we launched STS-133 on the Shuttle 
Discovery, one of the final three Shuttle flights to the ISS. 
Along with supplies that will support the Station's scientific 
research and technology demonstrations, Discovery is delivering 
a robotic crew member, Robonaut 2 or R2.
    The Glory Earth Science Mission will launch from California 
this week, tomorrow morning as a matter of fact, on a mission 
to help us better understand Earth and its atmosphere and the 
variables affecting our climate.
    Our Space Program continues to venture in ways that will 
have long-term benefits and there are many more milestones in 
the very near term.
    Yesterday, in fact, it was the day before yesterday, we 
announced three new program offices to carry out future work. 
NASA brings good jobs and bolsters the economy in communities 
across the Nation.
    I do not think you have the overall budget chart, so I am 
going to skip that. You know what it is because it was 
presented to everyone when I rolled it out, but it breaks down 
the $18.7 billion, but it provides the scope of our activity in 
the year 2012.
    Our priorities in human spaceflight in the fiscal year 2012 
budget request are to maintain safe access for American 
astronauts to low Earth orbit as we fully utilize the 
International Space Station; to facilitate safe, reliable, and 
cost-effective U.S.-provided commercial access to low Earth 
orbit for American astronauts and their supplies as soon as 
possible; to begin to lay the groundwork for expanding human 
presence into deep space, the Moon, asteroids, and eventually 
Mars through the development of a powerful evolvable heavy-lift 
rocket and multipurpose crew capsule; and to pursue technology 
development to carry humans farther into the solar system.
    These initiatives will enable NASA to retain its position 
as a leader in space exploration for generations to come. At 
the same time in our other endeavors, our priorities are to 
extend our reach with robots and scientific observatories, to 
learn more about our home planet and the solar system, and to 
peer beyond it to the origins of the universe; pursue 
groundbreaking research in the next generation of aviation 
technologies; and carry out dynamic education programs that 
help develop the next generation of science, technology, 
engineering, and mathematics professionals. That's a lot, but 
NASA thrives on doing big things. We have vastly increased 
human knowledge and our discoveries and technologies have 
improved life here on Earth.
    There has been some concern that NASA is abandoning human 
spaceflight. This simply is not true. I think you all do have a 
copy of our charts that look like this but show you a pie.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    General Bolden. The reason I give you these few charts is 
that it will show you that contrary to what is conventional 
wisdom, human spaceflight in this budget constitutes a 
significant portion. It is 44 percent of NASA's proposed 
budget.
    If you take the chunk out that deals with what it costs me 
to operate NASA's centers and do other things, human 
spaceflight represents an even larger piece, and it is actually 
57 percent of NASA's budget. So I would say that I would not 
call that shrinking away from human spaceflight when over 50 
percent of the budget is going to human spaceflight.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    General Bolden. The final chart that I hope you all have is 
one that just takes human spaceflight, and it breaks it down 
into where that money is being spent. We devote some resources 
to closing out the Space Shuttle as you will see in this very 
small chunk. As the centerpiece of human spaceflight and the 
critical anchor for our future deep space exploration, the 
International Space Station actually gets the largest portion 
of funds at about 40 percent. The next generation of vehicles, 
the evolvable heavy-lift rocket and the Multi-Purpose Crew 
Vehicle received 39 percent of human spaceflight budget.
    Our continuing efforts to facilitate commercial access to 
space received a significant boost in this budget; however, 
that still represents the second smallest piece of the human 
spaceflight pie, at about 12 percent.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    General Bolden. I want to commend my NASA workforce both 
civil servants and contractors across the Nation for their 
dedication to our missions during this time of transition and 
change. These workers are our greatest assets, and they make us 
proud. They fully understand the risk of exploration and 
welcome the challenge. They will be the ones making tomorrow 
happen.
    These are exciting and dynamic times for us at NASA. The 
challenges ahead are significant, but so are our opportunities. 
We have to achieve big things that will create a measurable 
impact on our economy, our world, and our way of life.
    I thank you for allowing me to make my opening statement 
and I look forward to your questions, Mr. Chairman.
    [The information follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                MATCHING NASA'S MISSIONS WITH ITS BUDGET

    Mr. Wolf. Thank you, Mr. Administrator.
    In the current fiscal environment, we will have to consider 
the possibility that NASA has too many missions for the amount 
of money that is available. If we continue to divide a 
relatively static NASA budget between an ever increasing number 
of programs, we will just perhaps ensure that there is not 
enough money to execute any of these programs.
    Do you agree with that assessment?
    General Bolden. Mr. Chairman, these are tough times. And we 
have had to make tough choices and the FY 2012 budget that the 
President and I have submitted reflects those tough choices. So 
I think we have submitted a budget that will allow us to carry 
out the programs that the Congress and the President have asked 
us to do.
    Mr. Wolf. If we were to take another look at NASA's various 
programs and responsibilities with the intention of reducing or 
deferring some of the lower priority activities, where would 
you recommend that we start?
    General Bolden. Mr. Chairman, because I think we have taken 
a very thorough look at where we stand under the Continuing 
Resolution of the FY 2010 spending level and that the 
President's Budget for FY 2012 essentially represents a 
continuation of that Continuing Resolution with some 
adjustments, I would not propose any cuts.
    Mr. Wolf. How about moving money around?
    General Bolden. Mr. Chairman, we did move some money. We 
propose moving some money around because of priorities, 
readjusting priorities. When the President submitted his FY 
2011 budget, the world was different. Our fiscal situation was 
different. I don't think any of us in this room thought it was 
different, but everybody came to, I hope everyone came to the 
realization that we are in dire straits as a Nation 
economically, and so what we did with developing the FY 2012 
budget was we looked at what our priorities are.
    My number one priority is safely flying out the Shuttle 
right now. Very close to that is providing for safe access to 
the International Space Station over the next 10 years because 
the President and the leaders of all of our international 
partners have agreed that the International Space Station as 
the anchor for human exploration should be on orbit for another 
10 years, and in order to maintain the Space Station as we 
operate it today, I have to be able to get cargo and crew 
there.
    Because the Shuttle will stop flying in June, the only way 
that I will have until I can bring aboard a commercial access 
to Low-Earth Orbit for crew will be the Russians. They are an 
incredibly reliable partner, but I do not think anybody in this 
room wants to go for the next 10 years having to rely on Russia 
to take American astronauts to orbit.
    So we made an adjustment in the balance within the FY 2010 
budget. We complied with the elements of the 2010 Authorization 
Act, but I took a look at it with the people that I really 
respect in my agency, and we decided that in order to ensure 
that we would have a commercial capability for both cargo and 
crew as early as possible, I needed to put a little bit more 
funds in there than was in the Authorization Act. That is how 
we got to the $850 million for 2012 and subsequent years. That 
is far lower than what we originally needed and still believe 
we need to be certain that we will bring this program on board, 
but we think we can make that work.

                   DUPLICATION AMONG FEDERAL AGENCIES

    Mr. Wolf. I believe your Earth science programs support 
valuable work, but I am concerned that we are consuming a 
significant portion of the budget to fund those activities when 
other agencies have sufficient authorities and abilities to do 
some of the same things.
    Do you believe there are activities currently funded in 
Earth science that could be adequately performed instead by 
NOAA or USGS or the National Science Foundation or entities 
that they fund? For projects that support those other agencies' 
missions but still require NASA's assistance, could they or 
should they contribute more funds toward NASA's expenses in 
order to free up NASA's resources for its own unique 
activities?
    General Bolden. Mr. Chairman, because these are such 
difficult times, we took a look at where we were in all aspects 
of our budget. Everything that we do in Earth science is unique 
to NASA. We have looked and there is no duplication across 
agencies. Everything that we do with weather, for example, we 
manage programs that use weather satellites under NOAA's budget 
that then we take to orbit, make sure that they are operating, 
and we turn them over to NOAA.
    So when I look at our budget, I do not think there is 
duplication.
    My concern about allowing other people to take the Earth 
science projects that NASA does is that money will not go with 
that, and so the requirements that go with those projects will 
not be able to be met.
    It is just like giving me operational control of NOAA 
projects. If I do not get money, that means those projects do 
not get done. So moving projects back and forth among Federal 
agencies where there is presently no duplication does not 
represent a solution. What it represents is just another way to 
get rid of some of the critical programs that we have in Earth 
science right now.
    Mr. Wolf. Well, I do not agree with you there. I think it 
would allow you to have more money to go and do what you are 
doing.
    I heard the other day that Senator Coburn and I think 
Senator Durbin had asked for an in-depth GAO analysis. The 
first initial report came out and identified duplications, I 
think, of $200 billion.
    Are you part of that report? For instance, GAO said there 
are so many manpower training programs. I forget how many, and 
I am not going to guess because I may be inaccurate. Is GAO 
looking at NASA? Are you part of the Coburn request to see if 
there is duplication?
    General Bolden. Mr. Chairman, we are a part of all the GAO 
studies. Actually, I understand what you are saying, and there 
was a previous GAO study and I will take it for the record to 
bring you the exact--I do not think they gave any statistics, 
but there was a definitive GAO study done on whether there were 
duplications between NOAA and NASA, and that study said they 
found no duplications between NOAA and NASA in the Earth 
science work that we do and the climate research that we do and 
the weather research that we do. The study that I think you 
refer to for Senator Coburn, and I was not aware that that was 
at his request----
    Mr. Wolf. Yes.
    General Bolden [continuing]. But I have seen that one as 
recently as this past week.
    Mr. Wolf. Right.
    General Bolden. That one dealt with education, everything 
across the spectrum of government, and I would agree that there 
is duplication.
    Mr. Wolf. Is NOAA part of that report?
    General Bolden. NOAA and everything were a part of that, 
but GAO had previously said that there was no duplication 
between NASA and NOAA in our Earth science efforts.
    Mr. Wolf. Okay.
    General Bolden. There is no duplication between NASA and 
the U.S. Geological Survey in our Earth science programs. We do 
the satellites. We do the program management for development of 
the satellites and NOAA and the USGS, we recently signed a 
memorandum of agreement with USGS for them to take over 
Landsat. We do not spend any money on Landsat other than the 
administrative cost of managing the program of developing, 
building, and testing the Landsat satellite to make sure that 
it is okay before we hand it over to USGS. So I do not think 
there is any duplication, but I will take it for the record.
    Mr. Wolf. Well, if you can. Maybe the staff can contact 
Senator Coburn's office to see what the range of the GAO study 
is. And they indicated that there were further reports about 
ready to release, so we should see if NASA was part of that.
    The report that you referenced, what was the date of that?
    General Bolden. Congressman, I think that was a 2000----let 
me take it for the record. I think it was a----
    Mr. Wolf. Sure.
    General Bolden [continuing]. 2009 GAO study, but I will 
have to----
    Mr. Wolf. Okay. Why don't you submit it for the record.
    General Bolden. I will do that.
    [The information follows:]
                 duplication in earth science portfolio
    In 2009, the GAO conducted a study to ``determine whether NASA's 
programs . . . are duplicative with other activities of the federal 
government.'' [GAO-10-87R, Oct. 15, 2009] The GAO study reported ``No 
Duplication Found in Earth Science Portfolio'' and ``NASA provides a 
unique role in Earth Science that is leveraged by other federal 
agencies.''
    NASA carefully informs and coordinates its Earth Science programs 
with NOAA and USGS both through regular bilateral meetings and through 
interagency coordinating groups such as the US Global Change Research 
program. NASA is vice-chair of USGCRP with responsibility for 
integrated observations. Broadly speaking, NASA conducts leading-edge 
research in Earth system science including climate change, while NOAA 
is working to expand its weather prediction capability to climate time 
scales and USGS is working to understand land surface change (including 
water and biota).
    NASA and NOAA coordinate their weather and climate activities via 
regular meetings between NASA's Earth Science Division and NOAA's 
National Environmental Satellite Data and Information Services (NESDIS) 
office, including development of research to operations transition 
plans. NASA's Joint Agency Satellite Division oversees NASA efforts to 
develop and launch NOAA's satellites on a reimbursable basis. NASA and 
USGS coordinate their land surface change research activities at the 
analogous level, and NASA's Joint Agency Satellite Division is working 
with USGS as the latter assumes the lead role for the Landsat program.

    Mr. Wolf. And then we ask the staff to be in touch with GAO 
and also with Mr. Coburn's office to see if NASA or NOAA or 
USGS were a part of that. We are not looking to take away. We 
are looking to see if there is a function of yours that someone 
else can do, not to take your money away, but to allow you to 
have more money to do what you think is important.
    General Bolden. Congressman, if I can----
    Mr. Wolf. Sure.
    General Bolden. Just for Mr. Ringler, I think it is GAO 10-
87R dated 15 October 2009. So that was the one specifically 
dealing with duplication between NASA and NOAA.

                        NEW EXPLORATION PROGRAM

    Mr. Wolf. Okay. One other question, and then I will go to 
Mr. Fattah.
    When the NASA authorization was signed last year, the 
Administration assured us that it would fully implement the new 
exploration program. Only five months later, however, NASA is 
proposing to fund the new exploration program more than $1.2 
billion below its authorized level.
    How do your reconcile your stated commitment to the program 
with the budget request?
    General Bolden. Congressman, we have made an effort to stay 
within the budget as defined by the Authorization Act and the 
fact that we are operating under the 2010 funding level and 
expect that we will not be operating anywhere above that.
    Again, safety to crews is critical, particularly safety of 
the crews on the International Space Station. So it required me 
to look at how I felt I could balance the portfolio in human 
spaceflight to continue the development of a viable, a 
realistic deep space exploration program while not putting at 
risk America's access to Low-Earth Orbit and the International 
Space Station in the time that I need that.
    I need for commercial entities to be able to deliver cargo 
to the International Space Station by 2012. They are on target 
to do that right now. I have enough supplies on the 
International Space Station. Provided we successfully get the 
next two Space Shuttle missions off, we can go through 2013 and 
if, you know, if for some reasons, the commercial entities did 
not deliver, we would be okay.
    I then need to get crew there and I want to get the crew on 
American-made rockets. I do not want to have to take them to 
the International Space Station on Soyuz through the life of 
the International Space Station through 2020. And so I think 
that by 2015, 2016, we will have active operating commercial 
entities that will be taking crews to the International Space 
Station. That is quicker than I could have gotten there had I 
done it the old NASA way.
    Mr. Wolf. Okay.
    General Bolden. So we are putting forth a genuine effort to 
produce a heavy-lift launch vehicle.

                         90-DAY PROGRESS REPORT

    Mr. Wolf. In the 90-day progress report on the 
implementation of the authorized exploration program, NASA 
stated that it might not be able to meet the goals of the 
authorization within the schedule and budget parameters 
established in that bill.
    You did not provide, however, an estimate of what you 
believe would be necessary. Using your standard budget and 
schedule estimating procedures, what does NASA believe will be 
needed to implement the authorization, and how does that 
compare to the budget plan put forward in your request?
    General Bolden. Congressman, because the authorization was 
below the level that the President had proposed in his FY2011 
budget and because we all realize that fiscal times have 
changed and we have got to live within our means, we decided 
that we would take a look at two things. One, can I transition 
existing Constellation contracts to the new MPCV and Space 
Launch vehicle; that is a legal and procurement question. I am 
pretty close to being satisfied that, yes, we can do that with 
maybe some limitations.
    The second thing I had to determine, okay, if I can do 
that, is it affordable and is it sustainable. I could do it and 
get a vehicle the first time out, but then I have shot 
everything I have, and I cannot produce a second, third, 
fourth. I cannot produce a sustainable exploration program.
    So I want to give you a realistic program that is 
affordable and sustainable, and that answer, we will have for 
the Congress this summer sometime.
    Mr. Wolf. Mr. Fattah.

                 ADMINISTRATOR BOLDEN'S ACCOMPLISHMENTS

    Mr. Fattah. Thank you, Administrator. Let me join the 
Chairman in thanking you for your significant service to our 
country.
    You flew over a hundred combat missions in Vietnam?
    General Bolden. Yes, sir.
    Mr. Fattah. You led our Marines into Kuwait as the 
commanding general?
    General Bolden. I did not do that, sir. I served with 
Marines in Kuwait between the two wars. I was happily flying 
space shuttles when my fellow Marine generals led our troops 
from Kuwait into Iraq in the Gulf War. I did not serve in the 
Gulf War.
    Mr. Fattah. Okay. But on the Marine Corps side, you were in 
the astronaut office?
    General Bolden. Yes, sir.
    Mr. Fattah. And you were on the mission that launched the 
Hubble?
    General Bolden. Yes, sir. Yes, sir.
    Mr. Fattah. So I just wanted to put those on the record 
because the Chairman had referred to your great bio, so I took 
a minute to take a look at it.
    General Bolden. Sir, that is all history.
    Mr. Fattah. I got you. But history is important for us to 
reflect on.
    I saw your appearance yesterday before the authorizing 
committee. And I could imagine that that was somewhat of a--
reminded you of some of your previous duties, I guess, in some 
respects. So it is challenging to come up here to the Hill----
    General Bolden. Yes, sir.
    Mr. Fattah [continuing]. And deal with the various 
committees of jurisdiction. Our committee has responsibility 
for money.
    General Bolden. Sir, if I did not believe in what I am 
doing, I would be back in Houston.

        IMPLEMENTING THE AUTHORIZATION UNDER THE BUDGET REQUEST

    Mr. Fattah. I understand. Our committee deals with money. 
The authorizing committee deals with the authorizing issues. 
And the Congress has passed an authorization bill that allows 
you to move forward on the President's new missions for NASA.
    General Bolden. Yes, sir.
    Mr. Fattah. So the Congress has sanctioned the fact that we 
are going to now work towards human spaceflight and to space 
outside of Earth's orbit. And that is going to be a challenging 
moment. That is why you put together a set of programs to move 
in that direction.
    Also, the Administration and the President and NASA have 
decided that you want to believe enough in American business to 
commercialize crew missions back and forth to the Space 
Station.
    General Bolden. Yes, sir.
    Mr. Fattah. That is correct?
    General Bolden. Yes, sir.
    Mr. Fattah. And so this Commercial Crew Program is a belief 
in American business that we could take what NASA has been 
doing for decades now.
    General Bolden. That is a firm belief that American 
industry can do what I have been doing.
    Mr. Fattah. Right. The Shuttle mission is almost 300 
flights, right, and you have 133 right now?
    General Bolden. Right.
    Mr. Fattah. But that is still a lot.
    General Bolden. Yes, sir.
    Mr. Fattah. Now, you were retired, though, and moved in 
this commercial area, right?
    General Bolden. Yes, sir.
    Mr. Fattah. So the work that you see and the budget that 
you are presenting for next year would follow the path of what 
has been authorized by the Congress, the work that Senator 
Nelson and the authorizing committees did to come to an 
agreement to move forward.
    And this reflects your best judgment about what the cost 
would be?
    General Bolden. Sir, it does.
    Mr. Fattah. All right. Now, as we grapple with the 
allocation, because I think absent such a limited allocation, 
you would have broad-based support on this committee to do 
everything we could to help you move forward, the Chairman is 
interested and I am interested in where there may be 
opportunities to delineate more clearly missions between NASA 
and, for instance, NOAA, and whether or not, particularly in 
the satellite area, there is some area to--and, you know, since 
you are operating in space all the time, I mean, you got a 
Shuttle mission up today, you got a launch tomorrow with--is it 
Glory?
    General Bolden. It is Glory, yes, sir.
    Mr. Fattah. Right. And you still have, on Mars, Opportunity 
and Spirit moving around. You have a lot going on in space, 
that space-related things might be better suited at NASA, so 
that is the real question around I think what the Chairman was 
asking about satellites, because I agree that we want to look 
to see whether there is some synergy. We are not trying to 
weaken NASA or NOAA. We are just trying to see.
    And for me, it is not a matter of saving money. I mean, it 
is really a matter of just trying to organize the government 
better because I think if we have to spend more money to have a 
superior scientific advantage in this world, we, as Members of 
Congress, we should be prepared to do that, that this idea that 
we are going to lead this world on the cheap, I think is a 
foolish notion anyway and that our ancestors and forebearers 
did not operate on that notion. They sacrificed.
    So, needless to say, this is the area that we are 
interested in, and it is not a punitive matter between NOAA and 
NASA. We want to look and see what makes sense----
    General Bolden. Yes, sir.
    Mr. Fattah [continuing]. And, you know, see whether or not 
there is some way to proceed. So if you would help us in that 
quest. You know, it is that exploration that we are involved 
in, and we want to learn and see how we can go forward.
    Thank you.
    General Bolden. Yes, sir. Thank you very much, sir.
    Mr. Wolf. Thank you, Mr. Fattah.
    And just for the record, I do not want to be unfair to 
anyone. We try to go according to how people come in but we 
will go to seniority if Members came in together.
    Secondly, I kind of made a decision--and if Members would 
rather me not do it, I would like to hear from you--of not 
limiting any Member on the time that they ask questions.
    I served on one committee once where they had a timer, an 
egg timer. And I felt that the witness knew the egg timer was 
there and could see it and felt ``if I can keep talking, I can 
rope-a-dope this thing so nobody has to answer anything.''
    I apologize to Mr. Yoder because we did not get to you the 
last time, two times ago, but I think it is better that any 
Member can just follow wherever their heart takes them while 
still showing respect for other Members.
    So we are trying to call people based on how they come in. 
If it is really close, we would go to seniority. I know Mr. 
Bonner chairs a committee, Mr. Culberson does, and we have 
ranking members on different committees, so we want to be sure 
that the witness cannot just take up the Member's whole time. 
So that is sort of the reasons we are doing this. And if there 
is a difference of opinion, somebody could just say something 
to me.
    Mr. Culberson.

                         CHINESE SPACE PROGRAM

    Mr. Culberson. Thank you very much, Mr. Chairman.
    Mr. Bolden, we are really glad you are there, sir, and 
appreciate your service to the country, both in our military 
and in the Space Program.
    And this committee is arm in arm in ensuring that we 
support NASA and do everything we can to ensure that you are 
able to continue to keep the United States Space Program on the 
cutting edge of the world and a world leader, particularly in 
an era when the Chinese are so aggressively moving to overtake 
us in space exploration, and in so many other ways; and 
becoming our banker.
    The joint operating environment analysis prepared by the 
U.S. Joint Forces Command, and I know this will resonate with 
the chairman, that America's greatest strategic threat is our 
national debt and deficit spending. It is the greatest single 
long-term strategic threat to the Nation.
    They also get into a detailed analysis of the Chinese and 
point out that the Chinese have--the People's Liberation Army 
has more students in American graduate schools than the U.S. 
Military.
    Given that the Chinese are growing in understanding of 
America and our military, the Chinese are following their long-
standing rule that if you know the enemy and know yourself, in 
a hundred battles, you will never be in peril.
    The Chinese have, according to the--again, this is the most 
recent analysis for looking out into the future by the U.S. 
Joint Forces Command--that the Chinese have a sense that in 
certain areas such as submarine warfare, space, and cyber 
warfare, China can compete on a near equal footing with 
America. Indeed competing in these areas, space, submarine 
warfare, and cyber in particular seems to be a primary goal and 
the force development of the People's Liberation Army.
    And, of course, as our chairman has pointed out many times, 
this committee is going to drive home the point that the entire 
Chinese Space Program is owned lock, stock, and barrel and 
controlled by the People's Liberation Army.
    And I know the chairman has expressed grave concern and I 
know the committee is concerned. And I want to reiterate our 
concern, Administrator, that NASA not cooperate, it is not 
authorized by law, it was stringently opposed, this committee, 
in any shape, form, or fashion with the Chinese Space Program 
because it is owned lock, stock, and barrel, controlled by the 
People's Liberation Army.
    And they are so aggressively working to steal technology, 
break into our computer systems. It is a real source of 
concern. And we are graduating I think a tenth of the 
engineers, Mr. Chairman, and scientists? The Chinese have 
vastly more engineers and scientists working on their Space 
Program than we do, sir.
    And you are as vital a part of America's long-term 
strategic security as, in my opinion, any of the work that is 
being done, for the long-term, that is being done in the 
Pentagon. And God bless them, but you and I think NASA, all of 
us should think of NASA as a part of national defense, as a 
great strategic asset the Nation enjoys and needs to protect. 
And I know the chairman feels that way and you have got our 
strong support.

          NASA'S FUNDING CHALLENGES PRIOR TO THE AUTHORIZATION

    However, this is often forgotten: you started out with an 
immediate disadvantage as soon as you came in because the Bush 
administration never fully funded the vision for space 
exploration, did they, sir?
    General Bolden. No, sir, they did not.
    Mr. Culberson. And NASA is self-insured, of course, right? 
NASA is self-insured for all intents and purposes, so the 
terrible loss of the Challenger and the irreplaceable loss of 
the astronauts in the 1986 disaster, that Congress did not 
appropriate funds to replace the spacecraft, correct?
    General Bolden. Yes, sir.
    Mr. Culberson. And in the terrible 2003 loss of Columbia 
and, again, the irreplaceable loss of the astronauts, no way to 
measure that, but Congress did not appropriate any funds to 
compensate NASA either to buy a new vehicle or to compensate 
NASA for all the hundreds and hundreds and hundreds of millions 
of dollars that were lost as a result of Columbia? You were 
never compensated for the loss of Columbia financially?
    General Bolden. Congressman, I would have to take that for 
the record. I was not in the agency at the time. I was working 
on the periphery, but I think your assessment is correct. But I 
would have to take that for the record.
    [The information follows:]
                 nasa compensation for loss of columbia
    NASA was never compensated for the loss of Columbia and the 
resulting cost for the Space Shuttle Return to Flight (RTF) effort. 
Prior to Return to Flight in 2006, over $1.2B of Space Shuttle funding 
was reallocated to cover RTF costs from funds that would normally have 
been spent on Space Shuttle operations (the Shuttle was not flying), 
Space Shuttle program reserves (intended to cover Shuttle 
contingencies), and the Space Shuttle Service Life Extension Program 
(no longer needed given Shuttle retirement). Another $930M was 
reallocated from other NASA programs--primarily Exploration and 
International Space Station--in FY 2004, FY 2005 and FY 2006, to also 
address RTF costs.
    The only monies specifically appropriated to NASA by Congress for 
the loss of Columbia was $100M in FY 2003 specifically to respond to 
the Columbia accident investigation and recovery.

    Mr. Culberson. And I know my friend from Mississippi, you 
were never paid for all that hurricane damage, right, Jo?
    Mr. Bonner. But I am from Alabama.
    Mr. Culberson. I am sorry. I am sorry. Isn't that terrible? 
Texans are just awful. I mean, if it is north of--isn't that 
awful? Isn't that terrible? I really apologize, Jo. Awful. I 
mean, because north of Red River, east of the Sabine, we just 
lose track. It is terrible. I apologize seriously.
    But NASA was never compensated, all the facilities that 
were damaged by the hurricanes, you were never fully 
compensated, I think, for that either, right?
    Mr. Bonner. I think you are right. And I think there was 
damage that we were not compensated for.
    Mr. Culberson. Massive damage. So in addition to not fully 
funding the vision for space exploration, which--and I think 
Scott, if you give me--this is the same chart that Sean O'Keefe 
did.
    Mr. Chairman, I want to make sure you all get a copy of 
this. This is essentially a sand chart that I know Sean O'Keefe 
prepared at the time the vision first was laid out that showed 
what was necessary in order to maintain not only the vision for 
space exploration, but to keep the american space program on 
the cutting edge for the world. And the, again, lack of full 
funding, loss of the Columbia, and the hurricane damage put you 
seriously behind the eight ball.
    Now we move into the Obama administration and we are 
entering this new era, an age of austerity unlike anything we 
have ever experienced before. And Chairman Wolf has quite 
properly, and I admire him and support him strongly in his 
focus on the urgent need to reform our entitlement programs to 
deal with the urgent threat caused by the national debt, and 
the deficit.
    The chairman of the Joint Chiefs of Staff has testified, 
when asked by the Senate, what is the greatest threat to the 
United States' long-term strategic security, he says the 
national debt.
    So you have got all these difficulties you are going to 
deal with and we are going to do our very, very best to help 
you, sir, and the request that you have made. And the President 
has asked to freeze NASA. You have not reached the authorized 
level of funding in the authorization bill.

   CONFLICT BETWEEN PRIOR APPROPRIATIONS BILLS AND THE AUTHORIZATION

    One thing I know that we could do right out of the gate to 
help you would be to clarify immediately the conflict between 
the CR that we are under, which is the one passed under--when 
we were here all together under Chairman Mollohan, which says 
that you shall build Constellation, as I recall, essentially 
statutory language to that effect, right, or am I just--it's a 
prohibitive determination of Constellation.
    And while we are under these CRs it is a continuation of 
that essentially statutory, it is in the statute, I think, 
requirement the--and then you have got the authorization bill 
which says build a heavy-lift rocket and a manned capsule.
    One thing I hope we can do to one of these short-term CRs 
we are dealing with is get you some immediate clarification on 
what that would be--that would be helpful, wouldn't it?
    General Bolden. That would be very helpful----
    Mr. Culberson. That would be a big help.
    General Bolden [continuing]. Congressman.
    Mr. Culberson. And the work that you are doing on--I swear 
I will try to wrap this up. You guys are very gracious.
    Mr. Wolf. Take your time.
    Mr. Culberson. You are very kind. And we are all going in 
the same direction on this, guys.
    Mr. Honda. Probably.
    Mr. Culberson. Yeah. Mr. Honda wants to clarify that. I do 
not want to get him in trouble with his folks back home. But we 
are all arm-in-arm in supporting NASA.
    So if we get you some clarification on that right away so 
that you can comply with the authorization bill which says that 
you are to build a heavy-lift rocket, a manned capsule, and 
test it, right, is essentially----
    General Bolden. The Authorization Act does not require me 
to test. And I will take it for the record, but that is the 
first I have heard that the authorization bill required me to 
fly a test flight on a Heavy-Lift Launch Vehicle. It stands to 
reason----
    Mr. Culberson. Well, sure.
    General Bolden [continuing]. That is what we would want to 
do, but I am trying to be very----
    Mr. Culberson. I understand.
    General Bolden. I will take it for the record, and we will 
come back and let you know if there is a requirement for me to 
fly a test flight, that adds more money. To go to the 
chairman's point, my hope is that I will be allowed to develop 
a heavy-lift launch system and an MPCV and then make the 
decision as to whether we need to fly a test flight or what. 
Otherwise, you have added another cost on top of what is 
already difficult.
    [The information follows:]
                test flight of space launch system (sls)
    The NASA Authorization Act of 2010 does not require NASA to perform 
a test flight of the Space Launch System (SLS) prior to flying crew on 
the launch vehicle. NASA is still in the early stages of formulating 
the SLS program and as part of that process will determine the 
appropriate ground and flight tests to perform to validate the systems 
performance. The tests will depend on the architecture and systems 
selected for the SLS.

    Mr. Culberson. Well, if it is not a statutory requirement, 
I know that when the bill was written, because we all 
participated in that and discussed it, that it would be common 
sense that you are not going to put human beings on a rocket 
without testing it.
    General Bolden. Sir, it is----
    Mr. Culberson. You all are going to do it.
    General Bolden. We did not fly a test flight on the 
Shuttle.
    Mr. Culberson. That is true. I remember reading about----
    General Bolden. Sometimes you have to accept risk. What I 
have tried to tell everybody is the Nation is averse to risk.
    Mr. Culberson. Yeah.
    General Bolden. The American public, going back to what 
Congressman Fattah said, it is incumbent upon me as the NASA 
Administrator to help the American public understand risk, and 
that if we want to remain the greatest Nation in the world and 
the technological leader in the world, then we have to do some 
things differently than we have done before, and that means we 
have to accept risk, which means we----
    Mr. Culberson. That is true.
    General Bolden [continuing]. Have to think like we thought 
when we launched the first Shuttle.
    Mr. Culberson. That is true.
    General Bolden. Challenger changed everything. We would 
have never flown STS-1 again after Challenger.
    Mr. Culberson. Right. I remember a visit with John Young 
and he said--I remember him telling me that. But to also drive 
home a point that you just made, I remember President Bush 
saying on many, many occasions America has become risk averse. 
And it is----
    General Bolden. But that is the Nation. That is NASA.

                         COMMERCIAL SPACEFLIGHT

    Mr. Culberson. I understand. Let me pass the microphone on 
to my colleagues by asking about the amount of money that we 
are spending on commercial which all of us, and certainly I as 
a free market Jeffersonian conservative, support the idea of 
the commercial sector getting us to low earth orbit.
    What percentage of the cost, for example, as envisioned by 
the budget request and the direction that the President is 
asking you to go, what percentage of the cost of a typical 
commercial flight will be paid for by U.S. taxpayers, 50 
percent, 60 percent?
    General Bolden. When we get to commercial crew or now 
presently under the COTS Program or----
    Mr. Fattah. When we get to commercial crew.
    Mr. Culberson. Yeah.
    General Bolden. When we get to commercial crew, I will have 
to again----
    Mr. Culberson. Ballpark, just ballpark.
    General Bolden. I cannot give you a ballpark figure because 
we have not gotten to the point where I will be this spring 
when I have a formalized acquisition strategy performed.
    Mr. Culberson. Okay.
    General Bolden. And then we can give you that answer.
    Mr. Culberson. Okay.
    General Bolden. Today I do not know that.
    Mr. Culberson. I will follow-up on this in my second round, 
but I am deeply concerned at the dramatic increase in the level 
of funding for commercial spaceflight, I mean, from 39 to 612 
is authorized and you got $850 million in this year's request, 
yet you just told the chairman and just reiterated that you 
cannot even afford a test flight and you do not even know if 
you have got enough to even sustain a heavy-lift rocket. So it 
is a real source of concern.
    And, also, secondly, the President I understand is going to 
make a request, make an announcement sometime in Florida that I 
understand is--he is going to announce that they are going to 
try to move all the manned spaceflight preparation for 
commercial to Kennedy when all of that infrastructure exists in 
the Johnson Space Center, along with all the expertise.
    General Bolden. I think there is a misunderstanding of the 
commercial crew program office at the Kennedy Space Center and 
where we train astronauts. That will not change. Astronauts 
will still live, train, work in Houston, go to wherever the 
vehicles happen to be, whether it is Vandenberg Air Force Base 
or Cape Canaveral or the Kennedy Space Center.
    Mr. Culberson. Okay.
    General Bolden. That is the way we have always done it.
    Mr. Culberson. The last question on this. You will just--
when the rocket lifts off the pad, the commercial will take 
over from--you will have the same structure you have today and 
that is all the training, all the everything before they lift 
off will be done at Johnson Space Center where we have got the 
expertise and the infrastructure, but the minute they lift off 
the pad, they are under the control of Kennedy?
    General Bolden. That has not been determined yet, Mr. 
Culberson. What I have asked the folks in the astronaut office 
and flight crew operations is to give me an operational 
concept: How do we want to do this. If I do it like the 
airlines, they send a pilot off and he or she goes somewhere 
and trains. The first time they fly an airplane, there are 
passengers in the back seat. I could do that or I could do my 
own training which is what I would prefer to do, but it may be 
more economical for me to allow the contractor to take my 
astronauts to their facility to train. That has not been 
decided yet. That is a part of the operational concept 
development and we are probably a year or so away from doing 
that.
    Mr. Culberson. Well, I know we would encourage you to take 
advantage of the resources, the assets, the strategies. You 
know, you have got all the talent, the expertise, and the 
infrastructure at Johnson and we need to take full advantage of 
that, particularly in an age of austerity when there is no 
money. And we love you and we want to help you, so please do 
not----
    Mr. Bonner. Will the gentleman yield for one question?
    Mr. Culberson. Okay.
    Mr. Bonner. Is Johnson in Arkansas?
    Mr. Culberson. I deserved that. I deserved that.
    Mr. Fattah. I think we just heard an argument for 
government focused efforts versus the private sector from a 
conservative Jeffersonian Republican.
    Mr. Wolf. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    And, Mr. Chairman, I do appreciate your consideration of 
the time and allowing us to take the time. I think that that is 
a nice break from the past.
    Administrator Bolden, being a Marine, I know that risk is 
not something you worry about. I mean, just being a Marine 
Corps person.
    General Bolden. I do worry about it.
    Mr. Honda. Yeah. So I think in terms of training in outer 
space and astronaut training since you have done that, you 
know, I have greater confidence that, you know, you have 
control and oversight on that because I like to fly with pilots 
who are experienced. You know, getting off is important, but 
coming back down safely is important, too, so----
    General Bolden. I agree.

          IMPLEMENTATION OF FUNDING CUTS PROPOSED BY THE HOUSE

    Mr. Honda. And there has been a lot of questions around how 
we spend our money. It seems to me that you have been seeking 
ways to create synergy and make the dollar go further and still 
accomplish the mission.
    I was going to ask you a question about the robotic 
precursors, the tension between technology and heavy-lift, 
human spaceflight interests, the space technology, NASA 
scientists versus outside grants. And I think that a lot of the 
stuff I will come back to later because the question had 
occurred to me as we were talking about more money, less money, 
and things like that.
    We have spent almost 90 hours on looking at our CR in the 
past few weeks. And I want to ask a question about a near-term 
question. What would happen to the completion of the Space 
Shuttle manifest and the long-term need and to the Space Launch 
System and the Multipurpose Crew Vehicle development schedules 
if H.R. 1, the continuing resolution, is enacted and how would 
this impact other NASA activities? What would happen?
    General Bolden. Congressman, we have not evaluated our 
operations against H.R. 1 because it is something that passed 
the House and still has to be determined. But we feel that we 
can fly STS-135 under the budget scenarios that we looked at 
which is the Continuing Resolution, the way we are operating 
right now, and I am confident that we will be able to fly STS-
135.
    Mr. Honda. Based on your responses to previous questions 
then, my sense is that you are at the very bare minimum in 
terms of trying to get the best bang out of the bucks and 
trying to make everything work and meet some of the objectives 
that we have put out and the President has put out.
    And my sense is that if we enact a $60 billion, $100 
billion cut again, that that would negatively impact all the 
things that you have done and accomplished up to now in terms 
of planning and moving the NASA program forward.
    Would that be an accurate statement?
    General Bolden. Congressman, that is an accurate statement 
because we are working now to remain with the elements of the 
2010 Authorization Act, signed by the President in November. I 
promise you that I will not exceed the budget, and I will do 
whatever I can not to do that. I have also told you that my 
number one priority is safety of my crews whether it is as we 
safely fly out the Shuttle or whether it is safety of the crews 
on the International Space Station. That is a triangle. If the 
budget comes down, that triangle gets smaller, and I am not 
going to jeopardize safety of the crew, so naturally something 
would have to give. But that is not something that I am 
anticipating. I am hoping, as I mentioned yesterday in my 
testimony, that reasonable people can agree to disagree, but 
come to what is best for the country.
    Mr. Honda. And that is, I guess, our role as policymakers, 
but taking into consideration the advice of our experts, that 
we should take that into consideration heavily before we make 
any fiscal decisions again.
    General Bolden. Congressman, I would agree very strongly 
with that. If I lose money for construction of facilities or 
operations and maintenance, then the natural fallout is that 
either I have got to lay people off or I have got to close 
facilities. I do not want to have to deal with that. I would 
plead with everyone as I have done in my visits with many of 
the Members of this committee prior to the hearing to just be 
cognizant of the fact that there are positions you can put us 
in where the only alternative is to lay off more people or to 
close facilities. That is not a decision that I have even 
considered.

                       INTERNATIONAL PARTNERSHIPS

    Mr. Honda. And so we have discussed a variety of scenarios 
in terms of partnerships, international partnerships, level of 
trust. The International Space Station, you have been there.
    General Bolden. No, sir, I have not. I wish I had. I am an 
old guy.
    Mr. Honda. Okay. So have you had interactions with folks 
who had gone to the International Space Station?
    General Bolden. Yes, sir, I have.
    Mr. Honda. Have you had relationships with those astronauts 
from the other countries?
    General Bolden. Yes, sir, I have.
    Mr. Honda. Has those interactions and the cooperation, has 
that been positive and has there been learning on all sides 
where the contributions towards spaceflight knowledge has been 
positive?
    General Bolden. Congressman, I have not served on the 
International Space Station, but when you ask that question, my 
last flight in 1994, I was the commander of the first mission 
to involve a Russian cosmonaut as a member of the crew, and on 
the day that I was told that I was going to be made that 
assignment, I was the assistant deputy administrator here at 
NASA, and I told them to find somebody else. I had no interest 
in flying with any Russian because as a Marine, I trained all 
my life to kill them and I thought they had done the same for 
me. A wiser person at the time said, ``calm down.'' At least 
meet them, have dinner with them, and find out whether you 
really believe that, and I had dinner with two cosmonauts, 
Sergei Krikalev and Vladimir Titov. Vladimir was a veteran 
cosmonaut fighter pilot and Sergei was an incredibly talented 
engineer. That night we talked about families and kids and 
stuff like that, and I said, ``this is going to be good.''
    Mr. Honda. Uh-huh. Have you had experiences with other 
countries that had astronauts up at the Space Station?
    General Bolden. I have probably dealt with maybe not every 
astronaut who has been aboard the International Space Station, 
but most of them in different form and they all--if they sat 
here before you today, they would engage you in the same 
conversation I have had with the Chairman every once in a 
while.
    Mr. Honda. Sure. How about China?
    General Bolden. I have had dealings with the Chinese.
    Mr. Honda. Reaction?
    General Bolden. Sir, you know, my job is running NASA and I 
am intending to do that to the utmost. My focus right now is on 
the crew that I have on orbit and I want to make sure they stay 
safe. I am going to do that.
    It is for the President and the Congress to decide what our 
relationship is with other countries. The President is one who 
believes in international engagement and so when you tell me 
and the President tells me what to do, when the President signs 
his name, I am going to do that.
    Right now I do not deal in ``what ifs.'' I am concerned to 
keep my crew safe, make sure that they are safe for the 
duration of the International Space Station, and I think I can 
do that. I believe with my heart that we can do what you have 
asked me to do.
    Mr. Honda. Mr. Administrator, I appreciate your depth of 
response and I believe that working together on common projects 
like the International Space Shuttle where people from 
different backgrounds and have different histories have a 
chance to work together find that the project and the goals 
sort of become the important thing and our history fades, you 
know, in the past and we create new futures and new 
expectations. And scientists, teachers are probably the ones 
that are the cutting edge with our young people.
    General Bolden. Exactly.
    Mr. Honda. Us politicians are probably the ones that have 
the hardest time letting go. I know I am one of them. But I 
just wanted to say for the record that I believe you when you 
say that we have a system right now that is tightly knit and 
set up so that we get the best bang for our bucks. And the kind 
of cuts that we are looking at right now only drive us 
backwards and become less efficient and fall further behind on 
our goals.
    And on the national debt, the debt is a result of the way 
we take care of our fiscal picture and so, you know, if we do 
not do that right, some things we have to make an investment 
for the future. And I think at times, we are our own worst 
enemies in many ways. And the history has proved that out.
    So with your experience and your background, I take your 
judgment and your plans and your admonitions seriously. And I 
do appreciate that and I appreciate your service to this 
country, a man who has proven himself both as a military 
person, as a civilian, and as an administrator for NASA which 
is, you know, aeronautics is a big word in NASA. I do not want 
to see that leave. I do not want to see the Administration 
leave either, but you have provided the best direction that I 
have seen in the ten years I have been here and knitting the 
things together and being diplomatic to folks like myself in 
your responses. So I just want to say thank you for your 
service and your work.
    General Bolden. Thank you.
    Mr. Wolf. Mr. Dicks.

                         SHUTTLE DISPLAY SITES

    Mr. Dicks. I deeply appreciate my good friend from Alabama 
returning the favor.
    Mr. Bolden, you and I have had several discussions over the 
phone on the future, what is going to happen to the Discovery, 
Endeavour, and Atlantis when they end their service. And we 
know that the Enterprise is at the Smithsonian. I used to chair 
the Interior Appropriations Committee. I have a very strong 
feeling for the Smithsonian.
    But we also have a great place out in the State of 
Washington at the Museum of Flight which is run by Bonnie 
Dunbar, a former astronaut. And the museum is the largest 
nongovernmental, nonprofit air and space museum in the country, 
hosting 450,000 visitors a year. The museum serves more than 
120,000 K-through-12 students each year and has 22 programs 
that are aligned with state and academic standards. The museum 
is fully accredited by the American Association of Museums. And 
their geographic consideration is supposed to be taken into 
account.
    I also urge the White House to take into account the 
geographic diversity in selecting Shuttle display sites. The 
western United States I hope will not be overlooked. And you 
know, of course, about the Boeing Company out there, and the 
northwest is home to more than 25 astronauts. Two Washington 
State astronauts, Commander Dick Scobee and Colonel Mike 
Anderson, gave their lives in service to their country.
    And I would just like you to give us an update on where we 
stand on this, what is going to happen to these shuttles and it 
is very important to our State.
    General Bolden. I would be very glad to, sir. There is an 
ongoing process. It has actually been underway since before I 
became the Administrator, and I kind of tweaked it when I came 
in, a process by which I have a team that is evaluating the 29 
requests that came in to get an orbiter. I have asked that team 
to bring that to a head, to a focus so that I can announce a 
decision on the 30th anniversary of the flight of STS-1, 
Columbia.
    Mr. Dicks. When is that?
    General Bolden. April 12th.
    Mr. Dicks. Coming right up here.
    General Bolden. Coming right up, sir. The chairman is 
smiling. I hope that is good.
    Mr. Dicks. So are we still operating under the criteria 
that the recipient has to come up with, like, $26 million? Is 
that still----
    General Bolden. That is correct, sir. I should explain the 
funding required to get an orbiter was arrived at by looking at 
how much it costs NASA to perform the safety on the vehicle. 
There are a lot of volatile components in the Shuttle, a lot of 
dangerous components. We have to remove main engines, put 
simulated main engines on, remove the Orbital Maneuvering 
System engines, put simulated engines on, and all of that means 
that NASA has to produce replicas of real things, and that 
costs money. So when I asked what it was, it is about $28 
million or somewhere in that neighborhood, so that is including 
the cost of transportation. So I think if I am not mistaken, it 
is in the neighborhood of $10, $11 million for transportation 
and then the rest for preparation of the vehicle.
    Mr. Dicks. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Bonner.
    Mr. Bonner. Mr. Administrator, Alabama has already given 
our friends from Washington State a big gift last week, so I do 
not know if we are on that 29 list of cities or states, but I 
would just say probably for Ohio and for Kansas and for 
Pennsylvania and Arkansas and Texas and all of the others, we 
just want to make sure that decision is fair.
    General Bolden. That decision will be fair, sir.
    Mr. Fattah. Mr. Administrator, if the gentleman would 
yield, I think the fairest way to do this would be any State 
that does not already have a NASA facility of any kind might 
be, like, at the first cut on these lists.
    Mr. Bonner. I was hoping we would go in alphabetical order, 
but regardless----
    Mr. Fattah. I am trying to build public support for space 
funding, you know.

                    NASA OVERALL MISSION AND VISION

    Mr. Bonner. Mr. Chairman, if there is no objection, I have 
got a few questions I would like to get in the record for the 
Administrator. He was generous enough to visit our office the 
other day and I appreciated that visit so much.
    Appreciate as everyone does your patriotic example for the 
rest of us, young and old alike. You are truly an American hero 
and we are grateful that you are serving your country again at 
this important time at NASA.
    We talked earlier. We had a chance to visit briefly about 
NASA's overall mission and vision. And I confided that some of 
us are getting of age where we remember all sitting around the 
TV set in our living room and everyone gathering with great 
interest in what NASA was doing and whether it was the moon or 
the early days of Shuttle.
    I think we are in the Ag hearing room. I have been in this 
hearing room, but it looks like from the pictures on the wall 
that that is where we are.
    And one of my requests has been frequently with your 
predecessors as well back when I was on the Science Space 
Subcommittee of the Science Committee was we need to make sure 
that the American people understand what NASA's mission is 
today, what NASA's relationship to food safety or to medicine 
or to chemical breakthrough or the other wonderful things that 
NASA has played a role in in terms of science and healthcare.
    We need to make sure that the citizens of this country, the 
taxpayers of this country, and the people who have a soft spot 
in their heart for NASA that they understand what NASA 2011 is 
doing as opposed to NASA in the 1960s or 1970s.
    So just two questions and the others will be in the record. 
But the first one is, could you restate, and forgive me if you 
did it in your opening testimony, what in your view is NASA's 
core mission today? Does that differ from your goals for NASA 
as it relates to the Administrator or from your perception of 
what the President and those in Congress who support NASA might 
be?
    General Bolden. Congressman, I believe NASA's core mission 
is unchanged since the 1958 Space Act, and that is to enable 
the Nation to reach beyond the bounds of Earth into deep space, 
so that we understand more about our planet and that we can 
make life better for people here on Earth.
    As you and I talked about your concern for Red Tide and 
other kinds of things, and I mentioned the fact that in our 
Earth science programs, while we go to space to look back and 
learn things about our planet. We are on the International 
Space Station now, and some of the experiments that are ongoing 
that you and I did not have an opportunity to talk about, we 
are doing plant growth experiments that will greatly improve 
our ability to produce food for people here on Earth in places 
that right now it is very difficult to do that.
    We sponsor with the Agency for International Development a 
program that is called Servir. It is located in three countries 
around the world. The first one was in Panama, second in 
Nairobi, Kenya, the third I opened in October in Kathmandu, 
Nepal. These take Earth science data from a 30-year archive and 
put it together with current Earth science data and help people 
in those three regions of the world do what NASA does for 
people here in the United States. It helps with crop planting, 
developing flood and drought models, and that is being done for 
East Africa, for Central and South America, for eight nations 
in Eurasia. That is really important. NASA does the same thing.
    When I look around, you talk about water purity. We hosted 
a conference at the Kennedy Space Center last fall that was 
just on water purity where people were there from all over the 
world, and NASA can do that.
    That may not be considered to be a core mission, but 
interestingly when you go back to the 1958 Space Act and you 
read what it says NASA is to do, the first thing is to perform 
Earth science. I mean, it is Section 102(d)(1) in the National 
Space Act, and the first thing is not flying humans to space. 
It is to steward the Earth, and we do that, we have found that 
we do it better when we are able to put humans outside earth's 
environment and help us look back so that we can interpret what 
we see better.

                       MATH AND SCIENCE EDUCATION

    Mr. Bonner. And as a follow-up to that, since there is 
probably no agency in government that is more closely 
identified with leadership in math and science and inspiring 
young children to grow up to want to be an astronaut or to want 
to be an engineer or doctor or physicist, than NASA, can you 
tell us a little bit about how your budget this year delves 
into the area of math and science education as it relates to 
the country itself?
    General Bolden. Sure. Our budget which this year is $138 
million or so or proposed to be tries to focus on three levels 
of education: postgraduate, collegiate, and then secondary and 
primary school.
    When I became the Administrator, we decided we would also 
try to really focus like a laser as people say on intermediate 
school, middle school. That is the summer of innovation that we 
brought about which is really trying to get students and 
teachers in middle school to fall in love with math and science 
and technology.
    I had the privilege of visiting with the Chairman. He is 
big in education, and he puts his treasure into a school that 
is in the region of the district, and we went there and I was 
able to do something as an astronaut or former astronaut. I was 
able to go with the chairman and present the kids with 
something that they would not otherwise have an opportunity to 
do.
    We are not the Department of Education. I do not want to be 
the Department of Education, but I have incredible content. I 
have incredible employees who ask me every day how we can find 
a way to justify their going out to a school. Because of 
restrictions that we have and how we account for their time, 
they are frustrated because they know that they can help 
encourage kids to become interested in math and science. And we 
do that a lot.
    The Marshall Space Flight Center is incredible in what they 
do. They have a worldwide competition that is called a ``Moon 
Buggy Competition'' and I know you know about it. We are about 
to be overrun by foreign teams because they get into this 
stuff.
    Mr. Culberson read the assessment that came from an old 
friend of mine, General Mattis, who is now the commander of 
U.S. Central Command. But that study was done when General 
Mattis had U.S. Joint Forces Command and he is an intellectual 
and a person who understands the importance of education.
    What we do at our NASA center is I have the most incredible 
workforce, so let's try to use it.
    Mr. Bonner. I just think that as we go through this gap of 
where we will not be taking Shuttle up for or will not be 
taking Shuttle up and we are going to be waiting until the next 
opportunity comes for us to once again be in the driver's seat 
on this, knowing the challenges that we have been presented and 
that then we are going to in turn present to you in terms of 
squeezing that dollar farther and farther, anything you can do, 
and I think this would be consistent with the chairman and 
probably other members of this committee's view, is there 
anything we can do to make those investments so that children 
today can see a brighter future through the lenses and the 
opportunities of programs like what you are talking about with 
middle school?
    I do not want to sacrifice the collegiate or postgraduate 
or the other areas, but that is important for us, I think, to 
give our children and our grandchildren what our forefathers 
gave us.
    But thank you again for your great service to our country.
    General Bolden. Sir, thank you very much.
    Mr. Bonner. Thank you, Chairman.
    Mr. Wolf. Mr. Schiff.

                           PLANETARY SCIENCE

    Mr. Schiff. Thank you, Mr. Chairman.
    Thank you, Administrator, for being here. Really appreciate 
the fine work you do. And as my colleagues have said, we have 
just great respect and admiration for your long career and it 
is a pleasure to see you again.
    I want to raise a couple issues that first concerns a 
decrease over the next five years in funds for planetary 
science. We are awaiting the planetary science decadal results 
next week. That will provide priorities from the scientific 
community.
    Several of us on the committee including my colleague, Mr. 
Culberson, have an interest in ensuring that the exploration of 
the solar system continues to be a focus at NASA. And I know 
this has been a tumultuous time. We want to make sure that 
programs that provided some of NASA's greatest successes like 
the Mars Exploration Program, the missions to the outer planets 
continue to receive attention and support.
    How do you plan to continue that tradition given the 
decreases in the planetary science budget?
    General Bolden. Congressman, we are anxiously awaiting the 
outcome of the planetary science decadal survey as are you. 
That will help us define where we go in the next two decades in 
terms of planetary science.
    We have a number of missions that are on the book right now 
that we intend to fly. We think that they are adequately 
funded, those that are far enough along, we have them well 
planned, but we will be challenged to do everything that the 
decadal survey asks us to do as we always are.
    But, we have the Mars Science Laboratory which I know you 
are very familiar with. It is scheduled to launch the end of 
next year and should get to Mars in 2012. That will be an 
incredible step forward because we will be able to then take 
samples and analyze them on the surface of Mars.
    It is a big thing for NASA. It is the largest vehicle that 
we will have ever sent to another planet other than the Lunar 
Lander. It is the size of a small house or a big car. And then 
we have GRAIL and Juno, two other missions that are going to go 
in the planetary science series that are on cost and on 
schedule. So we are confident that we will be able to manage 
with the budget that we have put forth.
    Mr. Schiff. Well, I just want to express my continuing 
support for that investment. Through some of the darkest hours 
of the Manned Spaceflight Program, these planetary missions 
have provided continued inspiration. The number of visits 
online to view some of the images from Mars, for example, are 
in the billions and it is just extraordinary.
    One of the things that I think unifies us around the globe 
is watching these exciting discoveries that come out of the 
planetary sciences. So I want to encourage our continued 
investment in that area.

                   COMMERCIAL SPACEFLIGHT, CONTINUED

    The budget submission has $850 million for commercial crew. 
That is a bit more for commercial crew than was authorized in 
the authorization bill last year, but far less than the 
commercial crew funding proposed in the budget submission last 
year.
    My understanding is that the current budget is designed to 
get crew flying the Space Station by 2015 which would keep our 
dependence on the Russians to a minimum. I know I am not alone 
in here in wanting to return flying American crew on American 
rockets as soon as possible.
    If the Congress rejects this budget or cuts commercial crew 
funding down to $500 million a year, how much longer will it be 
before we can tell the Russians and their increasing fares that 
we no longer need their services?
    General Bolden. Congressman, any reduction in spending 
means that we have to accept more risks. My idea would be that 
we end up with at least two companies that have produced 
vehicles that we can rely upon to get crews to Low Earth Orbit 
so I have some redundancy. With less funding, it jeopardizes 
the chance that I will be able to have multiple companies 
providing that service so it increases the risk.
    I do not think it would take away our capability of having 
commercial capability to get to Low Earth Orbit, but it 
increases the risk of having that capability be sustained and 
reliable, if you will.
    Let me correct one thing that I may have said earlier that 
might be a little bit confusing.
    Mr. Schiff. Mr. Administrator, in addition to increasing 
the risk, wouldn't it also very potentially result in an 
increased delay in the sense that if you are not willing to 
accept the additional risk to the crew, it may take longer to 
meet the safety standards that you set if you cannot make this 
investment?
    General Bolden. Congressman, I do not worry about it 
increasing the risk in terms of safety. What I do worry about 
it doing is increasing the cost because if I have to rely on 
one provider, I am now back into a monopoly and so just as I 
would be with my international partner, the Russians. If there 
is only one provider, that one provider sets the price and 
then, I do not have anywhere to go.
    That is not the cost savings that we look for in going to 
commercial entities. The reason that I want to go to commercial 
entities and I wanted to put a minimum of $850 million forward 
is because it takes multiple candidates forward, so that it 
stays competitive. You take the competition out and maybe they 
will be very patriotic, but that is unlikely. So the cost will 
go up.

                     LEVERAGING PRIVATE INVESTMENT

    Mr. Schiff. Let me ask you something related. This 
December, we saw an amazing achievement in Florida with the 
successful launch of SpaceX's Falcon 9. For less than $600 
million, the company designed and built a rocket and capsule, 
flew them into space, returned the capsule successfully to the 
earth.
    Of the $600 million, only 298, less than half, came from 
NASA. The rest was raised privately. So this was accomplished 
for about $300 million which is a pretty amazing bargain for 
NASA. And obviously that leveraging the private investment was 
pretty key.
    Can you talk a little bit about how much private investment 
you expect to leverage in the future and what greater 
capabilities that will give NASA by virtue of the fact that if 
you are able to leverage private funds for certain missions, 
you can devote more of NASA's resources to doing other things.
    General Bolden. Congressman, you stated it better than I 
could. My total investment as a partner with SpaceX and Orbital 
in the COTS Program and in SpaceX's first demonstration, I am 
investing less than $300 million, and we will get a capable 
system that can carry cargo to orbit as opposed to anything 
that I could have produced.
    So it was a fixed amount based on a Space Act Agreement 
that we signed with Orbital and SpaceX. That is not like a 
cost-plus contract or anything where the cost varies for me. I 
know how much I am going to pay. In the future, when we go to 
commercial crew, once we have an acquisition strategy in place, 
that will help us to decide what type of contract we will enter 
into with the commercial entities, whoever they are.
    Ideally, I would like to have a fixed-price contract so 
that I know how much money I am going to pay up front. If I end 
up paying $3 billion for one of the two carriers to go, that is 
a great savings on what it now costs me to own and operate a 
system that takes people back and forth to Low Earth Orbit. So 
it frees up money for exploration.
    The reason I am so confident that we can do what we say we 
can do with the 2012 budget is because of the ability to 
leverage on the partnership with commercial entities, where it 
is their responsibility to go out and raise additional funds to 
supplement what the government has to pay as a part of the 
partnership.

                            SPACE TECHNOLOGY

    Mr. Schiff. Let me ask you a little bit about NASA as a 
technological agency. All of us have reaped the fruits of 
NASA's technological prowess in our lifetimes. Unfortunately, 
as an excellent editorial in Space News last week pointed out, 
NASA's investment in space technology has shrunk from ten 
percent of its budget in the 1970s to two percent today. That 
is not enough for NASA to stay an agency focused on the future.
    Let me just pull one of the most pointed quotes from the 
editorial. ``We spend billions of dollars on launch vehicles 
and capsules, but without immediate investments in space 
technologies, they will have nothing to launch and no place to 
go.''
    Do you agree with that sentiment? How important is the 
space technology research budget to NASA's mission to explore 
the solar system?
    General Bolden. Congressman, the space technology research 
budget is vital. The reason that is a billion dollar increase 
over what was in the Authorization Act is because that is 
almost bare bones.
    We have a technology roadmap. Congressman Fattah referred 
to it earlier. We have a technology roadmap that Bobby Braun, 
my chief technologist, has laid out and it is now under 
evaluation by the National Research Council. We think that is 
very viable. That roadmap has been in place for decades. The 
reason it has been in place for decades, as you cited, the 
Nation has not chosen to make that investment.
    NASA took money away from space technology and technology 
development every time we needed a source of funding. We are 
not going to do that in the future. That is a commitment I made 
to the President. That is a commitment I made to this Congress. 
If we are going to be able to explore beyond Low Earth Orbit, 
then we need to have certain capabilities that do not exist 
today, and they will come from space technology.

                        DESDYNI RADAR SATELLITE

    Mr. Schiff. I just have one last question I wanted to ask 
you. NASA's previous budget projections had NASA's science 
programs increasing, particular Earth sciences. That was 
similarly an important investment in our future. But I want to 
talk about one particular satellite that is delayed in the 
budget proposal consistent with the recommendations of the 
National Research Council's Earth science decadal.
    NASA's DESDynI Radar Satellite was an essential component 
of top priority tier one research and recommended for launch 
this decade. This will, once launched, contribute support to 
mitigation assessment response after catastrophic natural 
hazards like earthquakes, volcanos, floods, fires, et cetera, 
which is obviously a very important topic to my State of 
California as well as my colleagues on the Gulf Coast.
    Given the critical importance of these measurements to 
scientists, first responders, and governors, how can NASA 
ensure there is sufficient funding allocated to keep DESDynI 
Radar Satellite on an appropriate development path for launch 
this decade based on the phase one studies occurring in 2011 
and subsequent developments in 2012? How much funding would we 
need in 2012 to meet the next milestones in project development 
as well as solicit support from international partners on the 
mission?
    General Bolden. Congressman, I will get back to you. I will 
take it for the record. But if I can get a budget for 2011, 
that keeps the Earth Science Program on a course to intercept 
what we have said we need in 2012.
    [The information follows:]
     deformation, ecosystem structure and dynamics of ice (desdyni)
    The more constrained fiscal environment has necessitated hard 
decisions by the Agency. The DESDynI radar mission is currently in the 
pre-formulation phase and has completed the Mission Concept Review. The 
FY 2012 budget request provides sufficient resources to engage 
potential international partners on the radar mission, and NASA will 
evaluate whether contributions from partners can allow development for 
launch near the end of the decade within the overall Earth Science 
Division budget constraints. In addition, NASA will work to identify an 
international contribution of the lidar portion of the mission.

    So, when all of you ask me what is the impact of decreased 
funding in 2011, we really need a definitized budget for 2011 
because everything in 2012 is contingent upon what the Congress 
finally appropriates for 2011. If the amount appropriated in 
2011 is significantly less than where I am right now at the 
2010 levels, then 2012 becomes very problematic.
    DESDynI right now is back to its original projected launch 
date which is after 2020. You may remember when I talked to you 
when I became Administrator and we submitted the President's 
2011 budget request we were really happy because it was going 
to enable us to pull DESDynI, CLARREO, a couple of other Earth 
science satellites forward by as much as a year or two. Now 
that we are living under the 2010 Continuing Resolution and it 
looks like the funding level is not going to be better than 
that, then we are back to where we were when I became the NASA 
Administrator and not trending well, if you will.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Austria.
    Mr. Austria. Thank you, Mr. Chairman.
    And, General Bolden, thank you for your service to our 
country. Thank you for your service as Administrator to NASA 
and for being here today.
    I was not going to put this pin on, but after Mr. Dicks' 
comments, I had to put a pin on here that says land a shuttle 
in Ohio so Ohio is properly represented. We have got a million 
foot exhibition area called the National Museum of the Air 
Force as you are well aware of and over a million visitors in 
the Midwest and we would like to see the Midwest represented. 
So I had to get my two cents in on that.
    But thank you for being here today.

                   MODIFICATION OF CURRENT CONTRACTS

    And, General, let me ask you first, as you are probably 
aware, the NASA authorization calls for the modification of 
current contracts. Specifically the language I am referring to 
in here, and I will read it, is, ``In order to limit NASA's 
termination liability costs and support critical capabilities, 
the administrator shall, to the extent practicable, extend or 
modify existing vehicle development and associate contracts 
necessary to meet the requirements.''
    My question is, do you plan to continue to modify the 
current launch vehicle and crew capsule contracts as directed 
by the authorization bill or do you see where this scenario of 
these current launch vehicle contracts would not be modified?
    And I know there has been a significant investment over the 
last six years in moving forward this. Is there a scenario 
where that would not move forward? And I am concerned 
specifically about the tens of thousands of highly skilled 
positions that are involved there and closing hundreds of vital 
aerospace facilities. Those are positions that you just cannot 
go back and replace with that skill level.
    General Bolden. Congressman, we are working under the 
direction of the Authorization Act, and we are remaining within 
the fundamental elements of the Authorization Act. We are still 
looking at whether or not the existing contracts under the 
Constellation Program for both what will become an MPCV and 
what will become a Space Launch System whether existing 
contracts for the rocket itself and the crew carrier can be 
transitioned over to these new programs.
    I may have misled some earlier. I think I led you to 
believe that we were closer to this determination than we 
actually are. We are relatively comfortable that the Orion 
contract could be transitioned over because Orion version 
whatever it is was built, was designed as a deep space 
exploration vehicle.
    The Constellation Ares Launch System is not as clear cut 
and so we are still evaluating from two perspectives. One, the 
legal standpoint and, two, the procurement regulation 
standpoint. So it is left to be determined whether we can make 
that transition.
    If it is determined that those transitions are possible, 
then my second hurdle is to determine whether it is affordable, 
and that is where I am presently working with industry to help 
them understand and help me determine how, if we are going to 
convert those contracts, can we do it within the limits of the 
existing budget, within the limits of the 2010 Authorization 
Act and the President's proposed budget for 2012.
    Mr. Austria. Administrator, when do you see that 
determination?
    General Bolden. I should be able to bring a report to the 
Congress this summer. We provided the 90-day report which was 
an interim report. In that report, we said we would be back to 
the Congress by the summer with a determination as to whether 
or not those contracts can be converted if it is affordable 
and, if not, how are we going to go through a competitive 
process to determine where we go. We are just not there yet.

             GLENN RESEARCH CENTER AND PLUMB BROOK STATION

    Mr. Austria. Administrator, let me ask you also as far as 
what do you see is the future for NASA's Glenn Research Center 
in Ohio and also the Plumb Brook Station. You know, they play a 
very important role and where do you see the future as far as 
your plan moving forward with those type of facilities?
    General Bolden. I think Ray Lugo, the Director of the Glenn 
Research Center, has probably met with you on a number of times 
and Ray and I both agree. Glenn is postured very well under the 
funding levels of 2012 budget.
    One of the things that adds confusion to the mix is we 
recently announced, two days ago, we announced three major 
program offices, that for the SLS at Marshall Space Flight 
Center, the MPCV at Houston's Johnson Space Center, and 
commercial crew at the Kennedy Space Center.
    There is a common misconception that where the program 
office lies is where the money is spent. That is not the case. 
Glenn does not have a program office for any of these programs, 
but Glenn actually sees a healthy input of funds that will go 
into their community for technology development and for other 
programs. It is to be determined now that we have a program 
office for these three major programs, they can begin to decide 
what is needed to support a program and that is where the 
centers will find out what their level of work is, what their 
task orders are under a particular contract for a program. We 
could not do that prior to actually making these program office 
assignments. So that was a critical step for us as we did day 
before yesterday.

                 DUPLICATION IN CLIMATE CHANGE PROGRAMS

    Mr. Austria. And let me, General, ask you also, we talked a 
little bit earlier, I know the chairman brought it up as far as 
duplication of services with different agencies, and you said 
the reports that you have seen that there is no duplication as 
far as climate research as far as Earth science programs, 
weather research.
    And I want to just get a better understanding of this, if I 
can, because when you look at, you know, NASA's involvement in 
weather and climate change, you have also got the Department of 
Defense, for example, mainly through the Air Force Weather 
Agency spends a considerable amount of resources on weather 
forecasting, gathering significant intelligence on space, and 
the climate global environment. And then this data is provided 
to their joint warfighters, DoD, decision makers, national 
agencies, and allied nations. Similarly you have got NOAA that 
is spending a significant amount of resources on weather 
satellites, atmosphere research, and climate change research.
    I guess whose mission is this? Is it NASA's mission or is 
it NOAA's mission to do this type of research and how do we go 
back to the taxpayers and explain that this is efficient? You 
know, what specifically are you doing different that we need a 
third government agency to be involved in this type of weather 
data collection or research?
    General Bolden. Congressman, NASA and NOAA have had a 40-
year partnership where we handle the program management 
responsibilities for their satellites. We produce them. We fly 
them to orbit. We check them out and then we give them to NOAA 
because NOAA establishes the technical requirements, and it 
comes out of NOAA's budget, not NASA's budget.
    Earth science is NASA's responsibility. The things that I 
talked about earlier with Mr. Bonner about climate, drought and 
flood models, crop planting and those kinds of things, that is 
Earth science that falls under NASA's purview in cooperation 
with other agencies of the government.
    So that is why I continue to say there is no duplication in 
what we do. I do a lot of program management for satellites, 
but I do not pay for those satellites. They do not come out of 
the NASA budget. We will produce Landsat satellites for the 
U.S. Geological Survey. That will not come out of NASA's 
budget. That will be reimbursable work.
    When you talk about DoD, NOAA, and NASA were involved in a 
partnership on something called NPOESS that was supposed to be 
a global weather satellite for DoD and the civilian entities. 
That has now been broken into two. But NASA had no money in 
NPOESS. NASA was the provider of instruments and the satellite 
for the DoD and NOAA, and that has now been broken off, and we 
are still partnered with NOAA to try to produce the JPSS, the 
Joint Polar Satellite System, but that is a NOAA project paid 
for and budgeted in the NOAA budget.
    Mr. Austria. Sure. And, you know, from where we are 
sitting, we are trying to provide the best efficiencies for the 
taxpayers to their dollars. And when you have three agencies 
out doing this, I appreciate your explanation because it is 
important that we are not duplicating services, that you are 
working together, and that it makes sense from a taxpayer 
standpoint that we are being efficient with their dollars by 
having three agencies doing this type of research.
    General Bolden. You are exactly right, and we are even 
making an effort inside NASA. All this happens because 
government is so stovepiped, always has been. The President has 
told us, not asked us, has told us through the National Space 
Policy that came out last summer that we are going to knock 
down the stovepipes and agencies are going to begin to work 
together. Interagency collaboration is a really, really big 
part of the National Space Policy that the President released 
last summer, and so we are trying to do that.
    Inside NASA, we are trying to do the same thing. If you 
looked at us several years ago, the science directorate, may 
not even talk to the human spaceflight people because they 
jealously guarded what they had. Today that is not the case.
    Ed Weiler, Bill Gerstenmaier, Doug Cooke and Bobby Braun, 
the chief technologist, sit together quite a bit and they 
collaborate on, okay, we do not have the money we used to have 
and we are not going to get the money we used to have. How do 
we optimize the amount of money we are going to get so that 
science, human spaceflight, and technology development can all 
provide some input and get the best for the American public? 
That is where we are going. That is how we based our funding or 
our funding request in the 2012 budget.
    Now, if you make me do things the way we have always done 
them, then the 2012 budget does not stand a chance of working. 
The big premise in the 2012 budget was we were going to do 
things differently. We were going to rely on commercial 
entities to take people and cargo to Low Earth Orbit, not NASA. 
We are going to rely on technology development to define the 
way that the heavy-lift launch vehicle and the crew vehicle 
evolve over decades actually until we finally put humans on 
Mars, at some point in the future.
    The vehicle that takes humans to Mars is not going to be 
the vehicle that takes humans to an asteroid in 2025 because we 
will learn, we will develop new technologies at every increment 
and we have to be able to do that or we are not going to get 
anywhere.
    Mr. Austria. Administrator, thank you very much. And if you 
would like to wear a pin, I have got extra pins here, you are 
welcome.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Austria.
    Normally we would go back and forth, but Mr. Serrano was 
kind enough to let us go to Mr. Yoder. Mr. Yoder was the first 
person here. And two hearings ago, he never even got any time. 
So I appreciate that Jose. Mr. Yoder.

                JUSTIFICATION FOR SPENDING MONEY ON NASA

    Mr. Yoder. Well, thank you, Mr. Chairman. I am happy to 
learn from the questions of my colleagues, so I appreciate the 
opportunity to ask a few myself today.
    Administrator, thanks for your service. I have been reading 
your bio here during the questioning and you have a long, 
lengthy history of service. And certainly I would expect your 
return to work with NASA probably is not only from your deep-
seated passion for service but your belief in the mission. And 
I assume it is a very exciting position for you as you can 
envision where we want to take this program and the 
possibilities. I just would believe that is a very exciting 
place to be.
    With that then, I wanted to ask you a couple questions 
about, maybe some macro questions here if you can help me out 
with a couple things. When we go home and visit with our 
constituents and they talk about the national debt and they 
talk about the overspending in Washington, and we have heard 
comments this morning regarding the greatest security threat to 
our country, can you help me with some points on how we justify 
spending money with NASA? There ought to be something I know 
you can share with us.
    And beyond that, how do we justify as we deal with 
competing efforts to capture resources in this city, not just 
from a perspective of, well, this is why our mission is 
important, but this is why it may be more important than other 
things we are doing in the budget because that is really the 
essence of what we need to be doing in Washington is not only 
just talking about what is good about certain programs but how 
we prioritize?
    I have been in Washington seven or eight weeks now and I am 
one of the new Members of Congress. And this is the only 
experience I have been in where we can sort of spend as much 
money as we want and there is really no concern over time, over 
decades and decades for the bottom line.
    And so we got to get away from this idea of this is why our 
program is important and move towards a this is why it is more 
important than other things we are doing in the budget. And do 
you feel that if we have to fight for resources that money 
should come out of other programs into your budget and why?
    General Bolden. Congressman, first of all, I do not think 
money should come out of any other programs into my budget. I 
am not encroaching on anyone else. I do not want to go there. 
But I would say if you want examples of things that you can 
tell your constituents on what their tax dollar is going for, 
let me give you two areas.
    Aeronautics is one that I do not get to talk about very 
often, and Glenn Research Center is key. The Boeing 787, which 
I think everybody knows about the Boeing 787, if you look at it 
and you look at the engines, the GE engines have a funny 
looking cell on it. The back end of it is what is called a 
Chevron nozzle. That was developed in the early 1990s at the 
Glenn Research Center, and they just were persistent. They kept 
letting industry know it was there. General Electric and Boeing 
decided for the 787 that they would pick that up and use it. It 
decreases pollution. It decreases noise. It increases the 
efficiency on the engine.
    We are working through the Ames Research Center and Langley 
Research Center with the FAA on NextGen, the Next Generation 
Air Transportation System. We have developed software and 
programming for something that is called constant descent and 
arrival. We have run tests in the Denver Airport, Continental 
and United Airlines, where they have demonstrated that the cost 
savings to them following the NextGen system is in terms of 
millions and maybe even billions of dollars.
    When I talk about these concepts that save fuel usage, for 
example, my Associate Administrator of Aeronautics told me that 
based on what we have seen in our tests, the amount of fuel 
that would be saved in some of our new systems, if we got one 
percent of that savings to industry reimbursed to NASA, it 
would take care of my aeronautics budget.
    So those are the kinds of things that I would, if I came to 
your area, I would tell your constituents.
    If I looked at Earth science, which is always questioned, 
we do water monitoring in the western United States. Water is a 
critical commodity. We have fought wars in that part of our 
country, you know, among ourselves over water. Water is a 
valuable commodity and we are doing water research for the 
western United States. There is an alliance of states out there 
and we are contributing to that.
    So those are the kinds of things that I would offer to 
constituents who said what I am getting back for my dollar to 
NASA.
    Mr. Yoder. Well, and I think those are helpful for a couple 
good examples. I do want to suggest, though, that one of the 
things we have to do in this town is decide what our priorities 
are going to be and we do have to decide whether our dollar is 
going to go into your program or whether it is going to go into 
many of the other priorities of this government. So I encourage 
you to not only pitch why.
    I mean, we hear from folks every day. They come into my 
office. They come into committees. This is an important value 
to our country. Very few folks come and argue that it is not an 
important value.
    So how do we grade our dollar invested into NASA versus our 
dollar invested into education or to highways or to social 
services? And that is the challenge I think that we have to 
engage in here. And so that is difficult and uncomfortable 
because your drill is to pitch NASA.
    But it is helpful to us if you can pitch it, at least to 
me, if you can pitch it in a way and why and a dollar invested 
here is maybe not perceived as a short-term benefit as getting, 
you know, food to hungry people, but long term, the value is so 
great that we cannot ignore the mission.
    So we have got to be able to--because I think it is an 
incredible mission and the mission statement, you know, reach 
for new heights and the unknowns so that what we do and learn 
will benefit all mankind. That is a pretty all encompassing 
statement. That covers a lot of ground benefitting all 
humankind. And so we need those tools, or I do at least, to be 
able to pitch how we are doing that.

                         NASA'S LONG TERM GOALS

    And I guess my second question would be, again on the 
macro, what is the vision? We have talked a lot about specific 
things we are doing in the 2012 and you mentioned 2025 being 
able to go to an asteroid a second ago. What is the 50-year, 
100-year vision? I know that is really hard to do, but I assume 
when you get up in the morning, one of the passions is seeing 
where this could go.
    And recently, in recent years we have seen new satellite or 
I guess new data related to planets and other solar systems. 
You know, I cannot speak for the rest of the committee. When I 
grew up, you know, we talked about the planets in our own solar 
system and tried to learn, you know, the ordering and all those 
things. But now it is so broad.
    And how expansive does this get and where do you see things 
going in 50 years?
    General Bolden. Congressman, space is the ultimate high 
ground. If I go to where Mr. Culberson is, I am not interested 
in controlling that high ground, but I want to be there so that 
whoever is there with me is there as a partner or at least I 
can keep them from doing something untoward.
    If I have the capability of putting humans on another 
planet, if I have the capability of putting humans on Mars, I 
can look even deeper into our solar system and even beyond. To 
some people, they say, okay, but that does not feed little 
kids. It does. Everything we do in order to reach these new 
heights brings about some technology that we did not have 
yesterday.
    I love to give people the example of something very simple. 
An emergency medical ambulance, an EMT and an ambulance that 
goes to Anacostia to get a gunshot victim, if you will, if you 
want to be stereotypical, which I hate, but that is what you 
see on the news. That gunshot victim gets, one little patch put 
on his or her chest that has no wires to it. By the time that 
gunshot victim gets into whatever hospital they take him, the 
doctors have all the vital signs. They know what kind of 
condition they are in. They know where to put him in triage and 
they can save a life.
    The same thing on the battlefield. Because of things we 
have done to go to the Moon, we are able to save soldiers, 
marines, coast guardsmen and sailors because we have 
technologies that were developed for other reasons, but they 
come back to Earth.
    That is what we mean when we say we reach for the unknown. 
We do not have a clue what we are going to find when we 
explore. If we did, it is not exploring. We could decide, okay, 
there is no value there, I am not going there. We are not that 
smart yet. So we explore, and every time we explore, we 
discover something that we did not have a clue.
    When I took my flight on STS-60, I discovered a lot about 
me as a human being with other people. That is why we do it.

                        INFRASTRUCTURE PLANNING

    Mr. Yoder. Yeah. I can see your passion for it and I 
appreciate it. And I think it is one of those things that 
inspires Americans to great heights and it is more than just 
being a consumer-driven society where we consume products on 
this planet. It is about finding our ultimate destiny.
    And so it is pretty amazing and I appreciate the fact that 
you are leading that effort. And thanks for sharing your vision 
in doing that.
    I want to ask you some micro questions now, just a few 
things that in reading some of the materials. We had the 
inspector general in some weeks ago and I was just reading 
through his report. And I am sure you have seen it. I just want 
to get some of your response to these things so we know how 
these things are being resolved.
    There was an issue, and one of the things we are trying to 
figure out in Washington in saving money is, is there unneeded 
property or unneeded land, buildings, things that we could 
sell, I think the President even spoke about this in the last 
few days, that we could sell to try to save the country money.
    And I noted here that it says NASA is the ninth largest 
Federal Government property holder, controlling a network of 
5,400 buildings and structures, that the 2008 management plan 
shows that 10 to 50 percent, that is a pretty big range, 10 to 
50 percent and 30 to 60 percent, 10 to 50 percent of warehouses 
and 30 to 60 percent of laboratories are underutilized. And it 
says that there is agency-wide deferred maintenance.
    And I guess I would ask you just to comment on that. And 
are there things we can do to consolidate?
    I was in the state legislative process and appropriations 
process there and we found if we do a little auditing, we could 
take agencies that had multiple buildings and convince them 
that they could operate things under less buildings, save 
money, even though it was uncomfortable for the agency to do 
that.
    Are there some uncomfortable things that we are avoiding 
here? How do you resolve this?
    General Bolden. Sir, because of our system of government, 
there are always uncomfortable things that we avoid. However, 
we have a facilities master plan that is being developed where 
we are looking across the agency at all of our infrastructure 
and trying to determine what is excess, what is underutilized. 
We are trying to look for partnerships within industry. We are 
looking for partnerships with other agencies so that we get the 
best of the facilities available and optimize their use.
    We have the first iteration of that facilities master plan 
that has been completed, but it is work ongoing. And it will go 
on forever probably. We will never be ideally sized, but we 
keep working on it.
    Mr. Yoder. Well, do you think there are some buildings that 
can be sold in order to try to save money in order to fund some 
of these larger destiny functions we are trying to focus on so 
we are not wasting money?
    General Bolden. I am hoping that when the facilities master 
plan is completed, the first iteration of it, that I will know 
whether there are some facilities that can be closed.
    We have already taken one step, one small step. We had an 
ARC Jet Facility at the Ames Research Center and an ARC Jet 
Facility at the Johnson Space Center. An ARC Jet Facility for 
somebody who may not know generates a lot of heat. So, if we 
want to evaluate the effect of a hole on a tile on the Space 
Shuttle, we put in an ARC Jet Facility and simulate what it is 
going to be like during reentry, and we have had to use that in 
the last few years.
    We felt we did not need two ARC Jet Facilities. So we went 
in and did a study and we determined that, yes, that is true. 
So, I have directed that we close down the ARC Jet Facility at 
the Johnson Space Center, transfer those capabilities or those 
assets to the Ames Research Center out in Mountain View, 
California so NASA will have one ARC Jet Facility. That is an 
example.
    Mr. Yoder. I appreciate that example. And for me, it shows 
me that you are interested in trying to find savings within the 
agency. And so I would encourage you to do things like that as 
I consider how I would vote on measures and where we would 
prioritize things.
    I want to spend money with agencies that are being very 
efficient with the resources we are already giving them and 
reward good behavior and good efficiency and not reward folks 
who are not.
    So as you go down that road, I think if you can find ways 
to show Congress that you are finding savings internally and 
becoming more efficient because I know you do not want to waste 
dollars either, you want folks on mission.

                      COST AND SCHEDULE ESTIMATES

    And then, finally, and I appreciate the chairman's 
indulgence to have some time this morning, the final question I 
had for you is something that I see a lot of reports we get and 
it is something that is really hard to explain back home.
    It is very frustrating, in fact, when we talk to folks at 
home about government spending. They assume that there is a lot 
of bureaucratic waste, that there is a lot of abuse, that there 
is a lot of opportunity for overruns and expenses.
    And one of the things I noted in the inspector general's 
report, it says that NASA has historically struggled with 
establishing realistic cost and schedule estimates for its 
science and space exploration projects. And it shows an example 
of the Webb telescope. And it says that its estimated cost of 
$1.6 billion scheduled for launch in August of this year. The 
plan launch date is now June 2014. The estimated cost has 
exceeded now $5 billion.
    And the independent review of the program released in 
November 2010 cited problems with budgeting and program 
management rather than technical performance. And that sounds 
like a management failure from our own people in terms of how 
we are managing these programs.
    And so I would ask you just first are you concerned about 
that reputation?
    General Bolden. Sometimes I think there is a conspiracy to 
make me continually say how angry I was when I found out about 
James Webb Space Telescope (JWST). And I will repeat that: 
nobody was as angry as I was. However, that is, I cannot do 
anything about where we were when I found it.
    Mr. Yoder. Absolutely.
    General Bolden. However you are absolutely right, and when 
we discovered the condition that JWST was in from a budget 
standpoint and a management standpoint we made some changes in 
the management structure. Not only did NASA make changes in the 
management but we got together with our prime contractor and 
they made changes in their management. Because it was agreed 
there were problems on both sides.
    We are doing a bottoms up review right now. James Webb was 
baselined just before NASA turned to something that we now call 
Joint Confidence Level (JCL) process, where we take a look, we 
have independent assessments on our cost and schedule. GRAIL 
and Juno are two satellites that we talked about a little bit 
earlier. GRAIL and Juno are coming in on cost and on schedule 
because they were subjected to the JCL process, where we had 
independent assessments as to what our real cost is going to 
be.
    We have a habit in NASA of falling in love with our plan 
and our estimate. We are finding that the worst person to ask 
that is the principal investigator or the program manager, and 
so we now go outside and we get independent assessments. I am 
confident that we are going to find that our track record on 
cost and schedule containment is going to rapidly improve as we 
see more and more projects fall under the JCL.
    Mr. Yoder. Well I appreciate your focus on that. And 
certainly as we continue dialogue over the years and your 
service continues I hope that when we have a chance to do this 
again you will see good progress in this area. And it is just 
so frustrating to read things like this and try to explain 
those back home. And when an article comes out, you know, it 
appears that Congress is not doing its job on oversight. And so 
it is one of those things that I think really challenges the 
trust that this country has in that its tax dollars are being 
spent wisely. It makes----
    General Bolden. If I can ask your indulgence for one, 
thirty seconds, what I do need for people to understand is the 
critical importance of the James Webb Space Telescope. I do not 
want to leave anyone with the impression that it is a bad 
project. It is, as all the independent assessments have said, 
technically it is very sound. We are taking actions now to 
contain cost and schedule so that we can launch James Webb. The 
promise that it has for the world, not just the nation, is 
absolutely incredible.
    If you look at what Hubble has done in terms of 
publications, changing textbooks, everything, the curve went 
like this. We project that JWST will just jerk it to the 
inside. It is going to be ten hundred times better than Hubble.
    Mr. Yoder. Well and I, that is all good, and I appreciate 
that, and I am glad that project is moving forward. But the 
concern related to the actual management of our own people and 
our effect on causing things to be mismanaged and therefore 
costs raised, it is tough to explain outside of this building.
    General Bolden. Yes, sir. I understand.
    Mr. Yoder. So keep doing, keep working hard on that. And 
your efforts to improve quality and management of the dollars 
we are giving is so critical to reinforcing support for your 
agency. And I appreciate your comments. And Chairman, I 
appreciate the time this morning.
    General Bolden. Thank you.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I apologize for being 
late, but like so many members I was at another hearing. Where 
I will just say that the EPA Administrator was not being 
treated with the same kind of respect----
    General Bolden. She is a regulator.

                           SHUTTLE TRANSITION

    Mr. Serrano. Exactly. Besides NASA, like NOAA, have a 
reputation of being agencies that people like and are excited 
about. And notwithstanding budget cuts and the needs for 
balancing budgets, we know the importance.
    Let me ask you a question. With the cancellation of the 
space shuttle program there will be folks unemployed, there 
will be folks moved to other areas, will those folks be 
absorbed? And Mr. Chairman, a reminder of something you and I, 
you know well because I have asked this question over the 
years. But one of our country's best kept great secrets is the 
fact that every time one of our space flights go up, you know, 
there are a lot of folks on the ground who are recruited from 
the University of Puerto Rico at Mayaguez. And I single out 
Mayaguez because that is where I was born. You know, I have got 
to do a little shout out. So it is a two-pronged question. What 
happens to the folks that are there now? And secondly, what 
happens to that great recruiting program that you have had 
there for so many years which has really made an impact on how 
those folks view the federal government, NASA, their role 
within the United States. When you live within a territory, and 
I do not want to get into that issue, sometimes I think you 
ask, you know, where am I? Well the folks you recruited out of 
Mayaguez have always known where they are, and their families 
know where they are and what role they play in the greater good 
of our country. So what happens to folks in general? What 
happens going forward to the recruitment program?
    General Bolden. Congressman, the best news story on the 
shuttle is it was not cancelled. It was a close-out that was an 
orderly close-out that began in 2004 after the Columbia 
accident, the President decided that we should phase the 
shuttle out and move on to a next generation to access to 
space. So, we have had a very rigid transition program in place 
for people to move from the space shuttle program into newer 
programs, or other programs.
    When you talk about young people from Puerto Rico I have 
had the privilege of meeting many of them. A lot of them come 
to the Goddard Space Flight Center. So, they are still as 
excited as they ever have been because a lot of them are in the 
Earth science arena. A lot are in our science and technology 
arena. Some of them are working for Dr. Bobby Braun.
    Mr. Serrano. Right.
    General Bolden. So they, they would push me to go faster 
than I am going in the development of commercial crew for 
access. They would push me to go faster than we are going in 
exploration, human exploration, but they are patient because 
they recognize that we are limited by budget. But they are 
incredible.
    Mr. Serrano. Right.
    General Bolden. Every time I meet them I have always asked 
them, why do I have so many young people from Puerto Rico here 
in this place? They said, ``because we want to explore.''

        SCIENCE, TECHNOLOGY, ENGINEERING, AND MATHEMATICS (STEM)

    Mr. Serrano. It is interesting how sometimes recruitment, 
it reminds me of something Mr. Fattah and I have discussed on a 
totally different subject but one of my favorite subjects, 
baseball. There was a camp in Puerto Rico once, and some kid 
got up, this is the truth, thirty years ago. And said, ``What 
is the quickest way to the major leagues?'' And the coach says, 
``Do not ask that silly question.'' And the American, the scout 
from the States said, ``Catching. Nobody wants to catch.'' And 
then you have got Posada, and Pudge Rodriguez, and Benito 
Santiago, and it was on, and on, and on. And everybody became a 
catcher.
    In the States and in the territories NASA does a wonderful 
job in STEM education. And it is so important. I have seen it 
in the schools in the South Bronx, I have seen it in other 
areas, it is just wonderful. Not only the educational programs 
but the visits also from NASA are always so important to our 
community. With budget cuts in that area already seen, what is 
the future of those programs? What is the future of that 
involvement? Because it is really key. And I have been 
listening to Presidents, and Governors, and Speakers for 37 
years of public life making statements at the beginning of the 
year. I have never heard a speech where one piece stuck to me 
so much as when the President said this year we need to 
continue to be innovative. We need to continue to invent. 
Americans do that well. And we know that NASA has played a 
major role in that. Where do you see that going?
    General Bolden. Congressman, I see us continuing to be as 
energetic about education as we always have been. And you know, 
the President makes an incredible point that the nation that 
out-educates wins. If you do not do that then you become 
second, third, fourth. I listened to something this morning, I 
think we are fifteenth in reading, seventeenth in science, and 
twenty-fifth in math. You know, not many of us would stand for 
our local baseball team being at that category, and yet we are 
willing to let our kids fall to those levels. NASA will 
continue to do what we do.
    I cannot say enough about my employees. We are so good in 
education because they give of their time and their talent, and 
they do not get paid for it. We are the biggest supporter of 
the FIRST Robotics program in the nation. No one does as much 
for FIRST Robotics as does NASA. We have, I will get the number 
wrong, but it is probably three hundred and some odd teams 
around the country. This is international competition. I 
mentioned the Marshall Space Flight Center sponsoring the World 
International Dune Buggy Competition. These are things that 
employees do out of their own pockets.
    So we have budgeted to a level that we believe will help 
sustain the President's Educate to Innovate program, will help 
in the Race to the Top, will help in the First Lady's program 
of education. Everything that we know we need to do for 
education NASA is going, we are going to be able to support 
with the budget that we have put forth.

                           NEAR-EARTH OBJECTS

    Mr. Serrano. Let me for my last question bring you back to 
the Island of Enchantment, and that is with the Arecibo 
Observatory. As you know, in some cases it has almost been 
scheduled to close. And then you have folks who write about 
this issue who say it is a vital service, we need to continue 
to make sure that we study the possibilities of foreign bodies 
hitting Earth, and what that would mean at that moment or for 
the future of our planet. And so there seems to be a 
contradiction, whether with those folks who would want to close 
it down and those folks who claim that it is not just something 
you close down, it is something you grow because it is that 
important.
    Obviously to the folks there, not only the actual 
observatory, but the symbolism of it being there, has always 
been important. What is the state of the Arecibo Observatory, 
do you know?
    General Bolden. Congressman, at the present time Arecibo is 
incredibly valuable in helping with our assessment of Near-
Earth Objects (NEOs) and threats to the planet. The future, I 
cannot tell you what it will be because people who are really 
serious about the threat from NEOs would tell me that our money 
might be better spent if we put something in orbit around the 
planet Venus and let it look back across Earth because we would 
pick up more NEOs that way. WISE, which we recently finished 
collecting data on found thousands of previously unknown Near 
Earth Objects. So Arecibo is an important part in that network 
of instruments that look for near Earth objects. So, you know, 
we continue to use it.
    Mr. Serrano. Okay. Well thank you for your honest answer. 
Thank you. Thank you, sir.

                         COOPERATION WITH CHINA

    Mr. Wolf. Thank you, Mr. Serrano. We have a whole lot of 
questions going. But I wanted to address the China issue that 
came up. The CR that passed the House carries language that 
says, ``none of the funds made available by this division may 
be used by the National Aeronautics and Space Administration or 
the Office of Science and Technology Policy to develop, design, 
plan, promulgate, implement or execute a policy, program, 
order, or contract of any kind to participate, collaborate, or 
coordinate in any way with China or any Chinese owned company 
unless such activities are specifically authorized by a law 
enacted after the date of enactment of this division.''
    Some people say, ``Well, you know, what are you talking 
about?'' I just want people to know what I am talking about. I 
think there is an economic issue. There is a moral issue, 
because man does not live by bread alone. And there is a 
national defense issue.
    I quoted Simon and Garfunkel, ``a man hears what he wants 
to hear and disregards the rest.'' When you are getting sort of 
warm feelings about China, keep in mind the People's Liberation 
Army has a program that will, for $55,000, execute someone in a 
prison and sell you a kidney. That is a reality. We have the 
pictures, we have the facts. If you are Catholic, there are 
about 30 Catholic bishops that are in jail or under house 
arrest. To me that is pretty significant, but maybe some people 
have different views. There are hundreds of Protestant pastors 
in jail, as well as house church leaders. I went to China two 
years ago before the Olympics. We had a dinner set up. Every 
house church leader who was scheduled to come was arrested that 
night except for one, and he was arrested the very next day, 
and pummeled, and beaten.
    Hu Jintao, who President Obama gave a state dinner for, is 
the one who put together the program for cracking down in 
Tibet. I have been to Tibet. We snuck in with a trekking crew 
years ago. They have destroyed the country, they have bulldozed 
the country. So as you get your warm feelings about China, keep 
in mind they have the Nobel Peace Prize winner in jail, and his 
wife cannot even get out of her apartment to move around town.
    In addition, there are cyber attacks. The IG testified a 
couple of weeks ago, and there are a number of cyber attacks 
attributed to China. For the record, could you furnish how many 
cyber attacks by China there have been against your computer 
system?
    [The information follows:]
                         chinese cyber attacks
    NASA does not specifically associate incidents on the basis of 
country of origin. Of the thousands of incidents tracked in 2010, a 
much smaller number of incidents (less than 100) involved cyber attacks 
specifically targeting sensitive NASA assets. Of those, roughly 15-20 
included gross indicators suggesting a foreign China association.
    The NASA Office of Inspector General does seek prosecutions for 
general computer crimes and has worked in concert with other Federal 
agencies to bring cases to the attention of the foreign governments 
when they are able to be identified.
    NASA is implementing enhanced cyber security processes and tools to 
better identify and mitigate specific targeted cyber attacks against 
the Agency. We believe these efforts will not only improve our security 
posture but will assist in collaborating across government to defend 
against cyber attacks.

    Next there is Darfur. The President cares. The Congress has 
spoken out against the genocide in Darfur. I was the first 
member of Congress to go to Darfur with Sam Brownback and China 
has been the number one supporter of the genocidal government 
there. The Antonov bomber is funded by China. The Soviet HIND 
helicopter is funded by China. The weapons that the Janjaweed 
carry when they come into villages and kill the men, rape the 
women, take the kids away, come from China. China has the 
largest embassy in Khartoum.
    I love the Chinese people. The fact is, when most of the 
dissidents come into the country, they come through my office. 
I personally believe that this government in China is going to 
fall. I believe that what you are seeing taking place in 
Tunisia, and Algeria, and Egypt has so frightened China that 
they are blocking the Jasmine Revolution on the internet. They 
are so spooked in China that they are blocking Ambassador 
Huntsman's name from showing up. They are frightened. Because 
they know they are running a dictatorial government, and they 
know that the Chinese people want freedom, and love freedom, 
and are going to rise up. In 1986 very few people thought that 
the Berlin Wall was going to fall. Ronald Reagan did. He said, 
``Tear down that wall,'' and he did certain things. I think 
this government is going to fall. And I think in my lifetime we 
will see freedom and democracy for the Chinese people. Then, 
when we see that and the administration comes up and says, 
``Let us have this exchange program with the democratic people 
of China,'' I will be at the top of the list. I will say, ``Let 
us get them on. Let us be involved.''
    But we cannot forget the kidney program, Catholic bishops, 
Protestant pastors, the plundering of Tibet, what they are 
doing to the Muslims and the Uighurs. What they are doing to 
the Uighurs in China is brutal. The leading Uighur dissident, 
Rebiya Kadeer, who lives out in northern Virginia, her two kids 
are in prison. No one says anything.
    And so that is why we have this language. And I will fight 
to the death for this language. We do not want these joint 
programs because I know what they are doing and they are spying 
against us. And so when we get all warm and fuzzy about China, 
remember how in Nazi Germany during the 1936 Olympics they took 
down the signs. They did not let people know the Holocaust was 
taking place, and not many people wanted to speak out about it. 
Bad things are happening in China now, too.
    Even if we are talking about jobs, I saw in the Wall Street 
Journal, that General Electric just signed a contract with the 
avionics operation in China to develop an avionics program that 
will put Boeing out of business in a few years. So that is why, 
as long as I have breath in me, I will speak on this issue of 
China. I think it is a moral issue, I think it is an economic 
issue, I think it is a national security issue. And I love the 
Chinese people. I am looking forward to, when the revolution 
begins, getting on an airplane and flying over there and being 
with them. Then China would be our friend as Germany is 
currently our friend, and Japan is currently our friend, and 
Russia is becoming our friend. But until we see China stopping 
the spying and cyber attacks, and the crack downs, and the 
torture of the Chinese people, we cannot participate. We can't 
give their government that opportunity whereby they can compete 
with us and do some of the things that hurt their own people.
    So that is why this China issue is so important here. But, 
let me get to some of the other issues on the questions.

                   MULTI-PURPOSE CREW VEHICLE (MPCV)

    The members of the contracting community who will develop 
and build the launch system and the crew vehicle have told us 
that the program goals are achievable within the parameters set 
in the authorization. Have you looked at the data they are 
using to reach this conclusion? And if so, what assumptions are 
they using that differ from your own?
    General Bolden. Are you talking about the Orion conversion 
to MPCV? Congressman, we are actually working with the 
contractors even as we speak to help determine whether or not 
we can make the transition from the Orion contract to the MPCV, 
and then how do we make it affordable if that can be done? So 
we are working with them. Hopefully the data is the same 
because that is where we get it through our program office from 
the contractor. So I would hope that we are all citing the same 
data.

                  CONSTELLATION SPENDING UNDER THE CR

    Mr. Wolf. Okay. The NASA IG issued a letter in January 
stating that the provisions of the current CR are causing NASA 
to spend hundreds of millions of dollars on aspects of the 
Constellation program that might otherwise have been cancelled 
or scaled back. Many people have interpreted this letter to 
mean that NASA is wasting that money. NASA has not made the 
final architecture determinations yet for the new exploration 
program, so is it premature to say that any particular program 
element is definitely unnecessary? Could you please state for 
the record whether you agree with the characterization that the 
current CR is causing NASA to waste money? Do you agree or 
disagree with the IG?
    General Bolden. Congressman, I disagree that we are wasting 
money and I think we sent a letter to that effect. However, I 
do agree with the IG that the soonest possible relief from the 
restriction of terminating the Constellation program, then the 
better off we would be because it causes difficulty in managing 
how you control assets.
    Mr. Wolf. Now there is language that is in the CR, that is 
still pending, because it did not----
    Mr. Culberson. Prohibition, it is cancelling Constellation.
    Mr. Wolf. But does the fact that there is House-passed 
language to address this not give them any flexibility at all? 
Would there be, and I am just asking, a way of doing the 
language in the next CR extension that could give you the 
ability to do what you think is appropriate, even though it is 
not a final CR? I will talk to the staff.
    General Bolden. Yes, sir. Congressman, whenever the 
language is changed, and I am freed up to terminate the 
program, we will do so wisely and in an orderly manner. But 
right now, the money that we spend under the Constellation 
contracts are money that--it is the way that I directed, that 
we spend money on things that are useful for future programs. 
Programs that we see we will need for heavy-lift launch 
vehicle, for MPCV, for technology development. If they fit that 
category, then we have asked that we continue to spend the 
funds on that. But not spend it on something that we know has 
no use, and that is what we are trying to do to the greatest 
extent possible.

                   COMMERCIAL SPACEFLIGHT, CONTINUED

    Mr. Wolf. Okay, I have a number of questions on commercial 
crew, which we will submit for the record. One you have covered 
with regard to the $350 million requested over the authorized 
level. With the requested fiscal year 2012 money, NASA expects 
to fund a third round of proposals to advance potential 
commercial vehicles to the preliminary design review stage. 
While this is significant, it is still a long way from having a 
functional vehicle that can serve as our primary transport to 
the Space Station. When do you expect the first commercial 
crewed flight to take place? Will this require NASA to extend 
its current contracts with the Russians to provide interim 
transportation? And in addition, what is it costing us per 
flight with the Russians? What was the negotiated price? How 
did we reach that? I think you made a very good point earlier. 
If they are the only car dealer in town, you have got to buy 
your car from them. And so do you expect the cost to continue 
to escalate the longer it goes? Do you see any sign that they 
are moving to change that? Is it a fixed contract? Can you just 
sort of wrap all that into an answer?
    General Bolden. Congressman, I am not at liberty to talk 
about the specific dollar values because there is ongoing work 
right now to finalize the agreement that would take us out to 
2016 to be able to buy seats on Soyuz if necessary.
    My belief, going back to your first question, the 
commercial entities have told us that three years from the date 
of signing a contract to produce a human, a commercial crew 
vehicle, then they would have the ability to deliver. So, that 
would mean if we are able to go on the schedule we are on right 
now, we are talking 2015-ish before we have our first crew 
vehicle. That is about four years from now, four, five years if 
you go to the end of it, which is significantly less than where 
we were before. I am confident we can do that, provided we get 
the funds to keep a competitive process going. When I say I had 
to stay within the budget, and I want to keep my crews safe, 
and I want to live within the constraints, the major elements 
of the Authorization Act, I looked at what I needed to do to 
buy down risk on commercial crew, and that was invest some 
money over the amount that was in the Authorization Act. And 
that is where the $850 million estimate came from. That allows 
me to keep at least two contractors in the competition when we 
finally get to the end.
    Mr. Wolf. I do not want you to share your cards necessarily 
with regard to the Russians, but what is the cost of the first 
trip?
    General Bolden. Congressman the present, I think, let me 
take it for the record. Because I think, I know the present 
contract is in the neighborhood of $50-some-odd-billion a 
flight, a seat. But that includes training, facilities----
    Mr. Fattah. You mean $50 million a seat.
    General Bolden. What did I say? Did I say----
    Mr. Fattah. You said billion.
    General Bolden. Oh, no, no, no. Not billion. I am sorry. 
No, we do not, but I will take it for the record, sir. Because 
we need to let you know what it is that we are paying for.
    [The information follows:]
                    contract cost for seats on soyuz
    The most recent modification to NASA's contract for Russian 
services, including crew transportation and rescue using the Soyuz 
spacecraft, was signed in March of 2011. The modification had a value 
of $753M, and provides services through June 30, 2016. The modification 
covers comprehensive Soyuz support, including all necessary training 
and preparation for launch, flight operations, landing and crew rescue 
of long-duration missions for 12 individual space station crew members. 
The contract will provide for the launch of six people in calendar year 
2014 and six more in 2015, as well as their return to Earth in the 
spring of 2016 after a six-month stay aboard the station. This results 
in an average cost of about $62.7M per seat, which also includes other 
associated services and some minimal cargo on Soyuz.

    Mr. Wolf. Do we have to pay luggage, like in the commercial 
airlines, less for carry on?
    General Bolden. No, sir. But we do, but it does, there are 
costs that we have that we pay when we pay the Russians that we 
would not pay a commercial entity because we would be paying 
them for seats and some other services. The contract that we 
have with the Russians is for an extensive amount of support--
--
    Mr. Wolf. But what about the second and third? How does 
that quite work out for the next time?
    General Bolden. We are still living under the agreed upon 
amount through--I need to get back to you, sir. I do not want 
to give you a date. It is like 2014 or so we are under----
    Mr. Wolf. Okay.
    General Bolden [continuing]. We are under an amount that is 
defined already. The contract that we are working on with the 
State Department, and if we get approval, will go through 2016. 
But I will get you----
    Mr. Wolf. Okay, if you could have----
    General Bolden. I will get you that information.
    [The information follows:]
                             seats on soyuz
    The most recent modification to NASA's contract for Russian 
services, including crew transportation and rescue using the Soyuz 
spacecraft, goes through June 2016.

    Mr. Wolf. If you could have your staff----
    General Bolden. But we are not, I can tell you that unless 
something changes we will not be able to give you the 
negotiated amount right now because the contract has not been 
finalized. I am told that it is just not available.
    Mr. Wolf. Is this a positive thing for the Russians, too, 
though? Sometimes somebody in a business deal can become so 
greedy that they are holding out, and all of a sudden the other 
person walks away. Do they not also need this revenue to 
continue to do certain things that they are doing, too? Is 
there an equal benefit in some respects?
    General Bolden. The Russians are a valuable partner, and 
they have been a valuable partner throughout the life of the 
International Space Station. They have provided access to Low-
Earth Orbit in the International Space Station when we had 
none, after the Columbia accident. So there is great value in 
remaining in this partnership, all of the partners, all five of 
the major partners. When you talk about the European Space 
Agency, fifteen growing to twenty-some-odd, everyone benefits 
from this partnership. Everybody wants to remain a member of 
the International Space Station partnership. So there is value 
in it for everyone.
    Mr. Wolf. Much of the flexibility in the development 
schedule for commercial cargo has been eroded over the past two 
years, and there is a strong likelihood that more problems and 
delays will arise as work continues. Given this likelihood, how 
confident are you that the remaining milestones will in fact be 
completed on time? And what are your contingency plans for a 
delay in the commercial resupply capability? How is this risk 
reflected in your budget?
    General Bolden. Congressman, the budget is good as it 
stands right now. We sized that budget so that we would be able 
to have available cargo delivery under the CRS system by early 
2012. That does represent some delays along the way, but we are 
confident that we will have cargo availability from two 
carriers by early 2012.
    Orbital still has to fly their first flight. But Orbital, I 
must remind everyone, is a very reputable, very experienced 
company. Has been around since the 1980s, 1990s, has flown 155 
successful missions with satellites of all kinds. They have 
flown 100 percent successful missions for NASA, in the Minotaur 
vehicle which we hand to them for processing after we get it 
surplus from the Department of Defense.
    SpaceX has had one incredible flight when they launched 
Falcon 9 and Dragon back in December. So everybody right now is 
marching along at a pace that makes me comfortable that we will 
have commercial capability to deliver cargo reliably to the 
International Space Station in the early 2012 timeframe.

                         SPACE STATION SUPPORT

    Mr. Wolf. Okay. Leading to the Space Station in the next 
question, the decision to continue supporting the Space Station 
through 2020 costs about $3 billion a year. This is money which 
could otherwise be used to meet exploration goals, increase 
aeronautics research, or do other important activities. If we 
are going to sacrifice those opportunities in order to support 
the Station, we need to be sure that we are getting our money's 
worth, and that means making sure that the Station is being 
fully used for its intended research purposes. What is the 
current research utilization rate of NASA's share of the Space 
Station? And how do you expect that rate to change as we 
progress through fiscal year 2012?
    General Bolden. Congressman, I would have to go back to my 
opening statement and remind everybody of one thing. I think I 
used the term yesterday. The Station is the new Moon. The 
International Space Station is the anchor for all future 
exploration on the part of not just the United States but our 
international partners. So, if we lost the International Space 
Station we are dead in the water. We do not have a place in 
microgravity that is available for us to do the types of 
research and development that we need for new capabilities that 
enable an exploration program. So that is how valuable the 
International Space Station is.
    That was what caused me to change my mind about the size of 
distribution of funds. I have to have an exploration program. 
But if I do not have an International Space Station that is 
crewed and supplied, and by the commercial entities. Because 
that is the decision that was made, it was actually made in 
2004. And I would have to say, I generally do not complain 
about the past because that is water under the bridge. The 
decision was made in 2004 to rely on commercial entities for 
access to Low-Earth Orbit and it was ignored. There was no 
money put toward it. My predecessor was, to my knowledge, was 
the first to really start putting money toward a commercial 
entity, but it was half-stepping.
    President Obama has said, ``Look, we cannot get there 
unless we carry out what previous administrations decided was 
necessary.'' So we are going to get there, and the commercial 
entities are going to be a vital part of that partnership that 
gets us there. But, if I lose the International Space Station 
that will set up exploration, any type of exploration, human 
exploration for decades.

                         CREW TIME FOR RESEARCH

    Mr. Wolf. Following up on that, astronauts on the Station 
have a variety of demands on their time, including daily 
operation and maintenance work and crew health sustaining 
activities. While these are clearly necessary, they reduce the 
amount of time available for actually conducting research. When 
we talk about reaching a goal of 100 percent research 
utilization, what does that actually mean in terms of the 
number of hours spent per day on research?
    General Bolden. Congressman, let me take it for the record 
to give you the hours per day. But the balance of crew time, at 
least the last time I was talking to somebody about it, was two 
of the crew members are generally considered to be the 
``maids'', if I can use that term. They will not like that, but 
they will rotate duty in maintaining the Station. The other 
four will be totally involved in research, and that is the way 
we will operate the Station.
                         crew time for research
Background on how NASA tracks crew time for research
    Because the planning and execution of space missions is complex, 
crew activities are tracked in great detail, including their personal 
time and break time. A normal crew day includes 6.5 hours of scheduled 
work tasks, 1 hour for lunch, 2.5 hours for exercise and hygiene, 50 
minutes for daily planning conferences, and 70 minutes for work and 
plan familiarization and procedure review, 2 hours of pre-sleep 
(including 1 hour for dinner), 8.5 hours of sleep, and 1.5 hours for 
post-sleep (including 50 minutes for breakfast). When NASA reports 
``crew time for research,'' this only counts those scheduled work tasks 
from the 6.5 hour block that is for research activities. Important 
research data collected during the exercise period, and much of the 70 
minutes of work familiarization and 50 minutes of daily planning 
conferences, is also part of conducting research each day.
    Scheduled work tasks include research and facility work; assembly 
work; maintaining life support systems; vehicle traffic operations, 
such as docking, undocking, loading and off-loading; internal and 
external maintenance; medical operations; on-board training; and other 
routine activities such as news media interviews, equipment audits, 
computer maintenance, inventory management, tag-ups and communications 
system testing. Crews generally work five days a week, but on weekends 
they have many housekeeping duties, so they effectively receive only 
3.25 hours of unscheduled time on Saturdays, and 7 hours of free time 
on Sundays.
    Crew time reporting is also split among the three NASA and 
international partner astronauts (called U.S. Operating Segment, or 
USOS, crew members), and the three Russian cosmonauts. NASA integrates 
and plans the time for the USOS crewmembers, though the entire crew 
works as a team in maintaining and operating the ISS.
Amount of crew time for research
    The strategic target for research crew time during ``full 
utilization'' is an average of 35 hours per week for the three-person 
USOS crew, with a similar target for the Russian segment cosmonauts. As 
ISS shifts from assembly to the research mission through 2011, the 
Program is approaching this target and expects to reach it in 2012. 
This is equivalent to 7 hours per day of a 5-day workweek for formally 
scheduled hands-on USOS research activities; the Russian segment has a 
similar target. Research activity in future years should continue to 
increase as ISS operations grow more efficient through activities 
funded within the ISS functionality budget, part of the FY 2012 
President's request.
    It also should be recognized that crew time is just one component 
of research, since much of the research is being accomplished by 
facilities working automatically being tele-operated from control 
centers around the globe. Experiments on the Station are designed 
specifically to minimize the amount of crew interaction required. For 
example, one recent physical sciences experiment used 9.5 hours of crew 
time for installation, but supported more than 6,000 hours of 
experiment operations.

    What will change in the near term, as soon as we are able 
to announce a non-governmental organization (NGO) that will 
assume responsibility for the evaluation and selection of 
research and experimentation to be flown on the Station, some 
time no later than this summer will be that NASA will get out 
of the business of evaluating and selecting the experiments 
that go on board. That will be handled by a nongovernmental 
organization. And at some point down the road----
    Mr. Wolf. Who will that be?
    General Bolden. We do not know yet. It is a competition 
right now that is underway. And so someone will take that over. 
Ideally where we would like to get will be to the point where 
even NASA experimentation and research is folded into the 
evaluation----
    Mr. Wolf. What is an example of that?
    General Bolden. Oh, what would be an example?
    Mr. Wolf. Yeah.
    General Bolden. For example, the salmonella vaccine that is 
under development right now is about to enter human test. That 
would have been, if we had a non-governmental organization, 
that research would have been selected by this non-governmental 
organization.
    Mr. Wolf. But when you say non-government, just give me an 
idea of----
    General Bolden. Oh, the Hubble Space Telescope, the Space 
Telescope Science Institute is an NGO. It is, if you go up to 
the campus of Johns Hopkins there is the Space Telescope 
Science Institute, and they handle the scheduling, they handle 
everything for the Hubble Space Telescope. We have NASA 
astronomers who vie for time, but we do not physically run the 
operation of Hubble. That is a, I would classify that as an 
example of----
    Mr. Wolf. Okay.
    General Bolden [continuing]. Sort of a non----
    Mr. Wolf. Who is going to make that decision?
    General Bolden. Bill Gerstenmaier, who is the Associate 
Administrator for the Office of Space Operations, is the 
selecting official.
    Mr. Wolf. And when is that expected?
    General Bolden. I talked to him as late as yesterday and he 
told me probably early summer.
    Mr. Wolf. And who is competing for that?
    General Bolden. Who is competing?
    Mr. Wolf. Yeah.
    General Bolden. Sir, let me take that for the record. I do 
not----
    Mr. Fattah. Open solicitation, Mr. Chairman, right now.
    Mr. Wolf. It is?
    General Bolden. Yes.
    Mr. Fattah. Online----
    Mr. Wolf. How many have applied?
    General Bolden. Congressman, let me get back to you. I do 
not have that information.
    [The information follows:]
                   cooperative agreement notice (can)
    NASA posted the Cooperative Agreement Notice (CAN) for the ISS 
National Laboratory non-governmental entity on February 14, 2011. Due 
to the competitive nature of the selection process, NASA is not able to 
provide the names of respondents, but by March 4, when notifications of 
intent were due, the Agency had received eight responses.

    Mr. Wolf. If we could just know, if it is public record, 
who has----
    General Bolden. Oh, it is a matter of public record now. 
Who the, I will get back to you because I do not know whether 
the bidders, you know, the competitors are known publicly. It 
is like any competition that we do.
    Mr. Wolf. Sure.
    General Bolden. It is like any competition. But we will get 
that to you.
    Mr. Wolf. Okay.
    The authorization act requires NASA to provide initial 
financial assistance to the nonprofit lab manager. Does your 
budget request include funds for that?
    General Bolden. The budget request for 2012 includes the 
funds to start the nonprofit----
    Mr. Wolf. And how much is that?
    General Bolden. Congressman, let me get back to you. I will 
take that for the record. I do not know exactly what that is.
    Mr. Wolf. And do all the entities competing know what that 
is? How do you make a bid if you do not know what the budget 
will be?
    General Bolden. Congressman, the way that contracts are 
generally handled is that we look at a reasonableness factor so 
that we let the bidders know what we think the range is for 
pricing. We give them that range. And I, you know, my guess is 
we have done the same thing here. So anybody that bids outside 
that range probably----
    Mr. Fattah. Mr. Chairman, the solicitation indicates about 
$15 million a year would be available for an entity to manage 
this laboratory on----
    Mr. Wolf. Now where did that $15 million come from? Or was 
that in just sort of a----
    General Bolden. Congressman, I will get back to you. I will 
get back to you on the specifics of that. That was developed in 
the Office of Space Operations Mission Directorate.
    [The information follows:]
                          national laboratory
    NASA is currently conducting a competitive acquisition for a 
cooperative agreement with a non-profit organization to manage the ISS 
national laboratory component of U.S ISS utilization. In accordance 
with statutory requirements under the NASA Authorization Act of 2010 
(P.L. 111-267), 50 percent of the U.S. share of ISS utilization 
capacity will be made available for use by organizations other than 
NASA under the National Laboratory initiative. The President's FY 2011 
and FY 2012 budgets for ISS include $15M per year for this ISS National 
Lab non-profit organization. The $15M per year level was determined 
during development of a reference model for the organization. NASA 
believes this is an appropriate level to both operate a small non-
profit organization and set aside approximately $3M of the $15M for 
strengthening of the basic research grants. It's important to note that 
this was a reference model for cost-estimating and scope determination 
purposes. While the $15M per year remains the current funding 
allocation for the cooperative agreement, the proposals and final award 
will determine what portion remains available to strengthen the grants 
component. After the final award, NASA will assist to identify areas to 
reduce overhead costs as appropriate. In addition, NASA will encourage 
the non-profit organization to become a self-funded organization as it 
matures in future years.

    Mr. Wolf. Okay. Well we have a number of other questions. 
Mr. Yoder asked about James Webb, and we have a number there, 
too. We will have a number of questions on the launch vehicle 
also.

                              AERONAUTICS

    On aeronautics, I looked at your chart here. Aeronautics is 
really almost an orphan. Has anyone ever thought you ought to 
change your name?
    General Bolden. Congressman, the reason that I have opted 
to put as much into aeronautics as we have, and it is not 
nearly enough, is because I want to return the big ``A'' to 
NASA. NASA is the National Aeronautics and Space 
Administration.
    Mr. Wolf. No, I agree with you. Believe me, you have my 
total and complete support. The aeronautics program is not as 
highly visible as many of NASA's other missions, but it has an 
outsized impact on the American economy and on the everyday air 
travel experiences of regular Americans. Have you done any 
economic impact studies to measure the return on investment 
provided by the aeronautics program to the American aviation 
industry?
    General Bolden. Congressman, I have, and one of the ones I 
attempted to cite for you, was our new airplane engine concept 
that we have been working with American industry. That is where 
we have found, and industry agrees, that there is potential to 
reduce about 40 percent of the fuel consumption in the engines 
that we are, engine technology that we are helping them 
develop. That is where I got my number.
    We looked at 19.6 billion gallons of jet fuel were used in 
2008. If you take that at $3 a gallon that is $58.8 billion 
just for jet fuel in 2008. If I got back, so if they realize a 
40 percent savings on that and you gave me 1 percent of it I 
could run my aeronautics budget right now at $588 million.
    Mr. Wolf. Well they are talking about $4 a gallon by the 
end of the----
    General Bolden. Then that makes it even better, sir. But 
that is an example of the economic return on NASA's minimal 
investment of taxpayer dollars.
    Mr. Wolf. Could we get more of that? Because I am a strong 
supporter of doing what we can. It would pain me to see GE sign 
the contract with the Chinese to develop their avionics system, 
and to take jobs away from Boeing. In essence, they are selling 
the rope that they are going to use to hang Boeing. And yet, 
the President picked Immelt, head of GE, to be his big jobs 
man. This was a jobs program for China. So I want aeronautics 
to be here. I want it to be more American.
    Which leads to the next question. Where are the jobs? That 
is the mantra of everyone in both parties. Where are the jobs? 
Jobs give men and women dignity and money for their families, 
but also keep America number one economically. We seek no 
domination of power, we seek freedom and liberty. Ronald Reagan 
said the words in the Constitution were a covenant with the 
entire world. I want American to be number one for those 
reasons. Not for money, but for freedom and liberty and 
democracy.
    So when NASA develops new aeronautics technology, and 
matures it into the point that it can be transferred to the 
industry, how do you ensure that the benefits of that 
technology go first to American aviation companies?
    General Bolden. Congressman, the best way we can do it is 
to continue our cooperation with U.S. industry the way that we 
do.
    Mr. Wolf. Have you ever thought about bringing all of the 
aviation industry people together for a conference to say, 
``Okay, where are you going? And where would you like to be? 
How can we participate to develop a partnership?'' I know there 
are some in this Congress that say there can be no partnership 
between government and the private sector but other countries 
are doing it. Have you ever thought of bringing everyone 
together, or maybe you do, and saying, ``Where are we today? 
What would you like to be doing? What should we be doing? Maybe 
we are going to plus this up. Maybe we are going to do more.''
    General Bolden. Congressman, that is the way we determine 
what our aviation portfolio is. Dr. Jaiwon Shin, who is my 
Associate Administrator for Aeronautics, goes to the industry 
and asks them what is it that NASA should do for you? That is 
how we know that they want us to work on engine technology. 
They do not, for example they do not want us to work on 
development of alternative fuels. They want us to work on the 
development of engines that can use anything. Water, junk----
    Mr. Wolf. In the interest of time, I am going to go to Mr. 
Fattah. Could you have Dr. Shin come by?
    General Bolden. Yes, sir.
    Mr. Wolf. I do not know that we can do this. But I would 
like to almost write every avionics and aviation company and 
say, ``What is NASA doing that you like? And what is NASA not 
doing that you would like to see them do?'' Because they 
technically are your customers, but they are also the people 
that pay taxes. And so you ought to be doing what puts America 
first. I want to know that there is a connectivity, and not 
because there was a congressman one day that pushed this or 
pushed that. So if he could come by and he could talk to me----
    General Bolden. I will have him do that, sir. He can give 
you background on something, for example, like the continuous 
descent and arrival program that we developed that represents a 
cost savings of about $1.2 billion to the airline industry. We 
had Continental and United participate in tests at Denver----
    Mr. Wolf. Do you think if I asked the people in the 
aviation industry they would say enough money is being spent to 
do what you----
    General Bolden. Oh, they would tell you no way. I hope they 
would. If they tell you that enough money is being spent on 
aeronautics research then I would be very disappointed in the 
industry. I would hope that they would be my biggest proponent 
and my biggest cheerleader, saying that we need to spend more--
--
    Mr. Wolf. You know, you might tell your friend at the White 
House, Dr. Holdren, that he ought to tell me what he was doing 
in China for twenty-one days. What do you do in China for 
twenty-one days? Who is he meeting with? We do not want the 
Chinese aeronautics industry to surpass Boeing or EADS. So 
maybe we can informally ask a couple of trade associations, 
``what would you like to see NASA doing that it is not doing?'' 
Therefore we are not just taking your person's word.
    I saw the other day, did you see the story, that a Chinese 
company was going to bid to do Air Force One, the helicopter?
    General Bolden. The helicopter?
    Mr. Wolf. Yeah.
    General Bolden. Marine One?
    Mr. Wolf. Yeah, Marine One.
    Did you see that, Mr. Fattah?
    Mr. Fattah. No, I missed that, Mr. Chairman. I would be 
beside myself if we were going to have a situation where Air 
Force One, or Marine One, would be developed by anything other 
than an American company.
    Mr. Wolf. Well I tell you what we should do, then. Maybe 
the Committee ought to carry language prohibiting that. And I 
will tell you----
    Mr. Fattah. I would be in support of that, Mr. Chairman.
    Mr. Wolf. I am on a resolution with another member from 
your side, which I will talk to you about later, to kind of 
prohibit that. The thought of Marine One being made by a 
Chinese company just would not be good. So I appreciate Mr. 
Fattah. We are both from Philadelphia, we were both raised in 
Philadelphia. What high school did you go----
    Mr. Fattah. Overbrook, the best in the world.
    Mr. Wolf. I went to Bartram. In fact, that was the big 
competition, Bartram and Overbrook.

                         CONTRACTING PRACTICES

    We have some other questions. Let me cover the contract 
issue. And I am going to go to you after this, Mr. Fattah. A 
review by GAO last year found that more than half of NASA's 
biggest development projects had exceeded their baseline 
estimates. The average cost growth was 19 percent and the 
average schedule delay was fifteen months. You instituted a new 
cost-estimating policy in 2009 that was intended to address 
NASA's problem with inaccurate baselines. But due to the 
recentness of the policy change we have not seen evidence that 
it is working. Do you feel confident that this policy will 
noticeably increase the accuracy of your baselines? When will 
you have sufficient data to actually demonstrate that 
improvement? And one other question, so you can round it in--
under the policy, projects need to be budgeted at a level that 
ensures a 70 percent chance they will be completed within 
budget and schedule parameters, but there is a provision 
allowing exemptions from this rule. In what circumstances would 
you make an exception to allow a project to move forward with 
less than 70 percent confidence in its budget and schedule?
    General Bolden. Congressman, we work under what is called a 
JCL, joint confidence level, that was instituted in 2009. I 
gave the example of Juno and GRAIL being two of the earliest 
projects that were run under that concept, and I am told, are 
coming in on cost and schedule. I am cautioned, however, by my 
experts that we need five, six, seven years to tell whether we 
really got what we said we were going to get. Because operating 
costs is a part of a contract and everything.
    So, but if you look at where we are in development and 
progress to launch for those two projects which came in under 
the JCL, it is working.
    Mr. Wolf. Well your contracting practices have been on 
GAO's government-wide high risk list for more than twenty 
years. And so----
    General Bolden. Congressman, you are absolutely correct.
    Mr. Wolf. Well I guess the question would be, as I go to 
Mr. Fattah, when do you think you will get off of it? Twenty 
years is pretty----
    General Bolden. Congressman, may I, please do not 
misinterpret what I am about to say. My Deputy and my Chief 
Acquisition Officer, who is my Chief Financial Officer, look at 
this every single day because they have to talk to GAO. But we 
are probably never coming off the high risk list because we 
build one-of-a-kind things. Almost every time we build 
something, it is a new experience. What we hope to do with the 
JCL is prove that we can effectively and accurately project 
what cost and schedule are going to be. So, if that is 
successful, you will find us come off the----
    Mr. Wolf. Okay.
    General Bolden. I hope that that would be sufficient for 
GAO to take us off the high risk list. But I am not sure how we 
get on there, to be quite honest. So, other than the fact that 
we do risky stuff.
    Mr. Wolf. Okay. Well, I have other questions on that.
    General Bolden. Yes, sir.
    Mr. Wolf. Mr. Fattah?
    Mr. Fattah. All right, let me thank the Chairman. And when 
these questions of international human rights come up, it is a 
pretty lonely area because a lot of people want to focus on 
more important things, or more business. And I really want to 
make sure that the Chairman understands that the fact that he 
is unrelenting on this question of improving human rights in 
China is not lost on me, and is appreciated I am sure by many 
even if it is a lonely pursuit. So I want to thank you.
    And I am going to go out and visit the Jet Propulsion 
Laboratory later on this month, and I am also going to go to 
the Dryden facility. I think it is important, I am a 
politician, so I really do not know much about rocket science, 
you know? And I think that when we have to make these decisions 
it is helpful, it is helpful at least for me to try to get my 
arms around some of the challenges that the agency faces. But 
when I look at this just from a political standpoint and I see 
a little small country like Singapore, they are investing over 
$5 billion this year in their national science foundation. Now 
this is a country with less than five million people in it, in 
the total population. Here we are, we are a nation of 300 
million people. We are trying to win a competition against 
countries, you know, China is, what, a couple of billion 
people? India with a billion people. And, you know, when we get 
to our science foundation we are going to be in the single 
digits, in terms of billions, in terms of the level of 
investment.
    I do not want to join in any of the pursuit around trying 
to round out the numbers, and the cost cutting here and there. 
I think that the argument we need to be making is that the 
country cannot afford to lose this race. That America cannot 
afford to concede space or science to others anywhere in the 
world even if it actually costs us money. That is, even if we 
have to pay to do it, that as American citizens we would have 
to pay taxes so that we do not position ourselves as a nation 
fifty years from now, and a lot of us will not be around, that 
the position, the curious situation for our children and our 
grandchildren, a situation where they are being victimized by 
these human rights abuses that the Chairman is talking about 
because we refuse to make the investments.
    Now we need to be clear about this. We have a situation 
within our schools in terms of earning doctoral degrees in the 
hard sciences, two-thirds of those who earn those degrees in 
our country will not be, they will not be American citizens and 
they will not be staying here. That is to say, they will not be 
applying for citizenship and hanging around. They are going to 
take these intellectual tools and they are taking them some 
other place.
    So I just want to say, I heard the comments from the 
gentleman from Georgia. I am not a Member here who has a NASA 
facility in their state, even though I think we have members on 
the panel from California where there are a number of NASA 
facilities. I know about the important work of the Glenn Center 
in Ohio, and in Texas, Johnson, and all this. My interest in 
this is, and even if I had a parochial interest, I think all of 
our interests have to be focused on the nation's interest. I 
mean, investment in space is not a jobs program. This is a 
question of the survival of our country and prosperity of our 
country.
    So I just think that we have to get focused on what are the 
needed investments. We talk about estimates and, you know, when 
you looked at the estimates for the Capitol Visitors Center, 
what we priced to build something in brick and mortar that has 
now come in two or three times that amount, right? You know, we 
are not trying to put somebody on the moon. I mean, this is 
just a basic brick and mortar structure and we could not get 
close to what it would cost. And Vice President Cheney said 
that the Iraq War was going to pay for itself.
    So I think we ought to be mindful that as we go forward, 
and I think that the Chairman has talked about this in very 
important ways, that we need to be focused on, to the degree 
that we are focused on fiscal restraint we need to be focused 
on the areas of the budget where we are spending money. This is 
not an area where we are spending a great deal of money, even 
though it may sound like a lot of money. But in comparison, it 
is not. I just think that we have to think in longer terms 
about what we are doing, make the needed investments we need to 
make, and we need to get competent administration. And 
obviously you, and the President in his selection of you to 
lead this agency is, you know, is an extraordinary gift for the 
nation, given your background and your leadership policies. But 
we need to give you the tools so that you can function.
    And I am happy to hear that the Chairman says in the next 
CR we are going to try to work out the problem that we created 
between authorizing you to proceed past the Constellation, but 
at the same time requiring you to spend a couple of hundred 
million a month on Constellation. It puts you in a bind. And it 
does not help us make the investments that we need to make. So 
I want to thank you for your testimony.

                             SPACE STATION

    I have a couple of questions in particular about the Space 
Station. So now we have built this over the last ten years. We 
have had continuous human astronauts on the Space Station for 
ten years, right?
    General Bolden. Yes, sir.
    Mr. Fattah. Over 200 people have been on the Space Station, 
rough number?
    General Bolden. I will get you the exact number. I am not--
--
    [The information follows:]
                      international space station
    There have been 198 different visitors to the ISS, representing 15 
countries.

    Mr. Fattah. All right. And now it is going to be a national 
lab?
    General Bolden. Yes, sir.
    Mr. Fattah. But it is also the kind of, you say it is the 
platform for our further efforts, and I am interested in that 
part of this. How we see the Space Station, which is about the 
size of a football stadium right?
    General Bolden. Yes, sir.
    Mr. Fattah. Okay.
    General Bolden. About a hundred----
    Mr. Fattah. I tell you I am, you know, and now the Mars 
Rover was about this size, right?
    General Bolden. Yes, sir. Now Mars Science Laboratory (MSL) 
is going to be a lot bigger.
    Mr. Fattah. The first one.
    General Bolden. But Spirit and Odyssey are, Spirit and 
Odyssey are little things.
    Mr. Fattah. Right, I got you. And Spirit we have not heard 
from for a few months, but I bet NASA that it is still going to 
function. So I am in total agreement. So I am just saying in 
terms of perspective, we plan on using the Space Station as the 
base from which NASA would go in terms of its further efforts. 
If you could expound on that for a minute, that would be 
helpful. And I was figuring out about the $3 billion that you 
want to spend. Now $3 billion sounds like a lot of money. We 
are spending that amount, we are spending that in an average 
week in Afghanistan. Just so we are clear as a nation about 
putting these things in some perspective. So if you could help 
us think about what you are trying to do on the Space Station?
    General Bolden. Congressman, let me give you just three 
examples if I can. The first one would be one of the, the 
seventh crew member on Discovery, on STS-133 last week was 
Robonaut 2, a humanoid robot. And Robonaut 2 will----
    Mr. Fattah. Now that was done in partnership with GM?
    General Bolden. That was done in partnership, I was going 
to say, that was a Space Act agreement with General Motors that 
is ongoing. It is not over. And General Motors came to us and 
said, ``We have a need.'' And NASA said, ``We have a need.'' 
And so we came together, collaborated with industry. I was 
telling Congressman Clark, who is from Detroit, yesterday, when 
he said, ``I do not have a NASA center. I do not have anything 
that has anything to do with NASA.'' I said, ``Congressman, let 
me send you some stuff because you need to go back into Detroit 
and make people in Detroit proud that they are now on the 
International Space Station.'' Because they are, in the 
presence of Robonaut 2.
    R2 is going to start working this spring to see how we can 
collaborate, how a robot, a humanoid robot, can collaborate 
with astronauts on board. At some point we are probably going 
to, you know, I do not know when, but we will probably put R2 
outside and see how much R2 can do to alleviate putting 
astronauts at risk by having them do space walks. Eventually we 
would like to demonstrate the fact that we do not have to put a 
human on the surface of Mars to build the infrastructure. That 
by the time we send humans there the village will be built, 
because robots will have done that.
    I have got to be able to integrate science, aeronautics, 
human exploration, and technology into one big thing. That is 
what we are trying to do in NASA now. We are looking at an 
integrated picture. We are not doing things the way we used to. 
And that is the message I am not getting across to people very 
well. Because when you asked me why do I believe in my budget, 
and why do I think we can do what I say we can do, it may take 
us longer to do aspects of it. It may take me longer than 2016, 
for example, to have a heavy lift launch vehicle and an 
integrated crew exploration vehicle. I do not know that yet, it 
may, but we are going to get there. Because these are difficult 
fiscal times. And we have had to adjust the budget to fit 
within these difficult fiscal times.
    While, you know, my job, the President has asked me to lead 
the greatest civilian organization in the world, bar none. Keep 
astronauts safe: I am doing that. Explore: we are doing that. 
We do that every single day. We are going to launch another 
satellite called Glory on Friday and it is going to do great 
things.
    I get emotional about this because it is important. And it 
is important for me to be able to articulate how important we 
are to the nation, and how important it is for us to carry out 
the President's plan for education. Because everybody on this 
committee has said this all day long, you know, we are so 
close. As I said in my opening statement, we are all in synch. 
Believe it or not. We may be different parties, or you all may 
be different parties because I am apolitical. But we all talk 
about the same things we want to do. It is just how we get 
there. And because these are very difficult times and we have 
to make very difficult choices I need your support when I make 
a hard choice.

                           HUMAN-LIKE ROBOTS

    Mr. Fattah. So let me see if I can put this together. We do 
not have the technology yet to take a human being to Mars. We 
know we can take an object to Mars, right?
    General Bolden. Oh, yes. Yes, sir.
    Mr. Fattah. We have done that a couple of times.
    General Bolden. We have done that. Right. Hard to do it, 
but we have done it.
    Mr. Fattah. So when we take an R2 and put it on the Space 
Station in part we are thinking about a humanlike robot that at 
one point we may be able to put on Mars to build out an 
infrastructure so that when we deliver a human being there, 
there would be the protection of the infrastructure because----
    General Bolden. Yes, sir. I do not want a human to have to 
go build something.
    Mr. Fattah. Right. And plus the, once you get out into deep 
space there are the radiation challenges, the other challenges 
are much more significant.
    General Bolden. That is human physics.
    Mr. Fattah. So you build, this is like a stepping stone----
    General Bolden. Yes, sir.
    Mr. Fattah [continuing]. To where we are going. Now we do 
not have the technology yet, but four years ago we did not have 
the technology to go to the Moon, or do any of these other 
things, or----
    General Bolden. Well we did at one time but we forgot about 
it.
    Mr. Fattah. Yeah. Or to build a Space Station.
    General Bolden. Yes, sir.
    Mr. Fattah. It took some ingenuity, right?
    General Bolden. Yes, sir.

                          SUPERIORITY IN SPACE

    Mr. Fattah. That is why we know that we are an exceptional 
nation, because we have done exceptional things. So now the 
President has set a much deeper goal for you and we are trying 
to build to getting it done. I just want to conclude with a 
question that gets to the different programs. We have got earth 
science, we have got space exploration, we have got a lot of 
different pieces here. I want to focus a little bit more on the 
purpose of this, right? So I want to just conclude if you could 
help the Committee understand and the country understand what 
it will mean if we forfeit or concede this race for superiority 
in space to others who have untoward interests to our own as a 
nation? What the costs will be to our country?
    General Bolden. Congressman, we are fifteenth, seventeenth, 
and twenty-fifth in reading, science, at math. And I may have 
the numbers not precise. We will fall further behind. We, right 
now every nation looks to us for leadership when I go to the 
International Space Station. Whenever I go to a meeting of my 
international partners, the heads of agency, everybody says, 
``We need for you to lead.'' If we give that up they will turn 
to somebody else and it may not be somebody we like.
    So, you know, my job is to lead this agency. As I said, 
make sure we do what you and the President tell us to do 
through appropriations and authorizations and that is what we 
are doing. Stay within budget, which is something that people, 
you know, do not think we are serious about but we are really 
serious about it. And make difficult choices. And we have made 
some difficult choices but there will be much more difficult 
choices. When you talk about infrastructure, these kinds of 
things, and then everybody is going to run away from me. I do 
not want you to do that. I want you to help me stand up to the 
scrutiny and, the way you all always do. But I, you know, we 
have got difficult choices ahead.
    Mr. Fattah. Well I want to thank you again. When we finish 
voting today, I am going out to visit a couple of our national 
labs. And I think that this whole area of the country's work is 
vitally important. You cannot disconnect it from educating our 
children, or making sure that we have the agricultural 
capability to feed our population. Running the greatest country 
on Earth costs money.
    General Bolden. Yes, sir.
    Mr. Fattah. I know we have some very well-meaning people in 
the Congress and in the country who want us to cut costs. You 
know, we need to be wise about what we are doing here. Because 
we do not want to cut costs that end up creating a circumstance 
for our nation in which we have cut off our nose to spite our 
face.
    General Bolden. Congressman, may I say one thing? And it is 
just because I have been, I have cut one partner out, and that 
has been industry. We have not had an opportunity to talk to 
them a lot, and I know some of them are here, some of them will 
hear this. I have the best partners in the world in American 
industry, and I have faith in them. And I need to have, I need 
to have other people in positions of leadership have faith in 
them. They once, several of their leaders told me, and I wrote 
it down, a piece of something is better than all of nothing.
    Industry is coming together now. And companies that in the 
past in terms of our contracts would not even think about 
talking to each other, they understand----
    Mr. Fattah. Well let me just say this, because I know we 
have to wrap up. I am for us working with American industry.
    General Bolden. Yes, sir.
    Mr. Fattah. There are cross currents here, though. We have 
to be very careful. And we are going to have to be a little 
different than we have been. Because all this open source 
information, if we are taking American taxpayers' money and we 
are developing technology, I do not necessarily think that that 
technology should then be made available to people who have not 
invested around the world, and then used against American 
industry in competing against us and going after an opportunity 
to build Marine One. I think we do not want to work against our 
own purposes as a nation at the end of the day.
    So we need to have American industry. We also need to have 
some proprietary control over the technology that American 
taxpayers are investing in, in ways that do not put our own 
country at a disadvantage at the end of the day.
    General Bolden. Yes, sir.
    Mr. Wolf. Mr. Culberson?

                           LONG TERM PLANNING

    Mr. Culberson. Thank you, Mr. Chairman. I could not agree 
with you more strongly, Mr. Fattah, and I will absolutely be 
working with you arm in arm on that. I wanted to, we are 
apparently going to have votes here in a few minutes. And 
Administrator, I really appreciate you being so patient and 
staying here with us. We are really devoted to you, and really 
want to find ways to help you in every way we can to get you 
the money you need to do your job better and also give you some 
longer term support. I was just talking to Chairman Wolf about 
perhaps us getting together to do sort of a joint hearing after 
we get through the appropriations process to talk about the 
long term. How do we make sure, we for example, I know and my 
dear good friend Mike Coats, the Director of Johnson Space 
Center tells me, and that you all are dear good friends. And 
you may be able to tell me more precisely, Administrator. But 
in the time that you have been an astronaut, worked with NASA, 
Mike tells me, because I think your careers are very similar, 
and the time that you have been together----
    General Bolden. We have been together for forty, more than 
forty years. We came together in the summer of 1964.
    Mr. Culberson. 1964?
    General Bolden. In the Class of 1968 at the Naval Academy.
    Mr. Culberson. At the Naval Academy?
    General Bolden. Yes, sir.
    Mr. Culberson. So you were both in, both then saw service 
in Vietnam?
    General Bolden. Yes, sir.
    Mr. Culberson. And then joined the space program, and the 
time that you have been with the space program, did Mike tell 
me that you all have seen the Congress create and then cancel 
over twenty different, major----
    General Bolden. My deputy right now is looking at a study 
that we asked for on programs that were started and stopped and 
it is more than twenty-some-odd. But I would say if you want to 
look at one thing that we did to the end, it is important for 
the American people to note that their investment in the 
International Space Station came to fruition day before 
yesterday. Because we have completed construction of the 
American elements of the International Space Station. So if 
somebody says we cannot do something and finish it, we have 
completed construction of the U.S. element of the International 
Space Station.
    Mr. Culberson. And we are immensely proud of that 
achievement. I want to make sure that Mr. Fattah catches that. 
I was just getting for the record, Mr. Fattah, that the, NASA, 
could you be sure that you repeat that----
    General Bolden. The space walk that we did day before 
yesterday----
    Mr. Culberson. No, before that.
    General Bolden. Oh, before that?
    Mr. Culberson. Yeah, how many programs, how many----
    General Bolden. Oh, there is some twenty-plus programs. 
When we finish the study we can make it available.
    Mr. Culberson. The point is that NASA----
    General Bolden. We are trying to find out why we did it. 
You know, how does it happen?
    Mr. Culberson. We did it to you. Congress did it to you.
    General Bolden. Well, I am not pointing fingers.
    Mr. Culberson. No, I know you are not, I know. But these 
wonderful people that devote their lives to, what is it Captain 
Kirk says? To explore brave new worlds? To explore new worlds 
and go where no one has gone before. We have over the years, 
Mr. Fattah, created and then canceled over twenty----
    General Bolden. Twenty-some-odd programs.
    Mr. Culberson [continuing]. Major rocket programs, space 
exploration programs. Well no wonder you all have had so much 
difficulty over the years, and then inadequate funding. Plus 
they get their hopes up, boom, get their hopes up, boom, work 
on a program, boom. That has got to stop. And you are 
absolutely right about thinking in the longer term. And I want 
to work with you and the chairman after we get through our 
appropriations process. Let us think about having a joint 
hearing in great detail to talk about how we get NASA on a 
predictable, stable funding and planning path that does not 
subject these wonderful people to this up and down. It would 
really, I think, help them immensely. Would it not?
    Mr. Fattah. Sure, that would be great. That would be a 
worthy thing for us to spend some time doing.
    Mr. Culberson. It really would, after we get through all 
the appropriations cycle.
    General Bolden. That would be an incredible gift to the 
nation. I tell everybody what we want to do is something that 
is affordable, sustainable, and realistic.
    Mr. Culberson. Bingo, we are there.
    General Bolden. And if we can do that--
    Mr. Culberson. Well we will help you with that.
    Mr. Fattah. Mr. Administrator, what I want to do is beat 
everybody else. All right? I want to make sure that America is 
Number One. Even if we have to spend beyond what we might feel 
comfortable at a particular moment.
    General Bolden. Yes, sir.
    Mr. Fattah. I still like to be in the lead. I think the 
view is always better from the top, right?
    General Bolden. Yes, sir.
    Mr. Culberson. Absolutely. And I will certainly help you 
with that. National Journal just ranked me as the tenth most 
conservative member of Congress. I am still trying to figure 
out what I did to screw up and only get number ten, but I am 
with you on this. I mean, I voted against the RSC budget for 
that reason, because it severely cut NASA. Law enforcement, 
Chairman Wolf, you and the staff protected NASA in the proposal 
that was submitted. The amendment, there was only one adopted 
that really cut, was Mr. Weiner's that shifted I think cross 
agency money, $300 million over to the COPS program. And we are 
going to work to help make sure to protect that in the CR.

                             ORION PROGRAM

    Let me ask you a couple of specific questions and then some 
broader ones. Will the Orion program, sir, be canceled or 
transferred into the Multi-Purpose Crew Vehicle? Just simply 
renamed into the Multi-Purpose----
    General Bolden. Congressman, what we are looking at is 
trying to find if we can transition the contracts for Orion 
into the Multi-Purpose Crew Vehicle.
    Mr. Culberson. And so----
    General Bolden. And we will know that and we will know, we 
will have an assessment as to whether it is affordable by the 
summer when we give----
    Mr. Culberson. Okay.
    General Bolden [continuing]. Our next report to you guys.
    Mr. Culberson. With this up and down in mind I do not want 
to lose that talented workforce, those wonderful people that 
have put their heart and soul into building the next manned 
space capsule. You are going to keep all those folks? You are 
not talking about any layoffs, or----
    General Bolden. Congressman, I wish I could say that. I do 
not control, and I have told my center directors, do not get 
involved in the business of our contractors. I do not make 
those decisions.

  CONFLICT BETWEEN PRIOR APPROPRIATIONS BILLS AND THE AUTHORIZATION, 
                               CONTINUED

    Mr. Culberson. And the thing that is fouling you up is of 
course you cannot, you have this language, one of these things 
that is fouling you up is the language and the statutory 
requirements. You cannot cancel Constellation, which of course 
includes Orion. And that was signed before the December 10th 
CR. The CR language that Mr. Mollohan did that predates the 
authorization. The statutory language in our appropriations 
bill from last year that Mr. Mollohan put together with all our 
support that says you cannot cancel Constellation, that is 
statute, right?
    General Bolden. Yes, sir.
    Mr. Culberson. And then after that in December there was a 
continuing resolution signed in December that was silent. Oh 
excuse me, the authorization was then signed in October which 
says you are going to build a heavy lift rocket and a manned 
capsule. And the old rule, the statutory interpretation is the 
last statute signed controls. I think this is where you all 
wrapped around the capsule. So we have got to get you some 
clarification pretty quickly.
    General Bolden. Yes, sir.
    Mr. Culberson. And the chairman, I am delighted we are 
going to work on that with the help of Mr. Fattah, all of us 
together, to get you some clarification. What you need is 
clarity so you can follow the authorization, right?
    General Bolden. Yes, sir.
    Mr. Culberson. Okay. That would really help you a lot? 
Immensely?
    General Bolden. Sir, it would. The authorization act 
postured us very well. The President's proposed budget for 2012 
postures us very well. So----
    Mr. Culberson. But you need to follow that authorization. 
It is hard for me as a lawyer to explain how it works.
    General Bolden. Yes, sir.
    Mr. Culberson. I mean, it got me tangled up.
    General Bolden. If I can get relief from the restriction on 
terminating Constellation, that will help.
    Mr. Culberson. And all of those, all that research, all 
that work that you are doing on Constellation to develop a 
heavy rocket, to develop a manned capsule, that all transitions 
very easily into the authorization language to develop a heavy 
lift rocket and a manned capsule, does it not?
    General Bolden. No, sir.
    Mr. Culberson. They are pretty much----
    General Bolden. I am not able to say that. That is what I 
am, I do not want to be boxed into a corner. I am still looking 
at the contracts for Orion and the contracts for the rest of 
Constellation to see if we can legally and within procurement 
regulations move them. If that is the case, then they have to 
be affordable. So----
    Mr. Fattah. Maybe we could clear this up. I think it would 
be safe to say that you see it as being desirable to have the 
least disruption to this workforce----
    General Bolden. Absolutely.
    Mr. Culberson. There you go.
    General Bolden. That is so vitally important as humanly 
possible, but you have to operate within the law.
    I have to operate within the law.
    Mr. Fattah. And with what budget is available.
    General Bolden. Yes, sir.
    Mr. Culberson. And we need to give him some statutory 
clarification as soon as possible.
    General Bolden. Yes, sir.

                NASA'S IMPLEMENTATION OF DECADAL SURVEYS

    Mr. Culberson. That would be great. Okay. The decadal 
survey is about to come out, very soon. We are about----
    General Bolden. That is correct.
    Mr. Culberson. Throughout the history of NASA, the United 
States being the leader, and number one, we have throughout 
history until very recently always flown the top priority 
mission in the decadal survey in each one of the categories. I 
think, and it is my recollection as an avid student of the 
space program and history, I think that is an accurate 
statement. Until recently NASA----
    General Bolden. Congressman, let me get back to you on 
that. I do not know because when I left NASA in 1994 I did not 
know what a decadal survey was.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Culberson. I have researched it personally and I can 
tell you that we have----
    General Bolden. Yes, sir. I am just, you asked me for an 
answer and I cannot give it to you. Right? I do not know.
    Mr. Culberson. Sure. I can tell the committee I have 
researched it personally. This is near and dear to my heart 
that we----
    Mr. Fattah. That could almost qualify you to be a member of 
Congress----
    Mr. Culberson. Yeah. And it is, the reason I am bringing it 
up, sir, is that I am concerned that, I want to make sure that 
you have got the funding that you need to pursue those top 
priority missions in each one of those categories. Are you 
satisfied that the funding level that the President has 
recommended, that you have in front of you, is sufficient for 
you to fund and fly each of those top priority missions in each 
one of those categories?
    General Bolden. Are you talking about----
    Mr. Culberson. Just the number one missions.
    General Bolden. You mean the one that is coming out----
    Mr. Culberson. Yes, sir.
    General Bolden. Congressman, since I do not know what the 
decadal survey is going to give me I cannot say that. I do not 
know. The FY 2012 budget was put together without any knowledge 
of the decadal survey. So they, provided they come out without 
something that is reasonable, and they use the FY 2012 budget 
in their prioritization, then I would be able to say yes. But I 
have no idea whether they took the the 2011 budget. It used to 
be that the decadal surveys did not pay any attention to the 
budget, and they did what the science community wanted and 
expected us to eat it. At least nowadays, I am told that the 
decadal surveys, the teams are generally pretty judicious about 
looking at where they think the budget is going to be.
    Mr. Culberson. Mm-hmm.
    General Bolden. Now since this one was convened when the 
President, I think it was convened maybe even before the 2011 
budget. But I will get back to you on when it convenes.
    [The information follows:]

    NASA requested the NRC conduct the new Planetary Science decadal 
survey in a letter to the NRC dated December 5, 2008. The Survey 
steering committee held its first meeting in July 2009 and its final 
meeting August 2010. The President's 2011 budget request with its 
outyear funding projections through FY 2015 was the information on 
budget availability the NRC had in hand when planning its approach.

    Mr. Culberson. But what I am driving towards, Mr. 
Administrator, is for the committee, for Mr. Fattah, and 
Chairman Wolf, that for all of us to recognize that we are 
entering an age of austerity unlike anything we have seen 
before. We have got to protect NASA's ability to make sure that 
America has the world's premiere, number one, manned space 
program and unmanned programs. We are all committed to that. I 
want to make sure that we are, as a Nation at least funding the 
top priority missions of the decadal survey. The best source 
for us to look to if we are going to try to prioritize 
planetary missions, missions like Hubble looking beyond the 
solar system, it would be the decadal survey, would it not? I 
mean that is really----
    General Bolden. That is the voice of the community.
    Mr. Culberson. Absolutely.
    General Bolden. Whether it is astrophysics, planetary, or 
whatever, we put a lot of stock into the voice of the 
community. What the community may not know is where NASA sits 
budgetarily.
    Mr. Culberson. Mm-hmm.
    General Bolden. So, that is where we have to prioritize.
    Mr. Culberson. So if we as a committee wanted to build a 
firewall around, of course, only the manned program to make 
sure that we protect it, whether it be Mr. Weiner, or Mr. 
Jordan, our friends on both sides trying to come after NASA. If 
we wanted to build a firewall, the committee, this subcommittee 
wanted to build a firewall around NASA's manned spaceflight 
capability and your unmanned capability, talking about the 
unmanned missions first and robotics. Would not a good firewall 
be to say that NASA needs to, we need to make sure this 
committee preserves the ability of NASA to fund and fly the top 
priority mission designated by the decadal survey in each one 
of the categories?
    General Bolden. Congressman----
    Mr. Culberson. Would that make sense?
    General Bolden. It makes sense. But if you wanted to build 
a firewall----
    Mr. Culberson. That is what I am looking for.
    General Bolden [continuing]. I would say empower the NASA 
Administrator to work with the Congress and the White House 
each year once the budget is established so that we can 
reestablish priorities or readjust priorities----
    Mr. Culberson. No, I understand.
    General Bolden. [continuing]. In accordance with fiscal 
constraints.
    Mr. Culberson. It makes sense.
    General Bolden. If you put a firewall around the results of 
the decadal survey today and the Congress changes everything 
next year, then I am back where I am----
    Mr. Culberson. No, I understand. We would protect you 
statutorily as well. I am talking about protecting you for the 
long term. And we really are going to dive into this, and I am 
going to do my best to work with this subcommittee and the 
authorizing subcommittee so we can flesh this out with NASA's 
input and guidance to figure out a long term glide path that is 
predictable, stable, consistent. You do not have to worry about 
these year to year struggles and you can actually, all of you 
magnificent people that work in the space program, can predict 
with some certainty that you can pay the mortgage, send the 
kids to school, and still go where no man has gone before and 
discover brave new worlds and new civilizations.

                                 EUROPA

    Okay, the Europa mission in particular is a big flagship 
mission. It was in the last decadal survey. It is probably 
going to--almost certainly going to--be the top priority of the 
decadal survey in this mission, in this decadal survey. And I 
mention it to you because I have also found out, you know, 
Europa first of all has more saltwater than the Earth, liquid 
saltwater. They have confirmed that. It has got tidal flexing, 
like when you bend a credit card, that means there is a lot of 
heat down there in the bottom of that ocean where the pressure 
is equivalent to the deep ocean on Earth where we have already 
shown that the plate boundaries have got incredible colonies of 
life. So Europa is almost certainly going to have life. If you 
are going to find life anywhere it is going to be on Europa. So 
the decadal survey has made it a top priority--there is the 
vote. I want to be sure to point out to Mr. Fattah and Mr. 
Wolf, and you may not be aware of this either, sir, that 
apparently in a very recent study that I read in Science--or I 
forget, maybe the journal of Nature--discovered that the water 
ice on Europa being bombarded by the radiation from Jupiter all 
these billions of years, the radiation strips away the hydrogen 
and leaves the oxygen. And then the oxygen is churned back down 
into the liquid saltwater ocean. So the saltwater ocean of 
Europa not only has heat but it has been oxygenated for 
billions of years. Which makes it an even higher priority.
    That is going to be an expensive mission. It is a flagship 
mission. And I wanted to ask you about it. Are you guys 
planning for that, to make sure that we are flying that 
flagship mission to Europa that needs to include a landing----
    Mr. Fattah. If the gentleman would yield for one quick 
second?
    Mr. Culberson. Sure.
    Mr. Fattah. Because you just announced within the last two 
months, right, that you found a number, five or so, Earth-like 
planets----
    Mr. Culberson. Right, beyond the solar system----
    Mr. Fattah. You might want to just respond in general to 
this point and----
    Mr. Culberson. But it would start with Europa.
    General Bolden. Well Congressman I was just going to say 
that the decadal survey when it comes out
    Mr. Fattah. Is that in Texas?
    Mr. Culberson. No, and it is not even flown out of Texas.
    General Bolden. When the decadal results are announced next 
Monday then we will take a look at what they said and we will 
look at how we prioritize it based on where we are in our 
planetary budget.
    Mr. Culberson. But the Europa mission is built in, is it 
not? Have you built in----
    General Bolden. No, sir. You know----
    Mr. Culberson. It was in the last decadal, it is going to 
be in this one.
    General Bolden. Let me get back to you. Because you are 
asking me to verify that we are flying----
    Mr. Culberson. You are upsetting me, dodging that. That is 
a big one. We are really going to be short of money. And we are 
going to need to build a firewall, Mr. Chairman, around these 
decadal survey missions. We cannot cede either the manned 
program leadership to China or anybody else, and we certainly 
cannot cede the leadership in flying these big missions, 
whether it be to the sun, or Mercury. We are about to go into 
orbit around Mercury any day now, right? Is it Messenger?
    General Bolden. Messenger? Yes, Messenger is due to get to 
Mercury----
    Mr. Culberson. In the next couple of weeks.
    General Bolden. It is.
    Mr. Culberson. I think, it is going to go into orbit around 
Mercury. And of course the Webb is, I am glad you got those 
cost overruns, and Mr. Fattah when you visit the Jet Propulsion 
Laboratory----
    General Bolden. We are not there yet, sir. I do not want 
you to overstate what I said.
    Mr. Culberson. Right, right, right. But----
    General Bolden. We are trying. We are going to get them.
    Mr. Culberson. You are doing your best. But it is an 
extraordinarily important mission. And when you go to JPL you 
will meet Charles Elachi, who is another national treasure. 
They do great work out there. But one of the problems they have 
had over the years is they will give, they think by giving, 
over the years giving us low estimates at the beginning of a 
big mission that maybe we are going to fund it. And then the 
estimates, boom, the reality comes in higher. Dr. Elachi has 
told me that they are working hard from their end, and I know 
you are on your end, to give this subcommittee more realistic 
estimates of what these big missions are actually going to cost 
on the front end.
    General Bolden. That is the joint confidence level process 
that I----
    Mr. Culberson. Right.
    General Bolden [continuing]. That I talked about a little 
bit----
    Mr. Culberson. That is critical. That is where a lot of 
these cost overruns come from. I know we are in the middle of 
this vote. I can submit a lot of these for the record because 
we are short of time. And you have been very generous, Mr. 
Chairman, and Mr. Administrator, with your time, sir. Thank 
you.

                            ASTRONAUT CORPS

    Mr. Wolf. Thank you. We have a number of questions we will 
submit for the record. I just wanted you to make one comment on 
one issue. How are you adjusting the size of the astronaut 
corps, and the programs that support the corps, to reflect 
reduced flight opportunities between the end of the Shuttle and 
the first flight of the new exploration program? And the 
missions being contemplated under the new exploration program 
are significantly different than the missions executed by 
Shuttle astronauts. How will the requirements of future members 
of the astronaut corps differ from the requirements of the 
current members?
    General Bolden. Congressman, we have a study that was 
instituted through the National Research Council that we expect 
to get back within months that is going to help us answer that 
question. So I do not have, the study is not complete yet. We 
are looking at what should be the size of the astronaut office, 
what type of support apparatus, whether it is airplanes or 
other things. We are looking at what we need to have to support 
the astronaut office of the future. And I do not have that----
    Mr. Wolf. And when will that be ready?
    General Bolden. Let me get back to you, sir. I am, it just 
escapes my mind right now.
    Mr. Wolf. Okay.
    [The information follows:]
                            astronaut corps
    The National Research Council (NRC) study on the future of the 
Astronaut Corps is due to be delivered in August 2011.

    General Bolden. But I would remind everybody, we just named 
three, the crews for three more increments to the International 
Space Station. So, we are continuing to assign astronauts to go 
to the International Space Station for six month increments for 
the next ten years. So, we still have astronauts who are going 
back and forth to Russia to train and spending these two years 
of their lives investing in getting ready to go to the 
International Space Station. And we just named three new crew 
increments.
    Mr. Wolf. Okay.
    Mr. Culberson. Can I do one more, real short?
    Mr. Wolf. Okay. Sure.

                      ALPHA MAGNETIC SPECTROMETER

    Mr. Culberson. Just real short. I want to ask about the 
final shuttle flight. Administrator Griffin had put on the 
manifest that it was a high energy observatory----
    General Bolden. That is the next flight is AMS----
    Mr. Culberson. And that will be flown?
    General Bolden. That is STS-134.
    Mr. Culberson. And that will be flown?
    General Bolden. And that is the Alpha Magnetic 
Spectrometer. It is now mated in the VAB. I think we did that 
yesterday. So we will launch AMS on the Shuttle Endeavour, let 
me make sure I have got the right one.
    Mr. Culberson. Is that the last flight?
    General Bolden. No, sir. The last flight will be on 
Atlantis in June.
    Mr. Culberson. Okay, thank you.
    Mr. Fattah. Mr. Chairman?
    Mr. Wolf. Go ahead.

                          EDUCATIONAL BENEFITS

    Mr. Fattah. Just to conclude, and I want to thank you, Mr. 
Chairman. We have to go vote. You are relieved of duty. But 
when you led the first Marine Expeditionary Unit into Kuwait, 
you know, there were Kuwaiti kids who were here at American 
universities when Kuwait was overrun by Iraq. And they were 
here studying. You know, the Kuwaiti government provides 
unlimited educational support. These kids can go, if they want 
to get a doctoral degree in nuclear physics, or aeronautics, or 
whatever. So they were here studying. And our young people, you 
were leading them in----
    General Bolden. Congressman you, I do not want to get in 
trouble with General Boomer. I was not there.
    Mr. Fattah. No, no, you were there.
    General Bolden. No, I was not there then.
    Mr. Fattah. But you were leading the First Expeditionary?
    General Bolden. I led the First Marine Expeditionary Force 
forward in 1997. But that was, that was between wars. I was----
    Mr. Fattah. I got you. My point is that these kids from 
Kuwait----
    General Bolden. Yes, sir.
    Mr. Fattah [continuing]. The country our young people were 
protecting----
    General Bolden. Yes, sir.
    Mr. Fattah [continuing]. Have a benefit, and had a benefit, 
an educational benefit that allowed them to pursue their God 
given----
    General Bolden. That is correct.
    Mr. Fattah [continuing]. Intellectual talents.
    General Bolden. Yes, sir.
    Mr. Fattah. That is not a benefit we provide to our young 
people in this country. And I just want us to be clear, we need 
to get our priorities in order as a nation about what we need 
to be doing to prepare ourselves to compete in this world. And 
it is an unfortunate paradox that we could provide the 
resources to protect their country with our young people while 
they provide their resources to educate their children.
    Mr. Wolf. Thank you for your testimony. The hearing is 
adjourned.
    General Bolden. Congressman, thank you so very much.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 10, 2011.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS 

DR. SUBRA SURESH, DIRECTOR, NATIONAL SCIENCE FOUNDATION

   Opening Remarks of Vice Chairman Bonner and Ranking Member Fattah

    Mr. Bonner. Good morning. Chairman Wolf is testifying at 
another hearing and we expect him here in just a few minutes. 
In the meantime, he asked us to go ahead and get started.
    I had the pleasure of introducing myself to the witness 
earlier. My name is Jo Bonner. I am from Mobile, Alabama, and I 
am pleased to serve as vice chairman of the Subcommittee.
    I would like to welcome everyone to the hearing today on 
the fiscal year 2012 budget request of the National Science 
Foundation. Our witness is Dr. Subra Suresh, the Director of 
NSF.
    Sir, thank you so much for being here with us today.
    Dr. Suresh, you are sitting before a subcommittee which I 
hope you know is very supportive of your agency and its mission 
to advance the country's scientific research and educational 
enterprises.
    Our national struggles in these areas have been well 
documented, most notably in the 2007 report entitled ``Rising 
Above the Gathering Storm.''
    Unfortunately, in spite of the increased visibility of the 
problem, it appears we have made very little lasting progress 
in reversing some of the trends that were outlined in that 
report. In fact, an update of ``Gathering Storm'' issued just 
last year concluded that our situation has only gotten worse.
    We have an enormous challenge ahead of us. We are facing 
unrelenting competition from other countries that are highly 
motivated to overtake our position as the global leader in this 
global economy. And we have to face that competition while we 
are still dealing with a very slowly recovering economy, one we 
hope continues to recover, but I think by all accounts is the 
worst recession since the Great Depression.
    It is clear to Members on both sides of the aisle that NSF 
will play a key role in meeting that challenge and helping to 
push the United States back to the forefront of technical 
innovation.
    Your ability to play that role obviously depends on the 
size of the budget at your disposal, and that is what we are 
here to discuss today.
    The NSF budget request for the fiscal year 2012 is $7.8 
billion. It represents, as you know, a 13 percent increase over 
your last enacted appropriation. That is a significant new 
investment, particularly given the constraints on the larger 
federal budget.
    Just as a quick aside, I came to Capitol Hill in 1985 as a 
young staffer for my predecessor in Congress. At that time, the 
deficit was $1.8 trillion. Now it is over $14 trillion.
    And as we all know, just the other day, it was reported 
that the deficit for February was $223 billion. So our Nation 
truly is struggling with serious financial challenges in front 
of us.
    But as I said earlier, the NSF is so important to our 
mission as a Nation.
    Within your total request, you have a number of significant 
new program proposals as well as some suggestions for where NSF 
can or should scale back its involvement.
    I know I will have some questions for you, as will the 
Ranking Member and others who will be coming. There are several 
committee hearings taking place at this time, so please do not 
take offense at Members coming and going throughout the 
morning.
    In a moment, Dr. Suresh, we will have you give a summary of 
your written testimony and then we will proceed with the 
questions.
    But before we do that, I would like to turn to my friend, 
the gentleman from Pennsylvania and our Ranking Member, Mr. 
Fattah, for any opening remarks he would like to make.
    Mr. Fattah. Thank you very much.
    And I want to thank the chairman. And it is a pleasure to 
see him in the chair even though this is not his formal role on 
this committee, but our chairman will be here momentarily. I 
was watching him testify before a hearing in the Homeland 
Security Committee.
    But let me welcome you. It is good to see you again.
    I agree with the chairman that the national debt is a very 
important priority. In fact, next week, I am going to be 
offering legislation to address the national debt in the most 
forceful way that would have been suggested to this point.
    So I do not minimize it, but I do not see the glass as half 
empty. I see it as mostly full. That is to say, we are the 
wealthiest country in the world. We have well over $900 
trillion in transactions, money moving around in our economy 
every single year.
    The notion that we cannot afford to pay our bills I think 
is a faulty one. Whether we cut one and a half percent of the 
budget this year or something a little less than that, which is 
the debate between the $41 billion and the $61 billion between 
the two parties, is not going to address our debt. It is not 
going to address our deficit. It is really a distraction. We 
spend a lot of time being distracted here in Washington.
    I want to focus on the question of the country's future. I 
think we have this kind of sense that we are a declining power, 
we are broke, we cannot afford to do the things that we need to 
do to prosper as a Nation, that is to educate our children or 
to invest in science and innovation. I do not believe that 
about our country.
    Now, I spent the weekend with some of my Republican 
colleagues. We went out to visit a couple of our national labs. 
I was at Sandia. I was at one of the other nuclear weapons 
laboratories, at Los Alamos. I saw how exceptional our Nation 
truly is. I mean, I saw in the work of these scientists what is 
really being done.
    And when you look through the great work of the National 
Science Foundation, whether it is the over 1,200 scientists you 
have at the South Pole or all of the other investments and 
building blocks, as you call them, in our country's future, I 
think that we should be inspired as a Nation.
    Now, I think that is a paltry sum, that is this $7.8 
billion, even though it is a 12 percent increase, 13 percent 
increase.
    When you look at a country like Singapore with less than 5 
million people, 4.8 million people investing $5 billion in 
their National Research Foundation, making a commitment as a 
nation that takes three percent of their gross domestic product 
and have it in scientific research, it should suggest to a 
Nation like our own that we risk being pushed aside on this 
kind of innovation highway if we are not careful.
    First of all, we cannot be a superpower on the cheap. We 
cannot fight two wars, not pay for it, add it to the debt, give 
away tax breaks to people and not account for it in any way, 
and grow the domestic side of the budget all at the same time, 
which is what we have done over the last ten years and then be 
intellectually surprised that we have a debt or a deficit. I 
mean, it is just that the two do not add up.
    But at the same time, we cannot afford not to make the 
investments in science for our national security, for our 
economy. And I think that the Congress, whoever is in the 
majority, and the other team is in the majority at the moment, 
we owe it to our country to make these investments because as 
we compete with much larger countries like China or India, the 
only way a country of 300 million people is going to be able to 
position itself is through the same decision that Singapore 
made.
    It is a very rational decision that if you are going to 
have a smaller population, then, you have to innovate more. You 
have to educate more. You have to do these things.
    And so I am looking forward to your testimony and I hope 
that as we go through this that we will not try to apply an 
unscientific approach to protecting our country's security 
economically and in other ways, that in some notion that we can 
somehow dumb down our population, do less research, less 
investment, and somehow still stay ahead.
    Thank you very much.
    Mr. Bonner. Thank you, Mr. Fattah.
    Dr. Suresh, your written statement will be made a part of 
the record and now you may proceed with the summary of your 
remarks.

         Director Suresh's Introduction to the FY 2012 Request

    Mr. Suresh. Thank you.
    Chairman Bonner, Ranking Member Fattah, soon to come 
Members of the committee, it is my privilege to be here with 
you today to discuss the National Science Foundation's fiscal 
year 2012 budget request.
    My name is Subra Suresh and I am director of the National 
Science Foundation.
    I came to the United States as a young engineering student 
because it was the world's beacon of excellence in science and 
education. The mission of NSF is to sustain that excellence as 
we continue to lead the way for the important discoveries and 
cutting-edge technologies that will help keep our Nation 
globally competitive, prosperous, and secure.
    The fiscal year 2012 budget request for NSF, as the 
chairman said in his statement, is $7.8 billion, an increase of 
13 percent or $895 million over the fiscal year 2010 enacted 
level.
    NSF's request is consistent with the President's Plan for 
Science and Innovation and with the America COMPETES 
Reauthorization Act of 2010.
    America's economic prosperity and global competitiveness 
depend on innovation that comes from new knowledge, new 
technologies, and a highly-skilled and inclusive workforce. NSF 
has an unparalleled track record in supporting the best ideas 
and the most talented people for over 60 years.
    The fiscal year 2012 budget builds on these past 
accomplishments and provides a direction for future success. 
NSF will strengthen support for basic research in education, 
the building blocks of future innovation while strengthening 
our disciplinary excellence.
    A new NSF-wide investment of $117 million will accelerate 
the progress of science and engineering through the deployment 
of comprehensive cyberinfrastructure. Cyberinfrastructure 
Framework for 21st Century Science and Engineering will explore 
ways to handle the vast quantities of data generated by today's 
cutting-edge observational and computational tools, broaden 
access to cyberinfrastructure, and support community research 
networks.
    Research at the Interface of the Biological, Mathematical, 
and Physical Sciences, a new $76 million investment, will 
explore nature's ability to network, communicate, and adapt and 
apply this understanding to engineer new technologies.
    This program aims to discover new bio-inspired materials 
and sensors and support the advanced manufacturing of bio-
inspired devices.
    Today's most challenging research problems often bring 
together insights from across computer science, mathematics, 
and the physical life and social sciences. INSPIRE, new to the 
NSF portfolio, is a $12 million investment to encourage 
investigators to undertake the interdisciplinary research that 
is the hallmark of much of contemporary science and 
engineering.
    Because NSF supports research across all disciplines, we 
are positioned to catalyze the new fields and new research 
paradigms that emerge from this cross-fertilization.
    Many NSF activities provide incentives for investigators to 
undertake use-inspired research that translates basic 
discoveries into applications for the benefit of society and 
the economy.
    A $15 million investment in Enhancing Access to the Radio 
Spectrum will pursue innovative ways to use the radio spectrum 
more efficiently, enabling more applications and services used 
by individuals and businesses to occupy the limited amount of 
available spectrum.
    Over the next five years, NSF will receive $1 billion from 
the Wireless Innovation Fund or WIN established with receipts 
from spectrum auctions.
    NSF's support of advanced economics research led to the 
FCC's current system of spectrum auctions that have netted over 
$45 billion for the Federal Government since 1994.
    The Wireless Innovation Fund is expected to provide $150 
million to NSF in fiscal year 2012 for research on cyber-
physical systems such as smart sensors for buildings, roads, 
and bridges. Many fields are on the threshold of discoveries 
that can establish U.S. leadership in next generation 
technologies.
    In the 1960s and 1970s, NSF's support of mathematical and 
process innovations led directly to rapid prototyping and 
revolutionized how products are designed and manufactured. The 
budget includes $190 million for a new advanced manufacturing 
initiative to pursue innovations in sensor- and model-based 
smart manufacturing and nanomanufacturing.
    Another investment of $30 million in the new interagency 
national robotics initiative will focus on robots that will 
work cooperatively with people in areas such as manufacturing, 
space and undersea exploration, healthcare, surveillance and 
security, and education and training.
    NSF will continue to play a lead role in the multi-agency 
National Nanotechnology Initiative with an investment of $456 
million, $117 million of which will explore signature 
initiatives in nanoelectronics, solar energy collection and 
conversion, and sustainable nanomanufacturing.
    NSF's support for nanotechnology research is already 
producing returns. Over the past decade, NSF nanotechnology 
centers and networks created 175 startups and developed 
collaborations with over 1,200 companies.
    U.S. leadership in science and engineering requires the 
most knowledgeable and skilled science, technology, 
engineering, and mathematics or STEM workers in the world. 
Three new programs in STEM education, each funded at $20 
million, will improve teacher preparation, strengthen 
undergraduate STEM education, and broaden participation of 
under-represented groups in the science and engineering 
workforce.
    People and their ideas form the core of a robust science 
and engineering enterprise, but leading-edge tools are also 
needed to advance the frontiers and train students for the 
workplace.
    The budget sustains investments in major recruitment and 
facilities projects that are already underway.
    To conclude, One NSF characterizes my vision for NSF as a 
model agency. NSF will work seamlessly across organizational 
and disciplinary boundaries to create new knowledge, stimulate 
discovery, address complex societal problems, and promote 
national prosperity.
    Robust NSF investments in fundamental science and 
engineering have paid enormous dividends, improving the lives 
and livelihoods of generations of Americans. The Fiscal Year 
2012 NSF Budget Request will carry this success into the 
future.
    Mr. Chairman and Members of the subcommittee, this 
concludes my testimony. I thank you for your leadership. I will 
be pleased to answer any questions you may have.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Bonner. Thank you very much for that testimony.
    We have been joined by our colleague, Mr. Aderholt from 
Alabama, who also has the pleasure of chairing the Homeland 
Security Subcommittee. And I think he indicated that he 
actually has to go out and prepare for a hearing that is coming 
up, but he may have some questions to submit for the record, as 
will other Members.
    Let's go into a few questions. And I think the first one 
probably should be the fact that we are operating under a 
Continuing Resolution at the present time. We are on a short-
term two-week extension. We will see where that goes in terms 
of whether we will have to do another one. Hopefully, though, 
Democrats, Republicans, Congress, the White House will be able 
to come to an agreement in the next few weeks so that we can 
have some certainty to finish fiscal year 2011.

                    IMPACT OF CONTINUING RESOLUTION

    How is the CR impacting the work of the NSF at the present 
time?
    Mr. Suresh. I think we are continuing with plans to honor 
commitments. We are spending wisely and carefully. We are very 
mindful of the need for continued workforce development. But it 
is constraining our ability, so there are two aspects to this.
    One is the real impact of it, but equally importantly and 
perhaps more importantly the psychological impact of it on 
students, faculty, and researchers in the country.
    And I would say that we wish we did not have a Continuing 
Resolution. We are working very hard to assure the community 
that we are doing everything possible within our constraints to 
make sure that their activities will continue to be supported 
by NSF while we are looking to the future at the very cutting 
edge in both research work and instrumentation for the 
community.
    Mr. Bonner. You know, it is interesting. I think Mr. Fattah 
would agree. I do not know any Member of Congress that likes 
the CR either. It is one of the hands that sometimes we are 
dealt.
    There may be some additional questions about the balance of 
fiscal year 2011.

       INCREASED FUNDING FOR GRADUATE RESEARCH FELLOWSHIP PROGRAM

    Let me shift, however, to the fact that your budget request 
proposes an increase in funding for the Graduate Research 
Fellowship Program and within that program, an increase in the 
educational allowance and stipend levels.
    My sister is the provost at the University of Alabama so I 
know how important this work is as it relates to graduate 
students throughout the country, at great universities like 
Penn State and Alabama and Brown and others.
    Higher allowances and stipends will certainly make the 
awards more useful to the individual recipients, but increasing 
the per award cost will reduce the total number of awards that 
can be made.
    Why in your view is this increase in the value of each 
award worth the loss of additional fellowship opportunities?
    Mr. Suresh. Thank you for that question.
    I think the Graduate Research Fellowships are an important 
part of what NSF does. Since 1962, NSF has supported 46,000 
graduate research fellows. I have had the honor and privilege 
of supervising more than ten students in two different 
institutions who have received NSF graduate fellowships.
    We have maintained a commitment to keep the increase that 
was introduced in 2010 for Graduate Research Fellowships. So in 
the fiscal year 2012 budget, we will have 2,000 graduate 
research fellows. But at the same time, the cost of education 
allowance has not kept up with the increasing cost of education 
over the past many years. So in the fiscal year 2012 budget, we 
will be increasing it from $10,500 to $12,000.
    Also, the cost of living has gone up quite a bit and 
graduate students already live in many places under substandard 
conditions. So we want to make sure that in the not-too-distant 
future, we also increase the stipend for graduate students so 
that we can address that as well.
    Because all three are important, I think if we do not 
support the students adequately, then their ability to go into 
graduate education is going to be reduced. At the same time, to 
improve the workforce, we have to support enough numbers and 
increasing numbers of graduate students.
    If you look at our budget, we have made some very difficult 
choices. It is not that we are asking for increases. There are 
also six programs that are going to be terminated. There are 
some programs that are being reduced which will impact graduate 
students. And I think this is a mechanism that we are trying to 
find.
    The other mechanism we are looking at, and it is also in 
the America COMPETES Reauthorization Act, is that the graduate 
research funds will be supported through a combination of funds 
allocated to EHR and also to the Research and Related 
Activities category of the budget.

                          PROGRAM TERMINATIONS

    Mr. Bonner. I am going to have some additional questions, 
and I would like to yield to Mr. Fattah, but could you tell us 
about the six programs that you are proposing to eliminate?
    Mr. Suresh. Sure. So of the six programs, the major program 
that will be eliminated will be DUSEL, Deep Underground Science 
and Engineering Lab. The National Science Board, which is the 
oversight body for the National Science Foundation, in its 
meeting in December unanimously and very clearly articulated 
that the model that was proposed for stewardship of DUSEL was 
inconsistent with the mission of NSF and was not acceptable.
    In light of that, the Administration has proposed to 
terminate the fiscal year 2012 budget for DUSEL. So that will 
be one of the programs.
    The other program is the Graduate STEM Fellows in K through 
12 Education or GK-12. GK-12 is a program that was initiated in 
1999. This program has had a rich and successful history. We 
have had some very good outcomes out of this, but NSF always 
funds good things, learns from the experience, gets community 
feedback, and funds for a long period of time.
    But we have to move to new directions as well. So as a 
result of this, we will incorporate the best practices of GK-12 
into other programs as we move forward. We will honor existing 
commitments for GK-12 in 2012, but there is no new funding for 
GK-12.
    The third program is called National STEM Distributed 
Learning program or NSDL and, again, with increasing emphasis 
on cyberlearning and other activities across NSF in different 
portfolios, including in EHR and some of the new programs that 
will come into existence, it was decided that we take the best 
practices of this and terminate this program for fiscal year 
2012.
    The fourth program is Research Initiation Grants to Broaden 
Participation in Biology. Broadening participation is at the 
core of NSF. It is in every activity that we do. And since 
joining NSF, I have made a very firm commitment to broadening 
participation in everything we do.
    So one of the things we decided to do was to take in this 
program and fold it into other activities. And one of the new 
programs that will be initiated in EHR will address aspects of 
this program as well.
    The next one is the Science of Learning Centers. These have 
provided useful input. Now, we have had extensive reviews of 
the successes of these programs and some will continue and 
terminate over time. And those that have served their useful 
purpose, we take the input and then we will wind them down over 
the coming years.
    And the last one is a Synchrotron Radiation Center at the 
University of Wisconsin. This is a 30-year-old center and just 
refurbishing it will not keep us at the forefront of this 
field. So, therefore, it was decided to terminate it.
    Mr. Bonner. Thank you very much.
    Mr. Fattah.
    Mr. Fattah. Let me work from the general for a minute here 
and we will get to some specifics.

         INTERNATIONAL COMPETITIVENESS IN SCIENTIFIC DISCOVERY

    The National Science Foundation has invested in the 
research of a couple hundred thousand scientists and a whole 
range of areas that statutorily you have been instructed to do 
basic research in. And this is the only entity of the Federal 
Government that has this singular responsibility in terms of 
basic scientific research.
    You are involved with the National Academies both here and 
in other countries, Germany and the like. I wonder if you could 
share with the subcommittee your perspective on this kind of 
international race in terms of science.
    Let me give you a for instance. The computer was obviously 
developed here, and I would have the chairman note, at the 
University of Pennsylvania in my district. But today if we are 
looking for the fastest supercomputers, they would not be in 
the United States of America. They would be in China.
    And so when you go to talk about simulations, we do not 
have the world's fastest or the greatest computers anymore. And 
you could go over all kinds of areas where we see competition 
successfully challenging America on this front.
    So I was wondering if you could, given your perspective, 
give us a sense about what you think it means to our Nation if 
we allow others to move substantially ahead of us in these 
areas of scientific discovery.
    Mr. Suresh. Thank you, Mr. Fattah.
    As you mentioned, I have been fortunate and very privileged 
to have had the opportunity for a number of international 
experiences. I received my first degree in engineering from 
Indian Institute of Technology and came to the United States.
    I am quite active in a number of academies, the German 
National Academy of Sciences, the National Academy of 
Engineering in the U.S., and the Engineering and Science 
Academies in India, and the Science Academy in Spain.
    And you mentioned in your opening remarks about the 
investments that the government of Singapore makes. The 
Singapore government created the National Research Foundation 
on January 1, 2006. In fact, I know the existence of that 
particular entity since the day it was founded. And I had 
interacted quite a bit with that foundation through my 
activities as dean of engineering at MIT.
    And one of the things that is happening now as we face the 
biggest budget constraint since the Great Depression and the 
biggest financial crisis since the Great Depression, we are 
also facing unprecedented competition from the international 
arena, from countries large and small.
    I met with a number of colleagues from China who tell me 
that over an already increasing base for research funding over 
the last two decades or so, over the next five to six years, 
there is discussion that China will increase its research 
funding including basic research funding by 50 percent from 
already a high level.
    Singapore, as you indicated, a tiny country of 4.6 million 
people, invests billions and billions of U.S. dollars into 
research. And I have seen the infrastructure go up in front of 
my eyes over the last two decades or so.
    And the concern that I have both from personal experience 
and these observations is that unlike the time in 1977 when I 
came to the U.S., at that time, there was no question in my 
mind where I wanted to go. There was only one place to go and 
that was here.
    And to some extent, some would argue this is still the 
same. But there are growing indications that this may not be 
the same ten years from now if we are not careful. Let me give 
you a few data points.
    Germany, Japan, South Korea spend more money on research as 
a fraction of GDP, non-defense research spending compared to 
the U.S. and they also passed us in 2000. For ten years, we 
have been lagging behind those three countries and they have 
become major forces in science and engineering discovery and 
translation.
    Smaller Scandinavian countries have also surpassed us like 
Finland, for example, and other Scandinavian countries. 
Singapore is on a path to significantly increase research 
funding. So that is one problem.
    The second problem is that we have--let me give you one 
piece of anecdotal information. This is not yet a trend, but 
this is the most compelling data that I have seen. In my 
graduating class in engineering, all branches of engineering 
from an elite national institution in India, there were 250 of 
us in 1977. More than 200 of us had an opportunity to come to 
the U.S. to pursue graduate education. All 200 of us came and 
all 200 of us stayed here. Pretty much all of us became 
American citizens and we joined academia, industry startups, 
created jobs.
    Fast forward 32 years. The most recent year for which we 
have data which is 2009, the same campus, still 250 people, 
only 16 percent of those students chose to come here. Eighty 
percent could have if they tried.
    And one of the remarkable things about the American 
scientific enterprise as a Nation is that this has been the 
unquestioned destination for many, many decades, for more than 
half a century or even longer. And if we lose that, I think we 
are going to have a problem.
    Mr. Fattah. The chairman in his opening statement referred 
to this report that kind of benchmarked what we needed to do to 
stem the tide. We have not done much of that.
    And your sister is a provost. And to talk about graduate 
school, we look at the students who pursue degrees in the hard 
science. Less than a third of them are American students and it 
is decreasing and decreasing whether at the great University of 
Pennsylvania or at the University of Auburn. And this is a real 
challenge.
    Mr. Bonner. University of Alabama.
    Mr. Fattah. Alabama.
    Mr. Bonner. Auburn is that other university.
    Mr. Fattah. So this is a great concern because if we are 
not growing our own or if others are not coming and staying, it 
just positions our country in a very bad way.
    When I went out to visit these labs, I was struck by the 
fact that way back in the 1940s and for every year since, our 
country has made a very significant investment in research. And 
the labs I was visiting had to do with our nuclear weapons. And 
obviously some of the issues were classified.
    But what was fascinating about this was that, in one 
discussion about a much smaller country and what they were 
doing in this regard, I asked how they could afford to do this. 
The response of the person giving the briefing was that, and 
quoting the briefer, their position was they would eat grass if 
necessary in order to pursue this research.
    Now, this was in a much more defense-related posture, but 
the point here is that the question becomes what is our resolve 
as a Nation to make sure that we position ourselves at the very 
front, to win and win consistently. And if we want to do that, 
we cannot afford to abandon our investments in this regard.
    Now, a 12 percent increase in this budget, given the 
financial climate, I guess we can say, is a step forward. But 
when a football team from the University of Alabama and Penn 
State line up, it is compared to what. It is not just what are 
you doing compared to what you did last year. It is what you 
are doing compared to the other teams that you are lining up 
against.
    So we are competing economically with countries that seem 
to have decided that winning is important. And the question 
becomes, since we have historically been winning, whether or 
not we have decided that we no longer want to win and that what 
we would rather do is to do something less than our best.
    And I just think that rather than just the details of the 
budget, that what is important--because we have heard the 
Patent Office in this room say that for the first time in the 
year 2000, the same year that you mentioned, we crossed over a 
rubicon in which the majority of the patents being sought in 
our country are sought by people who are not Americans or not 
American entities, right?
    So, you know, so goes research, so goes to innovation, so 
goes intellectual property, and we know what follows from there 
because then it is taking those products, to the market, 
manufacturing them, and they are going to go other places.
    So we have to really think about how we are going to go 
forward and even in our rush to cut, we need to think that we 
do not want to create a situation where, unlike those who made 
these investments in the 1940s and the 1950s and the 1960s, 
that somehow we want to be the generation of leaders who 
decided to diminish America's place in the world.
    And I think that where the rubber meets the road is at this 
point of innovation. It has nothing to do with party or 
partisanship. If four percent of our population are scientists 
and engineers, we need to make sure that they have the very 
best opportunities to succeed here.
    Mr. Bonner. So that I do not get in trouble with my home 
State, we also have a great university in Auburn. We are the 
only State that I know of that has won back to back national 
championships and has back to back Heisman Trophy winners. And 
we are proud of that.
    But Mr. Fattah raises a good point. In this Nation, we have 
spent a lot of time, probably an inordinate amount of time 
focusing on the achievements on the gridiron or the football 
field and do not put near the emphasis that we should as a 
Nation on the achievements of our scientists and our biologists 
and our engineers. And that is something that I think we can 
all agree is one of the reasons that we are in the position 
that we are in today.

           POTENTIAL DUPLICATION BETWEEN GOVERNMENT PROGRAMS

    Last week, the GAO issued a report identifying areas of 
potential duplication between government programs. You just 
previously identified six programs that you are proposing to 
eliminate.
    One of the report's major findings is that the government 
has 82 distinct programs whose purpose is to improve the 
quality of American teachers. Those programs are divided among 
ten different federal agencies, including both NASA and NSF.
    Do you believe that your teacher quality programs are 
duplicative of those offered by other agencies. Then a follow-
up question to that is, what kind of government-wide 
coordination takes place to ensure that these programs are 
effectively and efficiently aligned?
    Mr. Suresh. Thank you for that question.
    Mr. Bonner. The real chairman is here now.
    Mr. Suresh. Thank you for the question, Mr. Bonner.
    The GAO report is something that I have looked at. In 
response to your point, NSF's goal in the education arena 
whether it is K through 12 or undergraduate, postgraduate, and 
higher education is that we develop models and practices 
through scientific research, test them out, validate them, and 
they are taken up by other agencies for large-scale 
implementation.
    And as you saw in the six programs that we terminated, we 
continually look at things that are effective, that are not 
effective, so we work very closely with the Department of 
Education.
    There are three new programs that I mentioned in my opening 
remarks that have been articulated for the fiscal year 2012 
budget request. And those are intended to look at what we have 
done well, how to take them and then how to expand them.
    One of the new programs is WIDER and this is essentially 
geared at large-scale implementation for undergraduate 
education. And as part of that, we look at all the existing 
things including things that could potentially be duplicate 
activities and remove them or try to eliminate them.
    I have charged the head of our EHR, Dr. Ferrini-Mundy, who 
is sitting behind me, with looking at how EHR can work with all 
the directors within NSF to bring education to everything that 
we do, not just in one particular unit, but across NSF. 
Conversely how do we take the best practices in education 
across all the different activities and then bring them back to 
EHR.
    So we are very aware of this and we are looking at this. 
And, you know, one of the unique things about what NSF does is 
across the spectrum of fields and from a scientific perspective 
creating models rather than large-scale implementation.
    Mr. Bonner. It may just be pennies on the dollar, but 
whatever you can save in eliminating duplicative programs can 
be invested in other areas of the important work that you are 
doing.
    One of the things, just as an aside, going back to Mr. 
Fattah's comments, I have advocated for years with NASA is that 
they need to do a better job of letting the American taxpayer 
know where their work is making a difference in our everyday 
lives.

                COMMUNICATING RESULTS OF NSF INVESTMENTS

    You know, when we passed the stimulus bill, some of us 
voted for it, some of us voted against, but all of a sudden, 
you see these road signs all across the country with the emblem 
that this is a project of the stimulus bill.
    I do not know whether NSF is able to brand itself on the 
work that you are doing. I know the good work you are doing is 
paying dividends not just in this country but around the world.
    But I really think that might be something that if the 
American taxpayer is in the grocery store and they are picking 
up a bottle of detergent or whatever and they see your work 
helped lead to the discovery of that ingredient, it just might 
bring a better understanding of your important work. And that 
way, we would not be arguing over whether NSF should have a 13 
percent increase or whether it should be a 25 percent increase. 
The fact is people could have a better grasp of the impact you 
are making on their daily lives. Just a thought.
    Mr. Suresh. You are right on, Mr. Bonner. In fact, these 
very comments resonate very well with the first retreat that I 
held since arriving at NSF. How can we make the work that NSF 
does be available or at least accessible so people can 
understand what NSF does, not just the scientists and 
engineers, but a much broader population.
    So let me mention a few of the specific things that I have 
started in the last few months. First and foremost is improving 
all channels of communication. So I have actually set up a task 
force that within NSF will look at how we communicate the 
outcomes of what we do to The Hill, to K through 12, to middle 
school students, and so forth. This is very important and it is 
increasingly important.
    The second thing is to update the technology that we use to 
do that. And it is not conventional technology anymore. There 
are a variety of media, especially that are appealing to 
younger people increasingly so. How do we tap into that?
    The third one is not only gathering data but making the 
data accessible to a broader cross-section of people, both 
public information but also scientific information.
    So we have a variety of programs that are underway. STAR 
Metrics is a program that we are working on right now in 
collaboration with some other agencies as well like NIH. And 
this is something that during the course of this year I hope 
will be a very strong medium through which the impact of NSF's 
work is broadly recognized.
    Mr. Bonner. Thank you, Mr. Chairman.
    Mr. Fattah. If the gentleman would yield for just one 
second because the chairman is going to jump in here.
    I totally agree with you. I mean, I think one of the 
problems is when we look at NASA, we look at National Science 
Foundation. Even though there are literally tens of thousands 
of very important discoveries that have contributed to our 
country and to the world, the public has no concept that this 
was through these investments or through these entities.
    We know when we go after a great football coach or a 
player, we are all rooting for our team no matter what the 
price. Sign the guy, sign him because we want to win. And that 
is the same kind of attitude we have to bring in this area of 
innovation, that we want to win. We want to know what it costs 
to win and then we want to pay the cost because we really do 
not want to pay the cost to come in second to some of these 
other nations in our world.
    Thank you.
    Mr. Bonner. If I might, this will be my last question and 
then I am going to go to another hearing. I really have enjoyed 
being with you and I appreciate the chairman allowing me to be 
in his chair for a few minutes.
    Yesterday the prime minister of Australia was here and 
twice, at the beginning of her speech and at the end of it, she 
cited as a young girl, and I could relate, as we are 
approximately the same age, how all the way down under, she was 
able to look to the United States and the world leadership we 
were providing by putting a man on the moon. And then when she 
closed with that, basically it was a challenge for America to 
always continue to lead.
    And, you know, sometimes it is refreshing to hear from 
outside the role that we play and that we should continue to 
play.
    Thank you, Chairman Wolf.
    Mr. Wolf [presiding]. Thank you, Mr. Bonner. I want to 
thank you for chairing the hearing. I was at another hearing 
testifying, so I appreciate it very much.
    And I agree with what both Mr. Bonner and Mr. Fattah said.

                       K-12 STEM EDUCATION REPORT

    This is a question based on my disappointment in NSF and in 
Dr. Bement. Back in 2009, I asked the NSF to pull together a 
team of experts to identify the best practices in K-12 STEM 
education and make recommendations on how these practices could 
be replicated across the country. Despite all the time, two 
years that has gone by since then, that team of experts has yet 
to meet. And the earliest we can get the recommendations would 
be early summer. We have actually lost a couple of young kids 
from pursuing STEM subject because of the failure of NSF to 
respond.
    When is the NSF going to fulfill this directive, and what 
is the justification for this unnecessarily long delay? We did 
the same thing on prison reform. Mr. Mollohan to his credit, 
and I want to make sure he always gets the credit, had the very 
best hearing on prisons and prison reform.
    We asked the Pew Foundation and the Council of State 
Governments to do an in-depth review, bringing the best minds. 
They finished their report. They published it. They have gone 
out to all the governors and you all have not even responded. 
Two years have gone by.
    So when you say that you are really that excited about 
education, I do not see the results. So what is the 
justification for this unnecessarily long delay, and when are 
you going to fulfill the directive? Why the delay first?
    Mr. Suresh. Thank you for the question, Mr. Chairman. But I 
also want to thank you for your interest in STEM and your 
leadership in this area.
    Let me respond to that. As you know, I arrived at NSF on 
October 18th last year, about four months ago. As soon as I 
found out about the need for this report, I had charged the 
head of our EHR unit, Dr. Ferrini-Mundy, who is here, to give 
me an update on this, but also to look into how quickly we can 
have this report submitted.
    There are three parallel activities that are going on----
    Mr. Wolf. Why did it take so long to do it, two years?
    Mr. Suresh. I think that there are three reasons for this. 
One is to identify the best practices in STEM education. There 
was an NRC Committee that was set up with experts from around 
the country. And they are submitting written material ahead of 
a meeting that is going to be held in May of this year, on May 
11th and 12th.
    And, in fact, I very much hope that you will be available 
to kick off that meeting. There was an invitation that was sent 
to your office about two weeks ago or so. And we very much hope 
that that event will take place. And that event will be a 
culmination of all the background work that has gone on. So 
that was one factor.
    The second factor is that NSF has also charged the Urban 
Institute to look at two states where we can take the best 
practices and use them in the report with enough careful 
scientific data. This is a very important topic and NSF is 
extremely grateful to you for the leadership you have shown in 
this. This has galvanized us actually to do a scientific study 
that typically the way NSF does and to give you a report that 
is complete and comprehensive and that addresses the issue.
    The third reason for this, NSF has also engaged the COSMOS 
Corporation to look into the best practices of the American 
Science Program and to incorporate the findings with respect to 
STEM education into the report. And they are also charged to 
get that.
    So I asked the head of EHR to give me an interim report on 
where things stand with specific deadlines. That report was 
given to me about a little more than a week ago and that report 
has been forwarded to your office as well.
    And the symposium will take place in May and the 
preliminary report will be done in June of this year. And the 
final report will be submitted by mid July of this year.
    Mr. Wolf. Well, just the thought of two years is so long, 
and I am really disappointed in the former director. He left 
town. How hard you work on the last day is as important as how 
hard you work on the first day, and on the last day, he did not 
finish this. He specifically sat there and promised that it 
would be done.
    I am concerned that NSF's actions in response to this 
directive may be too narrow and will result primarily in a 
report to this committee. It is interesting and this committee 
will look at it. But what are you going to do to make 
policymakers, school officials, teachers, and other interested 
parties aware of the findings so that they can actually put it 
to use?
    The purpose is to make sure the superintendent of schools 
in Fairfax County and the city of Philadelphia and Harrisburg 
and Richmond get this thing quickly. And as you know, school 
years begin, curriculum is set up.
    How are you getting it out to the real people that matter, 
not to this committee? It really does not matter what you tell 
this committee. What are you going to tell the superintendents 
and the guidance counselors and the science teachers around the 
country, and how will you get it into their hands so that it 
can be implemented?

              K-12 STEM EDUCATION COMMUNICATIONS STRATEGY

    Mr. Suresh. So if I could quickly answer that question. One 
of the things I have also charged not only Dr. Ferrini-Mundy 
but our communications folks is a communications strategy for 
these kinds of very important reports. That also goes back to 
Mr. Bonner's earlier question which is very relevant to this 
particular issue.
    I fully agree with your sentiment on making this available 
as broadly as possible and so we are looking into that strategy 
right now to get it to as wide an audience as possible.
    Mr. Fattah. If I could suggest to the chairman, we would 
love for your second favorite city, Philadelphia, to host a 
roll-out of the study for all the school superintendents from 
around the country and----
    Mr. Wolf. You going to go?
    Mr. Fattah [continuing]. We could tie them in by web if 
they cannot travel. We could do it at the great Constitution 
Center and NSF could roll this out in a very large media market 
that would get a lot of exposure. And the chairman and I could 
be there to help open up the discussion. So we will be glad to 
work with you.
    Mr. Wolf. I would be open to do it. We could go down to 
Pat's Steaks and get a steak.
    Mr. Fattah. I am paying for the steak. All right? So I 
think we have a bipartisan agreement that we should roll this 
study out in Philadelphia.
    Mr. Wolf. You want to do that? You want to work out 
something?
    Mr. Fattah. I want to work with NSF on that regard.
    Mr. Suresh. Mr. Chairman, I also want to assure you we 
definitely want to do as the National Science Foundation better 
than the Department of Prisons, so we will do everything 
possible.
    Mr. Wolf. Well, the prisons people turned it around. Pew 
Foundation and Council of State Governments did it very, very 
fast. It was quite a report. I was going to bring it today, but 
I did not want to embarrass you. It is very impressive.

                  MAINTAINING STUDENT INTEREST IN STEM

    At what age do you think you lose a young person? First, 
second, third, fourth, fifth grade? Very few people go to 
college and major in business and then transfer into sciences 
or physics or chemistry.
    When I go into the schools, I have my own perception. But 
what grade do you think you begin to lose somebody? If you lost 
them, I cannot say you never get them back, but it is very 
tough. Fifth grade, sixth grade, seventh grade, first grade? 
What is your answer?
    Mr. Suresh. Well, it depends on a number of circumstances, 
but I would say it is very early. I think one can always 
energize them with the right mentoring at different stages, but 
the earlier we excite somebody about the importance and the 
impact of science and engineering, the better it is.
    There are some constituencies where we lose certain 
segments of our scientific workforce at a much later stage. For 
example, in the case of women in science and engineering, 40 
percent of the postgraduates in the country in science and 
engineering are women, but in the workforce, they are only 26 
percent. We lose them in their early career stage after they 
have been trained, after they have made the initial impact for 
a variety of reasons.
    But in terms of capturing the attention of young minds, the 
earlier, the better.
    Mr. Wolf. There must be an age. There has got to be a point 
when the line crosses, and I am trying to get when that is.
    Mr. Suresh. Well, I mean, obviously the earlier, the 
better, but I can only give some response. I have two 
daughters. Both are into science and engineering and one got 
interested in science at fourth grade. And fourth grade 
according to data is what studies suggest. But there are also, 
you know, differing circumstances. But if you are asking about 
based on scientific studies on average, it is about fourth 
grade.
    Mr. Wolf. So whatever we do with limited resources, we have 
to put the emphasis on kindergarten, first grade, second grade, 
third grade, fourth grade and fifth grade to keep these kids 
active and interested in science.
    Well, that is what we are looking to find out and what 
schools have done----
    Mr. Suresh. Right.
    Mr. Wolf [continuing]. Not just in two states but around 
the country to bring that about.

                       NSF INTERNATIONAL OFFICES

    NSF has permanent offices located in Beijing. Can you 
describe what this office does and why it is necessary?
    Mr. Suresh. So, Mr. Chairman, before you came here, we had 
a lively conversation about international engagement and 
growing competition and so forth. NSF, as you know, has three 
overseas offices, one in Tokyo, one in Beijing, and one in 
Paris. We also have operations in Antarctica where we use 
Christchurch, New Zealand as a focal point if not an official 
office for our Antarctic program.
    As we discussed earlier here, the U.S. has been the 
unquestioned destination for decades, for nearly a century for 
scientists and engineers to come from all over the world. And I 
am a living example of that population.
    We have also been the generators of ideas, innovative 
ideas. We have been a very open society not just in science but 
as a society. And as a result, it has benefitted what we do 
enormously and it has benefitted the scientific enterprise 
around the world.
    Now, as other countries grow, other countries invest a lot 
of money and it is very important that agencies like NSF not 
only find out what our competition is, not only try to 
understand how we ensure that we remain at the very cutting 
edge of it, but equally important, we make sure that we give 
our scientists and engineers and our students an opportunity to 
any technologies that may evolve over there.
    So one of the purposes of the Beijing office would be to, 
A, find out what goes on in China in science and engineering 
education and research----
    Mr. Wolf. And do they give you a weekly or a daily or 
monthly report?
    Mr. Suresh. There is a monthly report that comes to our 
international office.
    Mr. Wolf. How many people are in Beijing?
    Mr. Suresh. I think it is an office with just one or two 
and they interface with the State Department.
    Mr. Wolf. Are they located in the embassy?
    Mr. Suresh. I do not think so. I will be visiting them 
later this year. I have not visited them.

                             CYBERSECURITY

    Mr. Wolf. Let me ask you this. How many cyber attacks have 
there been against NSF?
    Mr. Suresh. Recently there was one last fall, but, you 
know, we take the cyber attacks very, very seriously. And, in 
fact, in the 2012 budget request, we have $155 million for 
cybersecurity research which is a 20 percent increase over the 
2010 enacted level. And this is something that is a major part 
of the emphasis for us.
    Mr. Wolf. Last month, your Inspector General testified that 
a significant cybersecurity incident recently occurred at NSF 
and the computers involved had been wiped clean before 
investigators from the IG's office had an opportunity to 
examine them.
    Have you made changes to your security breach procedures to 
ensure these circumstances do not repeat?
    Mr. Suresh. Yes. We have increased firewalls. We have 
increased cybersecurity software and also made the system much 
more secure following that attack.
    In addition to that, we have a fairly high-level committee 
that has been set up since that time at NSF looking into all of 
our practices and interfacing with the different parts of NSF.
    Mr. Wolf. Following on that, portable IT devices like 
BlackBerries and laptops are common targets of foreign 
intelligence services in countries like China where NSF 
employees travel frequently on official business. I was 
concerned to hear that NSF has no formal policy on protection 
of IT devices during official travel.
    Mr. Suresh. Actually, we now have. We have a policy.
    Mr. Wolf. As of when? Monday, or as of when?
    Mr. Suresh. No, no. As of about a month and a half ago.
    Mr. Wolf. What is the policy with regard to BlackBerries 
and laptops taken to China?
    Mr. Suresh. So initially they have to go through a check at 
NSF. It goes through our cybersecurity folks first to make sure 
that appropriate filters are put in for these devices.
    Mr. Wolf. But they tell me that you can never really take a 
BlackBerry or a computer to China and have it clean.
    Mr. Suresh. I am not familiar with that, but my 
understanding is that this is very much on the radar screen of 
our IT folks. And we have this committee that is looking into 
ensuring that there is no proprietary or sensitive information 
from NSF or any information from NSF that is compromised when 
people travel overseas anywhere including in China.
    Mr. Wolf. Well, say by Monday, maybe you can have somebody 
come up to sit down with the staff to tell us specifically what 
you are doing about BlackBerries and laptops going to any 
single country, and how you clean them. Many of the security 
agencies are giving new ones to take over there and then they 
turn them back in when they get back.
    Mr. Suresh. Okay.
    Mr. Wolf. If they compromise your BlackBerry or laptop, 
they can come through to your computer. So if somebody can come 
up next week and sit down with the staff to let us know what 
you are doing and how quickly. Not just for travel to China, 
but----
    Mr. Suresh. Okay.
    Mr. Wolf [continuing]. To Syria, and to any country so we 
have some sense.
    Mr. Suresh. I will be very happy to do that, have somebody 
meet with your staff and update them on----

                            NSF SPACE LEASE

    Mr. Wolf. I am going to go to Mr. Serrano in a minute. But 
the lease for your current headquarters expires in 2013. GSA 
has already begun looking at replacement options.
    Is remaining in your current facility still a possibility? 
What would need to be done to those buildings in order to make 
them consistent with GSA requirements and NSF's ongoing space 
needs?
    And I can recall Senator Robb, Chuck Robb, moved NSF to 
Virginia. NSF fought it tooth and nail. They wanted to be 
downtown close to the White House. Now they seem to be happy. 
At least Mr. Bement said they were happy.
    Many employees have moved there now. They live around 
there. And I do not want to see you guys pick up and head off 
to Timbuktu when people have bought homes and made an impact.
    So what needs to be done to these buildings? Where are you 
going to go, and what are you doing with regard to office 
space?
    Mr. Suresh. So, you know, this as a former renter, I know 
that there is never a good time for the lease to come up for 
renewal. And as you mentioned, our lease is coming up for 
renewal in 2013.
    The process to address what happens in 2013 started in 2009 
and in consultation with GSA. And based on these discussions 
over the past two years or so, nearly two years, GSA has 
determined that there is sufficient competition for a new site 
and also sufficient opportunities for infrastructure and access 
to critical infrastructure for NSF in the northern Virginia 
area. Of course, this is subject to Congressional approval and 
this is a discussion that they have been having.
    With respect to your question----
    Mr. Wolf. Just for the record, that is not my congressional 
district. I just want the record to----
    Mr. Suresh. No. I----
    Mr. Wolf. It is Congressman Jim Moran's district.
    Mr. Suresh. Yes. So that is what GSA has determined over 
the last year or so. With respect to the existing building, the 
existing building could be one possibility. But NSF moved into 
the existing building in 1993. And NSF's operations have grown 
significantly since 1993, so there are critical infrastructure 
improvements from transformers to elevators to panel rooms to 
IT infrastructure to cybersecurity and so forth that need to be 
done in the existing building should NSF or should GSA and 
Congress decide that we stay in the current location. And that 
will require significant improvements to the current location. 
That is also one of the possibilities. We do not know how this 
will evolve over the next few months or so.
    Mr. Wolf. The GSA prospectus for the project establishes 
location criteria for any potential future NSF headquarters. 
What are the criteria, and how does the application of those 
criteria limit the geographic area in which GSA can look?
    Mr. Suresh. The criteria, you know, broadly would be a 
variety of them that include access to critical infrastructure, 
access to places like hotels and things like this because last 
year, we engaged something on the order of 290,000 referees in 
the communities. Not all of them came. About 19,000 people or 
so came into the NSF area. We also hold meetings.
    And so the criteria are still evolving. They are not 
finalized, but broadly there are criteria. So I can tell you 
that the infrastructure that I mentioned, airports, Metrorail, 
interstate trains, easy to reach from different airports, that 
is one criterion.
    Last year, as I mentioned, we had 20,000 merit review 
panelists who visited the NSF site or nearby hotels. So access 
to that is very important.
    Specific criterion would be that hotel accommodations 
deliver a minimum of 1,500 room nights per week. And so----
    Mr. Wolf. Okay.
    Mr. Suresh. [continuing]. Hotel infrastructure has to be--
--
    Mr. Wolf. Well, I would ask you to stay in touch with the 
committee and also Congressman Moran, Senator Mark Warner and 
Senator Webb on this issues.
    You know, it is interesting. We had to offer an amendment 
to beat NSF back. They fought to stay on Constitution Avenue. 
There is no rail on Constitution Avenue. There are no 
restaurants on Constitution Avenue. There are no hotels or 
motels on Constitution Avenue. And you all fought to stay 
there.
    So I want you to be faithful to the criteria and I would 
ask that you keep Mr. Moran informed. Because what I am afraid 
of is there is going to be somebody in the middle of the night 
try to move this agency somewhere, and your employees are going 
to be left high and dry. They have got mortgages on their 
house. They have investments that they have made. They have 
moved their families. Their kids are invested.
    And, again, the record must show NSF is not in my 
congressional district and never will be in my congressional 
district.
    But you start doing this, and you hurt people. So I am 
going to ask you to keep the committee informed and keep Mr. 
Moran and Mr. Warner and Mr. Webb also informed.
    Mr. Fattah. If the gentleman would yield.
    Mr. Wolf. Excuse me.
    Mr. Fattah. It is definitely not in my congressional 
district. But let me just say that on behalf of this side of 
the team, I am fully in support of what the chairman is saying. 
I believe that the stability of the employee base is critically 
important.
    And, Mr. Chairman, I think that NSF and GSA should figure 
out what the requirements are that they need. But I am not 
opposed to using the appropriations bill to help them focus in 
a way that will not have them wasting their energy looking for 
places to go other than in the general vicinity in which they 
are in.
    Mr. Wolf. I appreciate Mr. Fattah's comment. That is what 
we went through the last time. Actually, Dr. Bement used to 
live in Maryland and moved over, if some may recall. I have 
talked to some of the employees. They said they have made these 
investments, and now they are hearing word that there may be 
this effort to move.
    I have never tried to take any federal agency and put it in 
my congressional district. And this is not in my district.
    Mr. Fattah. I am willing to support language, prohibitions 
or other language that could be instructive in this matter.
    Mr. Wolf. I appreciate that.
    Mr. Suresh. If I could just add to your comments. One of 
the things I have done since joining NSF about nearly five 
months ago was to meet with each and every office and 
directorate at NSF in my first two months. And that has been 
extremely beneficial to me not only for the scientific work 
that NSF does or the education work that NSF does, it also gave 
me an opportunity to feel the pulse of the staff.
    And I am very much committed to making sure that the staff 
are very happy. And we would not want to do anything that 
significantly disrupts their lives and is a blow to their 
morale.
    Mr. Wolf. Where do you live?
    Mr. Suresh. I live in Washington. I recently moved here 
and--
    Mr. Wolf. Buy or rent?
    Mr. Suresh. Mine is a six-year appointment, so it was too 
long a time to rent. Even though it was too short a time 
probably to buy, I decided to buy it.
    Mr. Wolf. Mr. Serrano.

                          ARECIBO OBSERVATORY

    Mr. Serrano. Thank you, Mr. Chairman. Thank you.
    One of my subjects of interest, Doctor, is the Arecibo 
Observatory in Puerto Rico. Now, it serves the purpose that it 
does scientifically and otherwise. It is also very symbolic for 
the Federal Government and NSF and NASA to have chosen one of 
the territories for such an important project so long ago.
    And so you can see that by my comments that we both pay 
attention to the significance of it in terms of what it 
accomplishes and what it has accomplished and why it is needed 
and also the importance of having it in a territory and how the 
people feel about that.
    So for a while, it looked like it was going to close down. 
Now it seems like that is not the case. New reports came out 
about the near earth objects. I am always amazed by that 
comment. That is kind of a scary comment, you know. I think we 
have some near earth people in here, but objects are something 
of great interest to me.
    So what is the status? I mean, is it going to close down? 
Is it going to stay open? Have you rediscovered an importance 
for the Arecibo Observatory?
    Mr. Suresh. So the facility in Puerto Rico----
    Mr. Serrano. And for the record, Mr. Chairman, NSF is not 
in my district. But as a disclaimer, Puerto Rico is the 
territory where I was born, although I represent the Bronx, 
just for the record.
    Mr. Suresh. Mr. Serrano----
    Mr. Fattah. Is there a record of your birth?
    Mr. Serrano. Well, I know for sure I cannot be President.
    Mr. Suresh. Thank you, Mr. Serrano, for the question.
    I will be happy to answer that just for the record and for 
full disclosure, I have to say until five months ago, I held a 
job for an institution whose official mascot is a beaver. And I 
had a beaver ring on my finger until recently.
    The facility in Puerto Rico has multiple benefits. And, in 
fact, I am not an astronomer or astrophysicist, but the 
facility is the largest single antenna facility in the world. 
It not only serves in scientific discoveries in the 
astrophysics arena, it has also been beneficial for educational 
purposes.
    The decision that was made in 2006 was based on the senior 
review that was done where it was felt that cost sharing should 
be done from sources outside of NSF because it is also of 
interest to NASA and it is also of interest to not only the 
Astronomy Division of the Mathematical and Physical Sciences 
Directorate but also the Atmospheric and Geospace Division of 
the Geosciences Directorate at NSF.
    And based on that, attempts were made and now we have an 
ongoing management competition underway with a new five-year 
cooperative agreement to be awarded in fiscal year 2012. That 
is the current status. And there are still attempts being made 
to ensure in response to the senior review that we will get 
matching support from other sources. The fiscal year 2012 
budget request for the facility will be $8.7 million.
    Mr. Serrano. So based on that statement, one would say that 
an immediate plan to close it is not in the works and that, in 
fact, if things go well, we know the observatory will be around 
at least until 2017?
    Mr. Suresh. Well, that is correct. I think it depends on 
the outcome of this management competition, but we are going 
through the process and a decision will be made in fiscal year 
2012.
    Mr. Serrano. I also appreciate and thank you for being 
probably one of the first folks to come before this committee, 
I have been on this committee for many years and took a hiatus, 
forced by circumstances, and glad to be back, the first one to 
mention the educational value of the observatory. So since 
there are no secrets in politics or in public hearings, I am 
sure there are a lot of folks who will be happy at your 
comments. And I thank you for that.
    Mr. Suresh. If I could just add one comment to that just to 
put some numbers to that, the Angel Ramos Foundation Visitors 
Center attracts roughly 100,000 visitors per year at the 
facility. And so there is also not only a research component 
and an education component, there is also a public outreach 
component to excite people about it.
    Mr. Serrano. It is also featured in a James Bond movie. Did 
they get paid for that? I mean, what happens? I have always 
wondered when they use a facility like that, do we get paid for 
it?
    Mr. Suresh. I have to look into that. I am not----
    Mr. Serrano. Yeah. And do they get like a piece of the 
action every time it is shown on the James Bond marathon, you 
know?

             BROADENING PARTICIPATION IN THE STEM WORKFORCE

    Mr. Suresh. Maybe that will convince a lot of young people 
to go into science.
    Mr. Serrano. It does. It does.
    And staying on the issue that Chairman Wolf had brought up, 
I had always heard also that fourth grade is the key. In fact, 
prior to my State Assembly days where I was chairman of the 
Education Committee, I worked for the local school district and 
there were many people who sadly stated that if a child was not 
into school in terms of feeling good about going to school 
every day by the fourth grade that it was a serious problem. 
And it seems like it is so early. But by the fourth grade, if 
that child was not feeling good about going to school and 
learning and being excited by teachers and parents and the 
community that that child could be lost as early as the fourth 
grade.
    There has been a lot of talk throughout the years and a lot 
of efforts by your folks to invite more African Americans and 
Latinos into the math and science fields. And I know you have 
done a lot of work with that.
    What is the ongoing issue there, and is there an interest 
first by government to invite those folks into the field and, 
secondly, is there a response from the communities?
    Mr. Suresh. So there are a number of programs that NSF has 
under the broad category of broadening participation. And one 
of the critical things that we are going to face as a country 
will be the workforce issue for the future. We address one 
aspect of it.
    And as I see it, there are three critical components to 
that workforce issue. The first component is going to be the 
representation of women in the future science and engineering 
workforce of this country. So that is about 50 percent of the 
population. They represent 40 percent in terms of early career 
scientists and engineers, but then from that point until a few 
years later, their representation in the workforce drops to 
about 26 percent. 2006 is the most recent year for which we 
have the data. Until we fix that, I think that component of the 
workforce is going to remain a problem.
    I want to come back to the Hispanics and underrepresented 
minority issue, but I want to contrast that with the data that 
we have for women scientists and engineers.
    In 2009, 72 percent of high school valedictorians in 
American high schools were girls, 72 percent, and that fraction 
is increasing.
    In 2009, 20 percent more women graduated from college than 
men did and that difference is increasing.
    In the last ten years in the U.S., we have seen a 10 
percent increase in the number of Ph.D.s given in science and 
engineering across all fields. That entire 10 percent increase 
was due to women getting Ph.D.s in science and engineering. 
They represent about 40 percent now.
    So all of this is very good news. So the good news is that 
women are increasingly coming into the science and engineering 
workforce. The problem is that they are leaving before their 
training and their expertise and wisdom could be tapped into 
for the country's benefit and for their careers because of a 
number of issues, complicating issues. One of the key issues is 
family issues.
    So with respect to that segment of the population, we have 
excellent news with respect to entry into the science and 
engineering workforce, but not so good news with respect to 
retention.

                     MINORITY-SERVING INSTITUTIONS

    When we go to African Americans or underrepresented 
minority populations in the country, Hispanics and Native 
Americans and so forth, we significantly lag both in the entry 
with respect to the representation in the population and also 
in the retention issue.
    So I can give you some data from the last eleven years. It 
is not just one-year data. In the last eleven years, NSF 
support for minority-serving institutions has grown at double 
the rate of NSF support for all the institutions in the 
country.
    The second data point that I can give is that in the same 
time period of eleven years, in dollar value, NSF support for 
minority-serving institutions has increased by 200 percent. So 
we are starting to do the right thing, but there is still a 
very long way to go. There are a number of activities that we 
can engage to do this.

                     HISPANIC-SERVING INSTITUTIONS

    Just last week, I met with the president of Florida 
International University, which is the largest Hispanic-serving 
institution in the country. Two days later I met with the 
president of Texas A&M University, which is the second largest 
Hispanic-serving institution in the country. And they have a 90 
percent Hispanic population in their community.
    So we talked about ways in which those large institutions, 
which are Hispanic-serving institutions which receive NSF 
support, can engage the local community, the community colleges 
and what are the effective ways in which to do this. In fact, 
they are organizing a major event that will involve 80,000 
people at Texas A&M University in September of this year which 
I will participate in.
    So we are looking at different ways in which we can do 
this. We have $100 million allocated in fiscal year 2012 for 
community colleges and we can tap segments of those resources 
to minority-serving institutions and Hispanic-serving 
institutions.
    We have a new program in the fiscal year 2012 budget for 
$20 million called Transforming Broadening Participation 
through STEM Education. And there are opportunities there also 
to target underrepresented minority groups and Hispanic-serving 
institutions.
    Mr. Serrano. Do I have time for one more?
    Let me preface my comment by saying that, and I know Mr. 
Fattah shares this feeling with me, we have the utmost respect 
for our chairman. Our chairman is a fiscal conservative, but he 
is a fiscal conservative with a conscience and heart.

                  EFFECTS OF REDUCED STEM INVESTMENTS

    There is a movement afoot this year, however, and I suspect 
for a couple of years to cut, cut, cut, cut. Having said that, 
I have been to 21 State of the Union addresses. And as a person 
from the south Bronx representing a poor district, born in 
Puerto Rico, I look for certain things. What is the President 
going to say about housing, social services.
    This time, what stuck with me was not in any of those 
areas, but it is in your area. When President Obama said, yes, 
we have to balance the budget, we have to do this, but we have 
to invest in inventing things and creating scientists. And he 
said we Americans are good at inventing things.
    And so without getting you on one of those cable channels 
tonight being, you know, insulted because you asked for more 
money or something, are we in danger here of taking many steps 
back if in the process of cutting, we do not give agencies like 
you the opportunity to create the next set of scientists or to 
create the next set of inventions or, you know, not just you 
but NASA and all those places that create? Where is the danger?
    And, again, you are in front of a chairman who is not--you 
know, this man, he knows I mean this, has a great heart and he 
is truly a great American. But there are a couple of guys 
around here including some on my side who would cut everything 
to nothing, zero. If we keep going with these CRs, the last one 
we will have is zero as our number, you know.
    What are we in danger of because, like I said, I always 
look for all these social issues? This time, the thing that 
stuck with me is he said we have got to invent. We can go back 
to being the leaders in inventing things and creating things.
    Mr. Suresh. Well, thank you. Thank you for asking that 
question and for the opportunity to address it.
    But before I start with that, I also want to express not 
only my personal appreciation but also the appreciation of the 
National Science Foundation for Chairman Wolf's strong support 
of science over the years and your commitment to science and 
STEM education.
    In response to your question, I think one of the things 
that NSF has done right from the beginning, starting with Dr. 
Vannevar Bush's ``Science, the Endless Frontier'' report that 
led to the creation of the National Science Foundation, is to 
keep a focus on basic science as the engine of innovation for 
the country with a long-term focus.
    And one of the things that we are particularly in danger of 
losing sight of in this economic climate is we have severe 
budget constraints, financial constraints, a nine percent 
unemployment rate, just below nine percent unemployment rate. 
But NSF investments are long-term.
    If we take a short-term view and cut, I think five years 
from now, ten years from now when we address all the current 
problems, we will not be in a position to address what is 
needed for the country with respect to scientific leadership, 
with respect to economic leadership, with respect to military 
leadership.
    I mentioned in my opening remarks that even in the short 
term, the National Nanotechnology Initiative started in 1999. 
NSF played a leading role in not only creating the National 
Nanotechnology Initiative but supporting it.
    In just ten years, NSF funded nanotechnology centers have 
led to 175 startups involving 1,200 companies in the country. 
As recently as the mid to late 1990s, NSF supported two young 
students at Stanford whose work, purely mathematical work, led 
to the creation of Google.
    So it is not just very long term. Sometimes it is very 
short term. In terms of long-term things, we supported GPS in 
the 1960s and the GPS research that NSF funded in the 1960s is 
now used in everybody's mobile phone for a variety of purposes.
    So I think if we lose sight of the long-term focus as we 
react to the short-term needs of the country, I think it will 
come back to hurt us. So that is very much in resonance with 
what you said in your comments.
    Mr. Serrano. Thank you so much, Mr. Chairman.
    Thank you for your service.
    Mr. Suresh. Thank you very much.
    Mr. Wolf. Thank you Mr. Serrano.

                           DEFICIT REDUCTION

    I am going to go to Mr. Fattah, then I have a whole lot of 
questions. But I do want to comment. I appreciate the 
gentlemen's comments and your comments, and I agree. I think 
there is another thing that I feel strongly about that I want 
to put on the record, because silence indicates just total 
acquiescence in everything.
    There is another group that will be hurt, and it will be 
the poor. The poor will be hurt. It says in Proverbs 19, ``when 
you give to the poor, you give to God.'' But there is another 
end to the story, and this is for those of you who are writing 
in the press out there. Until we deal with the issue of 
entitlements, Medicare and Medicaid and Social Security, this 
will continue. I think the President and this administration 
have been AWOL, they have been absent.
    I agree with Mr. Serrano on the sciences, and I think I had 
one question which we will submit for the record about China. 
The Chinese government has been increasing scientific R&D 
investing as a fraction of GDP at an annual rate of more than 5 
percent, which verifies what Mr. Serrano said. While they are 
starting from a smaller base, this level of commitment is 
enormous and we are cutting. We are really going to have to 
come together in a bipartisan way, and there is just no other 
way.
    In fact, Mark Warner and Tom Coburn and Dick Durbin have 
put together a group in the Senate that is moving ahead. Some 
on the left are criticizing them for going after entitlements, 
and some on the right are going after them for raising taxes, 
but they are moving ahead. So I really think unless we deal 
with the fundamental issue of getting control of the 
entitlements, what Mr. Serrano said will be true. So I think I 
would rather see us get control. I made a speech on the floor 
of the House saying if the Simpson-Bowles package comes up, 
while there are some things I would attempt to change in the 
process as we go forward, I would vote for it. If Tom Coburn 
and Dick Durbin--both good people--can come together, then I 
would hope we can, too.
    So we are waiting for the administration, we are waiting 
for the President. Until the President provides that 
leadership, I think both sides up here are going to continue to 
kind of clash.
    You know, we have 50 million people that are on food stamps 
now. Our food banks are fundamentally empty, and as you go 
after these programs you are really taking food away from poor 
people. There is just no other way about it. Other people can 
adjust their budgets, but you have got to go where the money 
is. Willie Sutton said he robbed banks because that is where 
the money was, and entitlements are where the money is. So I 
want to see us plus up math and science and physics and 
chemistry and biology, and also the food banks and things, but 
I think we are going to have to come to agreement. We are 
reaching a tipping point, and Moody's said we will lose our 
triple A bond rating in perhaps 2012.
    Following along on that, ``Rising Above the Gathering 
Storm'' stated that improving the nation's K through 12 
educational system was the highest priority step we could take 
to improve scientific and technical competitiveness.
    But I said I was going to go to Mr. Fattah. Let me go to 
Mr. Fattah first, and then I will go to this subject.
    Mr. Fattah. Now let us see, in the 1890s, in the midst of 
the conclusion thereabouts of the Civil War, we invested in 
land grant colleges in this country, Penn State and all of the 
other great land grant colleges. The Morrill Act, it kind of 
set a benchmark about the kind of nation we were going to be. 
Even in the midst of challenges we kind of knew that education 
and investment in education was critically important.
    So yeah, I think that there is a consensus that with 
innovation in scientific research we are going to have to do 
more than we are doing. I agree with the chairman totally that 
we need a comprehensive resolution on the fiscal front, I am 
for voting for one. In fact there are five different ones, 
including the present debt commission and at different 
variations of revenue raising and spending cuts. I would vote 
for all of them. I think we need to get this to the side, get 
this resolved, because I actually believe it is a distraction.
    First of all, I do not believe that we are not in a 
position as a country to pay our bills or that we have to be 
the largest debtor nation in the world. You know, there is a 
report today about billionaires holding trillions of dollars. 
There was a story last week about how a quarter of a million 
dollars was too little money to secure people to serve on 
boards of directors as a part-time job in our country.
    I mean the notion that we as the world's wealthiest country 
cannot pay our bills, it really is defied by the facts. It is 
just that we for, whatever reason, have bought in as a 
generation that somehow we can have this on the cheap, that we 
can be in two wars, we can do all this other stuff and we do 
not have to pay for it.
    And one of the largest hedge funds decided to remove from 
its portfolio all the U.S. debt, and that was reported this 
morning, and I think as we approach a crisis we will obviously 
react to it. The question is what damage are we doing in the 
meantime? And especially as we see our competitors. And they 
are not just economic competitors. Some of these other 
countries are not just economic competitors. We have to think 
about our national security and this is--you know, we cannot 
afford to be short sighted in these matters.

                              NEUROSCIENCE

    But I want to go back to the point that the chairman was 
talking about, about what age young people--at what point is 
the concrete not yet hardened in which we can still have an 
impact on them? Because this whole area of neuroscience is 
something that the Foundation has spent some time on. It is the 
area that I have the greatest interest in, and I think that we 
have arrived at a tipping point in this whole area of 
understanding on the cognitive side. I mean you have the 
majority of a child's brain being developed in the third 
trimester, you have billions of neurons. We know that the brain 
is not being fully utilized, and I think that the Foundation 
has worked in this area.
    First of all it has been extraordinary, but I know that we 
are going to do more working together in this area, because I 
think that this is an area on which we can have a very 
significant impact, looking at cognitive ability, and it ties 
into some of the other things that the chairman has said. We 
know that when we have people who are nutrition challenged and 
who are going to at some point deliver babies, that the size of 
the brain will be impacted. And you know, the size of the brain 
has a impact on ability long term.
    So I also know that you have done some work looking at 
soldiers on the brain injury side. These are two separate 
subjects, but obviously they tie together. I think this work, 
if I am not mistaken, is really the largest amount of research 
looking at brain injury. And obviously we had our own colleague 
who was shot through the brain and we are watching her and 
praying for her full recovery.
    So if you could talk a little about where we are in 
neuroscience, and this is my softball question. I am going to 
come back with a much more challenging one, but I know that you 
will be able to handle it.
    Thank you.
    Mr. Suresh. First of all I am delighted to answer that 
because as you know when we met last time this is a topic of a 
lot of interest to me. The interesting thing about neuroscience 
is we are at a point where we have the opportunity to 
understand the functioning of the human brain from so many 
different perspectives. From the biology perspective, the 
tissue level, at the cell level, at the molecular level. And 
NSF-funded work is about to look at all of those levels in new 
and interesting ways.
    You know, we can take a single molecule and we can model 
it, pull it, push it, stretch it, twist it to forces of much, 
much smaller, a thousand times smaller than a nano level force, 
and those tools and technologies have come into existence very 
recently. This is why the National Academy of Engineering at 
the beginning of this century, when they released fourteen 
grand challenges for the 21st Century, one of the grand 
challenges for the community is reverse engineering the human 
brain. And the unique thing about NSF work is that we not only 
look at the biology of the human brain, we also study the 
psychology and the cognitive aspects of the human mind. And the 
combination of the two is absolutely necessary to address this 
issue.
    So you mentioned traumatic brain injury. More than a 
quarter of the soldiers returning from the first Iraq war, the 
second Iraq war, and Afghanistan have some symptom of traumatic 
brain injury, plus we have sports injuries, automobile crashes, 
and that is an area that is a perfect example of a scientific 
field that brings together separated communities. For example, 
you take the war and improvised explosive devices. When there 
is an improvised explosive device, say some distance from a 
tank, and the device explodes and the stress wave created from 
the device hits a human head, that is an engineering problem. 
This is what our Engineering Directorate has funded since the 
1960s and 1970s, engineers know how to do this. Once the stress 
wave hits the human brain what happens to the tissue and cell, 
that is the biology, and how being in that situation in the war 
zone being exposed to this and experiencing trauma is in the 
realm of cognition. And NSF is uniquely positioned to do this 
because we have done this for a long time.
    And the U.S. Army Research Office, until recently I was 
part of a research grant that was funded by the U.S. Army 
Research Office, looked specifically at returning soldiers from 
our recent wars to see how we can put together medical doctors 
from Walter Reed with engineers and with clinicians in various 
hospitals in the Boston area and with psychologists and 
psychiatrists so that we can come together with the latest 
tools and technologies.
    So on multiple fronts there is a challenge. In a completely 
different field there is even exciting opportunity. Computer 
science has progressed to such a point. As you know Watson from 
IBM won the Jeopardy championship not too long ago, and how do 
you take information storage and try to mimic that with respect 
to human cognition and human intelligence? And this is an area 
of great interest as well.
    So I think these are all areas from multiple angles that we 
address at NSF with the exception of the medical part of it 
which NIH does.
    Mr. Fattah. Well, if you could--let me make this request 
formally. I am very interested, and I know the chairman is, in 
how we can make a non-incremental leap forward, and so if you 
have thoughts and if the Foundation can help us think through 
where there may be significant opportunities to penetrate in 
this area, that would be welcomed.

    [The information follows:]

    To make significant, transformative advances in our fundamental 
understanding of the brain we need to explore its many facets, 
including how the brain develops and adapts during the lifespan, how 
neuroanatomy relates to brain function, and how different brain areas 
and systems interact. However, progress toward realizing these advances 
requires 1) enhanced infrastructure and tools to better understand the 
working of the brain and 2) greater interdisciplinarity and large-scale 
efforts in order to gain a meaningful understanding of the brain within 
the broader physical and social contexts that would have real 
implications for learning, development, and health and recovery. 
Enhancing these will be necessary for accelerating the advancement of 
cognitive and developmental neuroscience.
    Current technologies, such as functional magnetic resonance imaging 
(fMRI), electroencephalography (EEG), and genomics, have led to 
transformational discoveries, but remain limited. For example, fMRI 
provides relatively high spatial resolution of brain structures but is 
inherently limited in its temporal resolution, which is needed to 
understand how the various brain structures communicate with each 
other. EEG provides high temporal resolution but does not provide 
detailed information about the location of cortical generators of 
neural activity. However, EEG has the advantage of allowing the subject 
to move relatively freely and thus can be used to explore brain-
behavior relations in young infants. For instance, using EEG, NSF-
funded researchers have identified patterns of activity in the infant 
motor cortex that are produced when an infant watches a video of 
someone performing a particular behavior. These results suggest that 
infants use some of the same brain regions both to perceive actions of 
others and to perform these actions themselves, a possible neurological 
link for learning new behaviors. The current technologies in 
neuroscience have already led to important scientific discoveries about 
the brain; however, there is much more to explore.
    The limitations in current technologies and approaches are 
especially relevant to brain development studies. This is because some 
technologies, such as fMRI, require the subject to be still; thus it is 
very difficult to study children and infants. NSF has also invested in 
the development and use of noninvasive pediatric magnetoencephalography 
(MEG). This new technology has the potential to provide information 
about brain function and development with both the high spatial and 
temporal resolution that are needed, even with very young children and 
infants. Scientists at the Learning in Informal and Formal Environments 
(LIFE) Center at the University of Washington, Seattle are using MEG 
technology to monitor brain changes as pre-verbal babies are exposed to 
language. Intriguingly, it seems that more learning and organized brain 
activity takes place when human teachers are in the same room, versus 
video displays of the same instructors: MEG provides a promising new 
avenue, but currently there are less than a handful of such facilities 
in the United States. Neuroscientists must look further into the future 
at what remains unexplored, unknown, and undiscovered, and identify the 
tools that will lead to advancements. New analytical and computational 
methods for visualizing how brain activation data interact with 
behavioral and environmental data will also be necessary in this area. 
Research is also needed to evaluate the neural dynamics and connections 
within normally and abnormally developing brains; to follow patterns of 
plasticity and development; to map out strategies for developmental and 
educational interventions; and to monitor and assess brain activity 
remotely, while a person actively moves and interacts with the 
surrounding environment.
    In addition to improved measurement technologies, scientists need 
access to better data and data infrastructure--including longitudinal 
data--to better understand brain development, learning, and plasticity. 
While many aspects of brain development are complete by the end of the 
first few years of life, we have learned that important physical 
aspects of brain development--especially frontal lobe development--
continue through adolescence and into adulthood. The frontal lobes have 
long been associated with ``impulse control,'' something that 
adolescents exhibit less of than older adults. Understanding how the 
brain continues to develop and adapt beyond adolescence is particularly 
important for dealing with traumatic brain injury (TBI), especially as 
it affects U.S. war fighters who are in young adulthood. In order to 
understand the brain in more detail, much finer grained analyses are 
needed, on how particular regions of the brain develop, as well as how 
the connections and interactions between these areas emerge over the 
lifespan. Vast data archives such as collections of brain images are 
needed to fully understand brain functioning and links to cognition and 
behavior. Innovations in data infrastructure for shared access, 
interoperability, and data mining techniques will greatly contribute to 
developmental and brain science.
    Neuroimaging technology, no matter how advanced, will not be 
sufficient to understand how the brain functions within the context of 
our complex, demanding, social world. Brain science must be 
fundamentally interdisciplinary, integrating knowledge, methods and 
technologies from behavioral and cognitive science, neuroscience, 
engineering, computer science, mathematics, and physics. The next big 
steps in understanding the brain will require teams of scientists who 
explore the human mind from many different perspectives. Understanding 
how the brain develops and adapts over the course of a life is 
particularly complicated because of inherent interactions between 
physical, cognitive, behavioral, and emotional changes. Thus, 
fundamental research on human cognition, perception, social 
interaction, development, learning, decision-making, and language is 
needed to support the goal of understanding the brain. Mechanisms such 
as NSF's Research Coordination Networks have great potential to bring 
disparate groups of scientists together as a coherent team to tackle 
important issues.
    With advanced knowledge and technologies, enhanced data and data 
infrastructure, and the collective expertise of newly-formed 
interdisciplinary teams of scientists and engineers, the U.S. can take 
advantage of fast-emerging, ground-breaking work in areas such as brain 
plasticity and brain-computer interface, to make significant advances 
in our understanding of neuroscience and development.

                     SCIENTIFIC DATA DISSEMINATION

    And finally let me get to my last question for the day. 
Holding two opposing views at once is what I think the 
president of Morehouse says is what a first-rate mind is all 
about, so let me pose two very different viewpoints to you.
    One is we have this intellectual curiosity and we also have 
this kind of notion in which we have this openness in which not 
only are we doing research, but through NSF this information is 
then made public after eighteen months in most of your grants, 
is made public and is available for the entire world to see. I 
am a little more parochial, at least as it relates to 
information that is important for our economic prosperity or 
our national security or cyber security. The idea is that as 
taxpayers we make an investment of significant sums, and I 
believe hopefully many more significant sums as we go forward. 
But how do we reconcile this need to get this information, our 
own national interest in manipulating and utilizing the 
information, with this notion of scientists who want to share 
it freely with the world.
    So I am trying to figure how you reconcile that, and it 
would be helpful for me to hear you respond to that.
    Mr. Suresh. I think you raise a very important issue, in 
fact aspects of this were very much on my mind, all very much 
on my mind now in my current job, but also a big part of the 
things I had to do in my previous job.
    You mentioned earlier, when you had the testimony from the 
Patent Office, the critical need to change patent policies and 
IP rights and so forth. I think that is a very critical step. 
Increasingly many universities are filing for intellectual 
property and having an efficient process that enables 
innovation to go to the marketplace through filing for patents. 
Efficient processing of these patent applications and 
protections that they provide is very critical.
    But at the same time science on a global scale has always 
been an open entity. And the reason it is open is because we 
have people come up with ideas, it is peer reviewed in the 
community, and if it is accepted for publication it is not 
immediately accepted until somebody else can duplicate it. 
Increasingly that somebody else may not be within the U.S. 
boundary, it could be a scientist from a different part of the 
world as more and more other countries increasingly invest in 
science and engineering.
    So given broadening of participation on a global scale into 
the science and engineering research enterprise, I think your 
question puts the finger on how do you keep science as open as 
possible as we have done, which is very good for knowledge 
creation on a global scale, but how do you keep the boundaries 
tight?
    So I think there are a number of things we can do. One 
could be addressing the issues of intellectual property 
processes and making them as efficient as possible so that we 
give scientists the opportunity to protect their intellectual 
property without being secretive about it, so that the 
scientific process can move on. That could be one part of it.
    The other part of it, equally important part, could be that 
as other countries, especially developing countries, start to 
invest more and more in science and engineering, we have been 
the beacon for science and engineering for so long it is very 
important that we do everything possible to convince our 
international partners to come up with the minimum level of 
scientific integrity, ethics, and openness that is necessary 
for science and engineering. There are things that NSF can and 
should do to do that. We have done the merit review process for 
the last 60 years and the people around the world, my 
counterparts in Europe and Asia, they feel that the NSF system 
is sort of the gold standard. It is important for us to insure 
that other countries, especially rapidly developing countries, 
develop a level of merit review and set of standards for 
selecting scientific proposals, funding scientific proposals, 
insuring the integrity of the process--they come up to speed. I 
think it is very important.
    So we have started some very preliminary conversations with 
counterparts in other countries. So there are many things we 
can do. There is no one particular solution.
    How we deal with issues of cybersecurity is very critical. 
At the same time in the spirit of an open government when we 
spend taxpayer money, how do we make our research output 
accessible definitely to all Americans, and most probably to 
the broader scientific community.
    So I think these are all issues that we need to address in 
tandem to make sure that we address the conflicting issues that 
you raise in your question.
    Mr. Fattah. Well, it is going to be a challenge as we go 
forward, and I will not belabor the point. We have another 
agency under the jurisdiction of the committee, which is the 
International Trade Commission, and they spend a lot of time 
litigating issues around IP violations for products coming into 
the country. The notion before was if you built a mousetrap, I 
think it was said, you could make your home in the woods and 
the world would make a path to your door. The problem now is if 
you make a better mousetrap and put it up online people are 
going to make it before you can make it, and make money off of 
it.
    And so we are in an economic battle. We have national 
security issues. Basis scientific research is at one level of 
our ammunition in this kind of a battle that we are in and we 
have to think about-- and I do not know how we reconcile it. I 
think it is just a very important issue obviously because again 
science by its nature is not science unless you can replicate 
it, and you have to publish it. And so it gets to some very 
important issues, but we do want to protect the public's 
investment, and American taxpayers are investing to make sure 
that America wins and we have to figure how, under these 
circumstances, we go forward.
    Thank you.
    Mr. Wolf. Thank you, Mr. Fattah. I have a number of 
questions, but I do want to follow up.

                     USE OF HYPERBARIC TECHNOLOGIES

    I would appreciate it if you could have your staff put 
together within a week any information you have on hyperbaric 
treatments. I went to a conference a while back with regard to 
hyperbaric treatments for returning vets. Some doctors I have 
talked to about hyperbaric treatments for a brain injury are 
not even sure what I am talking about. I think it is kind of a 
voodoo, others say it has been so successful. So if you could 
give us the information. I am not asking you to go out and do 
new research, but perhaps everything you have with regard to 
hyperbaric applications on brain injuries, on multiple 
sclerosis, on all the different treatments. Just so we can 
process it.
    [The information follows:]

    NSF reviewed its awards made over the past 25 years and identified 
only one that merits attention to the Chairman's direct question. This 
three-year award totaling $418,000 was made in 1999 to the University 
of Southern California to ``increase understanding of the basic 
mechanisms involved in communication between nerve cells in the 
brain.'' A link to the award data and abstract follows: http://nsf.gov/
awardsearch/showAward.do?AwardNumber-9818422

              PROTECTING SCIENTIFIC INTELLECTUAL PROPERTY

    Secondly, if you would work with the committee to do what 
Mr. Fattah asked. You really cannot be Pollyannish about the 
whole thing. You could not trust Hitler, you could not trust 
Stalin, you could not trust Mao, and you cannot trust Hu 
Jintao. It is just a fact. The Chinese are going to take this 
information.
    So if you have some ideas within two weeks, send up 
information that sort of follows along the lines of your 
exchange with Mr. Fattah. Then we can begin to look at the PTO 
and changes. Maybe it will be Mr. Fattah and I fighting off the 
Republicans on the floor, but on this issue I think we are 
together. I want to create jobs and protect the national 
security.
    I had a person come to my office the other day showing me 
once Permanent Normal Trade Relations passed to China, the 
trade imbalance just collapsed, the job loss collapsed. There 
is a picture of me with Bill Clinton speaking at a joint 
session opposing giving Most Favored Nation Status to China. I 
got up and applauded, and my Republican colleagues are looking 
at me like I am crazy. Then the President flipped, and now 
China is stealing from us.
    So if you can give us some ideas before we mark up the bill 
along the lines of what Mr. Fattah said, I would appreciate it, 
because I completely agree with him.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                    SUPPORT FOR K-12 STEM EDUCATION

    I am going to go about maybe ten minutes, and then we will 
go to Mr. Culberson. We have a series we have to cover here. 
``Rising Above the Gathering Storm'' stated that improving the 
nation's K through 12 educational systems was the highest 
priority step we could take to improve our scientific and 
technical competitiveness. Your budget request, however, de-
emphasizes the development of K through 12 capabilities. In 
fact, the budget proposes to decrease K through 12 programs by 
15 percent from 2010. Do you believe that a request at this 
level reflects a significant focus on K through 12 STEM 
education as envisioned by ``Gathering Storm''? Why are you 
making cuts in virtually every one of the K through 12 
programs?
    Mr. Suresh. Well, let me offer a couple of points related 
to that. Increasingly NSF's participation in education 
activities, especially STEM activities, are not just confined 
to EHR. They are part and parcel of every part of every 
directorate, every office across NSF, including K through 12.
    For example, the Directorate for Engineering funds a 
program called UTeachEngineering in Texas, and that program has 
been very successful for K through 12 students in exciting them 
about the opportunities in engineering at a very early stage. 
There is the GEO Teach program that does similar things in our 
Directorate for Geosciences. So there are various activities 
that we can engage in. A number of directorates participate in 
activities beyond it.
    So the budget numbers just for one or two directorates do 
not necessarily mean that our commitment to K through 12----
    Mr. Wolf. But the budget is the budget, and it proposes to 
decrease K through 12 programs by 15 percent from the 2010 
level.
    Mr. Suresh. So one of the things we are looking at is the 
following: There are three new programs that are going to be 
put in place for this year. We have a new program, Teacher 
Learning for the Future, and what it tries to do is to take the 
best practices for some of the programs like GK-12, programs 
like Math and Science Partnership program and also the Noyce 
Teacher Scholarship program and so forth, bring them together 
in a much more cohesive way so that we can look at what new 
opportunities we can provide in concert with other offices and 
directorates across NSF.
    So the numbers just in those program buckets may not fully 
reflect----
    Mr. Wolf. They do not look good. They do not look good.
    Mr. Suresh. No, but this does not indicate any wavering 
commitment on our part for K through 12.
    Mr. Wolf. Someone once said ``if you really want to find 
what a person is committed to, look at their checkbook.'' Words 
can be one thing, but who they write their check to and what 
they are spending money on are something else.
    I want you to develop it a little bit more. The President's 
Council of Advisors on Science and Technology released a report 
last year on K through 12 STEM education. One of its finding 
was that the NSF K through 12 portfolio is not optimally 
balanced between programs that support basic education research 
and those that support the development and implementation of 
scalable practical education solutions. How do you respond to 
that criticism?

             NSF AND DEPARTMENT OF EDUCATION COLLABORATION

    Mr. Suresh. So as you know the PCAST report also referred 
to ways in which NSF and the Department of Education can work 
together better.
    Mr. Wolf. That was the next question.
    Mr. Suresh. Yeah. And also with other agencies.
    So the first thing I have done is I am co-chairing an NSTC 
committee on STEM education along with the OSTP deputy 
director. And this committee met last week and we are looking 
into ways in which NSF can play a critical role in STEM 
education. In fact we will be looking at ways in which we can 
respond to the PCAST report and also to the America COMPETES 
Authorization Act language.
    Mr. Wolf. Well, they recommend the creation of an advanced 
education research agency to be headed either by NSF or the 
Department of Education. Is that something that you are looking 
at? Do you support that recommendation?
    Mr. Suresh. We will work very closely with them when it is 
approved and comes into existence. There are a number of 
activities that we are already engaged in with the Department 
of Education that will position us very well for this new 
activity.
    For example, I mentioned the NSTC subcommittee that was 
just set up.
    Mr. Wolf. But do you support that recommendation?
    Mr. Suresh. I think anything we can do to work with other 
agencies----
    Mr. Wolf. Pretty good, you can duck these issues sometimes. 
The question is, do you support it? It's ok if you want to 
think about it, but we would like to know if you support that 
or not.
    Mr. Suresh. I think the spirit of this is very good and I 
would want to make sure that it is supported with the right 
resources so that it can be successful.

                 GAO STUDY ON TEACHER TRAINING PROGRAMS

    Mr. Wolf. Well, of course. How did you fall out in the GAO 
study on teacher training that came out last week about 
duplications between NSF and others? What are your comments 
about that? Have you read that?
    Mr. Suresh. Yes, and in fact Mr. Bonner asked that 
question.
    Mr. Wolf. Well, if he did for the record, then we won't.
    Mr. Suresh. Yes.
    Mr. Wolf. And your comments about it?
    Mr. Suresh. So I have looked at it. In fact there are 
various programs. NSF has been engaged in this as you know very 
well for the last several decades and we are continually 
looking at programs that could be duplicative and try to see 
what we can do to improve that. In fact there are a number of 
realignments of programs within EHR currently, specifically 
with the objective of looking at what is new and what may be 
done by somebody else so we do not duplicate those things.
    Mr. Wolf. Well, we have to do that. I just lost a little 
confidence in the fact that NSF could not do a basic study on 
best practices on education. Then I hear about studies and 
meetings, just meeting and meeting and meeting. And what 
happens? Zero. Two years go by.
    You are a good witness, and you explain what you are doing, 
but we want to see more action because this nation is slipping. 
What are we in math now? Where do we fall in math? What number 
are we in math for the world?
    Mr. Suresh. I think it depends on fourth grade level or 
eighth grade level, and by some studies we are number twenty 
and some studies among developed countries----
    Mr. Wolf. So what do we do to deal with that issue? And 
what best practice was working in Philadelphia, was working in 
Richmond, or working in some other place? The teachers are over 
worked and they cannot gather all that information. That is 
your job. So the fact that it took two years and we are still 
in the process of finding the answer is troubling. You are new, 
so I do not think you should feel too defensive about it 
because you have only been on there for four months. But we 
want to see, not just the verbiage and the rhetoric, but the 
actual reality of what is going to be done.
    Mr. Suresh. So I very much not only appreciate your 
question, but also your commitment to this topic. So as I 
mentioned earlier----
    Mr. Wolf. Well, we are getting ready to go into decline. 
The nation is ready.
    Mr. Suresh. Absolutely, if you are not careful.
    Mr. Wolf. The 20th Century was the American century, and we 
want the 21st Century to be the American century, not the 
Chinese century. That is what we are dealing with, and time is 
critical.

                            AWARD OVERSIGHT

    NSF is increasing the number of grants it makes each year 
without making corresponding increases in the programs 
responsible for monitoring grantee compliance. This has caused 
reductions in basic oversight activities like site visits and 
increases the likelihood that grantee waste, fraud, or abuse 
will go undetected.
    This year's budget request again proposed an increase of 
more than 2,000 research grants, but with no apparent increase 
for award oversight. How will you ensure that each of these new 
grants receives the appropriate level of monitoring and 
scrutiny with a static grants management budget?
    Mr. Suresh. So one of the reasons for the decrease in last 
year with respect to site visits was when NSF received $3 
billion in the stimulus package funding without any increase in 
staff, it really strained the system, and now that we are 
moving away from the impact of the stimulus funding it is our 
intention in every way to make sure that this oversight is 
maintained.
    The second thing that I have already launched a pilot 
program for this coming year, where we will look at employing 
new technology so that site visits can be done using a variety 
of ways while insuring confidentiality of the process.
    For example, we do not necessarily have to fly across the 
country for a site visit, and there are ways of engaging 
technology that we could do much more than we have done on the 
past.
    Mr. Wolf. Teleconferencing.
    Mr. Suresh. Videoconferencing, but engaging multiple 
communities. And so we are launching several pilot projects 
this year for different types of reviews, and our hope is that 
it will not only lead to better efficiency internally for NSF, 
it will also lead to engaging the best referees from the 
community.
    Mr. Wolf. Are there some grants that you have looked at 
afterward and you say, ``wow, that was a waste of money. Boy, 
we really got taken.''
    Mr. Suresh. Well, actually without spending a lot of money 
we can do a lot more. For example, we have a Cisco system on 
loan that we are going to try and see how it works before we 
spend any tax dollars to buy it or acquire it. There are other 
things we can do, and hopefully in the future NSF will have the 
latest technology.
    Mr. Wolf. Are there some grants that your staff has come in 
and said, ``Doctor, look at this. We put all this money out and 
we got garbage back,'' and you say, ``oh my goodness 
gracious.'' Are there many like that?
    Mr. Suresh. Fortunately because of the merit process we do 
not have that, but if by human error or some other factor if we 
have one of these we have mechanisms in place for periodic 
review. So even a five-year grant is not given without any 
conditions attached to it.
    Mr. Wolf. How many have you pulled back?
    Mr. Suresh. I do not have the exact number, but I can get 
that to you.

                     MECHANISMS OF AWARD OVERSIGHT

    Mr. Wolf. If you would. What kind of evaluations do you 
conduct on the work of your grantees to ensure that they are 
not just executing the grants in compliance with financial 
terms and conditions but also achieving probably the most 
important thing--significant program outcomes?
    Mr. Suresh. So we have annual grantee conferences in most 
of the areas where they not only report to the program officer 
or program director, they report to the peer community. In fact 
these grantee conferences are tracked, hundreds, in some cases 
many hundreds of scientists, so a scientist has to stand up and 
defend their NSF funded work in front of other scientists, and 
if the quality of the science is not good enough they will get 
shot down in public. So that is one mechanism. The other 
mechanism is peer reviews. The other mechanism is site visits, 
reverse site visits.
    So we have a number of mechanisms in place. An annual 
reporting requirement and so forth.
    Mr. Wolf. Do you think they have all been successful? Are 
you about where you think you should be?
    Mr. Suresh. Well, if they are not successful, if they are 
not meeting a particular goal, they will be terminated.
    Mr. Wolf. So you are going to give a list of who has been 
terminated and under what conditions?
    Mr. Suresh. I will get that data for you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                          ICEBREAKING SERVICES

    Mr. Wolf. Okay. The 2012 budget discontinues the annual 
transfer of funds from the NSF to the Coast Guard for the 
operation of Coast Guard icebreakers. While this does relieve 
pressure on the NSF budget, the DHS Inspector General has 
suggested that the Coast Guard may be less willing to task its 
ships for NSF use if NSF is not holding the purse strings. Are 
you concerned about this?
    Mr. Suresh. So obviously the Polar program is a very 
important part of NSF's activities, so we have three Coast 
Guard ships, icebreakers that we have had access to. Healy in 
the Arctic Ocean, and then we had Polar Sea and Polar Star in 
the Antarctic sites. Now as you may know one of the two has 
been retired, decommissioned, and the other one needs 
refurbishment before too long.
    So what we have done is we have engaged the Swedish 
icebreaker Oden to make up for any gaps that may arise. We are 
continuously working with the Coast Guard on this, and also if 
necessary we will renegotiate a continuing agreement with our 
Swedish counterparts for the Oden while we are looking into the 
long-term implications of this.
    Fortunately the lack of availability of either Polar Sea or 
Polar Star has not had any detrimental effect on our Antarctic 
operations.
    Mr. Wolf. But if you are not paying for it----
    Mr. Suresh. No, we will reimburse the Coast Guard for costs 
involved, and we have been in continuous conversation with the 
Coast Guard on our needs and their requirements as well. So far 
it has not been an issue. The director of our Office of Polar 
Programs, Karl Erb has been in constant touch with them. In 
fact just last month he was in Sweden to discuss this, he has 
been in touch with the Coast Guard, and this is something we 
will continuously monitor.
    Mr. Wolf. So basically the U.S. domestic icebreaking 
capabilities are in decline. If we cannot break ice with our 
ships, that is decline. Now we have to rent a ship or lease it. 
We love Sweden, for the record. They are wonderful people. But 
we have to rent from Sweden? We are a maritime nation, look at 
the map. Yet we have to rent it out from Sweden? Just for the 
record, we are not blaming you. Is that what we do? Are we 
renting this out from Sweden?
    Mr. Suresh. So this is only a temporary measure, this is 
not the long-term solution to this issue. So we are looking at 
what needs to be done to refurbish----
    Mr. Wolf. How long will that take?
    Mr. Suresh. They are continuing to look at our needs. 
Probably within a year we will have an idea.
    Mr. Wolf. An idea. So we will be using the Swedes for how 
long, honestly? You are not under oath.
    Mr. Suresh. My estimation is that for the coming year we 
will be relying on the Swedish.
    Mr. Wolf. So next year you will not need Sweden?
    Mr. Suresh. We do not know that yet, but this is what is 
being accessed right with respect to the refurbishment of one 
of the Polar icebreakers.
    Mr. Wolf. I think that goes into what we were talking 
about. I mean, I think it is a----
    Mr. Suresh. So we also commissioned another vessel for 
which the keel laying ceremony will be held in April, but that 
is a shallow depth icebreaker, so it can go only up to three 
feet or so, not the twenty feet or so that we need, so that is 
more of a research vessel than the icebreaker capability for 
the Antarctica.

                            NSF TRAVEL FUNDS

    Mr. Wolf. Okay, we have a number of questions on the 
icebreaker that we are going to ask you for the record. I have 
a few more on contracting, then we will go to Mr. Culberson.
    NSF funds travel, meetings and incidental expenses for 
thousands of technical experts each year. Can you tell us your 
travel budget for the last three or four years, and then based 
on the new technology that you were talking about, 
teleconferencing and videoconferencing, what you think it will 
be in 2012? If you can show us trends in 2009 this was it, 2010 
this was it, 2011. Now in 2012 we are doing these dramatic 
things, teleconferencing, video conferencing. What do you think 
the budget will be so we can actually see that there is an 
honest savings.
    And with that, can you provide how many trips were taken 
both by NSF people and contract people in 2009-2012 so we can 
see again if there has been an honest drop or there has not.
    Mr. Suresh. We will get that information to you, Mr. 
Chairman.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                            NSF CONTRACTING

    Mr. Wolf. GAO has questioned whether NSF is overly reliant 
on cost reimbursement contracts, which are risky and costly to 
administer, and suggested that NSF could transition some of its 
current contracts to firmer pricing terms. Do you agree that 
NSF could conduct more contract work under fixed price 
vehicles?
    Mr. Suresh. Obviously the fixed price gives us upfront 
knowledge of what the commitments are. As you know NSF 
instituted a no cost overrun policy three years ago for all of 
our major research equipment and facilities contracts, but the 
nature of the work for different projects is so very different. 
Sometimes design changes need to be made during the process for 
scientific and technical reasons and that has led to some 
adjustments that are being made.
    I am aware of this issue and in fact we have started an 
internal conversation on how we can address this, keeping in 
mind that we want the best technology and the best capability 
to emerge within the confines of our constraints and our 
policies.
    Mr. Wolf. Okay. I am going to Mr. Fattah to see if he has 
any last questions.
    Mr. Fattah. I am good.
    Mr. Wolf. Okay, fine.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Culberson.

                 K-12 STEM EDUCATION REPORT, CONTINUED

    Mr. Culberson. Thank you, Mr. Chairman, and my apologies 
for running so far behind, I have got everything happening all 
at the same time here this morning.
    We are all, as the chairman and I know Mr. Fattah has told 
you, committed to support the NSF and your role is so critical 
in preserving our leadership as a nation in years to come, you 
are as an important strategic investment as we have, and 
Chairman Wolf is exactly right about the importance 
particularly of science and engineering education.
    You really do not have to go very far Mr. Chairman or Mr. 
Fattah, the Thomas Jefferson High School for Science and Math 
is about eight miles away from your headquarters. You all are 
in downtown Arlington, right? Everyone, every study, every 
analysis that I have seen done of public high schools in 
America uniformly ranks the Thomas Jefferson School for Science 
and Math number one in the nation. There is your best practice 
model.
    And I have to tell you I am really disappointed and 
profoundly disturbed that you were floundering around trying to 
answer the chairman's very simple question of where is best 
practice and how do you find it. It is eight miles away. I do 
not understand, I mean there it is.
    Mr. Suresh. Well, we will include all the right models in 
the report that we will give you and the community, including 
best practices from anywhere.
    Mr. Wolf. Have you been out there?
    Mr. Suresh. I met with the principal of Thomas Jefferson 
School.
    Mr. Culberson. Well, meeting with them is one thing. You 
know, we are devoted to you guys. I have to tell you that your 
testimony and the report of the Inspector General kind of 
alarms me. We're concerned about making sure that the NSF--that 
you almost have to be like Caesar's wife--and the 
responsibilities that you have to insure that, as Mr. Fattah 
and the chairman quite correctly point out, that you are 
protecting the vitally important national security information 
for economic reasons and for the nation's security. I am 
confident the chairman asked you before I came in about Chinese 
nationals.
    Mr. Suresh. Yes.
    Mr. Culberson. I hope you are going to respond promptly and 
thoroughly to his request, because that is really, really 
disturbing.
    The report I have you, Mr. Chairman, that General Mattis 
prepared, pointed out that there are more People's Liberation 
Army graduate students in U.S. graduate schools than I think 
from any other nation. That is a real concern, and to the 
extent that we want to make sure NSF is protecting vital 
information from the Chinese, but obviously, in your response 
to the chairman's questions, you are not focused on STEM 
education, you are creating all kinds of new programs and 
initiatives in your testimony, but dropping a couple. You are 
on page seven recommending terminating or reducing the graduate 
STEM fellows and the national STEM distributing learning 
program.
    I recall a couple years ago that there was a bill that 
President Bush pushed that I think actually passed in some form 
that I remember it. When it came through, Mr. Chairman, several 
years ago, I see some heads nodding. The bill transferred 
responsibility for STEM education from NSF to the Department of 
Education. Does anybody remember that? Wasn't there some 
statutory change that shifted this responsibility?
    Well, who has primary responsibility for developing, 
establishing, and identifying a best practice, which is clearly 
Thomas Jefferson High School, you do not need to go but eight 
miles down the road. I cannot get my Wi-Fi to work or I would 
have given you an exact number and map. Who has primary 
responsibility? Is it NSF or the Department of Education for 
identifying best practices for science, technology, and 
engineering programs in our public schools? Is it you or the 
Department of Education? It should be you I would think.
    Mr. Suresh. We do research into models and we develop 
models and test them and validate them, but the implementation, 
especially a large scale implementation of this, the Department 
of Education does of course, we interact with them.
    Mr. Culberson. Well, they are the ones that can roll it 
out, but I have to tell you it really shakes me up that you 
could not answer the chairman's question about what is the best 
practices or model and it is eight miles down the road at 
Thomas Jefferson High School.
    Mr. Fattah. If the gentleman would yield for one second. I 
agree with your passion on the point, but the earlier time when 
it was answered in full was that what they had done with the 
chairman's request is to take it very serious and they have 
done an empirical scientific based study with control groups 
and others looking at all the practices and so on so that a 
full report, and we are going to have a roll out. We are going 
to have a roll out. They have already submitted to the chairman 
the interim report.
    Mr. Culberson. Okay.
    Mr. Fattah. We are going to have a roll out in 
Philadelphia. I am going to get you a cheesesteak. At the 
Constitution Center we are going to have educators come in and 
hear this. Because what the chairman has gotten them to do is 
going to be historically important to teaching STEM.
    So you know, Thomas Jefferson is a great school, but 
aberrations or anecdotal circumstances are not enough to make a 
scientific judgment on.
    So we are going to have a great report.
    Mr. Culberson. In the report that Mr. Fattah is talking 
about you have looked at schools all over the United States and 
you have identified what appear to be the best practices and 
model programs, and you are going to roll this out as he says 
at the Constitution Center?
    Mr. Fattah. In Philadelphia, I'll get you a cheesesteak.
    Mr. Suresh. So, Mr. Culberson, I thank you for the 
question. Let me repeat some of the aspects.
    Mr. Culberson. Forgive me for running late if I missed you 
earlier.
    Mr. Suresh. No, no, no, no problem at all.
    Mr. Culberson. But I was just so disturbed when you could 
not answer Mr. Wolf's very simple question.
    Mr. Suresh. No, no, I answered it earlier, so I did not 
want to repeat myself.
    Mr. Culberson. I understand. Okay.
    Mr. Suresh. So let me reiterate some of the points I made.
    We have set up a National Research Council committee 
involving the best teachers in the country and educators in the 
country to provide us input on various best practices. That is 
step number one. On May 10th and May 11th there will be a 
symposium, which we have invited the chairman to kick off this 
year.
    The second thing we have done is to engage the Urban 
Institute, one of the centers of the Urban Institute, to pick 
two states, and it may well be Virginia and Thomas Jefferson, 
but we did not want to do it, we wanted an independent 
organization to do this professionally with all the details, 
and they will provide input on best practices from two states 
based on input they have received from a larger sampling from 
across the country.
    Mr. Culberson. Who is the Urban Institute?
    Mr. Suresh. There is the name of a center call----
    Mr. Culberson. Why wouldn't you do this?
    Mr. Suresh. Because they have been engaged in a number of 
studies related to this in the past and we wanted an 
independent study.
    Mr. Culberson. Educrats do not give me a lot of confidence, 
that just is the reason I ask. I do not want to dwell on this, 
since you answered earlier, and you were very gracious. You 
know we are devoted to you, and I do not want to dwell on it, 
but you are going to give a detailed report to the chairman and 
the Committee?
    Mr. Suresh. Absolutely.
    Mr. Culberson. You are going to roll out what you believe 
are the best practices and identify the schools that are really 
doing it right.
    Mr. Suresh. That is correct. And one other point that we 
discussed was not just a report to this committee, but also on 
ways in which we can roll it out to the community at large so 
that the best practices that are identified are disseminated to 
the school districts and others in the most efficient way.
    Mr. Culberson. Okay, and the Department of Education will 
be responsible for that?
    Mr. Suresh. But we could make it available to them through 
the media that we have.
    Mr. Culberson. Okay. Well, that is something I really want 
to help the chairman and Mr. Fattah follow up on. We are in an 
environment where we are facing--it is an age of austerity 
unlike anything the nation has ever faced and all of us are 
going to be working hard to protect NSF and firewalling off 
core functions. We are, I think, going to be entering an era 
where we are going to have to retrench as a nation and focus on 
core missions, and this is clearly one of your core missions, 
to identify and then help disseminate best practices in science 
and technology and engineering education, because it is just 
vital. I know the Chairman pointed out the Chinese are 
graduating ten times more engineers than we are.
    I also noticed that the Inspector General's report pointed 
out that you have had real problems with confirming whether or 
not grant recipients are actually performing and completing the 
work that ensures effective oversight throughout the life cycle 
of an award. You mentioned to the Chairman that you were doing 
site visits and inspections, but the Inspector General says you 
have actually performed 20 percent fewer site visits than you 
had originally planned, so you are doing fewer site visits. All 
of us want to be sure that you are following the Inspector 
General's recommendations. Are you aggressively doing 
everything you can?
    Mr. Suresh. Absolutely. In fact we are looking at every 
means possible to increase the site visit methods, and one 
example of that is what I mentioned with respect to engaging 
the latest technology to do the site visits. There are other 
things that we can do with respect to frequency of grantee 
conferences and so forth.
    Mr. Culberson. The IG mentioned Second Life which is the--
--

                    MERIT REVIEW PANEL PILOT PROJECT

    Mr. Suresh. Second Life is a virtual site visit process and 
there are a number of ways in which we can do that. We already 
have a pilot project under way to look at what the best 
practices are.
    Mr. Culberson. Does that allow you to see virtually 
somebody pick up this glass of water and look at it and examine 
it?
    Mr. Suresh. Absolutely. The technology----
    Mr. Culberson. Is it secure?
    Mr. Suresh. That is why we are doing a pilot program.
    Mr. Culberson. To keep anybody else in the cloud from 
diving in from Peking to Beijing, I guess they call it, and 
looking at what you are doing.
    Mr. Suresh. That is exactly why we are doing the pilot 
project to make sure. It is absolutely critical that we insure 
the confidentiality of the review process, so we want to make 
sure that whatever systems we use--just to go a little bit 
further, just three days ago I met with the senior research 
officers of the AAU, American Association of Universities, to 
talk about ways in which universities can help us with regional 
hubs so that we can engage reviewers without having them fly 
into Arlington, Virginia.
    Mr. Culberson. Sure. Just make sure it is secure, please.
    Mr. Suresh. Absolutely.
    Mr. Culberson. Year before last, I had been using iGoogle's 
map service. I just temporarily played around with the thing 
that allowed my staff to see where I was. Then I woke up one 
morning, Mr. Chairman, and my location was in downtown Beijing. 
It was because they had hacked the Google site, and then hacked 
all of the Google accounts. I immediately terminated it.
    I mean the Chairman is right, there is a very aggressive 
and hostile cyber warfare going on from the Chinese.
    Let me also just wrap up and mention, I am also concerned, 
Mr. Chairman, that you are not spreading yourselves too thin. 
You received a lot of money from the Stimulus Package, and 
looks to me that you are spreading that pretty thin.
    I mean, you are cancelling a lot of important work that you 
have been doing on education. It looks like you started 
building a telescope, an Alaska region research vessel, an 
ocean observation initiative, and an advanced technology solar 
telescope. All noble efforts, but we are in an area where you 
are going to have to really focus on your core mission. I 
suspect those are tremendously expensive projects, and you just 
made a down payment on all of them and they are going to go 
over their life cycle cost by a lot.
    And by the way, Mr. Chairman, and I will just wrap up on 
this, the icebreakers are going to cost upwards of a billion 
dollars to completely rebuild them, won't they?
    Mr. Suresh. I do not know the exact price of this, but----

                       FOCUSING ON NSF'S MISSION

    Mr. Culberson. I have looked at it, it is about a billion 
dollars if you were to rebuild those Coast Guard ships, Mr. 
Chairman, and you do not have the money. When Mr. Wolf was 
Chairman last time, this was something I worked on with Frank 
LoBiondo, to get the Coast Guard to transfer responsibility for 
the icebreakers. President Bush has shifted them over to you, 
and you did not have the money. You do not have the money to 
refurbish those ships, it was about a billion dollars. They are 
finally back in the hands of the Coast Guard. They are ancient 
ships, are in very back shape. It may actually be more cost 
effective at this point to rent, as aggravating as it would be, 
from the Swedish. You are doing all these other new things.
    I just worry, do not get yourself spread too thin. The IG 
says you do not have good safeguards in place to monitor these 
major investments while you are doing in these big capital 
construction projects.
    There is a lot or worry here, Mr. Chairman, that this is 
going to require a lot of oversight from us. You do not 
necessarily need to get into all this right now, but I think 
everything I have said is essentially accurate, right?
    Mr. Suresh. Well, let me----
    Mr. Culberson. I have not misstated anything have I or 
misstated anything?
    Mr. Suresh. Let me add a couple of points to that.
    So along with new commitments that have been made, there 
are also things that have been terminated.
    For example, one of the projects that has been terminated 
is DUSEL. The potential cost of DUSEL would have been over a 
billion dollars over many years.
    Mr. Culberson. Right.
    Mr. Suresh. They were for underground science research. 
This is in high energy and particle physics underground.
    Mr. Culberson. Oh, okay. So you cancelled that. I am just 
concerned, I know the Committee is. I do not want to dwell on 
it, because I have got to get to my Texas lunch as well, and 
the Chairman is very gracious to let me come in so late and ask 
questions, but please do not get spread too thin.
    Mr. Suresh. I appreciate that.
    Mr. Culberson. It is a real source of concern.
    Mr. Suresh. Right. If I could just add one point to your 
question on the telescopes. The reason for supporting these 
telescopes, every ten years there is a survey that involves the 
top scientists in the country on what needs to be done, and the 
telescope work is very carefully done so that the planning 
process and the implementation process takes about ten years 
with a lot of community input. So this is not an NSF decision 
to do something, but----
    Mr. Culberson. Sure, I understand.
    Mr. Suresh. And this is to keep the U.S. at the forefront 
of the astrophysics research that no single institution in the 
country is capable of funding.
    So what you say is absolutely true, we cannot spread 
ourselves too thin, especially at tight financial times, but I 
want to assure you that we will do everything possible to make 
sure that dollars are spent wisely and for the right purposes.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Culberson.

                 ROLL OUT OF K-12 STEM EDUCATION REPORT

    Before I end, I want to second what Mr. Culberson said 
about the STEM report conference. Mr. Fattah, I hope we can do 
it. Maybe we can look at the schedule for July and maybe pick a 
Friday to do it.
    Mr. Fattah. I am going to work it in a way in which we can 
get you in there for the July 4th holiday. So we are going to 
do it right. You can be there for the fireworks and the whole 
bit and cheesesteaks. And we want to bring our colleague from 
Texas along with us.
    Mr. Wolf. Now does Geno's or Pat's, have the best 
cheesesteak anyway?
    Mr. Fattah. There is no doubt, this is a scientific fact, 
all right, quantified, qualified, empirical: Pat's is the best 
in Philadelphia.
    Mr. Wolf. Okay. That is who I have gone to. I used to play 
football at that field directly across the street from Pat's. 
So I want to pick a time that we can do that, hopefully a 
Friday, and we can tie it in.
    I think what Mr. Culberson has said was accurate. The Urban 
Institute, they are good, but I'm kind of worried that the 
Department of Education now is going to be involved. And I am 
worried that you are going to have two states, being looked at. 
Maybe the best school is in North Dakota. So rather than 
looking at two states, maybe you should look at the top 50 
schools. ``U.S. News and World Report'' publishes the top 50 
schools. One may be in Pennsylvania, one may be in New York, 
one might be here.
    So I think he makes a legitimate point. Here we are going 
to get the Urban Institute to have a grant and then they are 
going to look at two states. Maybe they are going to be the 
wrong two states. I think Thomas Jefferson does an incredible 
job, but maybe they should be looking at schools rather than 
states.
    And lastly, once we bring the Department of Education in, 
and I guess they are going to have to be brought in, but then 
you got a new agency involved.
    I think we should do the rollout in Philadelphia, certainly 
by the end of July so it can at least be processed. Although 
that will be late for the next school year. I think curriculum 
is set pretty much. But it ought to be just whatever is 
working, wherever it is working. That knowledge ought not to be 
hoarded, it ought to be shared. Ben Franklin's house is two 
blocks from that center--you could call it the Ben Franklin 
whatever. But I want to do it. And I do not want you to do it 
because we asked you to do it. I do not want to speak to your 
conference, because I do not want to look like I am lobbying or 
you gave me something. I just want you to do it because it is 
good for the country.
    My wife and I have 5 kids, 15 grandkids. I am worried that 
this Nation is getting ready to go into decline. If you find 
one idea that impacts one student at Overbrook and one student 
at Vienna High School and one student in Houston, Texas, it 
electrifies. So that is what we want to do is do. You have got 
to be working with--what is the association of school 
administrators? They ought to be part of it. I think Ed Hatrick 
is the head of that. When you come out with, whatever you are 
going to come out with, it should be so profound that it really 
makes the difference. When we look back, this could be the one 
thing that literally gave us the opportunity to make America 
continue.
    So we are going to really make an effort to work it out, 
but I do agree with what Mr. Culberson said. I would feel more 
comfortable if you were doing it without other groups involved, 
but you should do it however you think it is best.
    I worry, too, that is has taken NSF so long that it is 
almost scary.
    And frankly, if it could not be in July--and I want to do 
it with Mr. Fattah--I would rather do it in September or do it 
so that it really has a maximum impact for the following year. 
I do not know when curriculum is established. I have a daughter 
that is a teacher, but when do they begin in the City of 
Philadelphia, when do they begin looking at the next year? So 
maybe you should do it in September or October. Do not feel 
rushed. We are going to do it in Philadelphia. Do it right. Do 
not feel like ``we have got to get this thing done in July,'' 
because maybe that would rush it and make it not so great. One 
of the greatest Presidents we have ever had, Ronald Reagan, 
said the words in the Constitution adopted in Philadelphia in 
1787 were a covenant with the rest of the world. Maybe this 
could be another covenant. Mr. Fattah is going to be one of the 
leading deciders, but think about when you can really do it and 
do it well. Take into consideration Mr. Culberson's comments.
    Mr. Culberson. And if I could, Mr. Chairman, they have been 
working on this since I was placed on this Committee in 2003. I 
asked for this subcommittee so I could work with Chairman Wolf 
on protecting the National Science Foundation and NASA.
    Mr. Fattah. I thought you wanted to work with me?
    Mr. Culberson. Well, of course, you too my friend.
    But I mean, this is where I wanted to be, to help with the 
sciences and NASA, and you all have been talking about this and 
NSF has been working on this literally, Mr. Chairman, since 
2003. This should not be that complicated. You should be ready 
to go.
    Mr. Suresh. Well, we will get you the best outcome of 
things.
    Mr. Wolf. And we are not going to hold you to the July 
deadline.
    Mr. Suresh. I appreciate that. You know the spirit of 
setting up this process to begin with was to do the right 
thing.
    Mr. Wolf. I understand, I understand, we do not have to go 
back and do that.
    Mr. Fattah do you have any other questions?
    Mr. Fattah. No, I want to thank you for your testimony, and 
you said you were out at Texas A&M, you met with doctor--is it 
Garcia? It is a great university and I participated in that 
program last year and I am glad that you are working in Texas. 
My colleague did not hear that, but you are working in Texas. 
Thank you. Thank you for your testimony.
    Mr. Wolf. Thank you, Dr. Suresh, thank you very much.
    Mr. Suresh. Thank you, Mr. Chairman, thank you, Mr. Fattah.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                            Wednesday, May 4, 2011.

                OFFICE OF SCIENCE AND TECHNOLOGY POLICY

                                WITNESS

DR. JOHN P. HOLDREN, DIRECTOR
    Mr. Wolf. Good morning. We want to welcome you this morning 
to the hearing on the fiscal year 2012 budget of the Office of 
Science and Technology Policy.
    Our witness is Dr. John Holdren, the director of OSTP.
    We appreciate you being here.

      Opening Statement of Chairman Wolf and Ranking Member Fattah

    The Administration and the Congress are in broad agreement 
about the need for significant investments in science and 
technology programs next year.
    I think where there are some differences is that many do 
not agree on how the President's budget distributes the science 
and technology money used for fiscal year 2012.
    I am not sure that the Administration is doing enough to 
ensure that all of the various elements of the science and 
technology budget are well-coordinated and are formed into a 
coherent over-arching program.
    And I question sometimes whether the Administration takes 
seriously the threat posed to us by China and our other 
economic competitors.
    Dr. Holdren, you are here today not only to defend your own 
budget request but also to discuss these larger issues with the 
Government's research and development agenda because you have 
one of the most important positions within the Government on 
these science and technology issues.
    But before we get to your testimony and questions, I would 
like to turn it over to Mr. Fattah, the ranking member.
    Mr. Fattah. Thank you.
    Let me welcome you also, and let me thank the chairman for 
conducting this very important hearing.
    Needless to say, there is a very, very significant 
challenge for our country in this space. Many years ago we had 
absolute advantages that are now relative advantages over our 
economic competitors in a variety of these areas. Innovation 
and technology is critically important and our investments in 
science are important. Larger countries like China are making 
very significant investments and smaller countries like 
Singapore and others are making, relative to their size, very 
significant investments in these areas.
    This Administration has done more than any administration 
or actually more than a number of administrations combined in 
terms of investment in science, technology, and innovation.
    The chairman's efforts and this committee's efforts in 
terms of the report around the Gathering Storm I think have 
helped generate more interest here on The Hill around our 
critical needs.
    And I think that there is a combination of issues that 
create some synergy related to energy independence that also 
have spurred some interest.
    So I am very interested in your testimony and look forward 
to an opportunity to interact.
    Thank you.
    Mr. Wolf. Thank you.
    You may proceed. Your full statement will appear in the 
record.

                   Testimony of OSTP Director Holdren

    Dr. Holdren. Well, thank you very much, Chairman Wolf, 
Ranking Member Fattah.
    It is certainly a privilege for me to be here today to talk 
with you about the President's fiscal year 2012 budget proposal 
for science and technology. And I will try to address the 
broader concerns. I am certainly not here just to talk about 
the OSTP budget request. The premise behind this budget is one 
that, as both of you have already stated, is something we 
really all share and that that is that creating the American 
jobs and industries of the future, creating the quality of life 
that we all want for our children and their children does 
require investing in the creativity and the capacity to 
innovate of the American people.
    We think that the 2012 budget proposal that the President 
has put forward does that with responsible and targeted 
investments in the foundations of discovery and innovation, 
that is in research and development, in science, technology, 
engineering, and math education and in 21st century 
infrastructure.
    And it does that with increases in the highest priority 
focuses being offset by reductions in lower priority ones. It 
is a budget that is aimed at helping us win the future by out-
innovating, out-educating, and out-building the competition, 
but doing it in a way consistent with the need to reduce the 
deficit, to trim budgets overall.
    Now, clearly we need the continued support of the Congress 
in order to get this done. And I stress continued support 
because the strengthening of the national effort in science, 
technology, and innovation has for a very long time been very 
much a joint venture of the Congress and the Administration. It 
has been that way over the past two years and we certainly hope 
it will continue to be a joint venture.
    As you know, the President's budget proposes a record $66.8 
billion for civilian research and development, but we are 
committed, as I have already suggested, to reducing the deficit 
even as we prime the pump of discovery and innovation.
    We have made in developing the President's budget strategic 
decisions to try to focus the resources on those areas where 
the payoff for the American public, for the American taxpayer 
is likely to be highest.
    Mr. Chairman, I know the committee is already familiar with 
the details of the President's budget proposal. I just want to 
very briefly highlight a couple of key points for the agencies 
that are under the jurisdiction of this subcommittee.
    First of all, consistent with the America COMPETES 
Reauthorization Act, which was passed by Congress, as you know, 
in December, signed by the President in January, the budget 
calls for continuing on the doubling trajectory for the 
National Science Foundation, the DoE Office of Science, and the 
NIST, that is National Institute of Standards and Technology, 
laboratories that the President originally committed to in his 
speech at the National Academies in April of 2009.
    Two of those three agencies that are especially important 
to the future economic leadership of this country are under the 
jurisdiction of your subcommittee, as you know.
    In the case of NASA, the President's budget holds that 
agency to the 2010 appropriated level of $18.7 billion while 
still funding every initiative that was called for in the 2010 
NASA Authorization Act.
    The President's budget also helps NOAA improve critical 
weather and climate services, invest more heavily in restoring 
our oceans and coasts, and in ensuring continuity in crucial 
earth observation satellite coverage.
    The 2012 budget also emphasizes STEM education to prepare 
our children to be the skilled workforce of the future. It does 
that in part by providing $100 million as a down payment on a 
ten-year effort to prepare 100,000 new highly effective STEM 
teachers. That is part of a broader Administration commitment 
to look carefully at the effectiveness of all of our STEM 
programs and find ways to improve them.
    And to further that goal, I have established a committee on 
STEM education under the National Science and Technology 
Council which, as you know, deals with interagency efforts 
relating to science and technology. STEM education is certainly 
very much an interagency effort.
    And that committee, which is being co-chaired by OSTP's 
associate director for Science, the Nobel Laureate in physics, 
Carl Wieman, has already begun its work. It began its work in 
March and involves all the federal agencies that are involved 
in different ways in STEM education.
    The budget also includes investments for a wireless 
innovation and infrastructure initiative that will help extend 
the next generation of wireless, we hope, to 98 percent of the 
U.S. population.
    Of course, it does, getting to my own office's budget, 
request under this subcommittee $6.65 million for OSTP 
operations. That is five percent below the 2010 funding level 
and slightly below the 2011 funding level. And that is in 
recognition of the need to share the sacrifice and to freeze 
non-security discretionary spending.
    So let me reiterate in closing the guiding principle that 
underlies this budget and that is that America's strength, our 
prosperity, our global leadership all depend directly on the 
investments that we are willing to make in R&D and STEM 
education and in infrastructure.
    Only by sustaining these investments are we going to be 
able to assure future generations of Americans a society and a 
place in the world that is worthy of the history of this great 
Nation which has been building its prosperity and its global 
leadership on a foundation of science, technology, and 
innovation since the days of Jefferson and Franklin.
    Now, I know that staying the course in the current fiscal 
environment is not going to be easy, but I believe that the 
President's 2012 budget for science and technology provides a 
blueprint for doing that that is both visionary and 
responsible.
    The support of this committee, which has been the source 
itself of so much visionary and at the same time responsible 
legislation in this domain in the past, is obviously going to 
be essential if we are going to stay on course.
    And I very much look forward to working with all of you, 
Chairman Wolf, Ranking Member Fattah, Members of the committee, 
in working toward that end.
    Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Wolf. Well, thank you.

                          INTERNATIONAL TRAVEL

    I have a number of questions and we will go through the 
panel. But before I do, one, I am committed to doing everything 
we can with regard to funding the sciences.
    Secondly, if you look at the CR, the sciences did very, 
very well. We protected them.
    Thirdly, I am very concerned about the fact that our 
country is beginning to fall behind. I am particularly 
concerned about China.
    Let me ask you a couple of questions. I reviewed your 
international travel itineraries for last year and found that 
you were overseas for nearly two full months over a sixteen 
month period.
    Why is it necessary to be out of the country so often? Can 
you effectively manage the office if you are out of the country 
that much?
    Dr. Holdren. First of all----
    Mr. Wolf. I have your itinerary, your travel schedule.
    Dr. Holdren. Yeah, I know. I am going to have to----
    Mr. Wolf. Fifty-three days, 35 business days. China, 
Norway, Japan, South Korea, China, Denmark, Russia, England, 
China.
    Dr. Holdren. Let me explain, first of all, that most of 
those trips were in my capacity as the high level 
representative of the U.S. Government in joint commission 
meetings on science and technology cooperation under agreements 
that we have with all of those countries.
    We have those high level joint commission agreements with 
India, Russia, China, Brazil, South Korea, and Japan. And it is 
my----
    Mr. Wolf. You were never in Brazil, and you were in China.
    Dr. Holdren. I have not done Brazil yet. We do have such an 
agreement with China.
    I was also in China for the strategic and economic dialogue 
at the request, the specific request of secretaries Clinton and 
Geithner because of the importance of dialogue with China on 
innovation to get them to roll back their discriminatory and 
unfair policies with respect to procurement, with respect to 
intellectual property rights, and with respect to a number of 
other issues disadvantageous to American business and to our 
exports.
    So I was on all of these trips basically acting as the 
President's agent, pursuing the priorities of this country as 
reflected in important aspects of international cooperation in 
science, technology, and innovation that we believe are in the 
U.S. interest.
    Mr. Wolf. During that year, your most frequent destination 
by far was China. You took three separate trips covering a 
total of three weeks.
    Can you go into detail of what you were doing there during 
those three weeks? Maybe you just covered some of that. Then if 
you could elaborate in a written statement by the end of this 
week, I would appreciate it--who you met with, what your 
purpose was, where you went, when you left, when you came back?
    Dr. Holdren. No, I would be very happy to do that, sir.
    The meetings were, as I mentioned, some in connection with 
the strategic and economic dialogue, some in connection with 
the U.S./China dialogue on innovation policy, which is the 
forum in which we have been pursuing with the Chinese and 
making some considerable progress, I should say, in getting the 
Chinese to step back from the most discriminatory practices 
that they have put in place under the label of indigenous 
innovation.
    Some of those conversations as well were at the request of 
the State Department in the company of Todd Stern, the U.S. 
ambassador to the climate change talks, to try to work on the 
Chinese, particularly Minister Xie Zhenhua, to get them to take 
more reasonable positions in climate negotiations.
    Mr. Wolf. Well, let us look at this. Fifty-three days, 35 
business days, three trips to China for 21 days. I think this 
is a little too much to be gone from the office, but I will 
take a look at it when you send it.
    Dr. Holdren. Be happy to provide it.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Wolf. Did you take your BlackBerry with you?
    Dr. Holdren. Yes, I did, with the permission of the 
security authorities. I did. The BlackBerry, of course, was 
scrubbed before and after, but I did take it with me and I 
did----
    Mr. Wolf. Are you sure you can really scrub it?
    Dr. Holdren. I am not an expert in information technology, 
but I am assured by the people who are in the White House that 
that is----
    Mr. Wolf. Well, why don't we have a joint meeting with you 
and me and the FBI.
    Dr. Holdren. That would be fine.
    Mr. Wolf. Okay.
    Dr. Holdren. I would be happy to do that.
    Mr. Wolf. We will schedule it. I will ask the staff to set 
up a time.
    Dr. Holdren. I would be happy to.
    Mr. Wolf. Have you ever been out to the FBI and had a 
briefing with regard to China stealing any of our technology?
    Dr. Holdren. Oh, I have had those briefings, but not at the 
FBI. I have had them in the situation room. I have had them in 
SCIFs.
    Mr. Wolf. Have you been out to the cyber center out in 
Northern Virginia?
    Dr. Holdren. We are going to visit that in a couple of 
weeks actually.
    Mr. Wolf. To date, you have not been there.
    Dr. Holdren. I have not, but I have been briefed by its 
director in the situation room.
    Mr. Wolf. I think you have to see it.
    Dr. Holdren. We are going to do it.
    Mr. Wolf. Can you tell us when you are going to go out 
there? Maybe I can get a staff person----
    Dr. Holdren. Okay.
    Mr. Wolf [continuing]. To go with you.
    Dr. Holdren. Good. Happy to do that.
    [The information follows:]

Response to Chairman Wolf's Request for Dr. Holdren to Visit the Cyber 
                  Center (NCIJTF) in Northern Virginia

    OSTP staff is working with the FBI to schedule a visit to the 
facility in Chantilly, VA. Once a date has been set, OSTP will notify 
Chairman Wolf's staff of the date.

    Mr. Wolf. Thank you.

          COMPLIANCE WITH CHINA LANGUAGE FROM FISCAL YEAR 2011

    The recently enacted fiscal year 2011 appropriations bill 
contained a legislative prohibition on bilateral activities 
between your office and the Chinese Government or Chinese-owned 
business.
    What steps are you taking to live within the terms of this 
prohibition during the fiscal year?
    Dr. Holdren. Well, it is our intention to live within the 
terms of that prohibition insofar as doing so is consistent 
with my responsibilities for executing the President's 
constitutional authority----
    Mr. Wolf. What does the----
    Dr. Holdren [continuing]. In foreign relations.
    Mr. Wolf. What does the language in the bill mean to you?
    Dr. Holdren. I am instructed after consultation with 
counsel and with appropriate--who in turn consulted with 
appropriate people in the Department of Justice that that 
language should not be read as prohibiting interactions that 
are part of the President's constitutional authority to conduct 
negotiations and at the same time, and there are obviously a 
variety of aspects of that prohibition that very much apply, we 
will be looking at that on a case-by-case basis in OSTP to make 
sure we are in compliance.
    Mr. Wolf. Well, can you keep the Committee informed on a 
case-by-case basis of any time you do anything at all with 
regard to China where you think that perhaps your activity will 
be in confrontation with the language.
    Dr. Holdren. Be happy to do that.
    Mr. Wolf. Great. Thank you.

                         COMPETITION FROM CHINA

    China's government sponsored R&D investments as a fraction 
of GDP have grown by more than five percent annually while the 
American rate of growth have actually been negative in recent 
years.
    How does the 2012 budget address this imbalance?
    Dr. Holdren. Well, first of all, as I mentioned, Mr. 
Chairman, the President committed the country in his speech in 
April 2009 to trying to reach three percent of GDP in the 
combined public and private investments in R&D in this country. 
And that represents an effort to maintain the U.S. lead over 
our competitors including China because as you correctly point 
out, China's investments have been growing very rapidly, in 
some cases more than ten percent per year.
    We are very concerned about that. We want to be sure we 
maintain the U.S. lead, which does remain large, I should say, 
across the range of critical science and technology domains, 
but China is trying to close the gap and we are interested in 
maintaining our lead.
    And the challenge we all face, and I reassert that we face 
it together, is how in this time of budget stringency we can 
find ways to increase the U.S. investments in science, 
technology, and innovation in ways that allow us to stay ahead.
    I would say one important aspect of that since the private 
sector comes up with almost 70 percent of the national R&D 
expenditures is we have to do more to encourage the private 
sector to continue to increase its investments in R&D. And one 
of the ways we have proposed to do that is by making the 
research and experimentation tax credit both simpler, more 
effective, and permanent in order to provide a reliable 
incentive for the private sector to lift their game in R&D.
    Clearly in a country where 70 percent of the R&D is 
financed by the private sector, we have to attend to that as 
well as to the government's expenditures.
    Mr. Wolf. If the existing trend continues, do we run the 
risk of China pulling even with or exceeding us in government 
R&D investments? And if that is the case, when could that 
happen?
    Dr. Holdren. I have got some projections. I mean, none of 
us has a clear crystal ball on this issue because we do not 
know how fast the Chinese economy will continue to grow.
    And there are a lot of people arguing that it will be 
slowing down soon for a variety of structural reasons, but we 
cannot be sure. We do not know if they can sustain the rates of 
increases in R&D expenditures that they have been making. And 
so it is very hard to predict with any confidence.
    I do not believe that it is likely that the Chinese could 
equal U.S. expenditures in this domain any time before 2015, 
but it also depends on whether you count those investments at 
market exchange rate or at purchasing power parity.
    The other point that I would emphasize, though, is it is 
not just the sheer amounts, but it is the quality of the work 
that is done with those investments. And as I think many 
authorities have pointed out, the greatest Chinese universities 
remain light years behind U.S. universities in terms of the 
quality of their faculty, their facilities, their students.
    A large fraction of Chinese engineering graduates would not 
qualify for entry-level engineering jobs in the United States 
because the level of their engineering training is simply not 
up to ours.
    So we need to remember that quality as well as quantity is 
important and we need to continue to focus both on adequate 
resources in terms of our own investments and in the various 
elements of the U.S. system which maintain our qualitative 
advantages.
    Mr. Wolf. They graduated 700,000 engineers last year. We 
graduated 70,000. It is not engineer for engineer, but 35 
percent, 40 percent, 45 percent of our graduates were foreign 
students, many of them Chinese who are going back.
    Dr. Holdren. That is true.
    Mr. Wolf. You were recently quoted as saying that major 
scientific advancements will allow China to ``eat our lunch'' 
economically. At the same time, however, you continue to 
advocate for U.S. assistance to Chinese scientific agencies and 
expanding joint research opportunities.
    If you acknowledge that Chinese scientific advancements are 
a threat to our economy, why would you want to improve their 
capabilities and further speed up their advancements?
    Dr. Holdren. First of all, Mr. Chairman, with respect, they 
will eat our lunch if we do not continue our own investments in 
the strength of our science, our technology, our innovation, 
and our STEM education. I do not believe they will eat our 
lunch if we stay the course.
    Mr. Wolf. Well, sure.
    Dr. Holdren. I will take the second part of your question. 
I am happy to address that as well. I just wanted to be clear--
--
    Mr. Wolf. You go ahead.
    Dr. Holdren [continuing]. In terms of my quote that I was 
not predicting that they will eat our lunch. I was saying 
avoiding their eating our lunch is the reason that we need to 
stay the course.
    Now, the question of why then if we are even worried about 
competition with China should we cooperate with them. The 
answer to that question is that there are a variety of domains 
in which cooperation with China is very much in our national 
interest.
    One of those domains is the prediction and the control of 
epidemics which, of course, know no boundaries. A lot of the 
scientific and technological cooperation we have done with 
China has been in that domain.
    Another domain in which it makes great sense for us to 
cooperate with China is nuclear safety, the prevention and the 
mitigation of nuclear reactor accidents. China is building 
nuclear reactors very rapidly. The consequences of nuclear 
accidents also know no boundaries. And it is in our interest to 
work with them to reduce the likelihood of accidents at their 
reactors as well as, of course, our own.
    China's oil imports are one of the reasons that gasoline 
prices are so high in the United States today. It is the rising 
demand from China and other developing countries and it is 
pressure on the world oil market which has pushed gasoline 
prices as high as they are.
    It is in our interest to cooperate with China in activities 
in alternative energy which will help them reduce their 
pressure on the global market because it is a global market. 
And we have an interest in China reducing its oil imports just 
as we have an interest in reducing our own.
    In the area of environmental problems that cross national 
boundaries, again it is in our interest to work with China to 
accelerate the pace at which they reduce the emissions that are 
affecting our environment as well as theirs.
    Mr. Wolf. In terms of specific joint scientific ventures, 
the President has advocated for cooperation between NASA and 
China's space program.
    Does the PLO run the Chinese space program? Am I correct 
there, the PLO?
    Dr. Holdren. The PLA?
    Mr. Wolf. Yeah.
    Dr. Holdren. They certainly have a lot to do with it. I do 
not think we fully----
    Mr. Wolf. The dominant one?
    Dr. Holdren [continuing]. Understand. My guess would be 
yes, but, again, I do not understand and I am not sure anybody 
understands exactly the way the tentacles of the PLA interact 
with other activities. But they do certainly have a major 
influence. There is no question about that.
    Mr. Wolf. Since our space capabilities exceed theirs by 
virtually all measures, how does this cooperation benefit 
anyone but China? What is the technical or scientific benefit 
to NASA of cooperating with the Chinese Space Administration?
    Dr. Holdren. I will give you a couple of examples. One is 
the question of space debris where we are all threatened by 
junk in space that our satellites and the International Space 
Station might run into.
    And collaborating in the area of minimizing space debris 
and making sure that we all know where all the debris is is 
very much in our interest, in the interest of the safety of our 
astronauts. That is one domain.
    A second domain which is much more long term, much more 
speculative, there is certainly nothing in place now, but the 
President has deemed it worth discussing with the Chinese and 
others is that when the time comes for humans to visit Mars, it 
is going to be an extremely expensive proposition. And the 
question is whether it will really make sense at the time that 
we are ready to do that to do it as one nation rather than to 
do it in concert.
    And nobody knows the answer to that question at this point. 
It will depend, since nobody is going to be ready to go to Mars 
before 2030, whether it makes sense to do that jointly or not 
very much depends on the state of political relations, economic 
relations, and so on at the time.
    But many of us including the President, including myself, 
including Administrator Bolden believe that it is not too soon 
to have preliminary conversations about what involving China in 
that sort of cooperation might entail.
    If China is going to be by 2030 the biggest economy in the 
world as some think it may be or even if it only is still the 
second biggest economy in the world, it could certainly be to 
our benefit to share the costs of such an expensive venture 
with them and with others.
    Mr. Wolf. An IMF report which I am sure you saw came out 
last month showing that, when measured in purchasing power 
parity, the Chinese economy will overtake the American economy 
in 2016, which is much earlier than any previous estimates.
    What is your reaction to that finding of the IMF?
    Dr. Holdren. Well, I looked at that finding with interest. 
I have actually long been one of those arguing that we should 
be paying more attention to purchasing power parity in many 
contexts as the appropriate metric. There are obviously 
respects in which market exchange rates are more meaningful, 
other respects in which purchasing power parity is more 
meaningful.
    But I think if China passes us by 2016 in purchasing power 
parity GDP, that will be a big deal. It will still be true at 
that time that their per capita GDP will be a quarter of ours 
or less, but I am not denying the significance of the 
possibility of the United States becoming the second largest 
economy in the world by any measure.
    And, again, I would simply say, Mr. Chairman, that what the 
President's 2012 budget is advocating is investments in 
science, technology, innovation, STEM education, and 
infrastructure which will postpone the day when China passes us 
and perhaps postpone it indefinitely.
    Again, I would say none of us has a clear crystal ball. 
China has many problems. You yourself have been in the 
forefront of pointing out some of the problems that China has 
created for itself in the domain of human rights and the domain 
of a government in which the citizens do not have anything 
resembling real participation. And that could come to bite 
them.
    We do not know what China is really going to be like and 
what problems they are going to be struggling with in 2015. But 
in the meantime, we should be doing what we can do to 
strengthen the United States' economy, to build jobs, to build 
sustainable industries, to develop new products, to innovate. 
We should be doing all we can in that domain and that is what 
this budget is about.
    Mr. Wolf. Well, I agree. And I would say that this 
committee, and I would say in a bipartisan way, is really doing 
that. I am not going to put you in a spot by asking you this 
question, but I am going to state it as a fact.
    It concerns me very deeply that this Administration is tone 
deaf to the human rights violations taking place in China. I 
think Ambassador Huntsman has done a good job. Short of that, I 
think this Administration has been relatively weak.
    The Chinese people are wonderful people; it is the evil 
government that is doing these things. When the dissidents come 
to the U.S., they tell me that based on what this 
Administration is doing, many of the people are being 
demoralized there.
    We have a situation. The Catholic Cardinal from Hong Kong 
was in to see me three weeks ago. The Catholic church is being 
persecuted, and there are a number of Catholic Bishops that are 
under house arrest.
    I attended a house church on Easter Sunday as some of the 
people were taken away and arrested. There are hundreds of 
house church leaders in jail.
    And when you talk about doing things ``in concert'', does 
it sort of bother you? It bothers me, that that would be the 
case.
    Rebiya Kadeer, who is head of the Uighurs, has two children 
that are in prison and a daughter under house arrest. The 
Chinese have even spied against her here in this country. The 
Uighurs are going through a very difficult time. I think that 
should really bother the Administration.
    The 2009 Nobel Prize winner put on a dinner for Hu Jintao 
when the 2010 Nobel Prize winner was in jail and could not even 
get out to go to Oslo to get his award, and his wife was under 
house arrest and would not be allowed to go.
    That, I think, troubles me. I would hope it would trouble 
the Administration and produce more than just a press release 
or a spokesman at the State Department saying something. Your 
actions make all the difference.
    President Reagan called the Soviet Union an evil empire. 
President Reagan went to Moscow with Gorbachev and he spoke out 
for human rights and religious freedom with Gorbachev there at 
that time.
    The reason I ask you with regard to the People's Liberation 
Army is that they also run a major organ donor program. They go 
into prisons and take the blood type, and then they also bring 
people over who want to buy kidneys for fifty or fifty-five 
thousand dollars. For fifty or fifty-five thousand dollars, you 
can buy a kidney of somebody who is executed by the People's 
Liberation Army that you would have this kumbaya relationship 
with.
    Now, that ought to bother anyone. That ought to bother the 
President. It ought to bother you. I have been there. I have 
been to Tibet. I snuck into Tibet with a young Buddhist monk 
and I have seen what they have done, torturing the Buddhist 
monks. We went by Drapchi Prison.
    The Administration initially would not even meet with the 
Dalai Lama. That should bother you. The Dalai Lama is a 
peaceful person. And what is taking place with regard to the 
Tibetans, they literally turned Lhasa into a no longer Tibetan 
city. The Chinese run it and are trying to undertake ethnic 
cleansing.
    And, lastly, should it not bother you about this 
cooperation with the number one supporter of genocide? I was 
the first member of the House to go Darfur. There is genocide 
in Darfur. The genocide in Darfur continues to this day.
    The AK-47s and the weapons, much of that has come because 
of the Chinese helping the Bashir Government, which is under 
indictment by the International Criminal Court. Here is a man 
who is under indictment by the International Criminal Court and 
his number one support is the Chinese Government. They have the 
largest embassy in Khartoum.
    So as you say ``in concert with'', doesn't that bother you? 
Or is it the Simon and Garfunkel theory--man hears what he 
wants to hear and disregards the rest?
    We cannot disregard the Catholic Bishops that are in jail 
or under house arrest, the Protestant Pastors that are under 
house arrest, the organ donor program where they are killing 
people to sell kidneys, the persecution of the Muslims and the 
Uighurs in that portion of the country. We cannot deny what 
they are doing with regard to the genocide.
    I was with two young women who told me as they were raped 
by the Janjaweed that circle the camps in Darfur, many of them 
carry weapons coming from China. You cannot separate this out. 
I cannot separate it out. And this Administration should not 
separate it out.
    When you look at the human rights report that just came 
out, this Administration does not have a very good record. When 
you say you want to work ``in concert'', it is almost like you 
are talking about Norway or England or something like that.
    And, lastly, and you should know and you should have been 
out to the cyber center before, China is spying against us and 
stealing economic information that is stripping this country 
and taking jobs away. So I am not going to ask you if it 
bothers you. It bothers me.
    I believe in doing what Ronald Reagan did with regard to 
the Soviet Union--standing up, speaking out. When I asked 
Secretary Locke the other day whether he would agree to 
attend--not worship, but attend--a house church, he would not 
even tell me that he would attend the church, go with a 
Buddhist and stand with him, go, meet, and ask to meet with 
Rebiya Kadeer's kids who are in prison, go and ask to talk to 
the Catholic Bishops that are under house arrest, talk to the 
Protestant Pastors who have taken away, advocate on behalf of 
the people that are being ethnicly cleansed in Darfur.
    So I am not going to ask you if it bothers you, but it 
bothers me. And as long as I have breath in me, we will talk 
about this. We will deal with this issue whether it be a 
Republican administration or a Democratic administration. It is 
fundamentally immoral.
    I saw those two young girls that I interviewed. And if you 
want to see the tape, come by my office. They said as they were 
raped by Janjaweed, the Janjaweed said it was to create lighter 
skinned babies.
    The Chinese Government is the number one supporter of the 
genocidal government of Sudan, and these are all facts. And if 
you want to get briefed on the facts, we can give you the 
briefing of the facts.
    So you say ``in concert with'' like you're talking about 
working in concert with Mr. Culberson, or with Mr. Yoder, not 
in concert with somebody that is fundamentally evil. You can do 
it. This Administration can do it in an appropriate way. 
President Reagan, to his credit, called the USSR the evil 
empire in 1983. He said ``tear down this wall''.
    And then, if you recall his speech at the Danilov 
Monastery, he advocated for human rights and religious freedom. 
Yet, he did it in such a way that at the funeral for Ronald 
Reagan, Gorbachev came. This Administration is failing on this 
issue. And I think people are expecting you to advocate, to 
stand up, to speak out. And, quite frankly, we are not seeing 
that.
    When I hear you say you will work in concert with China, I 
am not going to ask you if it bothers you, but it bothers me.
    Dr. Holdren. Mr. Chairman----
    Mr. Wolf. You can comment.
    Dr. Holdren [continuing]. May I comment, please?
    Mr. Wolf. Yes.
    Dr. Holdren. I want to say first of all, it does trouble 
me. It does bother me. And I need to say as well, Chairman 
Wolf, that I admire you for the leadership that you have shown 
in calling attention to human rights abuses in China. I admire 
you for that. And I agree with you that these abuses are 
reprehensible.
    I would only remind you that when Ronald Reagan called the 
Soviet Union the evil empire, he also continued cooperation 
with the Soviet Union in science and technology domains that we 
judged were in the U.S. national interest to cooperate with 
them on. And we continued to do that not because we were doing 
a favor to the Soviet Union, which President Reagan had called 
the evil empire. We did it because it was in our interest.
    And I would similarly say that the efforts that we are 
undertaking to do things together with China in science and 
technology are very carefully crafted to be efforts that are in 
our own national interest. We have been, I think, very 
strategic about that, very careful about that.
    I mentioned the kinds of areas in which we are engaged. 
That does not mean that we admire the Chinese Government. It 
does not mean that we are blind to the human rights abuses 
which you have shown so much leadership in calling attention 
to.
    But it is, I have to say, it is not my position, I am the 
science and technology advisor, I am not advising the President 
on what his stance should be in balancing the various national 
interests that the United States has at stake in the way we 
deal with China.
    You understand very clearly, I know, probably more clearly 
than I do, that those interests are complicated. And the 
President obviously is not making that balance in the same way 
that you would make it. But I think this is a matter that is 
very worthy of continuing discussion.
    I would be happy to come to your office and look at that 
tape, but I am not the person who is going to be whispering in 
the President's ear on what our stance toward China should be 
government to government except in the domain where I have the 
responsibility for helping the President judge whether 
particular activities in science and technology are in our 
national interest or not.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Thank you very much.

            MAKING SUFFICIENT INCREASES IN SCIENCE SPENDING

    And I join with you in your admiration for the chairman and 
his efforts in relationship to human rights.
    Let me get to some of the issues at hand relative to 
science and technology.
    Portugal is involved in a financial bailout due to some of 
the challenges that they are facing, but they also took a 
decision to provide laptops to every child in schools in 
Portugal.
    And Singapore has invested over $5 billion in their 
National Science Foundation.
    China made a decision a few years back to build 100 science 
only universities and some 200 math and science laboratories. 
And five years later, they were constructed and built.
    I want to just go back a minute. Decades ago during the 
Cold War, we built national laboratories like Los Alamos and 
Lawrence Livermore and Sandia and on and on and on, made very 
significant investments. The country went into debt even to 
make commitments so that our country could be number one in the 
world in terms of our technological capabilities.
    This Administration has called on the Nation again to make 
these investments even in difficult financial times. You do 
that in the context of a freeze on discretionary spending, but 
increases in the various accounts of agencies that were focused 
on in the report on the Gathering Storm, focused on in the 
America COMPETES Act.
    So I just want you to kind of walk through this. You were 
chair of the PCAST during the Clinton administration, and there 
has been this proposal to create 1,000 STEM schools, 800 
elementary, I believe, 200 high schools, and a number of other 
steps, and if you could just kind of walk through for the 
committee what you see as the critical investments that we need 
to make now.
    If you get on a plane now and fly out to Sandia, you see an 
institution in which we have invested for 50 plus years, right? 
I mean, what are the investments we need to make now so that 
long after we are no longer in these roles America is number 
one, because we seem to be acting as if we are going to lead 
this world on the cheap? We have this notion that we are going 
to kind of cut our way to the front of the line.
    And I want to be certain, since you are the lead science 
advisor to the President and you see what is going on across 
the globe in which countries smaller than us--I asked some of 
our officials how a country so much smaller than us could make 
such a significant investment in particular technologies. And I 
was told that their leadership had decided that even if they 
had to eat dirt, they were going to lead the world in that 
particular area.
    I do not know that we remember the sacrifices that other 
generations have made to position our country in the lead. We 
benefitted by that. But I want to know what steps we need to 
take in responsibility to our stewardship of this country so 
that our children and grandchildren will be in a circumstance 
in which we are number one.
    Dr. Holdren. Well, thank you, Ranking Member Fattah. Let me 
answer as best I can a couple of parts of your question.
    First of all, you referred to our national laboratories. We 
have by far the strongest national laboratory system in the 
world. Nobody else has capabilities close to the capabilities 
of our national labs and that is because we have continued to 
invest in those laboratories since the initial investments we 
made to set them up.
    Second point, we have the strongest research universities 
in the world, again by far. Nobody is even close. There are a 
few universities in the UK, maybe one in Japan, maybe one in 
China that are even in the top 25. That list is completely 
dominated by U.S. universities.
    Our task in both of those domains, the strength of our 
national laboratories and the strength of our research 
universities, is to maintain that strength, nourish it, and 
expand it. And that is the basis for the President's proposal 
to double the budgets of the basic research institutions in 
this country that provide so much of the support for those 
universities and for those national laboratories, the DoE 
Office of Science, the National Science Foundation in 
particular.
    The other major component, there are two other major 
components which I have alluded to of our strength in science, 
technology, and innovation that we need to pay attention to. 
One is the private sector.
    And what has happened in the private sector is some of the 
great research laboratories that the private sector used to 
maintain have been downsized, they have been fragmented and 
outsourced for a variety of reasons having to do with the 
structure of the economy and the incentives for the private 
sector. We have to increase the incentives, as I have already 
mentioned, for the private sector to invest more in research 
and development and innovation.
    And we have to invest more in the mechanisms by which 
discovery is transferred out of the national laboratories and 
the great research universities into marketable and successful 
products in the economic marketplace.
    One of the ways that is happening in the Obama 
administration is the energy hubs that the Department of Energy 
has stood up. Three of them have been stood up. We propose to 
stand up three more. And those hubs involve the interaction of 
national laboratories, research universities, and corporations 
to bring to bear their diverse comparative advantages on this 
challenge of translating discovery into jobs, into products, 
into new businesses in the marketplace.
    As we get better at that, that will prove to be one of the 
crucial dimensions of maintaining our economic standing in the 
world, maintaining the jobs we need, and maintaining our 
competitive position against competitors like China.
    The last element that we need to pay attention to is STEM 
education--science, technology, engineering, and math 
education. The President has said on a number of occasions that 
he believes the single most important thing we could do for the 
future of our country is to lift the level of our game in STEM 
education, particularly K through 12 STEM education.
    You mentioned PCAST, the President's Council of Advisors on 
Science and Technology. We provided the President with a report 
on what needs to be done to improve K through 12 STEM education 
some months ago. And one of the things we argued in that report 
is we need equal measures of emphasis on inspiration and on 
preparation. We need to inspire more kids to go into science 
and engineering and math and innovation and we need to do a 
better job of preparing them and keeping them there and keeping 
them successful in those pursuits once they get there.
    That is a large part of what the President's educate to 
innovate initiative is about which he announced originally in 
November of 2009 with at that time over half a billion dollars 
in private sector and philanthropic support for efforts in 
which national laboratories, corporations, and universities 
would provide real life scientists and engineers and 
mathematicians to go into classrooms and work with teachers to 
improve the curriculum, to develop more hands-on activities and 
experiments so kids could learn about science and engineering 
by doing it rather than just by being lectured about it.
    And so they would have more role models of both genders of 
every ethnicity to establish in real human terms what exciting 
and interesting careers are available to kids who pursue 
science and engineering and math.
    We have got to get better at that. That is probably, of the 
four pillars of continuing strength, the research universities 
and national laboratories, the private sector, the capacity to 
translate between discovery and applied innovation in the 
marketplace and STEM education, STEM education is I think the 
one and the President thinks is the one that requires the most 
additional effort to bring us up to speed. You see it in the 
international test scores. You see it in other measures and, 
yet, we also have fantastic examples of creativity and 
accomplishment in our young people.
    If you go to the Intel science talent search finalists 
dinner and look at their displays as I have every year since 
coming into this position, if you meet with the middle school 
mathletes who have won national mathematics competitions, we 
have got some incredibly bright kids out there. We just have to 
do a better job of nurturing more of them, inspiring more of 
them, and preparing them when they get into these fields.
    Mr. Fattah. Thank you.

              STEM EDUCATION AT THE TERMINAL DEGREE LEVEL

    And you are absolutely right that we need help at every 
level. And I just commented in the congressional record and it 
is a very significant effort by ExxonMobil in terms of the 
national math and science initiative and a hundred plus million 
dollar commitment.
    But let me talk to you not about K to 12 STEM education, 
but at the terminal degree level. We have a dearth of American 
citizens of any stripe pursuing terminal degrees in the hard 
sciences.
    What can you tell us about why this is a continuing 
challenge and what are your recommendations as it relates to 
the President and his budget to address this issue? We have a 
number of entities under the jurisdiction of the subcommittee 
that are involved in efforts in this regard, so I would be very 
interested in your thoughts.
    When we look at people pursuing terminal degrees in nuclear 
physics or computer information science or any of the hard 
sciences, we are challenging ourselves in terms of the critical 
skills that are going to be necessary.
    And just, for instance, in our federal agencies, there is 
going to be a major critical skills shortage just over the 
horizon unless we prepare more young people for these roles 
just in terms of, for instance, the nuclear stockpile, our non-
proliferation work, I mean, just across a whole range of 
issues.
    So I would be interested in your comments.
    Dr. Holdren. Well, again, thank you for the very good 
question. I would say a couple of things about it.
    Number one, the number of people who pursue and complete 
terminal degrees in science and engineering and math is 
deficient for a couple of reasons. One is too few people 
entering these programs. And the second reason is losing too 
many along the way.
    And the reasons we have too few entering the programs are 
largely the reasons I just talked about, deficiencies in our 
inspiration and preparation and the combination of those at the 
K through 12 level. So too many kids who have the talent and 
potentially the curiosity and the excitement to excel in these 
fields decided to excel in something else.
    But a further problem and a very important problem is too 
many people who enter college with the idea of majoring in math 
or engineering or science transfer into other fields along the 
way because they become bored, they become disenchanted. The 
way they are taught science and engineering and math at the 
university level is not what it needs to be to keep them 
inspired and engaged.
    And on that particular topic, I have a couple of assurances 
to offer you. One is that my associate director for Science, 
the Nobel Laureate Carl Wieman, has focused most of his 
attention since getting the Nobel Prize not on doing more Nobel 
Prize-level physics but on understanding better what works and 
what does not work in college-level education in science and 
engineering and math.
    And Wieman and his colleagues in that pursuit have 
developed some very important research findings that establish 
that it is quite practical to improve by a factor of two or 
more the success of college science, math, and engineering 
teaching both in terms of how much the students actually learn 
and in terms of how excited they stay about what they are 
doing.
    And we are currently conducting a new PCAST study looking 
at the first two years of college education which is where you 
lose most of these folks to figure out how to apply these new 
research findings and specific programs which will cause them 
to spread.
    And I have already spoken and Carl Wieman has spoken with 
the presidents of many of our research universities who are 
equally excited about the possibility of doing much better at 
this part of the effort, of keeping kids, young people engaged 
in science and engineering and math in college pursuing those 
goals in those fields, doing it more successfully, staying more 
excited, and addressing that particular problem.
    Mr. Fattah. Well, I am going to wrap up with just two more 
questions on this point. But one of the ways that we solved 
this problem in the past, because this problem has been with us 
for a while, is that we had foreign-born students to actually 
dominate many of these programs in the hard sciences at our 
great universities here in America and many of them would end 
up staying. And they would become citizens and they would have 
the terminal degrees. And our industry would have the 
intellectual genius necessary to go forward.
    But now you have students who end up getting the degree who 
are going back to their native countries and being part of what 
is essentially the economic competition to our country long 
term.
    So we have a number of challenges and we have to get more 
American-born students to pursue hard science degrees and we 
also need to keep talent that is coming to America for an 
education. We need to try to hold on to more of that talent to 
the degree that that is possible.

                SCIENTIFIC AND TECHNOLOGICAL CHALLENGES

    So I am interested, and I will end here, as you look at the 
broad spectrum of work, and your testimony touches on a number 
of issues, and we have obviously a range of challenges, but as 
the lead science and technology advisor to the President, if 
you could just comment in more general terms about what you see 
as the Nation's most pressing scientific and technological 
related challenges over the near-term horizon of the next 10 
and 20 years that you believe we should be focusing on here in 
the Congress and in terms of our priorities relative to 
appropriations.
    Dr. Holdren. Well, again, another good and rather sweeping 
question. Let me say a couple of things about it.
    First of all, in terms of students from other countries who 
graduate in science and math and engineering from our 
universities, as you say correctly, some of them do go back to 
their home countries. That is not in itself entirely bad for 
the United States to have highly educated people going back who 
have experienced the advantages of the economic and political 
system of the United States.
    It is one of the ways over the long run that we work to 
change the economic and political cultures in those countries 
because a lot of these students become leaders in their 
countries and their views about the United States and how we do 
things become very important.
    But it is also important that we not make it too difficult 
for those who would like to stay to do so. And in some respects 
in our visa policies I am afraid we have done that. We are 
looking at our visa policies to see if there are modifications 
that would make it easier for those foreign born students who 
do want to stay in the United States and who have been educated 
in science and engineering and math in our universities, make 
it easier for them to pursue that choice to stay and apply 
their talents in this country because we have gotten great 
benefits from the talents of foreign-born students who have 
decided to stay.
    You also asked me what the great challenges are. I mean, 
clearly a structural challenge is that part of the problem of 
inspiration and keeping students in these fields is having them 
confident that there will be exciting and interesting jobs 
available for them to take up after they graduate.
    And that again is a matter of ensuring that the private 
sector makes the investments that they should be making, that 
we make the investments and the private sector makes the 
investments in science and technology infrastructure. That 
includes information technology, high-speed computing. It 
includes infrastructure in space which we use for 
communications, for geopositioning, and for many other 
purposes. We have to continue making the investments if the 
jobs are going to be available for those students to engage in.
    In terms of substantive challenges, what are the things 
that we really need to be getting right in science and 
technology going forward? I mean, clearly a huge substantive 
challenge is in the domain of how do we strengthen 
manufacturing again in this country? What can we do with nano-
tech, with info-tech, with bio-tech, with the intersection of 
those to develop a much stronger manufacturing sector again in 
this country?
    And that is something that we are spending a lot of time 
looking at jointly with the National Economic Council and in 
concert with many of the high-tech CEOs and leaders in this 
country and in the research universities and the national 
laboratories. How do we apply these rapidly advancing 
scientific developments in the domains I have mentioned to 
translate them into new industries, into new jobs?
    In terms of another substantive focus that is going to be 
immensely important, it is what I would describe as the energy-
economy-environment intersection. We need affordable and 
reliable energy to fuel our economy, but we need to get it in 
ways that do not imperil our national security in the way our 
very heavy dependence on imported oil from unstable regions 
does today. We need to get it in ways that do not imperil our 
environment.
    There are tremendous technological challenges and 
opportunities at this intersection of energy, economy, and 
environment in which we need to be the leaders. We need to be 
the leaders in new battery technology. We need to be the 
leaders in fuel cell technology. We need to be the leaders in 
smart grid technology.
    And, again, these are challenges, but they are also 
enormous opportunities that can constructively occupy a lot 
more graduates of science and engineering and mathematics from 
our great universities than we are generating now.
    Mr. Fattah. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.

    COMPLIANCE WITH CHINA LANGUAGE FROM FISCAL YEAR 2011, CONTINUED

    Dr. Holdren, I noted in your response to Chairman Wolf's 
questions that the Administration has decided that any 
negotiations that the President conducts are an exemption to 
the policy adopted by Congress.
    Dr. Holdren. I have to say first of all Congressman 
Culberson, I am not a lawyer.
    Mr. Culberson. Right.
    Dr. Holdren. But I have been advised by our counsel and 
consultation with the Department of Justice that we must take 
care not to infringe the President's constitutional authorities 
in relation to the conduct of foreign relations, and diplomacy 
in particular.
    Mr. Culberson. I am always astonished in the time that I 
have been here that the number of administration officials who 
forget that the President's responsibilities under the 
Constitution are actually very narrow, and in fact are limited 
to: the President is the Commander-in-Chief of the Army, shall 
have the power to make treaties, and shall have power to fill 
up vacancies. That is it.
    It will be the chief executive officer of the United 
States, and chief executive officer means to execute the laws 
enacted by Congress, and the Congress just enacted and the 
President just signed into statutory law an absolute, ironclad, 
unambiguous requirement that none of the funds made available 
by the Congress to the Administration may be used for NASA or 
your office to develop, design, plan, promulgate, implement, or 
execute a bilateral policy program, order, or contract of any 
kind to participate, collaborate, or coordinate bilaterally in 
any way with China or any Chinese-owned company unless that 
activity is specifically authorized by statute and enacted 
after the date of enactment of this law.
    It is not ambiguous, it is not confusing, but you just 
stated to the chairman of this committee that you and the 
Administration have already embarked on a policy to evade and 
avoid this very specific and unambiguous requirement of law if, 
in your opinion, it is in furtherance of the negotiation of a 
treaty, right?
    Dr. Holdren. Well, Congressman, I say again.
    Mr. Culberson. It is exactly what you just said. I don't 
want to hear about you not being a lawyer. If you are----
    Dr. Holdren. Okay, as long as that is----
    Mr. Fattah. Can we let the witness answer the question, 
please.
    Dr. Holdren. What I have been informed is that a variety of 
opinions, previous signing statements and other legal documents 
have found that the President has exclusive constitutional 
authority to determine the time, the scope, and the objectives 
of international negotiations and discussions as well as the 
authority to determine the preferred agents who will represent 
the United States in those diplomatic exchanging.
    Mr. Culberson. Okay.
    Dr. Holdren. And I have been informed similarly----
    Mr. Culberson. Okay.
    Dr. Holdren [continuing]. And I am not qualified to 
dispute----
    Mr. Culberson. You are just following orders.
    Dr. Holdren [continuing]. Or argue with you about what I 
have been advised that as a result of those exclusive 
constitutional authorities that have been asserted to me by 
people who are lawyers and who work in this domain that the 
provision of the legislation, which you just read, should not 
be read to restrict activities that support those 
constitutional authorities.
    Now you can argue that with me till the cows come home, but 
I will lose, I am not a lawyer, I don't know how to argue that 
point.
    Mr. Culberson. Oh, no, I am not arguing about it legally, 
this is just common sense and it is plain English. And all of 
your money flows through this committee.
    Dr. Holdren. I understand. I understand that.
    Mr. Culberson. I just laid out for you they are now evading 
the law just enacted by Congress.
    Essentially, obviously the White House's position is that 
any activity that your office engages in or any division of the 
executive branch engages in with China or any Chinese-owned 
company is obviously going to be classified as being in 
furtherance of negotiations involving treaty responsibilities 
of the President in the Constitution.
    I mean you just laid out for us very clearly how you intend 
to evade the very explicit and unambiguous law enacted by 
Congress. It is very distressing and you are not likely to--I 
mean you need to remember that the Congress enacts these laws 
and it is the chief executive office's job to execute those 
laws, and this is unambiguous.
    Your office cannot participate, nor can NASA in any way, in 
any type of policy, program, order, or contract of any kind 
with either China or any Chinese-owned company.
    Now if any employee of yours, if you or anyone in your 
office or anyone at NASA participates, collaborates, or 
coordinates in any way with China or any Chinese-owned company 
you are in violation of the statute, and frankly not only are 
you endangering your funding, you are endangering--I mean this 
is not only--it is a direct violation of law and it is up to 
the chairman and this committee to decide how to enforce or 
frankly to--what remedies are available for what is obviously 
the--your intent to violate this-- the Administration's intent 
to violate this law.
    Dr. Holdren. Congressman Culberson, I----
    Mr. Culberson. You have a huge problem on your hands.
    Dr. Holdren. I hear----
    Mr. Culberson. Huge.
    Dr. Holdren. I hear you very clearly. It is not our 
intention to evade this law as you say, we intend to comply 
with it insofar as it does not infringe on the constitutional 
authorities that I have been advised exist.
    Mr. Culberson. I understand.
    Dr. Holdren. I said we would review on a case-by-case basis 
activities with China as to whether they are precluded by this 
legislation or not, and we will inform the committee, as the 
chairman has asked, of those considerations.
    But I am very much aware that there are many activities 
that we would have carried out with China or might have carried 
out with China that will be precluded by this, that do not fall 
under the President's constitutional authorities with respect 
to diplomatic relations with other countries.
    Mr. Culberson. The President's responsibilities for 
negotiating treaties with other countries are obviously set 
out. I mean he has got that responsibility set out in the 
Constitution, but the scope, the extent, the deal, the manner 
in which he conducts those negotiations are what officers of 
the executive branch are authorized to do.
    Now, frankly, the existence of your office--you are a 
creature of statute. Every officer in the executive branch was 
created by a statute, by Congress, and funded through this 
committee, so the scope of the President's responsibilities 
again are all designed by statute. You have now got a statute 
that preempts every other statute on the books.
    Now I am a good enough lawyer and practice enough in court 
to know that what you have just given us from the chief 
counsel's office is very revealing, Mr. Chairman, because 
obviously the White House is now going to engage in a--rather 
they have obviously identified a way to evade the intent of 
Congress, and are obviously going to try to classify anything 
you are doing with China as in pursuit of a treaty, but that is 
not going to fly.
    It has been signed into law, and the limitation that the 
Congress enacted preempts every other statute of the books, it 
is a long standing rule, and this one again is just common 
sense, that a law that you pass today that is, for example, 
very specific in regard to a particular subject, not only does 
a law passed today preempt every other law passed before it, 
but number two, particularly if the law today that is very 
specific, it deals with a particular subject, that absolutely 
preempts every other law passed before it, and that is just a 
general rule.
    In this case it is even more specific, and this is not 
legal, it is just common sense, Dr. Holdren, that you can't 
participate, collaborate, or coordinate in any way with China 
or any Chinese-owned company unless that activity is 
specifically authorized by a law enacted after the date of 
enactment of this division.
    So you need to tell the lawyers, the General Counsel's 
Office what you just read to us now threatens their funding. I 
am a pretty good lawyer, and I can think of lots of ways to 
help the chairman of this committee and other subcommittees 
enforce the law. I mean it doesn't have to be just lawsuits, 
there are a thousand ways to enforce the law, all kinds of 
creative ways to enforce the law. I mean the law is essentially 
what--you know, the law is meaningless unless it is enforced, 
and it doesn't have to be just through a judge.
    Trust me, the chairman of this committee and the 
Appropriations Committee is charged with enforcing the law. 
What you just read to me endangers, frankly, your funding, and 
the Office of General Counsel's funding. I intend to go after 
all of them in every division of the White House.
    You have just opened the door for me, and I think it is 
very revealing. You just gave us a peek behind the curtain. You 
are obviously not going to pay any attention to this law if the 
General Counsel's Office tells you that this activity that you 
are engaged in, Dr. Holdren, or your subordinate, is in 
furtherance of a treaty. You have just told us you can go right 
ahead and do it.
    Dr. Holdren. What I have said, Congressman Culberson, it is 
not our intention to declare that every activity in which we do 
or might engage with China falls under the category that is 
within the President's exclusive constitutional authority. That 
is not our intention.
    And I am sure that this provision, as long as it stays in 
force, and I must admit I am very hopeful that when the next 
round of appropriations comes there will not be a similar 
restriction in it because it will be restricting. It will be 
restricting. There is no question about it.
    Mr. Culberson. So not every activity.
    Dr. Holdren. It will be restricting.
    Mr. Culberson. Not every activity is going to be cut off. 
And so clearly you are already beginning to identify some.
    I just think it is very distressing and disturbing. Not 
only does it ignore the intent of Congress, but you are also 
blindly ignoring the threat posed by China.
    I heard you respond earlier to questions from the chairman 
that you took your BlackBerry to China. Do you know that Google 
executives, and frankly no executive of any company I know, 
will permit their employees to take their cell phones or iPads 
or whatever to China. Google actually requires that their 
employees--the only thing they can take is a stripped down 
notebook that has a web browser on it, and then when they 
return the machine is destroyed.
    Dr. Holdren. Uh-huh.
    Mr. Culberson. Do you know about that? You nodded your 
head. You are familiar with that.
    Dr. Holdren. No, I do know about that, sir.
    Mr. Culberson. Do you know about the National Security 
Agency and the policy of the United States military not to 
permit any U.S. military officer or any government official, 
and I think it is even true, Mr. Chairman, of the State 
Department, I think you serve on the committee with Kay 
Granger, I don't believe anybody from the State Department 
takes a PDA or a wireless computer device of any kind into 
China. You sync your BlackBerry at the White House don't you?
    Dr. Holdren. Sir, I am not sure what the State Department 
does, but the policies of the White House in this regard have 
certainly been vetted with our security agencies, and I suspect 
the reason for a difference between what Google requires and 
what the White House requires is that we have greater 
confidence in the technical abilities of the people who are 
working for the Administration in the security domain to make 
these devices secure. If that judgment is misplaced and we 
learn about it clearly we will correct it.
    But again, it is my understanding that the experts, 
including experts in the NSA and the FBI and the expertise 
available to our intelligence community in this domain, is that 
we can make these devices safe for us to use in China.
    And again, you know, you are outside my domain of specific 
expertise. The advice I am getting on this from people who are 
experts is that we can safely do this, and so we do.
    Mr. Culberson. Your BlackBerry syncs wirelessly or do you 
sync it at the White House with a hard plug in?
    Dr. Holdren. No, it syncs wirelessly.
    Mr. Culberson. Okay. Well, Mr. Chairman, I know you are 
going to help educate Dr. Holdren on what obviously everybody 
else in the government knows, and that is you don't take 
wireless devices into China. The extent of the espionage, the 
aggressive attempts by the Chinese to penetrate the U.S. 
government and private companies with cyber attacks is 
something you, as a science advisor, ought to know better than 
anybody else, and I am frankly very disappointed, disturbed to 
hear that you already found a way, in your opinion, to evade 
the law enacted by Congress, and that you are also obviously 
indifferent to or unaware of the aggressive attempts by China 
to go after the United States in stealing our technology in 
cyber attacks. It is just very disturbing, Mr. Chairman, and 
you have been very gracious.
    I will save my other questions for the next round.
    Mr. Wolf. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    Thank you, Doctor, for being here. I just want to echo a 
couple comments you made earlier in terms of the situation with 
graduates of institutions of higher learning who can't stay in 
the country.
    Caltech is in my district, as you know, and it is a cause 
of great concern for me that we have these very bright people 
come to Caltech from all over the world that get advanced 
degrees in math, science, and engineering, they want to stay, 
they want to start a business, they want to hire Americans, and 
we boot them out of the country. They then go elsewhere and 
compete with us.
    And while I acknowledge there is certainly a benefit in 
having bright people educated in America in other countries, 
there is an even greater advantage in keeping them here to help 
grow our economy, and I have been working on legislation that 
would provide for those that graduate with advanced degrees in 
math, science, and engineering who want to start a business and 
hire five Americans we should give them a green card and 
encourage them to do that.

        SUPPORTING LARGE RESEARCH FACILITIES AND INFRASTRUCTURE

    I wanted to ask you a comment on something. Having access 
to cutting edge research facilities is increasingly important 
to our Nation's ability to make game changing discoveries. 
Given the increase in cost to build and operate these 
facilities around the globe we often now have to work with 
partners to keep costs down. Increasingly the construction of 
these large facilities, such as the 30-meter telescope in 
Hawaii, not only require non-federal contributions, but also 
sophisticated international collaboration. Important 
international partners need to understand U.S. plans are going 
forward to ensure that we get the most bang for our buck and 
that U.S. scientists are participating and having access to 
these cutting edge facilities.
    In what ways are the White House and the Office of Science 
and Technology Policy leveraging international and non-federal 
funding commitments for large facilities sponsored by federal 
agencies such as NSF, NASA, and the Department of Energy?
    Does OSTP actively work with federal research agencies to 
spur negotiations to ensure that proper planning, design, and 
development can occur?
    Dr. Holdren. Well, thank you, Congressman Schiff. The 
answer is yes, on all counts. That is OSTP does have the lead 
responsibility in the White House for working with all of the 
science and technology rich agencies in what they do jointly 
with other counties and in international collaborations, 
including ITER, the International Thermal Experimental Reactor, 
including international high energy physics experiments, 
includes the astronomical kinds of facilities you are talking 
about.
    We have as one of our four divisions, the Division of 
National Security and International Affairs, which has within 
it the responsibility, and a number of people work in that 
domain very specifically to work with the DoE, with the NSF, 
with NOAA, with NASA on the development and implementation of 
cooperative efforts, which as you point out are enormously 
important.
    Mr. Schiff. Let me ask you another question related to my 
first comment in terms of the visa situation.

                  INSPIRING INTEREST IN STEM EDUCATION

    Over the years I have brought a great many astronauts to my 
district to meet with middle school students, and I brought an 
astronaut to a middle school in Pasadena, one of the lowest 
performing schools in my congressional district. He was 
particularly good with the kids. They all are very good, but he 
was particularly good.
    He had a bunch of NASA patches in his trouser pocket that 
he offered to give the kids if they could get certain questions 
right. They had to earn the patches. And the first question he 
asked kind of bugged me because I got the math wrong. He said 
that----
    Dr. Holdren. You didn't get a patch?
    Mr. Schiff. I did not get a patch. I was lucky I didn't put 
my hand up.
    The question was when he is on the shuttle he orbits the 
earth every hour and a half, how many sunrises and how many 
sunsets would he see in a 24-hour day?
    I didn't think it was that difficult a math problem, but 
the students who are all middle school students, you know, 
guessed eight, guessed six, guessed twelve, and then one child 
put up his hand, and I think the correct answer was thirty-two, 
which was--when at the astronaut reached to take out a patch 
and give it to him I realized that the answer I had was wrong, 
I was off by four, and I spent I think the rest of the 
presentation figuring out----
    Dr. Holdren. Trying to figure it out.
    Mr. Schiff [continuing]. Why I got the math wrong. It 
really bugged me. I had to get him to explain it to me 
afterwards.
    But I wondered when he gave this to this young child 
whether that middle school student knew he was gifted.
    And you know my district is a suburban, largely middle 
income, but there are a lot of lower income families, 
particularly served by this school, and I wondered, you know, 
this kid who put up his hand among 300 other kids was clearly 
gifted to get it right, to get it right in front of 300 other 
classmates who were all guessing all over the boards, and I 
wondered whether he knew he was gifted, whether his teacher 
knew he was gifted, whether his parents knew he was gifted, and 
what the odds were that that child would make it in his 
lifetime the one mile from there to Caltech, and I thought the 
odds were probably not very good, and in some respects the odds 
of coming to Caltech from half way around the world were better 
and easier than coming from a mile away from Caltech.
    And I wonder what your thoughts are and what we could do 
about that. How do we make sure that we identify talented young 
people like that? That we give them every opportunity to make 
their way what geographically is a short distance, but in terms 
of society and everything else may be an infinite distance. 
What can we do about that?
    Dr. Holdren. Well, first of all I would say I would guess 
that the odds of that student making it the one mile to Caltech 
went up because astronaut came to that classroom, and they went 
up both because of the inspiration that that visit provided and 
because the nature of the interaction called attention to that 
kid's talent in a way that the teacher couldn't help but 
notice, and the kid probably noticed that he was able to do 
something that the other kids weren't.
    Mr. Schiff. And this Congressman wasn't able to.
    Dr. Holdren. I didn't want to mention that.
    That is one of the ideas that is behind this educate to 
innovate initiative in trying to get more real world scientists 
and engineers and mathematicians into classrooms working with 
kids. It is not just for the inspiration, but it is for the 
nature of the interactions that reveal talented kids who might 
not have known themselves how talented they were until they 
have the opportunity to engage in these kinds of interactions 
with somebody who has succeeded in these domains.
    And we have found by the way as you did in this instance 
that astronauts are enormously effective in this domain. They 
are very highly trained, they are very smart, they are very 
interesting in terms of the way they think about physical 
problems and the physical world and can relate them to kids.
    I have got so many examples that are similar to yours of 
seeing astronauts interact with kids. We had five astronauts 
when we had Astronomy Night for Kids on the White House lawn in 
October of 2009. We had Sally Ride, the first American woman in 
space. We had Mae Jemison, the first African American woman in 
space. We had Buzz Aldrin, the second person to set foot on the 
moon. We had of course Charlie Bolden, the NASA administrator. 
And we had John Grunsfeld, the Hubble repairman, the guy who 
spent 55 hours walking in space, and we had 300 kids from 
middle school. Kids who either had done particularly well in 
science and math or who had been recently rapidly improving 
their performance. That was their reward is being able to come 
to this event. And the interactions were just mind boggling.
    We had moon rocks and we had a portable planetarium, we had 
16 telescopes, but the interactions between those five 
astronauts and those 300 kids I would bet changed a lot of 
lives. I mean this is one very important way that you get it 
done, but we have to do more as your question suggests to be 
able to reach into the communities that are less well off, that 
are less likely to have parents inspiring their kids and 
teaching their kids, and we have to figure out more ways to 
make this happen.
    Mr. Schiff. Do we have a mechanism, you know, I know many 
areas have magnet schools, but do we have a mechanism to 
identify students at a very young age like this who have this 
talent and pull them into a special program?
    Dr. Holdren. We try to do it in part with science fairs, 
and as you know the President has given a lot of prominence to 
the value of science fairs and robotics competitions and math 
competitions and so on, which start at a very early age. I have 
a grandson of ten who just competed in a science fair in a 
public elementary school in Falmouth, Massachusetts where he 
lives, and it was clear to me--I was not there, but my wife 
went, my wife is a scientist as well, and she went as one of 
the people sort of observing this whole thing--and it is 
apparent that these experiences that kids have in science fairs 
in developing their own experiments and explaining them to 
people are a way in which kids of exceptional talent do get 
identified early, and then the trick is--again, your question 
goes to this--what to you do once these kids are identified by 
their teachers? How can you provide the resources needed to 
ensure that that talent get develops, that that inspiration 
continues? And we are thinking about that. We are trying to 
think about what both the limitations and the opportunities are 
associated with these kinds of competitions, which have become 
immensely popular.
    I don't know if you were able to go to the science and 
engineering fair on the mall last year, but the robotics 
displays were the ones that were most overwhelmed. The second 
most overwhelmed display--and I think 500,000 people came to 
this weekend event--but the second most overwhelmed display was 
the NASA display where they had real live astronauts meeting 
kids and talking with them.
    But the first most overwhelmed display was the robotics 
where kids were dealing in hands on ways with robots and being 
able to modify them and make different kinds and so on and so 
forth, and that is just a wonderful mechanism for identifying 
particular kinds of talent, and we have to figure out what the 
next steps can be.
    Mr. Schiff. Well, I would love to stay in touch with you on 
that. We have great robotic programs in my district as a result 
of Caltech. They work with a lot of our local high schools on 
robotics programs.
    But it still seems a bit haphazard what you are describing. 
It requires a student to kind of self-initiate and gravitate 
towards a science fair.
    I got the impression, although it may not be correct, that 
some of our competitor countries, they will identify these 
students through examination and then they are put in a certain 
program, track, et cetera, quite methodically to cultivate that 
talent.
    I don't know that we want to go exactly down that route, 
but it seems we may be missing a lot of our native talent.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Schiff. Have you seen Waiting For 
Superman?
    Dr. Holdren. I have not seen it.
    Mr. Wolf. I will get you a copy. If I do, will you watch 
it?
    Dr. Holdren. Oh, absolutely I will. I think Carl Wieman has 
already been trying to get me to watch it.
    Mr. Wolf. Have you seen it?
    Mr. Schiff. No.
    Mr. Wolf. I will get you a copy.
    I think the answer is there, and it is a very powerful 
movie. At the end, some of the young people want to get in a 
school, and the decision as to whether they will be able to do 
it is based on whether they win the lottery. They follow the 
families, and those who win the lottery are cheering. It is 
almost like a hockey game or a basketball game where the 
parents cheer because their young child gets in. Then the two 
or three who never make it go home. One is from California, and 
I will get you a copy. I will try to get it for you certainly 
by the time to go home for the recess, and you should watch it.
    Also, we are losing astronauts. I bumped into an astronaut 
the other day, and for the record we can check and make sure 
that what I am saying is accurate, but he told me the 
astronauts are leaving in droves based on the Administration's 
position with regard to NASA and space. We don't want to get to 
the point that we don't have any astronauts or where the 
astronauts are so rare.
    Dr. Holdren. I agree.
    Mr. Wolf. I took the NASA Administrator down to an 
intercity school in Washington, D.C., and I think every child 
deserves that opportunity ,and not just, you know, a handful.

                NASA'S FISCAL YEAR 2012 BUDGET LOGISTICS

    With regard to the NASA budget, science investments were 
supposed to be an area of particular emphasis in the 2012 
budget request, but the emphasis seems to have been very 
unevenly applied. Agencies like NSF, NIST, and the Department 
of Energy Office of Science received significant increases, but 
NASA, the fourth largest R&D agency and one that we were all 
raving about, was held flat from 2010.
    How does a flat NASA budget reflect the Administration's 
emphasis on scientific investment?
    Dr. Holdren. Well, as you know, Mr. Chairman, NASA has a 
great many functions under its roughly $18.5 billion budget, 
and we have been trying in the Obama Administration to 
strengthen the science within that.
    We think one of the things that happened over the prior 
administration when there was a grand vision for expanding our 
activities in human exploration, but the budgets for that were 
never provided, is that the science budget suffered, and we 
have been in the process of trying to build them back up, but 
we are living as you know in an extremely difficult budget 
time.
    I mean if I were a king, NASA would have a bigger budget so 
that we would be about both to pursue a vision for advanced 
technologies to take us farther and faster in space so that we 
would be able to fund all of the earth observation that we 
really need NASA to be doing, so that we could fund all the 
looking outward that we need NASA to be doing.
    Unfortunately at this particular juncture there is not 
enough money and some difficult choices have been made.
    I said early on that while I agree with you that science 
and technology did much better in the 2010 Continuing 
Appropriations Act than nearly any other sector of government 
activity, that still doesn't mean that we are doing as well as 
those of us who are focused on the challenges and the 
opportunities in science would have liked.
    Mr. Wolf. Well, I would agree with you. The Administration 
needs to step forward and deal with the entitlement issue, 
Medicare, Medicaid, and Social Security. We don't want to get 
off into that subject, but the President appointed the Bowles-
Simpson Commission, and then he walked away from their 
recommendations two different times. If he had embraced it by 
dealing with the entitlement issue, you could plus up many of 
these accounts.
    But the question was, the others had increases and NASA has 
a flat line, and that just doesn't make any sense.
    Last year, you attempted to cancel NASA's exploration 
program and were soundly repudiated by Congress. It seems like 
the Administration didn't learn its lesson, though, because 
this year's NASA budget is also unacceptable.
    You are once again proposing big increases in earth 
science, space technology, and commercial space flight, and 
paying for those increases by cutting the exploration program, 
which is budgeted at more than $1 billion below the authorized 
level.
    Why does the Administration insist on using the exploration 
program as the bank to pay for the other priorities?
    Dr. Holdren. Well, with respect, Mr. Chairman, I wouldn't 
have phrased it quite that way. I think first of all that the 
2010 Authorization Act from NASA contained much of what the 
President wanted and it also contained much of what the 
Congress wanted. I thought it was a pretty good compromise 
between positions that initially seemed to be quite far apart. 
So I didn't consider it a resounding repudiation of what the 
President wanted to do.
    With respect to the amounts of money in space exploration, 
the President's budget still funds at a very substantial level, 
the key ingredients of that, the heavy lift vehicle, the 
multiple purpose crew vehicle, but it was necessary.
    And you referred to the astronauts. It is necessary if we 
want to maintain access for U.S. astronauts to the $100 billion 
International Space Station on U.S. rockets, if we want to 
minimize the gap during which we would be dependent entirely on 
the Russian Soyuz, we absolutely have to make investments in 
commercial crew development, and at the same time we need to 
invest in those technologies, the heavy lift and the 
multipurpose crew capsules to be ready for the next step, and 
there is a balancing act involved in doing that under a budget 
cap that is lower than what one would want to pursue all of 
those goals.
    I think the President's budget made the best choices that 
NASA and the President's other advisors thought could be made 
under the circumstances, and taking into account that we were 
restrained until the recent passage of that 2011 Continuing 
Appropriations Act, we were restrained by the language in the 
2010 Appropriation's Act which heavily restrained NASA from 
moving any resources around in the Constellation Program, and 
by the time we were relieved of that constraint you weren't in 
the same position that you would have been in if throughout 
fiscal year 2011 one had had more flexibility.

            DEVELOPING NASA'S HEAVY LIFT LAUNCH CAPABILITIES

    Mr. Wolf. The NASA Administrator has been quoted several 
times saying that NASA is not going to build a 130 metric ton 
launch vehicle, which is a requirement of the authorization and 
now the fiscal year 2011 appropriations bill also.
    Between statements like that and a budget request that 
significantly underfunds the authorized exploration program it 
looks like the Administration has no regard for the legal 
requirements of the authorization.
    Do you view the lift capability requirement as legally 
binding?
    Dr. Holdren. Mr. Chairman, first of all I believe----
    Mr. Wolf. It has got to be really difficult to pick what 
you want to like. This is not a cafeteria government, it is----
    Dr. Holdren. Look, I understand that, and I believe that 
the administrator has clarified his views on that and has made 
clear subsequently. There was a statement he made in response 
to a question from a reporter that I think was at best less 
than a complete commitment to the 130 tons, but he has 
clarified that subsequently.
    I was at a meeting with him, a public session with at the 
Goddard celebrating the anniversary of Goddard's birth out in 
Maryland in which the administrator made very clear that he is 
committed to 130 tons, and I think that is a fact.
    Mr. Wolf. I don't want to put words in your mouth, but you 
do view the lift capability requirement as legally binding 
then?
    Dr. Holdren. I regard it as something that we are legally 
obliged to pursue. I don't think we can necessarily legislate 
success. Ultimately we will get 130 tons. Whether we will get 
it by the date specified in the legislation that is something 
we are obliged to try to do and we will try to do it.
    But I am concerned, I know the administrator is concerned 
that sometimes what is Congress wants, however admirable, is 
not necessarily achievable under the available budgets and in 
the time available.
    So we are going to try, we are going to do everything we 
can to get this capability by the date specified, but it is 
going to be a challenge.
    Mr. Wolf. The Administration advocates for the development 
and deployment of a smaller launch vehicle, such as one with 70 
to 100 metric tons of lift. A vehicle of this size would be 
oversized for servicing the Space Station, but undersized for 
deep space exploration.
    What would the mission be for a 70 to 100 metric ton launch 
vehicle, and why would the development of the smaller vehicle 
be a useful achievement?
    Dr. Holdren. Well, I would say that is a question that goes 
beyond my expertise, and it is one that I would direct to our 
colleagues at NASA.
    I could speculate as to the value of that intermediate step 
in terms of preparing the way for the larger capability that 
ultimately we will need, and I would speculate that there are a 
variety of kinds of payloads that would fall in that range that 
would still be extremely useful to be able to get up there, 
including the possibility, should the 130 tons not be available 
by the specified date, to launch the components we need in 
pieces and put them together in orbit, but that would be 
speculation.
    I know that NASA is engaged in a detailed study of how best 
to meet the goal that the Congress has specified, and my 
understanding is that that study will be ready by mid-summer 
and will be provided to the Congress, and I think it would not 
be terribly productive for me to try to second guess what it is 
going say.
    Mr. Wolf. Well, maybe you have answered this, but I want to 
kind of lock it down so there is no misunderstanding. In 
addition to funding issues, NASA's work on the exploration 
system is being delayed by foot dragging within the 
Administration on the vehicle designs and acquisition 
strategies for the crew vehicle and the launch system.
    NASA told us that they can have these decisions made and 
communicated to the Congress by June 20th, which you are 
referencing, but we are hearing reports that others in the 
Administration want to delay that.
    Any further delay is, I believe, unacceptable and I assume 
you would agree. Will you commit to us right now that the 
exploration implementation plan will be done and submitted by 
June 20 as NASA has planned?
    Dr. Holdren. Mr. Chairman, I cannot guarantee NASA's 
performance, but I have heard no reports that anybody is trying 
to slow them down, that anybody has suggested that it would be 
acceptable to deliver that report later.
    It is my understanding that that is their goal, that that 
is their intention, and I expect they will meet it, but I can't 
guarantee you personally since I am not at NASA and not engaged 
directly in this process.
    I will certainly convey to the administrator your view as 
expressed here that that deadline is firm and it is essential 
that it be met.
    Mr. Wolf. Well, you are a very important person in this 
administration and in the space area, and we have been hearing 
that there has been some effort to urge NASA to go slowly, 
particularly since this appropriations process will then pass. 
But if you could check with the Administrator----
    Dr. Holdren. I will do that.
    Mr. Wolf [continuing]. And then get back to the Committee 
to let us know that that June 20th date will be met. I would 
appreciate it.
    Dr. Holdren. I will do that, sir.
    [The information follows:]

   Summary of Dr. Holdren's Discussion With NASA Administrator Bolden

    At the House CJS Appropriations Subcommittee on May 4, 2011, 
Chairman Wolf requested that Dr. Holdren call Administrator Bolden 
about the June 20 deadline for NASA to submit its exploration 
implementation plan to Congress.
    Response: On May 12, I talked to NASA Administrator Bolden about 
the exploration implementation plan. I stressed the importance of 
completing the exploration plan by the June 20 target date. 
Administrator Bolden confirmed that NASA is making every effort to meet 
that date.

    Mr. Wolf. With the funding levels proposed in the 
President's budget, NASA will be unable to meet the 2016 target 
date for initial operation of the Space Launch System and the 
Multi Purpose Crew Vehicle, which will further prolong the gap 
in our national human exploration capability.
    Aren't you concerned about the possibility of additional 
years without a NASA-owned system for getting Americans into 
space? And what do you see as the impact on our national 
prestige and security of a major delay in NASA's exploration 
program?
    Dr. Holdren. Well, first of all I am concerned about it, 
Mr. Chairman, and I am doing everything I can within the 
constraints that we are all working under to see that NASA does 
meet that target and that we minimize, as I have said before, 
that we minimize the period in which we are dependent on the 
Russian Soyuzy for transport of our astronauts to the 
International Space Station.
    I am concerned as you are by the possibility that the 
number of people interested in becoming astronauts and 
remaining astronauts will go down if we do not have assured 
means of providing access to the space station.
    We think the space station, by the way which under the 
President's proposals, would continue to operate until at least 
2020 is an enormous resource for science and for technology 
development and for the continuing inspiration of American 
young people seeing American astronauts going back and forth to 
and from the space station and operating and working and living 
there, and we want that to be a viable resource with U.S. 
astronauts getting there on U.S. rockets. That is our aim, that 
is my aim.
    Mr. Wolf. Okay. We are going to go into STEM education. I 
don't want to keep others waiting, but I want to go into STEM, 
which I am a big supporter of.
    A year or two ago, and I guess we can check the figures, 50 
percent of the money that was available for STEM grants was 
left on the table, and it was not accessed by students. You 
might want to check and see if that is accurate and then get 
back to the Committee. I would appreciate that.
    [The information follows:]

 Response to Chairman Wolf's Concern That 50% of STEM Grants Go Unspent

    At the House CJS Appropriations Subcommittee hearing on May 4, 
Chairman Wolf expressed concern that 50% of STEM grants go unspent.
    Response: Nearly all STEM programs are spending all their money, 
with these notable exceptions: The Higher Education Reconciliation Act 
of 2005 created two new need-based grant programs that complement funds 
awarded to Pell Grant recipients: Academic Competitiveness Grants (ACG) 
and National Science and Mathematics Access to Retain Talent (SMART) 
Grants. The former are awarded to Pell Grant recipients in their first 
and second years that completed a rigorous high school curriculum, 
while SMART Grants are given to Pell recipients in their third and 
fourth years that major in technical fields or languages vital to 
national security. Unfortunately, the number of students receiving the 
grants has been lower than estimated, resulting in the amount of funds 
available exceeding the value of grants awarded. Due to this 
unexpectedly low usage, the Department has rescinded $1.085 billion in 
total funds for the program since the 2008 fiscal year. This figure 
includes a recession of $560 million in fiscal year 2011. Both ACG and 
SMART Grants are scheduled to sunset after the end of the 2010-11 
academic year and are not scheduled to receive any additional 
appropriations.

    Secondly, you mentioned something that triggered the idea. 
We have asked the National Science Foundation to do an in-depth 
study, which they hope to have some time this summer, as to why 
young people make a decision to go into math, science, physics, 
chemistry, biology, the sciences. There seems to be some sort 
of fifth or sixth grade deciding point there, and so the 
director of the NSF is working with a number of other people to 
look at that.
    If you have any ideas for that I urge you to talk to him 
and cooperate. They hope to do a report, which we would then 
hope to get into the hands of all of the school systems. 
Because there may be somebody in some place that is doing 
something amazing, and if we could just let people know about 
it that may be kind of the silver bullet, if you will, for that 
issue. But if you could check on those two things, I would 
appreciate it.
    Dr. Holdren. I will talk with him. Dr. Subra Suresh is a 
good friend and we spend a lot of time talking about these 
matters, and I too have seen the research that indicates that 
kids actually decide very early on their trajectory, and they 
either get excited about science and math and engineering early 
or they may not get excited at all, and you are absolutely 
right, we have to work harder to understand that and to make 
sure that for the kids with that inclination and those kinds of 
abilities that they get the inspiration to make those choices.
    Mr. Wolf. Okay. With that I will just go to Mr. Aderholt.
    Mr. Aderholt. Thank you, Dr. Holdren.
    I want to follow up with chairman, just with the heavy 
lift, of course with the understanding, my understanding that 
the cost of developing a rocket with a lift of 70 tons, which 
was not fully integrated into a robust plan for completing a 
130-ton rocket, would still be about 80 percent of the cost of 
a fully integrated plan.
    The language in the CR bill for the heavy lift rocket 
indicates that it will be simultaneous development of the upper 
stage of that rocket.
    The question would be how will your office help ensure that 
NASA manages contract modification and other options to ensure 
that the law is followed for simultaneous development?
    Dr. Holdren. Congressman Aderholt, we will certainly be 
paying attention to that and working with Administrator Bolden 
and his staff to do everything we can to promote the successful 
achievement of the goals that the Congress has specified.
    I think any interest in a 70-ton rocket would be in the 
context of a fully integrated plan to get to 130 tons, and 
again, I think the administrator has clarified his views on 
that subsequent to some initial expressions which were less 
clear, and OSTP is also committed to that goal and we will work 
with NASA to try to ensure its achievement.
    Mr. Aderholt. Okay. Let me change into just another topic.

              TORNADO DEVELOPMENT AND PREDICTION RESEARCH

    Of course as you know the southeastern part of the United 
States was hit by the series of tornados, I guess it was a week 
ago today, and I think over the course of the southeastern 
states there were approximately, and I think we are hovering 
around 350 deaths right now, actually a third of those are in 
the district that I represent, and a lot of those is just north 
of Tuscaloosa, Birmingham, that area that I represent.
    The question I have in relation to the tornados that hit. 
Do you believe that the tornado genesis, the process by which a 
tornado develops, is it the same in the humid southeastern 
United States as it is in the central plain areas of the United 
States? Go ahead.
    Dr. Holdren. Well, first of all the amount of energy 
available to tornado formation is certainly affected by the 
amount of water in the atmosphere and by the temperature of the 
atmosphere, and both have been increasing. The temperature has 
been increasing, the amount of water has been increasing. There 
are a lot of other factors that govern the formation of 
tornados, including the interaction of weather fronts as you 
know, and so it is not a simple matter of saying simply if it 
is more humid and if it is hotter we are going to have more 
tornados, but all else being equal, that is given the other 
conditions that it takes to form tornados, if there is more 
moisture in the air or more heat in the air the potential for 
powerful tornados is larger.
    Mr. Aderholt. I see. How does the budget request for your 
office or for NASA or NOAA reflect the need for research on 
these southeastern tornados, which you have indicated, you 
know, cause with more humidity and the more rain would cause? 
Does your request reflect research regarding that?
    Dr. Holdren. There is certainly considerable research in 
NOAA on that question, the National Oceanic and Atmospheric 
Administration, and it is continuing.
    The other relevant factor that I think is very important in 
this case is the capacity to forecast tornados and provide 
early warning, and NOAA's budget is very important in that 
domain as well. In fact we have a particular challenge in this 
domain because the Joint Polar Satellite System, which was not 
fully funded in the 2011 is budget is essential to maintaining 
continuity of the capacity to forecast tornados.
    For all the tragedy that these tornados caused it would 
have been even larger. The loss of life could have been 
significantly larger had it not been for the amount of early 
warning that we had in large part due to the continuing 
availability and functionality of our polar-orbiting weather 
and climate satellites, and we could lose that. In fact we are 
now projecting a gap in that capability some time in the 
vicinity of 2015 because we have not made adequate investments 
to put the next polar-orbiting satellite up there.
    So this is a very important matter where the safety of our 
citizens and the budget for NOAA come together.
    Mr. Aderholt. No doubt, I mean the series of tornados that 
went through I know Alabama last Wednesday can only be compared 
to 1925, and when there were over 700 deaths, and of course I 
think a lot of that is due to the fact that the early warning 
was not there in 1925, and so, you know, the tornados that 
occurred last Wednesday could have been much worse than 700 had 
there not been that early detection, so I do understand and I 
do appreciate that.
    So okay, thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Fattah.
    Mr. Fattah. Thank you.
    In this discussion about the tonnage for NASA, I am not 
sure that in the past the Congress has been so specific about 
the level of tonnage, and it is obviously challenging to think 
that as members we would be able to kind of project forward the 
science. But I think that the point is, is that where this 
requirement is in statute and if the science does not get us to 
the capacity to be able to do it then we run against a 
circumstances that would be challenging. So it will be 
interesting as we go forward.
    But I think that the focus and the direction is in the 
right--the compass is correct. That is, that we want to produce 
a heavier lift as we go forward in terms of tonnage. I don't 
know that we have the wisdom, even though we obviously put it 
in statute, to say that somehow we are going to be able to do a 
certain tonnage. But notwithstanding that it has been done and 
we will see where we go.

              NOAA SEVERE WEATHER PREDICTIONS AND WARNINGS

    I want to shift gears a little bit to NOAA, and I note that 
you just commented on this, but in terms of the very severe 
weather that parts of our country have faced and it is very 
unfortunate about the deaths and injuries and the loss of 
property, but that whether or not given the NOAA budget 
submission in the 2012 budget whether there are issues inside 
of that budget that will be important for us to consider.
    First is the severe weather issue. So we have the tsunami 
warnings, we have the severe weather warnings, we have--a large 
part of this request has to do with satellites, and if you 
could talk a little bit about this issue it would be helpful.
    Dr. Holdren. Well, I would be happy to talk about that 
issue, although it is a vexing one.
    When this administration came into office, we were faced 
with a situation in NPOESS, the National Polar-orbiting 
Operational Environmental Satellite System, in which the 
replacements for our polar-orbiting satellite suite, which 
satellites are of great importance to our military as well as 
to civilian weather forecasting and to climate monitoring, was 
over budget----
    Mr. Fattah. If you would yield for a second.
    Dr. Holdren [continuing]. Behind schedule, and under 
performing.
    Mr. Fattah. If you will yield for a second, that is why the 
bin Laden raid was delayed for one day because of weather, 
right?
    Dr. Holdren. It does illustrate that forecasting the 
weather is extremely important to military operations, but of 
course it is extremely important as well as we understand from 
this horrible experience in the southeast, it is extremely 
important for civilian purposes as well.
    And in hurricane season our hurricane tracking capability 
is extremely important to the safety and welfare of our 
citizens, and we are very heavily dependent on this suite of 
polar-orbiting satellite for these purposes.
    I understand from the NOAA administration, Dr. Lubchenco, 
that over 90 percent of the data that we use for forecasts 
beyond 48 hours comes from these polar-orbiting satellites, and 
if we lose that capability, if it is interrupted, and 
particularly if it was interrupted for long, for that period 
the quality of our forecasts beyond 48 hours will be seriously 
degraded.
    We are going to lose that capability now it appears for a 
period of time no matter what we do because the budgets for the 
last couple years have not been adequate to keep even the 
replacement program which we worked out with fewer instruments, 
fewer satellites, but still enough to do the basic job on 
track, and we need to get that back on track in 2012.
    The President's 2012 budget makes a request that would get 
it back on track. I very much hope that we will have the 
support of the committee and the Congress as a whole in getting 
that done.

    NATIONAL CAPABILITY GAPS IN HUMAN SPACE FLIGHT AND WEATHER DATA

    Mr. Fattah. Well, let me delve into this a little bit, 
because there have been a lot of comments about the fact that 
we have to depend on the Russians to take astronauts because we 
have a gap in a space vehicle and now we have a gap in 
satellite coverage for our severe weather forecasting that is 
going to appear. And I want to go back to the decision package 
that led to these gaps.
    Now the ending of the shuttle flights was a planned 
activity well back more than a decade or so ago, and in 2004 
the final timeline was put together for the end of these 
flights. There are people in our country who believe that the 
Obama Administration decided that we are going to stop flying 
shuttle flights.
    I want you to comment on these gaps and how we got to this 
moment where we have hundreds of tornados, we have a tsunami 
that hit Japan, created a nuclear problem, but yet we are going 
to be without satellite coverage for some period of time in 
terms of checking the weather. So if you could help us 
understand how we got to this moment that would be important.
    Dr. Holdren. Well, Ranking Member Fattah, it is a 
complicated story. I could send you a timeline and would be 
happy to do that.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Fattah. I would like for you to do that.
    Dr. Holdren. The essence of the matter is in part you are 
right that we have known since early in the previous 
administration that the shuttle program needed to come to an 
end. It needed to come to an end for a number of reasons, one 
of them being that this is basically 1970's technology which in 
some sense is so complicated and so fragile you see the results 
in the fraction of the time that we end up having to postpone 
launches for the safety of the astronauts, which obviously has 
to remain paramount. But it was also the case that the shuttle 
is so expensive to operate that while you are operating it you 
can't find the money in any plausible NASA budget to develop 
its replacement, and so it was recognized again already in the 
Bush Administration they made that decision that the shuttle 
would be phased out.
    And the problem was that the successor program to the 
shuttle, the Constellation Program, was going to provide both 
access to lower earth orbit and the heavier capabilities for 
deeper space missions. It never got the budgets it needed to 
stay on track, and the result was by the time we came into 
office the Constellation Program was in danger of being three 
to four times over budget, that is over the originally 
anticipated cost for those vehicles.
    And in addition, it was so far behind schedule that no 
amount of money poured into it at this point could erase the 
gap in the capacity to put American astronauts on the space 
station on U.S. rockets.
    At the same time the attempt within NASA to find enough 
money to keep Constellation on track had sapped the resources 
available for many of NASA's other programs, but we had a 
further problem. We had a problem that the NPOESS program, the 
successor program for these polar-orbiting satellites was a 
joint venture of the Department of Defense, NASA, and NOAA, and 
for a whole variety of reasons those folks were proving not to 
be playing very well together, and that contributed to delays 
and cost overruns in the NPOESS program itself, which we were 
charged when we came into office with fixing.
    I say we, I was charged in my confirmation hearing for 
fixing it and then I was charged by the President with fixing 
it because it is an interagency science and technology program 
that falls under the jurisdiction of OSTP, and we worked very 
hard with those three agencies to fix it and we figured out a 
way, we thought the best possible way to fix it in terms of 
dividing certain responsibilities more clearly between the 
Department of Defense on the one hand and NOAA and NASA on the 
other, but carrying out those responsibilities required an 
increase in NOAA's budget which they have not received.
    That is the essence of the story. I will give you a longer 
time line following this hearing, sort of the step by step of 
who did what and to whom that led us to this predicament.
    Mr. Fattah. I want to thank you, that is very illuminating 
and unfortunate, but I want the time line.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.

                     CONTROL OF RARE EARTH ELEMENTS

    Dr. Holdren, I know you have published repeatedly in the 
journal Science and other science publications so I know you 
are familiar with them and read the journal Science on a 
regular basis. I am confident.
    Dr. Holdren. I am sometimes a little bit behind on my 
reading of Science because of my other responsibilities, but I 
do read it on a regular basis.
    Mr. Culberson. I can certainly sympathize. You said you 
were not aware that the People's Liberation Army had any role 
in the--or you weren't sure of the role or how far their 
tentacles extended into NASA.
    To what extent are you familiar with the role of either the 
People's Liberation Army or the Communist Party in Chinese 
universities in the way they are operated or governed?
    Dr. Holdren. Well, first of all I am aware that the PLA has 
a substantial role in the Chinese space program. I don't want 
to be misunderstood about that.
    Mr. Culberson. Okay.
    Dr. Holdren. I said I am not clear on the details of the 
extent of that role and how it works.
    Mr. Culberson. Fair enough.
    Dr. Holdren. But there is no question that the PLA has a 
role in the Chinese space program, and similarly I would be 
very surprised if the PLA didn't have some interactions with 
the Chinese university system. I am not again familiar with the 
details of how that works.
    Mr. Culberson. Or the Communist Party's involvement in 
either the space program or in their research at their 
universities.
    Dr. Holdren. Well, the Communist Party governs that 
country, and so the involvement is obviously extensive.
    Mr. Culberson. You mentioned earlier in your testimony that 
you are engaged in efforts to promote scientific and 
technological cooperation that you feel is in our best 
interests.
    And I just want to make absolutely certain you were aware--
and I was unaware until I had seen this in the April 8th 
edition of Science--that all mainland universities in China, 
Mr. Chairman, have two leaders, the president of the university 
and the Communist Party secretary. So it is not just the space 
program. It is pervasive.
    And the reason the chairman and I keep circling back to 
this is that the Chinese have made it their national policy, it 
is their goal to make the 21st century the Chinese century, and 
they see their primary obstacle to be the United States.
    And the chairman quoted an article I think that the--was it 
the IMF, Mr. Chairman, said that about 2016 the Chinese economy 
would surpass ours?
    It is, I think, self-evident that by the--and this has, I 
think been out in the open that by 2015 the Chinese will be in 
a position militarily to announce, as I expect they would, 
their own Monroe doctrine of sorts, and that is my own personal 
supposition, Mr. Chairman, but I have run that past a number of 
folks and I think we can safely predict that some time within 
the next four to five years we will see China announce a Monroe 
doctrine for the eastern hemisphere that they have a zone of 
influence within which the United States can't and shall not 
have any influence or interference. The Malacca Straits are the 
carotid artery to the Chinese in terms of their reliance on 
foreign oil.
    The chairman also took testimony of the subcommittee from 
the Director of the National Science Foundation that in fact 
the Chinese--and I just saw an article more recently on this, 
Mr. Chairman--that the Chinese now control 97 percent of all 
rare earth elements on the planet.
    And you were quoted in this same article, Dr. Holdren, this 
is from the journal Science, March 26, 2010, that the--or 
excuse me, I'm sorry--a group of scientists had sent you a 
letter: ``last month magnet industry leaders in the United 
States sent a letter to John Holdren [. . .] calling on the 
Obama Administration to take prompt action to restore rare 
earth mining and processing in the United States and other 
western countries. The recommendations including establishing 
short-term stockpiles of rare earths critical for defense needs 
and having the U.S. Department of Energy set up a $2 billion 
loan guarantee program to help western mining companies build 
new mining and processing facilities.''
    What have you done in response to that letter and what have 
you done to protect the United States and help ensure that we 
have access to these strategically vital rare earth elements?
    Dr. Holdren. Well, thank you for those good questions, 
Congressman Culberson.
    Let me start by saying that we do understand that China 
wants to be number one. That is not surprising. We want to stay 
number one. And the things that we are recommending in the 2012 
budget are intended to keep us number one, and we have talked 
already a bit about the ingredients that will be required for 
us to stay number one.
    I have also already said I don't think any of us has a 
clear crystal ball as to when China might pass us and in what 
respects. I think China has some big internal problems, most of 
them of their own making, many of them resulting from the kinds 
of policies and practices that Chairman Wolf has been a leader 
in denouncing, and my hope is that we stay number one and that 
China does not pass us in important aspects of capability.
    I also hope that China is not in a position militarily at 
any foreseeable time to make a unilateral declaration of the 
sort that you described that would impair United States' 
interest and the United States' freedom of action.
    But with that said and turning to the rare earth element 
question, we have been aware of that issue for a long time. We 
have had in place under the leadership of the Office of Science 
and Technology Policy jointly with the National Security staff 
and the National Economic Council an interagency working group 
on the rare earth minerals that has provided briefing papers 
for the President, that has developed short-term and long-term 
strategy proposals for how to minimize this vulnerability.
    Mr. Culberson. Which are?
    Dr. Holdren. China has come to this position because they 
were able to undercut the price.
    We have considerable rare earth mineral resources in the 
United States, in Alaska, and in other parts of the United 
States, but it is a matter of not just having the resources but 
of developing the whole supply chain of not just mining, but 
processing those materials into usable forms, and we are doing 
a number of things to make that happen.
    Mr. Culberson. Such as?
    Dr. Holdren. We have developed a review of domestic and 
global policies that effect that and are looking to strengthen 
the ones that will accelerate U.S. production.
    We have been in conversation with companies and with the 
governors of the states that possess these resources on what 
they can do to accelerate the process of reviving rare earth 
mineral industries in their states.
    Mr. Culberson. Reviews and conversations.
    Dr. Holdren. Reviews and conversations. We have----
    Mr. Culberson. Something specific.
    Dr. Holdren. Well, we have the----
    Mr. Culberson. Tangible.
    Dr. Holdren. The DoE has ramped up its R&D, including 
developing a new hub on critical minerals, which as the other 
hubs have done will aim to reduce the time lag between 
discovery and innovation in universities and national 
laboratories----
    Mr. Culberson. But that is utilization of the rare earth 
elements.
    Dr. Holdren [continuing]. And getting things into the 
progress.
    Mr. Culberson. That is utilization of rare earth elements.
    Dr. Holdren. No, it is not just utilization. I'm sorry, 
sir, but it is also how we can mine them more cheaply, process 
them more efficiently, convert them into the forms that we need 
in our products more efficiently so that the Chinese will not 
be able to undercut us economically and maintain that very 
large market share that they now enjoy. It is not just a 
process focused on using them.
    Mr. Culberson. Okay. What specific tangible things have you 
done--because this is in your shop, this is your 
responsibility--to protect the United States against what is 
obviously now a monopoly of the Chinese on rare earth elements, 
which they have used already to their strategic advantage when 
one of the Chinese captains of a Chinese ship t-boned a 
Japanese ship some time last year I think, and the Japanese 
arrested the Chinese captain, who deliberately hit them, you 
remember that, and then all of a sudden the Japanese had to 
release the captain.
    Well, it turns out the Chinese had, you know, these reports 
out there that you can read them and find them, and the open 
source is that the Chinese used their monopoly on rare earth 
elements to strangle the Japanese and force them to release 
this captain.
    I mean this is a strategic threat to the United States, and 
we are really looking for what--you got this letter from the 
industry leaders last March and you have known about this for a 
long time, what specific tangible steps have you taken to 
ensure that the United States has access to rare earth elements 
from sources other than China? I am looking for some other 
nation.
    Dr. Holdren. Well, we are always talking to the 
Australians, have been talking to the Australians who have 
considerable resources of these.
    The problem, Congressman, as I mentioned, is not the 
existence of resources of these minerals in many countries 
other than China, the problem is that it is a matter of two or 
three years to develop the supply chain, and we are working 
with companies and governments to develop those supply chains 
and to do it with technologies that will enable us to compete 
with or undercut the Chinese.
    Now that is not something you can do overnight and it 
requires initially understanding the character of the problem. 
We have gotten started. We got started. We got started a year 
ago March on that effort.
    I would be happy to provide you following the hearing with 
a more detailed report on that.
    [The information follows:)

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Culberson. Okay, please do, I know the chairman would 
be very interested.
    By the way, in your office does anyone in your office, 
anyone working with your office have any Chinese nationals 
working directly or indirectly for them or with them?
    Dr. Holdren. We of course don't have any Chinese nationals 
working in our office. To work in the Office of Science and 
Technology Policy you have to be an American citizen and you 
have to be eligible for a top secret clearance.
    Mr. Culberson. Directly or indirectly----
    Dr. Holdren. No.
    Mr. Culberson [continuing].Would anyone working with or 
that has access to your office have any Chinese nationals 
working with them directly or indirectly?
    Dr. Holdren. I am not sure, Congressman, what you mean by 
indirectly, but as the chairman has mentioned, I myself have 
traveled to China numerous times over the last several years 
and have had Chinese visitors here in connection with my 
responsibilities for conducting the Joint Commission on Science 
and Technology Cooperation with China, but we have nobody in 
our office who is a Chinese national or who is consulting for 
our office who is a Chinese national.
    Mr. Culberson. Super.

                ADDRESSING SOCIAL ISSUES THROUGH SCIENCE

    I also wanted to ask about, if I could, I notice that when 
you were president of the AAAS that you asked that scientists 
tithe 10 percent of their time to working on your number one 
priority as AAAS president: fighting world poverty. Do you 
recall all that?
    Dr. Holdren. I recall my presidential speech in which I 
listed a number of important priorities, including fighting 
world poverty and disease, mastering the energy-economy-
environment challenge and more.
    Mr. Culberson. Right. Did your number one priority you laid 
out for AAAS was to--and I am looking at your speech here on 
the Science website that how can science and technology help, 
what is your obligation to scientists? Number one, meeting the 
basic needs of the poor, right?
    Dr. Holdren. I believe, Congressman, I would have to 
revisit that text myself, but I listed five or six items, and I 
think I said they were not in order of importance.
    Mr. Culberson. Okay.
    Dr. Holdren. They were all important and they included 
avoiding the use of weapons of mass destruction.
    Mr. Culberson. Sure, and that----
    Dr. Holdren. They included maintaining the productivity of 
the oceans and so on.
    Mr. Culberson. Right, right.
    Dr. Holdren. And I suggested that not all scientists tithe 
10 percent of their time to reducing world poverty, but that 
they tithe 10 percent of their time to these large public 
interest questions across the board.
    Mr. Culberson. Noble worthwhile effort, but what I am 
driving at is another issue. You have said, and it is clear 
that your office since NASA doesn't report to the--the NASA 
administrator is not a cabinet-level official and doesn't 
report directly to the President, the NASA administrator 
reports to you, so essentially your responsibilities are very 
broad for the President to encompass essentially a supervisory 
role or as sort of the administration official responsible for 
NASA.
    Dr. Holdren. It would be I think more accurate to say, 
Congressman, that the NASA administrator reports to me on 
matters of science and technology, to OMB on matters of budget, 
and to Cabinet Affairs on matters of interaction with the rest 
of the administration.
    Mr. Culberson. So to what extent since you have a long 
history of publications of, you know, guiding the AAAS and 
focus on that number one--maybe not in priority order--but one 
of the top five goals of scientists, you know, tithing 10 
percent of their time and focusing on the fighting of global 
poverty, to what extent were you involved in and how and what 
way did you help guide Lori Garver and her remarks to Goddard 
last year in which she said NASA's number one goal was fighting 
world poverty?
    Dr. Holdren. I had no influence on those remarks at all and 
was not aware of them until after they came out, and I don't 
really understand the context. I had no interaction with Lori 
Garver.
    Mr. Culberson. That makes no sense, I agree.

            ATMOSPHERIC EMISSIONS AND ENVIRONMENTAL CONTROLS

    A couple of other quick areas, Mr. Chairman, that I just 
find particularly fascinating and revealing.
    Back in 2001, you published a paper in Science in which you 
argued we have a--essentially an environmental Hippocratic Oath 
to do no harm to the environment, that the--you had argued that 
the atmosphere is essentially a commons that we all have an 
equal right to, and when you had published a paper with Paul 
Baer, John Harte, Barbara Haya, Antonia V. Herzog, Nathan E. 
Hultman, Daniel M. Kammen, Richard B. Norgaard, and Leigh 
Raymond, which I know you are familiar with, and I will be as 
brief as I can, Mr. Chairman, but this is particularly 
interesting and I know will be of interest to the chairman as 
well, that you were attacked in a letter of February 2nd, which 
I am confident you remember.
    A gentleman by the name of Arthur Westing wrote and said 
hey, this idea proposed by John Holdren and others that 
recommends apportioning the use of the atmospheric commons as a 
gaseous and aerosol waste dump sounds superficially attractive 
and that you suggested that emissions were allocated based on 
equal rights to the atmospheric commons for every individual.
    And he says the idea of an equal per capita allocation of 
greenhouse gases is flawed, because he said, it implicitly 
condones global overpopulation and rewards countries in 
proportion to their level of transgression of human carrying 
capacity of their portion of the global biosphere.
    And you wrote a response to him saying that, you know, we 
see no evidence that an equal per capita allocation would 
provide an incentive to significantly alter national population 
growth. Climate demographic interaction would help reduce 
population growth rates through increased investments, and in 
any case we suggest in our policy form possible solutions to 
any appearance of incentives for governments to adversely alter 
their population policies in response to per capita permit 
allocations.
    This can be achieved, for example, by choosing a fixed 
base-year population by determining for each country a 
population baseline, incorporating reasonable declines in 
population growth, or by allocating permits to population based 
on some previous time point.
    Would you explain this? I am just not sure I understand the 
concept of an atmospheric commons, and I don't notice the 
Chinese respecting that. I mean they dump more pollution into 
in atmosphere along with the Indians than any other country on 
the face of the earth. And what right would any international 
body have to impose population limits on any country?
    I mean that essentially is what you are advocating here. It 
is just sort of bizarre. I am not sure I understand what you 
are----
    Dr. Holdren. You are not correctly understanding it. We are 
not proposing there to impose population limits on anybody. The 
idea of a population baseline was simply a reference point 
against which entitlements to add pollutants to the atmosphere 
would be based. Precisely the problem that you mention with 
China making very large emissions into the atmosphere under 
which we all live.
    Mr. Culberson. And India.
    Dr. Holdren. And India as well. Is one of the reasons that 
in selected domains we think it is in our interest to continue 
to cooperate with them, to move them more rapidly toward 
reducing those emissions, which is in our interest because we 
all live under one atmosphere.
    The only significant point about the concept of an 
atmospheric commons is the atmosphere is common to everybody. 
We live under one atmosphere. Things added to it in one place 
that stay there influence the conditions and the quality of 
life for others elsewhere.
    Mr. Culberson. Uh-huh.
    Dr. Holdren. And therefore ultimately society has to figure 
out, and that can only be done by negotiations and agreement 
ultimately, has to figure out how to limit what every country 
adds to that commons to the detriment of all the others.
    Mr. Culberson. Okay.
    Dr. Holdren. There is nothing more sinister or 
sophisticated than that behind this interaction.
    Mr. Culberson. Okay. One final question.
    Why, then, should the United States continue to 
unilaterally, under your guidance and the Administration's 
guidance, continue to impose aggressive and stringent 
restrictions on access to domestic sources, oil and gas, 
restrictions on atmospheric emissions, carbon dioxide, 
unilaterally, when the Chinese and Indians are ignoring it? 
That is a cannon ball around the ankle.
    Dr. Holdren. Again, with all respect, Congressman 
Culberson, you phrased that a little differently than I would 
phrase it.
    We are not imposing stringent restrictions on carbon 
dioxide emissions in this country at this point. And the 
Congress has not agreed to do that and it is not happening.
    Mr. Culberson. But you were trying to do it by rule through 
the EPA. Aren't you helping in that effort?
    Dr. Holdren. The EPA has some authority in this domain, 
and----
    Mr. Culberson. And you are advising them on it and helping 
them on it.
    Dr. Holdren. I am not advising the EPA, I advise the 
President, let me be clear about that.
    But in my view it is important and valuable and necessary 
that the United States reduce its emissions of greenhouse gases 
because, we along with China and India, are major contributors 
to the additions of greenhouse gases that are implicated in 
global climate change that is not good for any of us.
    And it is also I think highly likely that if we are to 
succeed in persuading China and India to take more stringent 
steps to reduce their emissions--and by the way, China has 
already done quite a lot to reduce their emissions below what 
they would otherwise be, they are still enormous, but they have 
made large investments in energy efficiency and particularly in 
automotive efficiency, they have imposed stringent standards on 
automotive efficiency, they are building more advanced coal 
plants to try to reduce the emissions from that sector, they 
are studying carbon capture and sequestration.
    I think we should continue to urge the Chinese to make 
progress in that direction and we should continue to make 
progress in that direction ourselves.
    Mr. Culberson. On our own.
    Dr. Holdren. On our own and in negotiation and cooperation 
with others. It is in our interest to persuade China to reduce 
their emissions, and it is in our interest to reduce our own.
    Mr. Culberson. The chairman has been very gracious, thank 
you, sir, for the extra time.
    Mr. Wolf. Thank you.

                           POPULATION CONTROL

    Well, I didn't know Mr. Culberson's line of questioning, 
and let me just say I am not going to ask you a question. But I 
do want to, based on what he said, put this in the record.
    In anticipation of the hearing, I got your book out of the 
Library of Congress. Your book, ``Ecoscience: Population, 
Resources, Environment,'' coauthored with population control 
advocates Paul and Anne Ehrlich. There is no question to ask, 
and many views that people had in 1977 they have discontinued. 
I want to put that out there, but it was troubling when I went 
through it.
    On page 837 it said, ``indeed it has been concluded that 
compulsory population control laws, even including requiring 
compulsory abortion could be sustained under the existing 
Constitution if the population crisis becomes sufficiently 
severe to engage the society.'' Page 837.
    You also went on to say on page 838, ``neither the 
Declaration of Independence nor the Constitution mentions a 
right to reproduce.''
    It says in the Declaration that all men are created equal 
and are endowed by their creator with the rights to life and 
liberty and the pursuit of happiness. Those words were drafted 
by Thomas Jefferson in Independence Hall in the City of 
Philadelphia, which I used to walk through and see the Liberty 
Bell almost every day.
    Lastly, you went on to say on page 787, ``the development 
of a long-term sterilization capsule that could be implanted 
under the skin and removed when pregnancy is desired opens 
additional possibilities for coercive fertility control. The 
capsule could be implanted at puberty and might be removable 
with official permission for a number of births. No capsule 
that would last that long, 30 years or more has yet been 
developed. But is technically within the realm of 
probability.''
    Dr. Holdren. Mr. Chairman, if I may.
    Mr. Wolf. Sure.
    Dr. Holdren. You didn't ask a question.
    Mr. Wolf. No, I didn't.
    Dr. Holdren. But the chapter--I want to comment.
    Mr. Wolf. Sure.
    Dr. Holdren. The chapter from which you read was a 
compilation of ideas and concepts that had been discussed in 
the literature, it was identified as such, and the author 
statement at the end says we do not advocate these measures.
    I think it is not fair to assert that I held the view that 
compulsory measures to limit population were appropriate, 
justified, warranted, or moral. That was a summary of views 
that appeared in the literature in a large comprehensive book 
in which I was mainly responsible for the chapters on 
geochemical cycles, on energy, on materials, and so on.
    Mr. Wolf. Well, I appreciate that.

                COORDINATION OF STEM EDUCATION PROGRAMS

    On STEM education in a report on duplication in government 
programs that came out a few weeks ago, GAO identified five 
different agencies--NSF, NASA, Department of Energy, Defense, 
and Education--who fund programs to improve STEM education.
    We know this is not a complete list because other agencies 
fund it. NOAA also has STEM education programs.
    Do you believe that the benefits of having so many 
different agencies involved outweigh the costs of inefficiency 
and program fragmentation?
    The other question that we can kind of marry to that is, 
the GAO review concluded we need better cross agency 
coordination to reduce duplication and ensure a balanced 
portfolio of STEM education programs.
    This is not a new finding. In fact, it seems that this 
finding is made pretty much every year by both internal and 
external reviewers.
    Since we have known that STEM education coordination is a 
problem, why haven't we fixed it and what can we do working 
with you to fix it?
    Now again, I am talking about trying to have more, not 
talking about cutting back. We are talking about encouraging 
more. So those two questions together.
    Dr. Holdren. Chairman Wolf, I agree with you, and that is 
why we have stood up this National Science and Technology 
Council committee chaired by Carl Wieman, Carl Wieman agrees 
with you as well, we want to look at all those programs across 
all the agencies that are engaged in STEM education, we want to 
figure out which ones are duplicative, which ones are 
effective, and which ones are ineffective. We want to eliminate 
the duplicative and ineffective ones and we want to end up with 
a package that is more potent that spends the resources we have 
available in a more effective way to lift our game in STEM 
education in this country. I think you are exactly right, that 
has been begging for review and we have gotten it under way.
    Mr. Wolf. Well, I want to help you on that. If we can do 
something in this committee in the mark up, I hope you will 
come to it.
    So the question sort of continues. Last year's America 
COMPETES Act, which I voted for and I commend Bart Gordon very, 
very much for the work that he did, assigned responsibility for 
the coordination of federal STEM education programs to a 
committee, which we have been discussing, under the auspices of 
your office.
    What is the status of the committee? Can you tell us who is 
on it? How many meetings they have had? When can we expect to 
see concrete steps taken?
    And then to connect that, the COMPETES Act also required 
you to submit a report with each year's budget request 
outlining what is in the budget for STEM education, discussing 
potential duplication and providing progress and implementation 
updates on ongoing activities.
    Will there be a report for 2012?
    Again, this is nothing you should be fearful of. We are not 
looking to throw this out. It is so we can have a more 
effective effect.
    So, who is on the panel, the committee that you referenced?
    Dr. Holdren. I can't tell you off the top of my head who is 
on the panel. I can tell you who chairs it, and that is my 
associate director for science, Dr. Carl Wieman.
    Mr. Wolf. And that is very impressive, but can you tell 
us----
    Dr. Holdren. I will happily provide that. I don't have the 
list of the panel members with me, but all the agencies that 
have these programs are represented on the panel.
    [The information follows:]

           Request for Details on the NSTC STEM Ed Committee

    At the House CJS Appropriations Subcommittee hearing on May 4, 
Chairman Wolf requested details about the newly-formed STEM Ed 
Committee under the NSTC: who sits on the committee; action plan, etc.
    Response: The National Science and Technology Council (NSTC) 
Committee on STEM held its first meeting on March 4, 2011. The 
Committee is co-chaired by Dr. Carl Wieman, Associate Director for 
Science at OSTP, and Dr. Subra Suresh, Director of the National Science 
Foundation. Agencies represented on the committee include: Departments 
of Agriculture, Commerce, Defense, Education, Energy, Health & Human 
Services, Interior, Transportation, as well as NASA and the EPA. There 
are two working groups under the committee: Federal Inventory of STEM 
Education Fast Track Action Committee and Federal Coordination in STEM 
Education Task Force. The Committee's charter is also included.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Dr. Holdren. And I have to tell you that Dr. Wieman is not 
only a very smart guy, but he is a very determined guy, and 
he----
    Mr. Wolf. Oh, I'm sure, I----
    Dr. Holdren [continuing]. Wants to get to the bottom of 
this.
    Mr. Wolf. I think it is a great appointment.
    Now, when were they set up? What day were they set up?
    Dr. Holdren. I believe they had their first meeting in 
March, last month, that's right.
    Mr. Wolf. Okay. Do you know when they plan on--and this is 
not fair to put you----
    Dr. Holdren. I don't know that off the top of my head, but 
I would be delighted to provide you the answers to those 
questions, who is on the committee, when they are planning on 
reporting, and what that report will cover.
    Mr. Wolf. Will there be a report for the 2012 budget?
    Dr. Holdren. I believe there will.
    Mr. Wolf. Good, good.
    Dr. Holdren. All right.
    Mr. Wolf. Well, let us know if there is something that we 
can do here in this bill that helps you with regard to that. 
Again, I know it may be viewed in a different way by some that 
think we are looking to strip something out, we are looking to 
change. But I agree with you that we should give you more 
resources and have more young people involved.
    Do you know if my figures are accurate with regard to last 
year or two years ago, with 50 percent of the----
    Dr. Holdren. I must say that took me back, and I have made 
a note to look into it. I don't understand where that number 
comes from, but I will sure find out.
    Mr. Wolf. If you can.

                     STEM EDUCATION BEST PRACTICES

    Do you believe the 2012 budget reflects an appropriate 
balance between K through 12 STEM programs and those focused on 
higher education? Should we be more aggressively focused on the 
youngest kids to ensure that they become engaged in science? 
How are you balancing that out?
    You mentioned earlier that you don't think it is being 
taught appropriately at some colleges, and you are right. I 
very seldom have heard of somebody who goes to the University 
of Virginia and majors in business administration or political 
science and then in their sophomore year transfers into 
physics. It is usually they go----
    Dr. Holdren. Other way.
    Mr. Wolf. It is the other way.
    So do we have the right balance here? Is all the necessary 
original research out there and it is just a question for your 
office to pull this all together? Maybe you can participate in 
the conference the National Science Foundation is going to have 
showing what works for fifth grade and sixth grade, but also 
maybe have a separate session about how do you then tell the 
University of Virginia, Virginia Tech and MIT, how they can 
make it relevant so that the people who come into physics stay 
in physics rather than go into political science?
    Dr. Holdren. The answers are all basically yes or maybe.
    The maybe is do we have the balance right? I think we have 
taken a good cut at the balance in this budget, but we are 
constantly looking at it and we are constantly learning about 
additional opportunities to do things in different domains, 
that is one of the things that Dr. Wieman is looking at, and we 
will obviously be proposing to adjust balances over time as we 
learn more and discover things that we should be doing and 
aren't doing, or as we discover things that we have been doing 
that aren't working well.
    In terms of the conference you mentioned we will absolutely 
be participating in that conference.
    Mr. Wolf. You all are smart people, you have a lot of 
information. Is there something down there that you know now 
about it but you are so busy--and I respect that--but we are 
not getting it out to those people who need to know, like the 
deans of engineering across the country?
    I saw a figure, I think it is in the ``Gathering Storm,'' 
but don't quote me. It could have been in Norm Augustine's 
update, but it said, and I believe I made a comment on it, that 
we graduated more Ph.D.s in physics in 1956 than we graduated 
last year. Is that a fact?
    Dr. Holdren. I don't know whether that is a fact.
    Mr. Wolf. Do you think it could be?
    Dr. Holdren. It is certainly conceivable, yes.
    Mr. Wolf. If you have some information, Mr. Fattah and I 
could do a letter to all of the deans of engineering or we 
could put together a conference. You could call a conference, 
we could use the Capitol Visitor Center here whereby you could 
bring your best minds to say, ``we now know this is successful 
at the university level, and this has worked whereby all you 
deans ought to be looking at this.'' But the point is you may 
have something there that we want to sort of get out.
    Dr. Holdren. Let me tell you, Mr. Chairman, this is cutting 
edge stuff.
    Carl Wieman is one of the leading researchers in the world, 
probably the leading researcher in the world and practitioner 
who at a number of major universities has put these new 
approaches into practice and achieved spectacular results, but 
this is such new stuff that it is not yet very propagated very 
widely.
    We recruited Dr. Wieman to be the associate director for 
science at OSTP because--not because he is a Nobel Prize winner 
in physics, that it is wonderful to have a Nobel laureate as 
your associate director for science--but we recruited him 
because of his extraordinary leading edge work on this subject, 
and we are trying to use the fact that he is now in OSTP in the 
White House and talking with the President about this and 
talking with other university leaders. We are trying to use 
that to propagate these ideas, and we will continue to do that, 
and I think we will see these ideas and these approaches 
spread, and I think they will be helpful with the phenomenon 
you identify, that we have----
    Mr. Wolf. Well, could you have the doctor come up and----
    Dr. Holdren. Oh, absolutely.
    Mr. Wolf. And maybe we should----
    Dr. Holdren. He would love to, I assure you.
    Mr. Wolf. Maybe we should have a conference this fall where 
we bring all the deans together here.
    Dr. Holdren. He has been talking to a lot of them, but a 
conference could be a good idea.
    Mr. Wolf. Well, why don't you have him come on up.
    Dr. Holdren. No, I will do that.
    Mr. Wolf. And we can just talk.
    Dr. Holdren. Absolutely.

                     TSUNAMIS AND DISASTER PLANNING

    Mr. Wolf. We had asked NOAA several weeks ago if they would 
hold a conference here, and I appreciate the NOAA Administrator 
saying yes. We are going to bring all of the governors up and 
down the east coast, the Caribbean and all the FEMA people 
together to see if all the economies are ready for a tsunami, 
are they ready for an earthquake? We hope to do the same thing 
maybe out at Caltech out there.
    I don't know if you were going to be participating in that. 
You may talk to the head of NOAA to see. We are also bringing 
the U.S. Geological Survey.
    Dr. Holdren. Good.
    Mr. Wolf. That way if something is coming, we know that 
they should be prepared and we know that everyone has a plan. 
This Committee six years ago plused up the buoy systems around 
the world to make sure that we were ready, and so I think you 
should see if there is some role that you can play. We are not 
looking to fill your time up, but I would like to do something.
    Dr. Holdren. This is important stuff and I am engaged in 
this domain of planning and preparedness and understanding how 
our facilities may be vulnerable to tsunami and earthquakes and 
making sure with the other agencies that are involved.
    This is another one of these cross-cutting agency issues, 
and I am involved in it, and I agree with you about its 
importance.
    Mr. Wolf. Well, the conference will be in June here at the 
Congress. The Congress is out that week.
    Dr. Holdren. I can't tell you at this moment whether it is 
on my calendar, but it might well be, and I am scheduled to 
have a conversation with Under Secretary Lubchenco at the end 
of the afternoon.
    Mr. Wolf. Well, she has been very good. She is really----
    Dr. Holdren. She is great.

                 DUPLICATION OF EARTH SCIENCE PROGRAMS

    Mr. Wolf. I have a question on NOAA duplication. We are 
just going to get it to you for the record.
    There is some concern with regard to the duplication of 
NOAA and NASA on certain research topics like atmospheric 
composition, climate and other things, so please take a look at 
that.

                  OSTP FISCAL YEAR 2012 BUDGET REQUEST

    The only new item in your 2012 budget request is a $350,000 
decrease that would be achieved by limiting the activities of 
the President's Council of Advisors on Science and Technology.
    What work did you have planned for the PCAST that might be 
deferred under the budget request?
    Dr. Holdren. I have to say in all honesty, Mr. Chairman, 
that I didn't volunteer for that reduction. This comes under 
the heading of sharing the sacrifice, and the--what PCAST does 
depends in part on what studies the President asks us to 
conduct for him, and how we will deal with that decrease going 
forward will depend in part on what studies the President 
requests from us, and we may find ourselves having more 
meetings by teleconference and fewer meetings face to face, 
which has both advantages and disadvantages.
    We may handle it by saying we are going to have to 
prioritize among the different requests the President has made 
of us and ask him what he wants the most, because we don't have 
enough money to do it all.
    Mr. Wolf. Could that decrease impact the schedule for 
PCAST's planned report on higher education STEM programs?
    Dr. Holdren. I do not think it will because that study is 
already well under way and I don't think its completion is 
going to be imperiled by that reduction. It would be studies 
later in the pipeline that would be impacted.

               MEETING GOALS FOR BASIC RESEARCH SPENDING

    Mr. Wolf. Between the American Competitiveness Initiative, 
two versions of the American COMPETES Act, and the ``Rising 
Above the Gathering Storm'' report, we have had a variety of 
calls for increases in basic research over the last few years.
    ACI and the COMPETES Act proposed doubling the budgets of 
NSF, NIST, and Energy Office of Science over either seven or 
ten years, and ``Gathering Storm'' called for an annual 10 
percent increase in basic research funding for physical science 
and math and engineering. Including the proposed 2012 budget, 
but excluding one time stimulus funding, how close are we to 
being on track to these goals?
    Dr. Holdren. We are certainly not there in the Continuing 
Appropriations Act for 2011, and the only way we could get back 
on track on those projectories would be if the President's 2012 
budget were approved by the Congress, but that would get us--if 
the 2012 budget were approved that would get us back on this 
sort of trajectory that you are describing and that American 
COMPETES called for.
    Mr. Wolf. Well, I don't know what our allocation is going 
to be. I certainly will do everything I can, and I think Mr. 
Fattah feels the same way. I think you are back to that issue 
of hopefully--and I know this is not your responsibility, the 
President will deal with this whole entitlement issue--tieing 
the entitlement issue onto the debt limit, and then I think it 
would free up a lot of additional revenue.
    Dr. Holdren. Uh-huh.
    Mr. Wolf. If you looked at the tax package that passed, the 
White House said this was an example of Republicans and 
Democrats working together. I voted against the tax package. 
There was a cut in the payroll tax which will cost $112 billion 
for one year. Can you imagine what $112 billion spent wisely 
could have done? Instead we give a break to Jimmy Buffett, a 
break to Warren Buffett, and we basically hit these programs 
really hard. So I don't know what the allocations will be.
    The ``Gathering Storm'' report also calls for OSTP to set 
up an office to oversee improvements to the Nation's research 
infrastructure. Have you established this office? And what kind 
of strategy are you pursuing to ensure the aging research 
facilities get the upgrades needed to keep them functional and 
relevant?
    Dr. Holdren. Well, that is both a function of the science 
committee and the National Science and Technology Council, 
which is also chaired by Dr. Wieman and it is always the focus 
of studying PCAST as initiated.
    Mr. Wolf. So would the PCAST cut have any impact on this?
    Dr. Holdren. I hope not.
    Mr. Wolf. So maybe. Maybe?
    Dr. Holdren. We have to look at how we are going to 
accommodate that cut. But again----
    Mr. Wolf. You would really be upset if we put that money 
back.
    Dr. Holdren. I am not sure I am allowed to answer that 
question.
    Mr. Wolf. I think there are other questions that we will 
just submit for the record. I will go back to Mr. Fattah and 
Mr. Culberson at the end.
    Mr. Fattah. I am prepared to conclude, Mr. Chairman, unless 
we are going to go back around.
    Mr. Wolf. No, we won't.

                         CYBERSECURITY AT OSTP

    Two weeks ago we had a conversation with the NSF director 
about balancing the desire to promote public access to research 
findings with needs to protect scientific intellectual property 
and data critical to American economic and national security 
interests.
    Do you believe we are currently striking the right balance? 
Or can you take a look at this?
    Dr. Holdren. We are taking a look at it, that is another 
issue that is in our domain. There is a tension there that will 
never be entirely resolved between those two goods. The good of 
the need to protect intellectual property and national security 
information on the one hand and the need and the value of 
openness on the other.
    I wouldn't swear to you, sir, that we have the balance 
exactly right now, but we are looking at it.
    Mr. Wolf. Well, the Chinese are stealing us blind.
    Dr. Holdren. I hear you on that.
    Mr. Wolf. And if we can chat after you go out to the Cyber 
Center, the staff will get in touch with you. I was out there 
last Thursday and they are stealing us blind.
    And keep in mind, a secretary in the Bush Administration 
had his computer stripped. They took the same equipment, I 
believe, to Beijing that you may have taken.
    So we will also ask the bureau to talk to you about that 
too, but I think Mr. Culberson is right. There may be a 
problem.
    Dr. Holdren. I would be happy to talk to the bureau.
    Mr. Wolf. The Chinese stripped my computer here. Have you 
had any cyber attacks against your computer?
    Dr. Holdren. Not that I am aware of, sir.
    Mr. Wolf. You may be one of the only agencies in the 
government that has not.
    Dr. Holdren. I mean I am not saying there have been no 
cyber attacks against OSTP, my understanding is that cyber 
attacks are directed all the time at virtually every U.S. 
agency. I am sure in that sense there have been attacks against 
OSTP as well.
    I am not aware of any successful ones, and I am not aware 
of any cyber attack other than the usual things that come in 
every day on my own personal computer.
    Mr. Wolf. Well, can you look and see if you believe, since 
you are the science advisor, that we have every necessary 
policy in place so that agencies such as NASA and NSF and 
others are doing everything that they need to do? We would even 
work it out here that you look at this in-depth government 
wide. Obviously the law enforcement agencies are looking at it, 
but almost from a different level than you might look at it. So 
if you would look at that, I would appreciate it.
    Dr. Holdren. I will certainly do it, Mr. Chairman. I do 
want to assure you that OSTP is a full participant in the 
interagency working group on cyber security at every level from 
the working level to the deputy's level to the principals level 
in which I participate, and we do participate with the Director 
of National Intelligence and the head of the FBI and all the 
folks that you were talking about we are with them all the time 
talking about the cyber security issue, what we can do to 
increase the protection of U.S. assets and the protection of 
U.S. intellectual properties. So this is not a new issue for 
me.
    Mr. Wolf. I understand.
    Okay, do you have anything, Mr. Culberson?
    Mr. Culberson. I will submit anything else in writing, but 
just to say, if I could that just to reiterate, that the 
scientific community has no better friends in Congress than 
Chairman Wolf and this committee, and all of us work arm in 
arm. Mr. Fattah, all of us. Adam Schiff, my dear good friend 
who has a daughter about the same age as ours, in support of 
the sciences, in support of NASA, in support of planetary 
exploration. We have philosophical disagreements in certain 
areas, obviously, but we are arm in arm in our commitment to 
support, to firewall our investment in the basic sciences and 
to preserve and protect America's leadership, and the world 
requires a very strong investment by the federal government in 
fundamental scientific research, sir, and you can expect strong 
support from this committee in that effort.
    Dr. Holdren. Well, I thank you very much for that, 
Congressman Culberson, I appreciate it, I know it has been true 
in the past, and I see that it is going to be true going 
forward and it is greatly appreciated by me and by the 
Administration.
    Mr. Wolf. In closing to follow up with what Mr. Culberson 
said, I had an event a while back that Norm Augustine 
attended--you know Norm Augustine. He made a comment that the 
16th century was the Spanish century. Spain is a great country, 
but it is no longer the dominant power. He said the 17th 
century was the French century, and we used the French to help 
us at Yorktown. They are no longer the dominant power. He said 
the 19th century was the British century. The 20th century, he 
said, was the American century. And then he left a question out 
there--will the 21st century be the American century or the 
Chinese century?
    Not a question, but following up on what Norm Augustine 
said, I want the 21st century to be the American century, and 
we want to work with you to make sure that it is.
    And also on the whole issue of China, I am going to take 
you at your word. We are not swearing people in under oath 
here, but if there is any activity that you are doing with 
China where you may think you are okay, I may not. Please call 
the Committee and tell us. Do I have your word?
    Dr. Holdren. Yes.
    Mr. Wolf. Okay, good, the stenographer can't pick up a nod 
of the head.
    Dr. Holdren. Yes, Mr. Chairman.
    Mr. Wolf. Okay. Then the meeting is adjourned.
    Dr. Holdren. And thank you.
    Mr. Wolf. Thank you very much. Thanks.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 INDEX

                              ----------                              

             National Aeronautics and Space Administration
          Maj. Gen. Charles F. Bolden, Jr., NASA Administrator

                                                                   Page
Administrator Bolden's accomplishments........................... 23-24
Aeronautics...................................................... 64-66
Alpha Magnetic Spectrometer......................................    88
Astronaut corps..................................................    87
China:
    cooperation with............................................. 54-56
    cyber attacks................................................    55
     space program............................................... 26-27
Commercial spaceflight.................................30-31, 39-40, 58
Conflict between prior appropriations bills and the authori28-29, 75-76
Constellation spending under the CR..............................    57
Contract cost for seats on Soyuz.................................    59
Contracting practices............................................ 66-69
Cost and schedule estimates...................................... 50-52
Crew time for research........................................... 61-64
DESDynI Radar Satellite.......................................... 41-42
Duplication among federal agencies............................... 20-22
Duplication in climate change programs........................... 44-46
Educational benefits............................................. 88-89
Europa........................................................... 85-87
Glenn Research Center and Plumb Brook Station.................... 43-44
Human-like robots................................................    71
Implementation of funding cuts proposed by the House............. 31-32
Implementing the authorization under the budget request.......... 24-25
Infrastructure planning.......................................... 49-50
International partnerships....................................... 33-35
Justification for spending money on NASA......................... 46-48
Leveraging private investment.................................... 40-41
Matching NASA's missions with its budget......................... 19-20
Math and science education....................................... 37-38
Modification of current contracts................................ 42-43
Multi-Purpose Crew Vehicle....................................... 56-57
NASA's:
    compensation for loss of Columbia............................    27
    funding challenges prior to the authorization................    27
    implementation of decadal surveys............................ 76-85
    long term goals.............................................. 48-49
     long term planning.......................................... 73-75
     overall mission and vision.................................. 36-37
Near-Earth objects...............................................    54
New exploration program.......................................... 22-23
Ninety-day progress report.......................................    23
Opening Statement:
     Administrator Bolden........................................  4-18
    Chairman Wolf................................................   1-3
    Ranking Member Fattah........................................   3-4
Orion program....................................................    75
Planetary science................................................ 38-39
Questions for the record:
    Mr. Aderholt................................................129-137
    Mr. Culberson...............................................138-141
    Mr. Fattah..................................................119-128
    Mr. Wolf.....................................................90-118
Science, technology, engineering and mathematics................. 53-54
Shuttle display sites............................................ 34-36
Shuttle transition............................................... 52-53
Soyuz contraction extension date.................................    59
Space station.................................................... 69-71
Space station support............................................ 60-61
Space technology.................................................    41
Superiority in space............................................. 71-73
Test flight of Space Launch System............................... 29-30

                      National Science Foundation
                       Dr. Subra Suresh, Director

Arecibo Observatory.............................................172-173
Award oversight........................................191-192, 192-193
Communicating results of new investments........................163-165
Cybersecurity...................................................168-196
Deficit reduction...............................................176-178
GAO study on teacher training programs..........................190-191
Hispanic-serving institutions....................................   175
Icebreaking services............................................194-195
Impact of continuing resolution..................................   157
Increased funding for graduate research fellowship program......157-158
International competitiveness in scientific discovery...........159-162
K-12 STEM education:
    communications strategy.....................................166-167
    education report...................................165-166, 197-200
    education report, roll out of...............................202-204
    effects of reducing.........................................175-176
    maintaining student interest in.............................167-168
    support for..................................................   189
Merit review pilot project......................................200-201
Minority-serving institutions....................................   174
Neurosciene.....................................................178-181
NSF:
    contracting..................................................   197
    Department of Education, collaboration with..................   190
    focusing on NSF's mission...................................201-202
    international offices........................................   168
    space lease.................................................169-172
    travel funds................................................195-196
Opening remarks:
    Director Suresh.............................................145-156
    Ranking Member Fattah.......................................144-145
    Vice Chairman Bonner........................................143-144
Potential duplication between government programs...............162-163
Program terminations............................................158-159
Protecting scientific intellectual property.....................183-188
Questions for the record:
    Mr. Aderholt................................................216-217
    Mr. Bonner...................................................   218
    Mr. Fattah..................................................219-227
    Mr. Honda...................................................228-229
    Mr. Serrano.................................................230-231
    Mr. Wolf....................................................205-215
Scientific data dissemination...................................181-183
STEM workforce, broadening participation in.....................173-174
Use of hyperbaric chambers.......................................   183

          White House Office of Science and Technology Policy
                     Dr. John P. Holdren, Director

Atmospheric emissions and environmental controls................301-303
Competition from China..........................................256-263
Compliance with China language from fiscal year 2011...255-256, 268-273
Cybersecurity at OSTP...........................................313-315
Earth science programs, duplication of...........................   311
International travel............................................250-255
Making sufficient increases in science spending.................263-265
Meeting goals for basic research spending.......................312-313
NASA's fiscal year 2010 budget logistics........................277-278
NASA's heavy lift launch capabilities, developing...............279-282
National capability gap in human space flight and weather data..285-292
NOAA severe weather predictions and warnings....................284-285
Opening statement:
    Mr. Wolf.....................................................   233
    Mr. Fattah..................................................233-234
    Dr. Holdren.................................................234-249
OSTP fiscal year 2012 budget request............................311-312
Population control..............................................303-304
Questions for the record:
    Mr. Wolf....................................................316-328
    Mr. Culberson................................................   336
    Mr. Graves..................................................337-339
    Mr. Fattah..................................................329-335
Rare earth elements, control of.................................293-300
Scientific and technical challenges.............................267-268
Social issues, addressing through science.......................300-301
STEM education:
    At the terminal degree level................................265-267
    Best practices..............................................309-311
    Coordination of programs....................................304-309
    Inspiring interest in.......................................274-277
Supporting large research facilities and infrastructures........273-274
Tornado development and prediction research.....................282-284
Tsunamis and disaster planning...................................   311

                                  <all>

</pre></body></html>
